<html>
<title> - PRICING AND TECHNOLOGY STRATEGIES TO ADDRESS CONGESTION ON AND FINANCING OF AMERICA'S ROADS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                  PRICING AND TECHNOLOGY STRATEGIES TO
         ADDRESS CONGESTION ON AND FINANCING OF AMERICA'S ROADS

=======================================================================

                                (116-30)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 11, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-825 PDF             WASHINGTON : 2020                              
                             
                             


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  


                  Subcommittee on Highways and Transit

           ELEANOR HOLMES NORTON, District of Columbia, Chair

EDDIE BERNICE JOHNSON, Texas         RODNEY DAVIS, Illinois
STEVE COHEN, Tennessee               DON YOUNG, Alaska
JOHN GARAMENDI, California           ERIC A. ``RICK'' CRAWFORD, 
HENRY C. ``HANK'' JOHNSON, Jr.,      Arkansas
Georgia                              BOB GIBBS, Ohio
JARED HUFFMAN, California            DANIEL WEBSTER, Florida
JULIA BROWNLEY, California           THOMAS MASSIE, Kentucky
FREDERICA S. WILSON, Florida         MARK MEADOWS, North Carolina
ALAN S. LOWENTHAL, California        ROB WOODALL, Georgia
MARK DeSAULNIER, California          JOHN KATKO, New York
SALUD O. CARBAJAL, California        BRIAN BABIN, Texas
ANTHONY G. BROWN, Maryland           DAVID ROUZER, North Carolina
ADRIANO ESPAILLAT, New York          MIKE BOST, Illinois
TOM MALINOWSKI, New Jersey           DOUG LaMALFA, California
GREG STANTON, Arizona                BRUCE WESTERMAN, Arkansas
COLIN Z. ALLRED, Texas               LLOYD SMUCKER, Pennsylvania
SHARICE DAVIDS, Kansas               PAUL MITCHELL, Michigan
ABBY FINKENAUER, Iowa, Vice Chair    MIKE GALLAGHER, Wisconsin
JESUS G. ``CHUY'' GARCIA, Illinois   GARY J. PALMER, Alabama
ANTONIO DELGADO, New York            BRIAN K. FITZPATRICK, Pennsylvania
CHRIS PAPPAS, New Hampshire          TROY BALDERSON, Ohio
ANGIE CRAIG, Minnesota               ROSS SPANO, Florida
HARLEY ROUDA, California             PETE STAUBER, Minnesota
GRACE F. NAPOLITANO, California      CAROL D. MILLER, West Virginia
ALBIO SIRES, New Jersey              GREG PENCE, Indiana
SEAN PATRICK MALONEY, New York       SAM GRAVES, Missouri (Ex Officio)
DONALD M. PAYNE, Jr., New Jersey
DANIEL LIPINSKI, Illinois
DINA TITUS, Nevada
STACEY E. PLASKETT, Virgin Islands
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia, and Chairwoman, Subcommittee on Highways 
  and Transit:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Rodney Davis, a Representative in Congress from the State of 
  Illinois, and Ranking Member, Subcommittee on Highways and 
  Transit:

    Opening statement............................................     3
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     7
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................   105

                               WITNESSES

Hon. Oliver Gilbert III, Mayor, City of Miami Gardens, and 
  Chairman, Miami-Dade Transportation Planning Organization:

    Oral statement...............................................     9
    Prepared statement...........................................    11
Travis Brouwer, Assistant Director for Public Affairs, Oregon 
  Department of Transportation:

    Oral statement...............................................    18
    Prepared statement...........................................    20
Tilly Chang, Executive Director, San Francisco County 
  Transportation Authority, on behalf of the Intelligent 
  Transportation Society of America:

    Oral statement...............................................    25
    Prepared statement...........................................    27
Darren D. Hawkins, Chief Executive Officer, YRC Worldwide Inc., 
  on behalf of the American Trucking Associations:

    Oral statement...............................................    36
    Prepared statement...........................................    38
Timothy J. Lomax, Ph.D., P.E., Regents Fellow, Texas A&M 
  Transportation Institute:

    Oral statement...............................................    54
    Prepared statement...........................................    55
Marc Scribner, Senior Fellow, Competitive Enterprise Institute:

    Oral statement...............................................    64
    Prepared statement...........................................    66

                       SUBMISSIONS FOR THE RECORD

Letter of September 10, 2019, from Charlie Kiefer, Director of 
  Membership and Operations, Alliance for Toll-Free Interstates, 
  Submitted for the Record by Hon. Peter A. DeFazio..............   105
Statement of Matthew Ginsberg, D.Phil., CEO, Connected Signals, 
  Inc., Submitted for the Record by Hon. Peter A. DeFazio........   107
Statement of International Bridge, Tunnel and Turnpike 
  Association, Submitted for the Record by Hon. Eleanor Holmes 
  Norton.........................................................   110
Letter of September 11, 2019, from Michael W. Johnson, President 
  and CEO, National Stone, Sand and Gravel Association, Submitted 
  for the Record by Hon. Sam Graves..............................   114
Letter of September 10, 2019, from Todd Spencer, President and 
  CEO, Owner-Operator Independent Drivers Association, Inc., 
  Submitted for the Record by Hon. Sam Graves....................   115
Letter of March 26, 2019, from Hon. John Cornyn, U.S. Senator 
  from the State of Texas, et al., Submitted for the Record by 
  Hon. Brian Babin...............................................    90
Letter of February 27, 2019, from J. Bruce Bugg, Jr., Chairman, 
  Texas Transportation Commission, Submitted for the Record by 
  Hon. Brian Babin...............................................   116

                                APPENDIX

Question from Hon. Troy Balderson to Hon. Oliver Gilbert III, 
  Mayor, City of Miami Gardens, and Chairman, Miami-Dade 
  Transportation Planning Organization...........................   121
Questions from Hon. Salud O. Carbajal to Travis Brouwer, 
  Assistant Director for Public Affairs, Oregon Department of 
  Transportation.................................................   121
Questions from Hon. Troy Balderson to Travis Brouwer, Assistant 
  Director for Public Affairs, Oregon Department of 
  Transportation.................................................   123
Questions from Hon. Salud O. Carbajal to Tilly Chang, Executive 
  Director, San Francisco County Transportation Authority, on 
  behalf of the Intelligent Transportation Society of America....   124
Question from Hon. Troy Balderson to Tilly Chang, Executive 
  Director, San Francisco County Transportation Authority, on 
  behalf of the Intelligent Transportation Society of America....   126
Questions from Hon. Peter A. DeFazio to Darren D. Hawkins, Chief 
  Executive Officer, YRC Worldwide Inc., on behalf of the 
  American Trucking Associations.................................   128
Question from Hon. Greg Stanton to Darren D. Hawkins, Chief 
  Executive Officer, YRC Worldwide Inc., on behalf of the 
  American Trucking Associations.................................   129
Questions from Hon. Troy Balderson to Darren D. Hawkins, Chief 
  Executive Officer, YRC Worldwide Inc., on behalf of the 
  American Trucking Associations.................................   129
Questions from Hon. Troy Balderson to Marc Scribner, Senior 
  Fellow, Competitive Enterprise Institute.......................   130
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           September 6, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Highways and Transit
    FROM:   Staff, Subcommittee on Highways and Transit
    RE:       Subcommittee Hearing on ``Pricing and Technology 
Strategies to Address Congestion on and Financing of America's 
Roads''

                                PURPOSE

    The Subcommittee on Highways and Transit will meet on 
Wednesday, September 11, 2019, at 10:00 a.m. in 2167 Rayburn 
House Office Building to receive testimony related to ``Pricing 
and Technology Strategies to Address Congestion on and 
Financing of America's Roads.'' The purpose of this hearing is 
to: evaluate current Federal policies on tolling and demand 
management; discuss examples of tolling and pricing strategies 
pursued by States and cities to address congestion and revenue 
gaps for surface transportation projects; and examine how new 
technologies may impact congestion. The Subcommittee will hear 
from representatives from the Miami-Dade Transportation 
Planning Organization, the Oregon Department of Transportation, 
the Intelligent Transportation Society of America, the American 
Trucking Associations, the Texas A&M Transportation Institute, 
and the Competitive Enterprise Institute.

                               BACKGROUND

SURFACE TRANSPORTATION FUNDING: HIGHWAY TRUST FUND

    Federal surface transportation investments are funded 
through Federal excise taxes levied on motor fuels and on 
related products such as certain tires, which are deposited 
into the Highway Trust Fund (HTF). Congress has not adjusted 
the motor fuel excise taxes since 1993, and the purchasing 
power of these taxes have fallen over 40 percent in the last 25 
years. Improved vehicle fuel efficiency has further eroded 
Federal revenues. The Congressional Budget Office (CBO) 
estimates that over the next 10 years, the HTF will fall $171 
billion short based on continuing currently-authorized highway, 
transit, and safety programs levels. An additional $5 billion 
is necessary to ensure that there is a prudent balance in the 
HTF, which brings the shortfall to $176 billion. This does not 
include any higher investment levels to meet growing surface 
transportation needs.

TOLLING

    Title 23, United States Code, includes a general 
prohibition on the imposition of tolls on Federal-aid highways, 
including the Interstate System. Congress has grandfathered in 
certain tolled highways as part of the Interstate system, and 
over the years has enacted exceptions to the general 
prohibition. There are currently two general Federal tolling 
programs and two pilot programs, which offer States or local 
public agencies opportunities to use tolling to generate 
revenue for highway construction and implement priced managed 
lanes on Federal-aid highways. States are free to impose tolls, 
subject to State laws, on any public roads not eligible for 
Federal assistance.

GENERAL TOLLING PROGRAMS

    States may utilize tolling authority under the two general 
Federal tolling programs, codified in Sections 129 and 166 of 
Title 23, on eligible projects. However, there are restrictions 
on how toll revenues can be used, and annual audits are 
required to ensure compliance with these restrictions.
    Section 129 of Title 23 allows public agencies to impose 
new tolls on Federal-aid highways in the following cases:
    <bullet>  Initial construction of a new highway, bridge, or 
tunnel;
    <bullet>  Initial construction of new lanes on highways, 
bridges, and tunnels (including Interstates), as long as the 
number of toll-free lanes is not reduced;
    <bullet>  Reconstruction or replacement of a bridge or 
tunnel;
    <bullet>  Reconstruction of a highway (other than an 
Interstate);
    <bullet>  Reconstruction, restoration, or rehabilitation of 
an Interstate highway, as long as the number of toll-free lanes 
is not reduced.

    Section 166 of Title 23 authorizes States and local public 
agencies to allow toll-paying vehicles that do not meet minimum 
occupancy standards to use high-occupancy vehicle (HOV) lanes, 
including on the Interstate. These lanes are commonly referred 
to as high occupancy toll (HOT) lanes. Section 166 establishes 
requirements for tolls charged to these vehicles, including 
that the tolls must be variably priced in order to manage 
travel demand and collected automatically. To implement tolls 
on an existing HOV facility, States and local public agencies 
must demonstrate that the conditions on the facility are not 
already degraded and that the presence of paying vehicles will 
not cause the facility to become degraded. If the HOV facility 
becomes degraded, the State or local public agency is required 
to develop a plan details the actions it will take in order to 
bring the facility into compliance. The plan is subject to the 
approval of the Secretary of Transportation. The actions can 
include: increasing HOV occupancy requirements; increasing 
tolls; increasing capacity of the facility; or eliminating 
access to paying vehicles. Additionally, existing HOV lanes may 
be converted to tolled facilities under Section 129 of Title 
23.

TOLL PILOT PROGRAMS

    In addition to general tolling authority, Congress has 
enacted tolling exceptions under pilot programs with a limited 
number of slots, as discussed below. A project sponsor is 
required to submit an application and to execute a toll 
agreement with the Federal Highway Administration (FHWA) in 
order to impose tolls under these programs.
    The Interstate System Reconstruction and Rehabilitation 
Pilot Program (ISRRPP) was authorized in 1998 under the 
Transportation Equity Act for the 21st Century (TEA-21; P.L. 
105-178), to permit up to three existing Interstate facilities, 
which must be in different States, to be tolled in order to 
fund reconstruction or rehabilitation on Interstate corridors 
that could not otherwise be adequately maintained or 
functionally improved without the collection of tolls. For 
years, all three slots for this program were reserved for 
projects in Missouri (I-70), Virginia (I-95), and North 
Carolina (I-95) to allow the States to develop a complete 
application for the program. However, none of these States 
submitted final applications under this program. In 2015, 
Section 1411 of the Fixing America's Surface Transportation Act 
modified the ISRRPP by establishing timeframes under which 
States must complete an application. Any State receiving 
provisional approval to participate in the ISRRPP now has three 
years from the date of that approval to fully satisfy the 
program criteria, complete environmental review, and execute a 
toll agreement with the FHWA. FHWA can extend this timeframe 
for up to one additional year if the State demonstrates 
material progress toward implementing its pilot project.
    The Value Pricing Pilot Program (VPPP), initially 
authorized in 1991 under the Intermodal Surface Transportation 
Efficiency Act (ISTEA; P.L. 102-240), is an experimental 
program designed to assess the potential of different value 
pricing approaches for reducing congestion. Under this program, 
tolls may be imposed on existing toll-free highways, bridges, 
and tunnels, so long as variable pricing is used to manage 
demand. Congress has authorized 15 slots for the program, which 
are allocated to State, local agencies, or public authorities. 
Once an entity holds a slot, there is no limit on the number of 
value pricing projects that can be implemented under that slot. 
Section 1216 of the Transportation Equity Act for the 21st 
Century (TEA-21) further required a project under the VPPP to 
include an analysis of the effects of value pricing projects on 
low-income drivers and permits the inclusion of measures to 
mitigate the adverse effects of tolls on those drivers. The 
VPPP requires the Secretary of Transportation to monitor the 
projects for at least 10 years and submit biennial reports to 
Congress. Slots may become available in the future as entities 
complete their projects. Since 2012, Congress has not 
authorized any additional funding for the VPPP, but FHWA 
continues to manage the completion of all active projects and 
can still provide tolling authority to State, local agencies, 
or public authorities through an available slot.

USE OF TOLL REVENUE

    Federal general tolling programs and tolling pilot programs 
come with restrictions on the use of toll revenues.
    Under the general tolling programs (Sections 129 and 166, 
Title 23), toll revenue may be used: for debt service; to 
provide a reasonable return on investment to any private party 
financing a project; for improvements to and the operations and 
maintenance of the toll facility; and payments between public 
and private partners involved in a public-private partnership. 
If the public authority with responsibility for the toll 
facility certifies that the facility is being adequately 
maintained, then toll revenues may also be used for other 
purposes eligible under Title 23, such as a bridge or public 
transit project.
    The ISRRPP includes similar restrictions, but it does not 
allow toll revenues to be used on other projects eligible under 
Title 23, whereas the VPPP allows toll revenues to be used on 
projects eligible under Title 23.
    All facilities tolled under Section 129, Section 166, and 
the ISRRPP tolling programs are required to undergo annual 
audits to ensure compliance with these limitations and, if it 
is determined that the project sponsor is not in compliance, 
FHWA may require that toll collection on the facility be 
discontinued until an agreement is reached to achieve 
compliance.

PREVALENCE OF TOLLING

    According to FHWA data, in 2017, there were approximately 
6,000 toll roads in the United States, representing a small 
fraction (3.5 percent) of the 164,000-mile National Highway 
System. Toll bridge, tunnel, and road miles are split roughly 
evenly between on the Interstate system (3,495 miles) and off 
the Interstate (2,503 miles); and in rural areas (2,728 miles) 
and in urban areas (3,457 miles).\1\ In 2016, States collected 
$14.5 billion in toll revenue,\2\ which accounts for 
approximately seven percent of State and local contributions to 
highway spending.
---------------------------------------------------------------------------
    \1\ FHWA, Toll Facilities in the United States, March 2018.
    \2\ FHWA Highway Statistics 2016.
---------------------------------------------------------------------------
    According to the National Council of State Legislators, at 
least 35 states currently have some type of toll facility, such 
as a traditional toll road, bridge, or tunnel, or a price-
managed lane.\3\ States typically pursue tolling strategies as 
a means to raise revenue for surface transportation, and the 
interest among States and local governments to institute tolls 
has increased as highway and transit investment needs grow. 
Since 2013, at least 36 states have considered more than 550 
bills related to tolling.\4\
---------------------------------------------------------------------------
    \3\ http://www.ncsl.org/Portals/1/Documents/transportation/
P3_State_Statutes.pdf
    \4\ http://www.ncsl.org/blog/2018/10/24/a-tolling-revolution-or-
just-a-loose-change.aspx
---------------------------------------------------------------------------
    For example, in 2016, the Rhode Island General Assembly 
enacted legislation to establish the RhodeWorks program, with 
the stated goal of bringing the State's roads and bridges into 
a state of good repair by 2025. A bridge tolling program was 
included in this legislation. This program imposes tolls on 
large trucks in 12 locations across the State. Each of the toll 
locations is paired with a bridge or bridge group that is being 
repaired or replaced, which makes the tolling allowable under 
Federal law. Last year, the State instituted tolls at two 
locations on Interstate 95 near the Connecticut border, with 10 
additional locations planned in the future; some on the 
Interstate. The budget for the RhodeWorks program is $4.9 
billion over ten years, but only about one tenth of that amount 
will be generated by tolls. Once the Rhode Island Department of 
Transportation (RIDOT) demonstrates that the tolled Interstate 
bridges are adequately maintained, the State can use toll 
revenues on other Title 23 eligible projects. The trucking 
industry opposes the program, arguing that in the already 
congested--and heavily tolled--Northeast Corridor, additional 
truck-only tolls will impose significant business costs.

CONGESTION

    The poor condition of our surface transportation network 
has contributed to, and is exacerbated by, congestion on the 
Nation's roads. The U.S. Department of Transportation's (DOT) 
latest Conditions & Performance Report \5\ documents that all 
levels of government need to invest approximately $143 billion 
per year to improve the conditions and performance of our roads 
and bridges--$37 billion less than we currently invest 
annually. DOT also estimates that the cost to bring rail and 
bus transit systems into a state of good repair is $90 billion, 
and $26.4 billion per year would need to be invested to 
accommodate the high-growth scenario of future ridership. This 
equates to approximately $9.5 billion more per year at all 
levels of government needed for transit capital investments.
---------------------------------------------------------------------------
    \5\ FHWA, ``2015 Status of the Nation's Highways, Bridges, and 
Transit: Conditions & Performance,'' https://www.fhwa.dot.gov/policy/
2015cpr/.
---------------------------------------------------------------------------
    Congestion costs consumers time and money. Globally, three 
of the top 25 most congested cities in the world are in the 
United States, according to INRIX.\6\ According to the 2019 
Urban Mobility Report (Report) by the Texas A&M Transportation 
Institute (TTI), Americans lost a total of 8.8 billion hours 
due to congestion \7\ with the average commuter spending 54 
hours in traffic in 2017. The Report further found that in 
2017, the annual cost of congestion rose to $166 billion, and 
Americans wasted 3.3 billion gallons of fuel in traffic; and 
the average commuter incurred an extra $1,010 in costs due to 
wasted time and fuel from traffic congestion. The Report also 
found that while hours of delay for commuters in cities over 
one million people have nearly tripled since 1982, small cities 
(less than 500,000 people) have fared even worse, with average 
hours of delay quadrupling over that time.
---------------------------------------------------------------------------
    \6\ ``Global Traffic Scorecard.'' INRIX Research, Feb. 2019. http:/
/inrix.com/scorecard
    \7\ ``2019 Urban Mobility Report.'' Texas A&M Transportation 
Institute, Aug. 2019. https://static.tti.tamu.edu/tti.tamu.edu/
documents/mobility-report-2019.pdf.
---------------------------------------------------------------------------

EXHIBIT 4. CONGESTION GROWTH TREND--HOURS OF DELAY PER AUTO COMMUTER

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Small = less than 500,000; Medium = 500,000 to 1 million; Large = 1 
                         million to 3 million;
                    Very Large = more than 3 million

    Traffic congestion also has a direct effect on businesses 
and the economy. The TTI Report found that 33 percent of 
traffic delays occur mid-day and overnight; in order to account 
for unpredictable travel times caused by congestion, travelers 
and shippers had to add nearly 70 percent more travel time in 
2017. Congestion cost the trucking industry $74.5 billion in 
2017, $68.1 billion of which occurred in dense urban areas.\8\ 
The cost of congestion for truckers grew by 40 percent between 
2012 and 2017, compared to a 14 percent increase in congestion 
costs for non-commercial drivers. The U.S. Travel Association 
reports that Americans avoided an estimated 47.5 million 
automobile trips due to highway congestion in 2018, which would 
have generated $30 billion in economic activity and created 
248,000 jobs.\9\ TTI predicts that congestion will grow to an 
annual cost of $200 billion in 2025, and the average commuter 
will waste 62 hours and 23 gallons of fuel in traffic by that 
year.\10\
---------------------------------------------------------------------------
    \8\ ``Cost of Congestion to the Trucking Industry.'' American 
Transportation Research Institute, Oct. 2018. https://atri-online.org/
wp-content/uploads/2018/10/ATRI-Cost-of-Congestion-to-the-Trucking-
Industry-2018-Update-10-2018.pdf.
    \9\ ``Infrastructure/Road Congestion Economic Impact Study and 
Survey.'' U.S. Travel Association, May 2019. https://www.ustravel.org/
sites/default/files/media_root/Congestion_Survey%20%281%29.pdf.
    \10\ ``2019 Urban Mobility Report.'' Texas A&M Transportation 
Institute, Aug. 2019. Page 12. https://static.tti.tamu.edu/
tti.tamu.edu/documents/mobility-report-2019.pdf.
---------------------------------------------------------------------------

MITIGATING CONGESTION WITH TECHNOLOGY

    According to a report by Cambridge Systematics, traffic 
congestion is generally a result of seven sources, that often 
interact with one and other: bottlenecks, weather, traffic 
incidents, works zones, traffic control devices, special 
events, and the number of vehicles on a roadway at any given 
time.\11\ Current efforts to leverage technology to alleviate 
congestion are successful when they target one or more causes 
of congestion. Examples of technological solutions to combat 
congestion include ramp metering, signal coordination, 
reversible lanes, electronic signage and improved public 
transit.
---------------------------------------------------------------------------
    \11\ Traffic Congestion and Reliability Trends and Advanced 
Strategies for Congestion Mitigation prepared for Federal Highway 
Administration prepared by Cambridge Systematics, Inc. with Texas 
Transportation Institute. Page 2-1. https://ops.fhwa.dot.gov/
congestion_report/congestion_report_05.pdf.
---------------------------------------------------------------------------
    Yet, as the population rises and the economy adds jobs, the 
additional vehicles on the road and the corresponding 
additional miles traveled will further increase congestion. At 
the same time, the transportation network has absorbed the 
introduction of technology solutions that seek to improve 
mobility. The impact that these new mobility options will have 
on congestion remains to be seen. Examples of technology 
solutions include:
    <bullet>  Transportation Network Companies (TNCs), such as 
Uber and Lyft, which use private vehicles and app-based 
technologies to link drivers to passengers for both single 
passenger trips and pooled trips.
    <bullet>  Autonomous Vehicles, while not ready for mass 
dissemination yet, use on-board systems (ex: radar and lidar) 
to drive the vehicle and eliminate the risk of crashes caused 
by driver behavior.
    <bullet>  Connected Vehicles, hindered by the debate over 
who gets to access the 5.9GHz spectrum, will communicate with 
other vehicles and highway infrastructure, such as traffic 
lights, to share speed, direction, intention, and other 
information, thereby improving highway safety.
    <bullet>  Mobility on Demand (MOD) is defined as an 
innovative, consumer-focused approach which leverages emerging 
mobility services, integrated transit networks, real-time data, 
connected travelers, and cooperative intelligent transportation 
systems (ITS) to allow for a more traveler-centric 
transportation system, providing improved mobility options to 
all users of the system in an efficient and safe manner.\12\ In 
practice, MOD is usually accessed via a smart phone app that 
provides consumers with easy access to multiple shared travel 
options based on availability, price point and convenience 
level. MOD apps can provide integrated trip planning and 
booking, real-time information, and a single fare payment. 
Transportation options facilitated through MOD providers may 
include: carshare, bikeshare, rideshare, transportation network 
companies (TNCs), scooter sharing, microtransit, shuttle 
services, public transportation, and others. MOD can provide 
real opportunities to develop a system of mobility choices, 
integrated with traditional transportation options, that can 
meet the needs of diverse users.
---------------------------------------------------------------------------
    \12\ https://www.its.dot.gov/factsheets/pdf/MobilityonDemand.pdf.
---------------------------------------------------------------------------
    <bullet>  Smart traffic lights and priority signaling 
technology can reduce wait times at traffic lights to improve 
efficiency. Priority signaling gives buses more time to get 
though a traffic light, improving the frequency of public 
transit services.

    Possible impacts include scenarios that may decrease or 
increase congestion. For example, technology that makes 
information on transportation options readily available could 
help reduce congestion. Technological innovation also could 
reduce congestion by eliminating crashes and improving system 
efficiency and reducing the spacing between vehicles. On the 
other hand, AVs and TNCs could increase vehicle miles traveled 
in an already congested corridor.

MITIGATING CONGESTION WITH CONGESTION PRICING

    In response to growing congestion, numerous States and 
cities are looking to implement roadway pricing strategies as a 
means to manage demand on highway facilities, particularly in 
rush hour and other high-volume times of day. Congestion 
pricing typically takes the form of a variably-priced lane, 
such as an Express Lane or HOT Lane; a variable toll on an 
entire roadway or facility; or a cordon charge that is levied 
on drivers to enter or move within a specifically-designated 
area.
    Express Lanes and HOT lanes have been instituted in many 
regions of the country, and currently are in operation in 10 
States.\13\ These lanes, which run adjacent to a section of 
existing roadway, provide a more predictable mobility option 
for drivers who are willing and able to pay the toll.
---------------------------------------------------------------------------
    \13\ Transportation Research Board managed lanes database, https://
managedlanes.wordpress.com/2017/07/07/projects-database/.
---------------------------------------------------------------------------
    Several States have pursued fully variably-tolled roadways 
at certain times of day to address congestion. Examples of this 
include the tolls on Interstate 66 in Northern Virginia outside 
of Washington, D.C., on SR 520 in Seattle, Washington, and the 
proposed tolls on Interstate 5 in Portland, Oregon.
    New York City is the first U.S. city to pursue cordon 
pricing. In April 2019, the New York State legislature approved 
legislation to implement congestion pricing in lower Manhattan 
known as the Central Business District Tolling Program. Details 
are still being finalized, but the program envisions a charge 
to be levied for entering lower Manhattan, via the multiple 
bridges and tunnels with direct access into lower Manhattan as 
well as for vehicles heading south within Manhattan once they 
cross 60th street. The tolls will be variably priced. Exact 
tolling rates and other policies on credits and exemptions have 
not been determined but will be set by an appointed six-person 
Traffic Mobility Review Board. However, New York expects the 
program to raise about $1 billion annually. The legislation 
requires that the toll revenue be used to secure bonds totaling 
$15 billion for public transit projects as part of the 
Metropolitan Transportation Authority's capital program through 
2024. Tolls are scheduled to start no earlier than December 31, 
2020.

PUBLIC POLICY CONSIDERATIONS

    When developing and implementing pricing strategies, 
including tolling and congestion pricing, State and local 
agencies take into account other potential impacts. States, 
local agencies, and other project sponsors conduct public 
engagement and evaluate the potential impacts of a new toll or 
managed lane on surrounding communities as part of the planning 
and environmental review processes, including through traffic 
analyses which evaluate any diversion onto nearby roadways or 
neighborhoods that a new toll collection facility may create. 
Diversion off the tolled facility can both undermine the 
revenue expectations that a new toll will generate, and in the 
case of congestion pricing, can shift vehicle traffic and any 
associated congestion to a different roadway.
    Equity impacts of a new toll or congestion charge are also 
a significant consideration. In the case of the Interstate 66 
tolls in Virginia, which are dynamically priced without a cap, 
tolls for single occupancy vehicles have reached as high as 
$47.50 for a one-way trip in order to keep traffic moving \14\. 
Paying the toll provides access for a solo driver to a segment 
of I-66 that was previously only open to HOVs. The I-66 toll 
lanes are part of the Virginia Department of Transportation's 
Transform I-66, which consists of two programs focused on 
multimodal improvements inside and outside the Capital Beltway 
along the I-66 corridor in Northern Virginia. These 
improvements include new express lanes, and new and improved 
bus service and transit routes, new and expanded park and ride 
lots, and interchange improvements. The levels reached by this 
this toll illustrates that variable pricing charges deliver 
mobility by pricing a roadway at a sufficient level to manage 
and impact demand. States and localities may also consider how 
to ensure mobility options for those unable to pay the toll or 
congestion charge, how to provide alternatives to congested 
roadways, and how to pay for those transportation investments.
---------------------------------------------------------------------------
    \14\ Washington Post, ``Virginia to tweak 66 Express Lanes pricing 
to address tolls that have topped $47,'' April 30, 2018.
---------------------------------------------------------------------------

                              WITNESS LIST

    <bullet>  The Honorable Oliver Gilbert III, Mayor, City of 
Miami Gardens, and Chairman, Miami-Dade Transportation Planning 
Organization
    <bullet>  Mr. Travis Brouwer, Assistant Director for Public 
Affairs, Oregon Department of Transportation
    <bullet>  Ms. Tilly Chang, Executive Director, San 
Francisco County Transportation Authority, on behalf of the 
Intelligent Transportation Society of America
    <bullet>  Mr. Darren D. Hawkins, President and Chief 
Executive Officer, YRC Worldwide Inc., on behalf of the 
American Trucking Associations
    <bullet>  Mr. Timothy J. Lomax, Ph.D., PE, Regents Fellow, 
Texas A&M Transportation Institute
    <bullet>  Mr. Marc Scribner, Senior Fellow, Competitive 
Enterprise Institute


    PRICING AND TECHNOLOGY STRATEGIES TO ADDRESS CONGESTION ON AND 
                      FINANCING OF AMERICA'S ROADS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 11, 2019

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton (Chairwoman of the subcommittee) presiding.
    Ms. Norton. The subcommittee will come to order. I ask 
unanimous consent that the chair be authorized to declare 
recesses during today's hearing.
    Without objection, so ordered.
    I ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    I want to welcome our witnesses in particular, but all of 
you to today's hearing, as we are fast galloping toward the 
need to reauthorize the FAST Act, and our cities and localities 
are looking to us to see what we are going to do. I met this 
morning with a group here in the Congress.
    The focus generally has been on revenue, and why not, 
especially since that has been the most difficult part of what 
we have had to do. But the issues haven't waited for Congress 
to catch up on revenue, and people are asking for and indeed 
using other methods to get rid of congestion and to bring us 
into the 21st century on transportation.
    In today's hearing we are going look at some of those 
questions, the nuances of Federal tolling policy, of congestion 
pricing, of technology solutions to address congestion, and 
many other transportation needs today.
    So while Congress fiddled and failed to solve the revenue 
question, congestion has negatively affected our constituents 
as never before, not to mention the quality of air we breathe 
and the failure to deal with climate change, which was not even 
discussed at the time of the last reauthorization, to indicate 
just how far time has moved and how much Congress has to catch 
up.
    The ``Urban Mobility Report'' indicates--and you might want 
to look at what it says for your constituents--that my 
constituents pay $1,840 a year in congestion costs, and we here 
in the National Capital region are the third highest in the 
Nation. I hope yours aren't paying $1,840 per year, per 
constituent. That is what my constituents pay.
    This is nothing short of a congestion tax. And in our case 
here in this region it is the result of 248 million--that is 
``m''--million hours of congestion delays in 2017 across the 
Washington, DC, metropolitan area. I invite you all to look at 
what this means, what the ``Urban Mobility Report'' says for 
your own area.
    A Harvard School of Public Health study found that 83 
percent of the Nation's largest urban areas contributed more 
than 2,200 premature deaths annually. That is an $18 billion 
cost to the healthcare system. When it says largest urban 
areas, it really means the entire area of a big city and its 
suburbs.
    While we debate how to resolve congestion, we have left the 
States and localities looking on their own and looking for more 
sources of revenue. In today's testimony, we will hear support 
for greater tolling flexibility, enabling States and localities 
to raise more revenue. But we will also hear from others that 
Congress should erect barriers to tolling.
    This difference that is going to come out in this hearing 
is deliberate. The division you will see on the panel is 
representative of a broader disagreement on tolling policy that 
Congress will have to debate.
    Congestion pricing has become mainstream. They have HOT 
lanes springing up across many urban areas. We have variable 
rate cordon pricing, charging drivers to enter into a 
congestion area. You see what New York City has done.
    Closer to my own district here in the State of Virginia, we 
have variable tolls on all lanes on I-66 during rush hour. I 
never thought I would see what has resulted. People are paying 
it with tolls as high as $47.50 for a single 10-mile trip.
    Excessive tolls raise significant equity questions, of 
course, particularly the impact on low-income drivers, and they 
are likely to divert traffic onto nearby roads and 
neighborhoods because people are not wanting to pay $47-plus to 
get you anywhere. So we can't gloss over those impacts as we 
look at these new strategies.
    I am particularly interested in technology and how it can 
help resolve congestion. Autonomous vehicles, for example, can 
they reduce congestion or do they increase congestion when 
anybody can hop in a car and go anyplace she wants to on her 
own? We should be asking the same questions for transportation 
networks and connected vehicles.
    Finally, I think it is critical and I do not intend to 
neglect the robust transit systems we need and the role transit 
plays in reducing congestion. I cannot imagine this area, this 
National Capital region, without transit. The roads would 
simply be impossible.
    Dense urban areas rely on subway service, while rapid bus 
transit will also greatly reduce congestion, not to mention HOT 
lanes, which are becoming more and more popular.
    Some on today's panel suggest that toll revenues should 
only go to maintain the tollroad. However, I remind you that 
investing in transit and other methods to reduce vehicle-miles 
traveled is a highly effective tool to reduce congestion.
    I want to thank the witnesses for joining us today.
    [Ms. Norton's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Eleanor Holmes Norton, a Delegate in 
Congress from the District of Columbia, and Chairwoman, Subcommittee on 
                          Highways and Transit
    Welcome to today's hearing. As we prepare to reauthorize the FAST 
Act, States and cities are looking to Congress to help them tackle 
growing revenue needs and congestion woes. Today's hearing will explore 
the nuances of federal tolling policy, congestion pricing, and 
technology solutions to address congestion.
    Our constituents are reminded daily that traffic congestion is 
getting worse, negatively affecting their lives, costing them time and 
money, and lowering the quality of the air we breathe. According to the 
latest Urban Mobility Report, my constituents pay $1,840 a year in 
congestion costs, the third highest in the nation. This congestion 
``tax'' is the result of the 248 million hours of congestion delays in 
2017 across the Washington, DC metro area.
    A Harvard School of Public Health found that air pollution from 
traffic congestion in 83 of the nation's largest urban areas 
contributes to more than 2,200 premature deaths annually, costing the 
health system at least $18 billion.
    While we debate how to resolve congestion, every state and locality 
is also looking for more sources of revenue. Today, in testimony, we 
will hear support for greater tolling flexibility, enabling states and 
localities to raise more revenue; and conversely, we will also hear 
that Congress should erect more barriers to tolling. This division on 
the panel is representative of a broader disagreement on tolling policy 
that Congress will have to debate.
    Congestion pricing strategies have become mainstream, with HOT 
lanes springing up across many urban areas. Variable rate cordon 
pricing charges drivers to enter into a congested area, and is, 
currently being pursued by New York City. Closer to my district, the 
State of Virginia instituted variable tolls on all lanes of I-66 at 
rush hour, which have reached as high as $47.50 for a single, 10-mile 
trip.
    Excessive tolls raise significant equity questions, particularly 
the impacts on low-income drivers, and are more likely to divert 
traffic onto nearby roads and neighborhoods. I believe we need to take 
a hard look at current tolling and congestion pricing strategies, to 
ensure that States and local governments do not gloss over these 
impacts on Federal-aid roads.
    I would also like to hear from our witnesses how technology can 
help resolve congestion, and their thoughts on the impacts of 
autonomous vehicles. Will AVs reduce congestion or increase congestion? 
We should be asking the same questions for transportation network 
companies (TNCs) and connected vehicles.
    Finally, I think it's critically important to highlight that robust 
transit service plays a major role in reducing congestion in urban 
areas. Dense urban areas rely on subway service, while bus rapid 
transit can greatly reduce congestion in outlying areas. Express buses 
on HOT lanes can also play a critical role in ensuring everyone has 
affordable access to toll lanes. Some on today's panel suggest that 
toll revenues should only go to maintain the toll road. I remind you 
that investing in transit and other methods to reduce vehicle miles 
travelled is a highly effective tool to reduce congestion for roadway 
users.
    I thank our witnesses for joining us today and look forward to your 
remarks.

    Ms. Norton. And I want to ask the chairman of our full 
committee, Mr. DeFazio--oh, excuse me. I should ask the ranking 
member--how could I possibly not move to my left?--my good 
friend, Mr. Davis, for his comments.
    Mr. Davis. Thank you, Madam Chair.
    I mean, in honor, especially if we get some policies, if we 
move forward, I would always yield to the chairman first, if 
that helps us.
    Mr. DeFazio. I want you to wake everybody up.
    Mr. Davis. You want me to wake everyone up? All right. I 
can do that.
    Ms. Norton. Which means I put them to sleep.
    Mr. Davis. Clearly, Madam Chair, it was not me who alluded 
to that. That was the chairman.
    In all seriousness, thank you. This is a great committee. I 
really enjoy serving with Chairwoman Norton. And this committee 
has a history of bipartisanship. We are looking for solutions 
which is why you are all here today, is to help us find those 
solutions.
    I do want to thank the witnesses and recognize that this 
subcommittee is going to continue to do our work to reauthorize 
the Federal surface transportation policies. And as part of 
this effort, as you know, you are all here. We have held a 
number of hearings, too, outside of this one on very important 
policy topics and I want to thank the chair for allowing us to 
participate in these types of gatherings because it truly does 
help us come up with solutions.
    Today, as we know, the subcommittee will focus on tools 
being utilized by State and local communities to mitigate 
congestion. Congestion can be caused by various issues, such as 
weather, traffic incidents, and, as many of you had in your 
testimony, capacity constraints.
    According to the ``2019 Urban Mobility Report,'' Americans 
traveled an extra 8.8 billion hours due to congestion and 
purchased an extra 3.3 billion gallons of fuel, leading to a 
total congestion cost of $166 billion in 2017. Dr. Lomax, who 
worked on this report, is with us today, and I look forward to 
learning more about its findings in his testimony and followup 
questions.
    As we know, congestion negatively impacts our ability to 
move products to domestic and international markets, which 
undermines our economy and America's global competitiveness. 
And congestion is not just an urban issue, although I can tell 
you, in my district in central and southwestern Illinois, my 
constituents' idea of congestion is much different than the 
idea of congestion out here in Washington, DC, or in other 
large urban areas.
    But it is perhaps most importantly, though, congestion, 
again, no matter where you are, in my district or here, it is a 
personal issue. Sitting in traffic means that there is less 
time to do the things that are most important to each of us. I 
can remember sitting in traffic. It made me late to football 
practices that I was coaching my kids' football game or 
coaching my kids' football teams or getting to a basketball 
game late to watch my daughter cheer when she was in high 
school. So these are things that are very personal to us.
    This hearing is going to specifically focus on how States 
and local communities are utilizing some of the tools in the 
toolbox: tolling, congestion pricing strategies, and new 
technologies to address congestion. Our witnesses will provide 
us with real-world examples of how these tools are all being 
deployed, as well as give us their perspective on whether or 
not these tools are working well.
    There are other tools to address congestion beyond those 
that are the focus of today's hearing. If we are going to 
tackle congestion, we need a thoughtful approach that provides 
State and local communities with the flexibility to do what 
makes sense, given their unique circumstances, because no 
single solution is going to work here in Washington, DC, and at 
the same time work in the 13th Congressional District of 
Illinois where I am blessed to serve.
    I look forward to our discussion on this important issue 
and learning more about how the Federal Government can be a 
good partner to States and local communities as they seek to 
address congestion.
    And with that, again, thank you to our witnesses. Thank you 
to Chairwoman Norton. And thank you to Chairman DeFazio for 
being here at this important hearing today.
    And I yield back.
    [Mr. Davis' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
    from the State of Illinois, and Ranking Member, Subcommittee on 
                          Highways and Transit
    The Subcommittee is continuing our work to reauthorize federal 
surface transportation programs and policies. As part of that effort, 
we have held a number of hearings on important policy topics.
    Today, the Subcommittee will focus on some of the tools being 
utilized by state and local communities to mitigate congestion. 
Congestion can be caused by various issues, such as weather, traffic 
incidents, and capacity constraints.
    According to the 2019 Urban Mobility Report, Americans traveled an 
extra 8.8 billion hours due to congestion and purchased an extra 3.3 
billion gallons of fuel, leading to a total congestion cost of $166 
billion in 2017. Dr. Lomax, who worked on this report, is with us 
today, and I look forward to learning more about its findings as part 
of his testimony.
    Congestion negatively impacts our ability to move products to 
domestic and international markets, which undermines our economy and 
global competitiveness.
    Congestion is also not just an urban issue. Congestion can and does 
happen everywhere, in our small towns and in our large cities.
    Perhaps, most importantly, congestion is a personal issue. Sitting 
in traffic means that there is less time to do the things that are 
important to each of us--spending time with our families and friends or 
watching our children play sports, like my twin boys when they played 
high school football or my daughter when she was a cheerleader.
    This hearing will specifically focus on how states and local 
communities are utilizing some of the tools in the toolbox--tolling, 
congestion pricing strategies, and new technologies--to address 
congestion. Our witnesses will provide us with real-world examples of 
how these tools are being deployed, as well as give us their 
perspective on whether or not these tools are working well.
    There are other tools to address congestion beyond those that are 
the focus of today's hearing. If we are going to tackle congestion, we 
need a thoughtful approach that provides states and local communities 
with the flexibility to do what makes sense given their unique 
circumstances, because no single solution is going to work everywhere.
    I look forward to our discussion on this important issue and 
learning more about how the Federal government can be a good partner to 
states and local communities as they seek to address congestion.

    Ms. Norton. I appreciate your remarks, Mr. Davis.
    Now it is your turn, the chairman of our full committee, 
Mr. DeFazio.
    Mr. DeFazio. Thanks, Madam Chair.
    You have both made points that Congress needs to pay 
attention to. I mean, the costs of congestion on an annual 
basis are nearly four times our Federal investment in surface 
transportation and transit. Just think about that. We are 
wasting nearly four times as much money as we are investing on 
an annual basis year after year after year.
    But around here we are paralyzed. My God, we can't figure 
out how are we going to pay for this. How are you ever going to 
pay for this?
    Oh, let's see. We haven't adjusted the gas and diesel tax 
since 1993. I have proposed something that is so de minimus 
that it is just embarrassing that we can't do it. Let's just 
index the gas and diesel tax and do some bonding and limit the 
annual increase to 1\1/2\ cents a gallon a year.
    And I keep saying: You think you are going to lose your 
election if the gas goes up 1\1/2\ cents a gallon? When you 
drove to work today, you drove by the gas station. It probably 
went up a nickel or down a nickel on the digital sign. No one 
is going to notice that. And people around the country have 
showed that they are willing to pay to get out of congestion.
    But Congress hasn't gotten the message. The White House 
hasn't gotten the message. They love to talk about: Oh, big 
infrastructure bill. We were up to $2 trillion for 3 weeks and 
then we were down to zero. In fact, the proposals in the 
President's budget consistently cut transportation investment.
    So the States can't do it on their own. They are trying. 
The States are trying. A lot of all-red States have raised 
their gas tax, raised their registration fees, and States that 
have mixed governments in blue States. It is not a partisan 
issue out there in America. It just seems to be a partisan 
issue here in Washington, DC.
    We are at the point of total paralysis. I am not going to 
repeat the statistics on how much time people waste and the 
hours. The amount of fuel wasted, sitting around? About 4 
billion gallons a year wasted fuel, adding to the problems with 
climate change, which some of us believe in.
    So it is time to act. Now, we are going to hear some things 
today, you are going to say, well, congestion pricing. 
Congestion pricing with what kind of alternatives for people? 
You can't just price people off the roads and say: Hey, we 
solved congestion. That person doesn't set their schedule to go 
to work, most likely, and they don't have a lot of options. 
Unless you build sufficient options, you can't just price 
people off the road.
    And when Eleanor talked about $47 for 10 miles, $4.70 a 
mile, that is not even a Lexus lane. That is a chauffeured 
limousine lane. I mean, who can afford that? In my own State we 
have freeways. We don't have tolls. Now the mayor and some in 
the legislature of Portland have decided, well, maybe we ought 
to just toll parts of our freeways to deal with some problems. 
But, of course, it isn't even going to be like the HOT lane. No 
one is going to have an option. You are going to either use it 
or not use it.
    What about diversion? What about people who have to go from 
the East Side of Portland to the West Side of Portland to Intel 
to go to work? Well, sorry, it is going to take you 2 hours or 
it is going to cost you a bunch of money that you can't afford.
    So, we need a comprehensive approach, which is more Federal 
investment. And then we need to start applying technology, 
smart technology, 21st-century technology.
    You know, you sit at traffic lights. No one is coming. I 
was in Pittsburgh--they have smart traffic lights, realtime. 
Imagine that, 21st-century technology, and we are still working 
with 19th-century technology with metered traffic lights that 
are set by traffic engineers who go out and do traffic counts 
and stand around on the corner and then set them according to 
what they think traffic flows are going to be in the future, 
which has nothing to do with reality.
    So I am losing patience with what is going on around here. 
The Senate passed a bill. It has got some decent policy in it. 
It has got a little more spending. But the leaders of the 
Senate have said: Oh, it is impossible to pay for. We don't 
know how we are going to pay for that. We can't pay for that. 
How are we going to pay for it?
    Well, if we don't pay for it, we are going to waste a hell 
of a lot more money, year in, year out, day in, day out, and 
Americans are going to get more and more frustrated.
    So, I hope today's hearing provides some ideas that will 
help mitigate these problems. But the bottom line is we have to 
pony up some money or we are not going to solve any problems.
    Thank you.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thanks, Madam Chair. You both made points that Congress needs to 
pay attention to. The cost of congestion on an annual basis are about 
four times our Federal investment in surface transportation and 
transit. Just think about that. We're wasting four times as much money 
as we're investing on an annual basis year after year after year.
    But around here we're paralyzed! We can't figure out how we're 
going to pay for this . . . how are you ever going to pay for this?
    Oh, let's see. We haven't adjusted the gas and diesel tax since 
1993. I've proposed something that's so de minimis, that it's just 
embarrassing that we can't do it. Let's just index the gas and diesel 
tax and do some bonding and limit the annual increase to one and a half 
cents a gallon a year.
    And I keep saying, ``You think you're going to lose your election 
if gas goes up one and a half cents a gallon?''
    When you drove to work today you drove by the gas station--it 
probably went up a nickel or down a nickel on the digital sign. No 
one's going to notice that. And people around the country have shown 
that they are willing to pay to get out of congestion.
    But Congress hasn't got the message. The White House hasn't got the 
message. They love to talk about a big infrastructure bill, we were up 
to two trillion dollars for three weeks and then we were down to zero.
    In fact, the proposals in the President's budget consistently cut 
transportation investment.
    The states can't do it on their own. They're trying, the states are 
trying. A lot of all red states have raised their gas tax, raised their 
registration fees and states that have mixed governments and blue 
states.
    It's not a partisan issue out there in America. Just seems to be a 
partisan issue here in Washington, D.C.

    Ms. Norton. I feel the chairman's frustration. We passed 
the FAST Act with no new money. We just can't do what we did 
last time. So in order to get new money, we had to make a 6-
year bill a 5-year bill. Who are we fooling?
    And I appreciate that the chairman raised the issue of the 
gas tax. How come in red States they are not afraid to raise 
the gas tax but they send people to Congress who are? So we are 
stuck on stupid when it comes to revenue and overwhelmed by 
what needs to be done in our system. I am pleased that the 
Senate, controlled by the other side, is looking at new 
revenue.
    I want to welcome our witnesses, the Honorable Oliver 
Gilbert III, who is the mayor of the city of Miami Gardens and 
chairman of the Miami-Dade Transportation Planning 
Organization; Travis Brouwer, the assistant director for public 
affairs for the Oregon Department of Transportation; Tilly 
Chang, the executive director of the San Francisco County 
Transportation Authority, on behalf of the Intelligent 
Transportation Society of America; Darren D. Hawkins, chief 
executive officer of YRC Worldwide Inc., on behalf of the 
American Trucking Associations; Timothy Lomax, Regents fellow 
at Texas A&M Transportation Institute; and Marc Scribner, 
senior fellow at the Competitive Enterprise Institute.
    I want to thank all of you for being here today. I look 
forward to your testimony.
    Before we hear from the panel, I would like to recognize 
Ms. Wilson to introduce Mayor Gilbert, a constituent from her 
district.
    Ms. Wilson. Thank you so much. Thank you so much, 
Chairwoman Norton.
    I am honored to introduce my personal mayor, the mayor of 
the great city of Miami Gardens, which will host the 2020 Super 
Bowl, and chair of the Miami-Dade Transportation Planning 
Organization, TPO, Mayor Oliver Gilbert.
    When I learned that this subcommittee was having a hearing 
on congestion and tolling, Mayor Gilbert was the first witness 
that I knew I had to recommend. He is a young lawyer with a 
long and distinguished career in public service that began as 
an aide in the Florida Legislature. He was regarded as an 
astute staffer, both legislatively and politically. Within a 
decade, he became the mayor of the city of Miami Gardens.
    As mayor, he has launched several successful initiatives to 
increase access to public transportation and improve mobility. 
One such initiative is the Miami Gardens Express, a free 
trolley service that many, many residents depend on.
    His accomplishments as mayor and leadership on 
transportation issues compelled his Miami-Dade TPO colleagues 
to elect him as their chair in January 2019. As TPO chair, 
Mayor Gilbert oversees the implementation of the county's 
Strategic Miami Area Rapid Transportation, SMART Plan, a 
multibillion-dollar infrastructure investment program to reduce 
congestion and spur economic growth.
    Mayor Gilbert, welcome to Congress, and thank you for 
testifying today and for your leadership on transportation 
issues that greatly concern Floridians and others throughout 
this Nation.
    Thank you, Madam Chair. And I yield back.
    Ms. Norton. Thank you, Congresswoman Wilson.
    I would like to now recognize Congresswoman Davids to 
introduce Mr. Hawkins.
    Ms. Davids. Thank you, Madam Chair and Ranking Member.
    I would like to take the opportunity of introducing Mr. 
Darren D. Hawkins, chief executive officer of YRC Worldwide 
Inc., on behalf of the American Trucking Associations.
    YRC Worldwide is a freight holding company based in the 
Kansas Third Congressional District in Overland Park, Kansas. 
They employ 24,000 drivers and dock workers who are members of 
the International Brotherhood of Teamsters. Their trucks travel 
more than 900 million miles annually in the United States, and 
more than 1,700 YRCW drivers have more than 1 million 
consecutive accident-free miles. That is something a lot of us 
should be celebrating.
    YRCW has a long history and has long been important in the 
Kansas City metropolitan area business community and the civic 
community and we are proud to be very well represented in 
hearing your testimony today, Mr. Hawkins, and I appreciate you 
taking the time to be here. It is a pleasure to have you.
    And I yield back.
    Ms. Norton. Thank you, Congresswoman Davids.
    Without objection, witnesses' full statements will be 
entered into the record. Since your written testimony will be 
made a part of the record, the subcommittee requests that you 
limit your oral testimony to 5 minutes.
    Mayor Gilbert, I ask you to proceed now, sir.

  TESTIMONY OF HON. OLIVER GILBERT III, MAYOR, CITY OF MIAMI 
   GARDENS, AND CHAIRMAN, MIAMI-DADE TRANSPORTATION PLANNING 
  ORGANIZATION; TRAVIS BROUWER, ASSISTANT DIRECTOR FOR PUBLIC 
  AFFAIRS, OREGON DEPARTMENT OF TRANSPORTATION; TILLY CHANG, 
    EXECUTIVE DIRECTOR, SAN FRANCISCO COUNTY TRANSPORTATION 
AUTHORITY, ON BEHALF OF THE INTELLIGENT TRANSPORTATION SOCIETY 
  OF AMERICA; DARREN D. HAWKINS, CHIEF EXECUTIVE OFFICER, YRC 
      WORLDWIDE INC., ON BEHALF OF THE AMERICAN TRUCKING 
 ASSOCIATIONS; TIMOTHY J. LOMAX, Ph.D., P.E., REGENTS FELLOW, 
 TEXAS A&M TRANSPORTATION INSTITUTE; AND MARC SCRIBNER, SENIOR 
            FELLOW, COMPETITIVE ENTERPRISE INSTITUTE

    Mr. Gilbert. Thank you.
    I would be remiss if I didn't start by saying 18 years ago 
this country was attacked. I stand in awe of you all's service 
and the men and women of our military, what they do for us 
around the world to ensure that we can be here in this room, 
having this discussion. It is important. I thank them, and I 
thank you all.
    Good morning, Chair Norton, Ranking Member Davis, Chair 
DeFazio, and members of this distinguished subcommittee. Thank 
you for the opportunity to testify.
    I would also like to thank my congresswoman, Frederica 
Wilson, for her service to our district. Today I stand as her 
mayor and resident in awe of her service and the example she 
sets for our community.
    I am Oliver Gilbert, as stated before, the chair of the 
Miami-Dade County Transportation Planning Organization, and I 
am also the proud mayor of Miami Gardens, and also the proud 
mayor of the Miami Dolphins. Yeah, I know. Yeah, I know. I am 
long suffering. It is a thing.
    You know, I am here to tell you today that roads, they 
aren't just asphalt. They are pathways to something greater. 
Rail is not just something that carries trains. Rail, 
specifically the Metrorail in Miami-Dade County, carried a 
young boy from Miami Gardens to the University of Miami Law 
School every day. It helped him get his law degree. Ultimately, 
it was responsible for him being the mayor of his hometown, 
Miami Gardens.
    I stand before you today in large part because someone 
invested in meaningful and efficient public transportation. 
Today I advocate that we pay their brilliance forward and find 
ways to expand rail, create dynamic transportation, reduce 
congestion, and promote conservation of time and of the planet.
    I would like to now share how we are starting to address 
this in Miami-Dade County and how you can partner with us to 
make transportation an instrument of economic development and 
job creation.
    In Miami-Dade County, traffic is an impediment not just to 
our growth economically, but to our development as a community. 
Our expressway system has almost reached its limit, and we have 
no room to build our way out of congestion.
    This is why we are providing travel choices and 
alternatives that include both express lanes, as well as 
expanding transit through the Miami-Dade SMART Plan, a rapid 
transit plan for our future.
    95 Express has been in operation for 10 years and it has 
reduced overall traffic congestion and increased traffic flow. 
While the Miami-Dade region has the fourth largest population, 
we are the 12th ranked area of congestion, partly due to the 
use of express lanes and BERT service.
    BERT service has been highly successful, with ridership 
rising 48 percent in the first 2 years it was implemented. We 
plan to expand this network as a part of the SMART Plan.
    Congress' support of the Value Pricing Pilot Program and 
the leadership of Congressman Webster, who was in the Florida 
Senate at the time, allowed us to pilot the 95 Express project 
forward and convert HOV lanes to HOT lanes. We improved our 
rankings on hours of driver delay from 10th to 12th, even as 
our population grew, which is actually quite remarkable.
    This is not to say that congestion isn't a problem. 
However, the express lanes in BERT improved the commute times 
for all lanes, including the nontolled lanes, which is also 
significant.
    While express lanes help, the best long-term remedy for 
relieving congestion in south Florida is through the expansion 
of a rapid transit network.
    Our TPO has designated the SMART Plan as our top priority. 
The SMART Plan involves improvements to the BERT network and 
six rapid transit corridors. Right now the south corridor of 
the plan is in the development and funding stage. Miami-Dade 
has committed $100 million. The State has committed $100 
million. We are asking the FTA to commit $100 million.
    Locally, we have committed all available local funding, 
including TIPs, over the next 40 years to implement the 
projects. But it won't be enough. We need your help.
    Federal support of innovative projects like SMART is 
essential and a Federal process that offers certainty and helps 
move projects like SMART forward is a must.
    For example, the north corridor. The expansion of the 
Metrorail was initially contemplated when I was in elementary 
school and still no rail has been built. Students in class 
right now at Scott Lake and Crestview and Norland and Parkway, 
they deserve better.
    We have to do better, and we have to do it faster. We need 
a Federal funding process that acknowledges the need of a 
community to access opportunity within a reasonable timeframe 
so all the partners can plan and do their part. There needs to 
be predefined funding structures for regions like Miami-Dade 
that provide for more than widened highways as a solution to 
congestion.
    With this, we can create a future with substantially less 
congestion. With this, we can create a future so that a kid who 
went to FAMU can actually do some great things.
    I would end my comments with this, just the wisdom of 
Albert Einstein: You can't solve a problem with the same 
thinking that created it. Our goal must not only be better 
answers, but also we have to ask tomorrow's questions. This 
will allow us to design and build a system that is flexible, 
expansive, and growable.
    Thank you for your partnership, thank you for your support, 
and thank you for your leadership. Together we can grow the 
system forward.
    Thank you, Madam Chair.
    [Mr. Gilbert's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Oliver Gilbert III, Mayor, City of Miami 
 Gardens, and Chairman, Miami-Dade Transportation Planning Organization
    Good morning, Chair Norton, Ranking Member Davis, and members of 
the distinguished House Transportation and Infrastructure Committee, 
Subcommittee on Highways and Transit. Giving special attention and 
admiration to my Congresswoman Frederica Wilson. Today, I stand as her 
Mayor and Resident and someone who is awed by her service through voice 
and example for her community. Thank you all for your service to your 
congressional districts and to this country. Here your voices define 
not just who we are but who we are to become as an America.
    I am Oliver Gilbert, Chairman of the Miami-Dade County 
Transportation Planning Organization (TPO). I am also the Mayor of 
Miami Gardens. Thank you for the opportunity to address the topic of 
``Pricing And Technology Strategies To Address Congestion On And 
Financing Of America's Roads.'' Before I get into the technical aspects 
of my testimony, I want to offer some general thoughts on 
transportation and how we should see it as a growing and developing 
America.
    I engage your imagination to view a road as not just pavement and 
asphalt. I ask that you see traffic independent of its congestion; to 
see rail without regard to its cost. While all the things mentioned are 
relevant, roads are pathways to something greater. They are instruments 
of economic development and job creation. Traffic is an impediment not 
just to our growth economically but to our development as a community. 
Rail is not just something to carry trains. Rail, specifically the 
Metrorail in Miami Dade County, carried a young boy from Miami Gardens 
to the University of Miami every day. It helped him get his law degree. 
Ultimately, it's responsible for him being the mayor of his hometown 
Miami Gardens. I stand before you today in large part because someone 
invested in meaningful and efficient public transportation. Today, I 
advocate that we pay their brilliance forward and find ways to expand 
rail, create dynamic interactions with regard to roads, reduce 
congestion, all the aforementioned promote conservation of time and of 
the planet.
               Expressway System Built Out in Miami-Dade
    The expressway system in Miami-Dade has reached its limit, and we 
have no room to build our way out of congestion. Heavy congestion has 
become a way of life in Southeast Florida. We have one possible new 
extension of an expressway, and beyond that we must provide travel 
choices and alternatives that include:
    1.  Rebuilding and fine-tuning operations of existing expressways 
such as express lanes; and
    2.  Expanding rapid public transit through the Miami-Dade Strategic 
Miami Area Rapid Transit (SMART) Plan.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Figure 1. Level of Service depicting I-95 Corridor

           Electronic Tolled Express Lanes Improve Throughput
    The fine-tuning of highway operations has involved providing a 
choice for users of highly congested expressways through ``express 
lanes,'' which are electronic tolled lanes (SunPass electronic tolls 
only) within expressways that also include non-tolled lanes. Managed 
lanes which we term express lanes are expressway lanes dynamically 
tolled based upon congestion levels, where tolls fluctuate per the 
amount of traffic using these lanes. The goals of 95 Express are to 
reduce overall traffic congestion; provide a safe and predictable trip, 
in terms of travel time, for express lane motorists; maintain an 
express lane free-flow speed of 45 mph or greater for users including 
express buses; and increase the overall throughput of vehicles per hour 
on the entire expressway facility. The express tolls are electronically 
set by software and detection equipment that detects the speed and 
level of traffic in the express lanes and raises the toll when speeds 
drop and lowers the toll when speeds rise compared to a preset speed. A 
section of 95 Express is shown in Figure 2 below where the lanes to the 
right are non-tolled and ``poles'' separate the tolled express lanes to 
the left. Vanpools, buses, and registered carpools use the express 
lanes toll free.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Figure 2_Source: Florida Department of Transportation (http://
                 floridaexpresslanes.com/southeastfl/)

    The 95 Express lanes projects were developed and funded through an 
Urban Partnership between the United States Department of 
Transportation, Florida Department of Transportation (FDOT), local 
Metropolitan Planning Organizations, local transit agencies and the 
State of Florida with general funding. This Urban Partnership was 
facilitated by you through the congressionally created Value Pricing 
Pilot Program that allowed the conversion of High Occupancy Vehicle 
lanes (HOV) to High Occupancy Toll (HOT) lanes. Subsequent changes in 
Federal law by Congress expanded the ability to provide toll lanes 
within existing non-tolled expressway facilities that have been 
codified into Title 23 and Title 49 of United States Code. Thank you 
for your support of these innovative options for highly congested 
expressways. A special thank you to Congressman Daniel Webster, who as 
a leader in the Florida Senate led the effort for state general funds 
and FDOT funds to match the Federal Urban Partnership grant to move the 
pilot 95 Express project forward.
    We are pleased that the express lane tolls in Southeast Florida are 
supporting Express Bus service in the express lanes. Our Express Bus 
system on the express lanes has been highly successful and provides a 
viable alternative to driving a car in the express lanes. We plan to 
expand the Express Bus network to all the current and future express 
lanes to ensure that all travelers have an option to take advantage of 
more reliable travel times provided by the express lanes. Express Bus 
ridership for Miami-Dade Express rose 48% from 2008 to 2010 (depicted 
in Figure 3 on the next page), after the express lanes were implemented 
in mid-2009.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Figure 3 Source: Florida Department of Transportation

    The success of 95 Express resulted in rapid growth of express lanes 
in Southeast Florida and across Florida's major metro areas. For 
example, we started 95 Express as a pilot in 2008 with Phase 1, being 7 
miles that fully opened in 2010. As of September 2019, we have 62 miles 
of express lanes open in Southeast Florida (shown below in green in 
Figure 4) that provide a choice for daily travelers and visitors on 
most expressways, being I-95, I-75, I-595, Palmetto Expressway and soon 
on Florida's Turnpike Homestead Extension. By 2024, South Florida will 
have a total of 155 miles of express lanes (shown in green and red on 
Figure 4) open to traffic with 188 miles (shown in blue in Figure 4) 
under consideration as express lanes in the future (as shown in Figure 
4).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Figure 4_Source: Florida Department of Transportation (http://
                 floridaexpresslanes.com/southeastfl/)

    In the Texas A&M Transportation Institute Report Titled, 2019 Urban 
Mobility Report [https://mobility.tamu.edu/umr/], ``Miami'' Urbanized 
Area, which includes Miami-Dade, Broward, and Palm Beach Counties, has 
the 4th ranked population and the 12th ranked level of congestion. We 
believe the rating of 12th on congestion compared to 4th on population 
is in part due to providing choices for travelers on our congested 
expressway system such as express lanes and Bus Express Rapid Transit 
(BERT) service. As the express lane network and BERT was coming on-
line, we improved from ranking 10th on hours of driver delay in the 
early 2000s to 12th on hours of driver delay in 2017. This is a 
remarkable improvement considering the Miami Urbanized Area population 
grew from a rank of 5th in the early 2000s to 4th in 2017 while also 
improving in the hour of driver delay congestion index. This is not to 
say our congestion is good by any means; it does, however, indicate 
that express lanes and BERT have helped make the congestion more 
tolerable and improved the commute times for all lanes including the 
non-tolled lanes.
    We learned many lessons during the past decade on pricing and 
technology to provide choices and alternatives to congested 
expressways. They include:
    <bullet>  Communication is essential because express lanes are not 
``normal'' operations for expressways. A consistent level of 
communication to elected officials, press, public, transportation 
professionals, and expressway system users is essential. This can be 
very challenging. When the first express lanes were proposed in Miami-
Dade and Broward Counties in Florida, there was not a point of 
reference to help frame how express lanes work. Communication is also 
essential over time as newly elected officials assume office and the 
press, public and users change.
    <bullet>  Providing a higher level of service in express lanes is 
essential including enforcement, roadway service to clear issues 
timely, and clear and timely message signs on toll information so 
drivers can make decisions about using the express lanes or continue in 
the non-tolled lanes.
    <bullet>  Express lanes reduce travel times for the express lane 
users significantly while also improving travel times for those in the 
non-tolled lanes. A higher overall speed in the expressway corridor 
moves more vehicles through the corridor perhour throughout the day.
                        SMART Rapid Transit Plan
    Express lanes are essential, but we believe the best long-term 
alternative to highly congested roadways in Miami-Dade is to expand our 
rapid transit network. The Miami-Dade Transportation Planning 
Organization designated the Strategic Miami Area Rapid Transit Plan or 
SMART Plan our top priority. This involves the BERT network and the 
addition of six rapid transit corridors. We are seeing high growth 
around existing rapid transit stations, and near the private sector 
premium rapid intercity rail service called Brightline-Virgin Rail 
currently running between Miami and Palm Beach with construction 
underway to Orlando.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Figure 5_Source: Miami-Dade Transportation Planning Organization 
                (http://miamidadetpo.org/smartplan.asp)

    The South Corridor of the SMART Plan is in the development and 
funding stage with a local funding commitment of $100 million, as well 
as Florida DOT committing $100 million, and a request with the Federal 
Transit Administration for a Small Starts grant of $100 million. The 
remaining five rapid transit corridors will reach the locally preferred 
alternative stage in the next six to twelve months and will be 
presented to Florida DOT and the Federal Transit Administration for 
development and funding in 2020. The Miami-Dade County Commission and 
Mayor have allocated over $9 billion of future local funds over 40-
years as the local share of funding for the SMART Plan. This includes 
harnessing the fees and taxes from development along existing and new 
rapid transit corridors to help fund the local share. The SMART Plan 
Rapid Transit and BERT corridors are shown in Figure 5 above.
                           Automated Vehicles
    In addition, the Miami-Dade Transportation Planning Organization is 
working with Florida DOT and the industry on the future of automated 
vehicle technology. With the growth in popularity of Autonomous 
Connected Electric Shared (ACES) vehicle technology, it is imperative 
that current infrastructure be adaptable to accommodate these future 
platforms/technologies. Express lanes and their underlying technology 
infrastructure provide a great opportunity for integration of automated 
vehicles on our public roadways given the less complex maneuvers and 
the safety that comes with separating special use lanes.
    We look forward to improved automated vehicle technology and will 
consider adjusting the use of the expressway such as automated vehicle 
uses of the express lanes to best facilitate those vehicles when they 
become a significant part of the future.
                               Conclusion
    Thank you for providing the tools to support electronic express 
lanes and BERT in the express lanes, and we certainly want these tools 
to continue. We support a public transit program that includes a strong 
capital program for the Federal Transit Administration to help support 
implementation of the Miami-Dade SMART Plan.
    We support innovative project delivery approaches that best solve 
the cost-effective and timely delivery for each major project.
    Our assessment is congestion in Miami-Dade County will require ALL 
innovations, choices, and alternatives including electronic express 
lanes, modern rapid transit, and automated vehicles to provide 
Residents and visitors with more reliable travel options in the future.
    A future that is of our creation. A future that will determine 
whether a young boy or girl can build upon their dreams and become the 
mayor of their hometown. A future that will enhance economic 
development and increase the amount of time that we get to spend with 
our families. A future that will use every tool and resource available 
to create the South Florida and America we deserve. We are not just 
talking about congestion and traffic. We are talking about growth, 
development, education, and opportunity. We are talking about the 
American dream.
    Thank you for your partnership again. Thank you for your support 
and your leadership. Together, we go forward.
                               __________
           Reference Information on Express Lanes in Florida
    Florida Department of Transportation and partners have developed a 
network of express lanes in Southeast Florida that now includes the 
facilities in the table below that are open or under construction in 
Florida's major metro areas. The map in Figure 6 and Table 1 in the 
outline below illustrate the express lanes network statewide. http://
floridaexpresslanes.com/
                     Table 1--Florida Express Lanes
Open to Use and Under Construction as of September 2019
Northeast Florida
    <bullet>  Northeast Florida Express (I-295) in the Jacksonville 
metro area
      <bullet>  I-95 to Buckman Bridge (5 miles): 2 express lanes per 
direction open to traffic
      <bullet>  SR 9B to J. Turner Butler Boulevard (5 miles): 2 
express lanes per direction open 2020

Central Florida
    <bullet>  Beachline Express (SR 528) in the Orlando metro area
      <bullet>  I-4 to Florida's Turnpike Mainline (4 miles): 2 express 
lanes per direction open to traffic
      <bullet>  Florida's Turnpike Mainline to McCoy Road (4 miles): 1 
express lane per direction open Fall 2019
    <bullet>  I-4 Express in the Orlando metro area--SR 434 to Kirkman 
Road (21 miles): 2 express lanes per direction open 2021
    <bullet>  Florida's Turnpike in the Orlando metro area--Osceola 
Parkway to Beachline West Expressway / SR 528 (6 miles): 2 express 
lanes per direction open 2021

Tampa Bay
    <bullet>  Veterans Express in the Tampa metro area--Hillsborough 
Ave. to Dale Mabry Hwy. (9 miles): 1 express lane per direction open to 
traffic
    <bullet>  Crosstown Parkway Express adjacent to the Selmon 
Crosstown Parkway in Tampa--approximately 10 miles--3 reversible lanes 
open to traffic
    <bullet>  I-275 in St. Petersburg metro area--Gandy Boulevard to 
4th Street N (4 miles): 1 express lane per direction open 2022

Southeast Florida
    <bullet>  95 Express in Miami/Fort Lauderdale/Palm Beach metro 
areas
      <bullet>  Junction of I-95 and SR 836/I-395 in downtown Miami to 
Golden Glades interchange (7 miles): 2 express lanes per direction open 
to traffic
      <bullet>  Golden Glades interchange to Broward Boulevard (14 
miles): 1 to 2 express lanes per direction open to traffic
      <bullet>  Broward Boulevard to SW 10th Street (19 miles): 2 
express lanes per direction--open 2020
      <bullet>  SW 10th Street to Glades Road (5 miles): 2 express 
lanes per direction open 2022
    <bullet>  595 Express in the Fort Lauderdale metro area--I/595/I-
75/Sawgrass Expressway to Turnpike Mainline (10 miles): 3 reversible 
express lanes open to traffic
    <bullet>  75 Express in the Fort Lauderdale/Miami metro areas
      <bullet>  Miami Gardens Drive to I-595 (11 miles): 2 express 
lanes per direction open to traffic
      <bullet>  Palmetto Expressway/SR 826 to Miami Gardens Drive (4 
miles): 1 express lane per direction open to traffic
    <bullet>  Palmetto Express in the Miami metro area--West Flagler 
Street to NW 154th Street (9 miles): 2 express lanes per direction open 
to traffic
    <bullet>  Florida's Turnpike Homestead Extension in the Miami metro 
area (opens in segments through 2024)
      <bullet>  Biscayne Drive to Killian Parkway (14 miles): 1 express 
lane per direction
      <bullet>  Killian Parkway to Dolphin Expressway/SR 836 (7 miles): 
2 express lanes per direction
      <bullet>  I-75 to Turnpike Mainline (8 miles): 1 express lane per 
direction
Under Study as of September 2019 (under consideration in the planning 
        stages)
Northeast Florida
    <bullet>  I-295 (9 miles)
    <bullet>  I-95 (26 miles)

Central Florida
    <bullet>  Florida's Turnpike Mainline (46 miles)
    <bullet>  I-4 (41 miles)

Tampa Bay
    <bullet>  I-275 (21 miles)
    <bullet>  SR-60 (3 miles)
    <bullet>  I-4 (25 miles)
    <bullet>  I-75 (42 miles)

Southeast Florida
    <bullet>  Florida's Turnpike Mainline (88 miles)
    <bullet>  Florida's Turnpike Homestead Extension (14 miles)
    <bullet>  I-95 (50 miles)
    <bullet>  Sawgrass Expressway (21 miles)
    <bullet>  Palmetto Expressway (15 miles)
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
         Figure 6 Source: Florida Department of Transportation

    Ms. Norton. Thank you very much, Mayor Gilbert.
    I am going to now call on Travis Brouwer, assistant 
director of public affairs for the Oregon Department of 
Transportation.
    Mr. Brouwer. Chair Norton, Ranking Member Davis, Chairman 
DeFazio, and members of the subcommittee, my name is Travis 
Brouwer. I am the assistant director for public affairs of the 
Oregon Department of Transportation, or ODOT. I want to thank 
you for the opportunity to appear before you today, and I 
particularly want to thank Chairman DeFazio for his leadership 
on transportation issues and all he has done over three decades 
of service on this committee to make our Nation's 
transportation stronger.
    It is interesting to be here talking about tolling, because 
Oregon and ODOT, we don't operate any tollroads currently. But 
that could change in coming years as the clamor from the public 
for relief from the gridlock that is gripping the Portland 
metro area has led our legislators to direct ODOT to implement 
tolling.
    Data show that the Portland metro region's congestion is 
bad and getting worse due to rapid population and job growth. 
In just 2 years, from 2015 to 2017, hours of congestion 
increased by 13 percent across the region and daily vehicle 
hours of delays increased by 20 percent, and that was on top of 
a similar increase in the previous 2 years.
    Many of our highways function more like parking lots at 
rush hour, and rush hour has now spread to become rush 
afternoon and evening as five sections of State highway in the 
Portland metro region are congested at least 7 hours every day.
    Residents and businesses across the State increasingly are 
complaining to legislators and ODOT about how congestion in 
Portland poses a growing threat to our State's economy, making 
it more costly for companies across Oregon to get their goods 
to market.
    In response to these concerns about the threat to the 
economy and our quality of life, in 2017 the Oregon Legislature 
passed the largest transportation investment package in the 
State's history, known as Keep Oregon Moving. This legislation 
included a comprehensive multimodal congestion relief strategy. 
The legislature funded new lanes on I-5, I-205, and other 
highways to alleviate bottlenecks.
    But they recognized that we can't build our way out of 
congestion. So they also invested in intelligent transportation 
systems that help make traffic flow more efficiently, and they 
provided significant investment in transportation options, 
particularly public transportation. This will allow TriMet, our 
major transit agency in the region, to launch its biggest 
service expansion ever.
    But the legislature recognized that even with all of these 
investments, they wouldn't be enough to achieve the congestion 
reduction the public demands. Even with this historic funding 
package, the legislature could not fund a number of high-
priority congestion relief projects, including improvements to 
Interstate 205.
    That is why the legislature turned to tolling to address 
congestion and raise revenue for improvements. In Keep Oregon 
Moving, they directed the Oregon Transportation Commission, 
ODOT's governing body, to implement tolling on both I-5 and I-
205, our main north/south corridors in the region that carry 
the bulk of our freight and face the worst congestion.
    Faced with this legislative mandate, the commission engaged 
regional stakeholders and created a public engagement process 
that reached members of the public more than 46,000 times. They 
created a stakeholder advisory committee made up of local 
government officials, the trucking industry, advocates for low-
income communities, and others.
    The commission charged this group with developing a 
recommendation for where we could use tolling to reduce 
congestion and how to address potential impacts. We analyzed 
options for tolling along the I-5 and I-205 corridors, 
including managed lanes, tolling all lanes, and tolling 
bridges.
    After detailed analysis, managed lanes, like high-occupancy 
toll lanes and express toll lanes, fell by the wayside. We 
simply didn't find any location where these would offer 
significant congestion relief. What the advisory committee 
ultimately recommended was two tolling options that could 
significantly reduce congestion.
    First, implement variable rate tolling on I-5 through the 
core of the Portland metro region. The American Trucking 
Research Institute recently ranked this the 28th worst truck 
bottleneck in the Nation. Tolling would be implemented in 
conjunction with a congestion relief project that will add 
lanes at the interchange between I-5, I-84, and I-405. Tolling 
could help pay for this and other improvements.
    Second, toll on or near the Abernethy Bridge on Interstate 
205. This section of I-205 is just two lanes in each direction 
and we are designing a project to widen that section of 
highway, but neither the legislature nor ODOT has been able to 
find a half billion dollars needed to fund that project. 
Tolling offers a potential way to fund some or all of it.
    In addition to recommending where tolling could benefit the 
public, the committee also looked at some of the areas where we 
need to mitigate potential impacts of tolling. They asked the 
commission to find ways to avoid diversion of traffic onto 
local streets, to ensure that tolling doesn't cause significant 
issues for low-income families who may not be able to afford 
tolls, and to ensure that there is good transit service so that 
people have another option to get around.
    The commission is moving forward on these recommendations, 
and we are developing an indepth public involvement process 
that will answer many of these questions. Ongoing public 
engagement is going to be critical because we know that in 
order to be successful we need to address the public's concerns 
and show how tolling can improve their ability to get around 
efficiently.
    We are a member of the American Association of State 
Highway and Transportation Officials, or AASHTO. AASHTO 
supports increased tolling flexibility to allow States to 
maximize revenue-raising opportunities in light of some of the 
Federal funding challenges that Congressman DeFazio mentioned. 
Greater flexibility would allow States to work with communities 
to use tolling to help improve our transportation system across 
the Nation.
    Thank you for the opportunity to be here today.
    [Mr. Brouwer's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Travis Brouwer, Assistant Director for Public 
              Affairs, Oregon Department of Transportation
    Chairman DeFazio, Ranking Member Graves, Chair Norton, Ranking 
Member Davis, and other distinguished members of the Subcommittee on 
Highways and Transit, thank you very much for the opportunity to appear 
before you today.
    My name is Travis Brouwer and I am the Assistant Director for 
Public Affairs at the Oregon Department of Transportation (ODOT). I am 
here today to discuss tolling and congestion pricing on state highways 
in Oregon.
          Growing Congestion in Portland Pushes Oregon to Toll
    Today, Oregon is not a toll state. No state-owned highway, bridge 
or tunnel is tolled, and this has been the case for decades. However, 
growing congestion in Portland led the Oregon Legislature in 2017 to 
direct ODOT to implement tolling on Interstate 5 and Interstate 205 in 
the Portland metro area.
    In the lead up to consideration of a major transportation funding 
bill, both a blue-ribbon commission created by Oregon Governor Kate 
Brown and members of the state legislature embarked on statewide 
transportation listening tours. These efforts revealed that freeway 
congestion in the Portland metropolitan area is a statewide concern. 
Communities and businesses across the state, in many cases located 
hundreds of miles away from Portland, consistently reported struggles 
with getting products and people to and through the Portland area. 
Thanks to these listening tours, policymakers recognized that Portland 
congestion is an urban problem and a rural problem that must be 
addressed at a statewide level in Oregon.
    Indeed, Portland area congestion is bad and getting worse. From 
2015 to 2017, hours of congestion increased by 13 percent across the 
region. In that same period, daily vehicle hours of delay increased by 
20 percent. Increasingly, Portland area highways are congested not just 
in the traditional evening ``rush hour,'' but throughout the entire 
afternoon and evening.
    Traffic congestion in Portland affects the statewide economy 
through delayed movement of goods and services, and it compromises 
reliability for employers and employees. Quality of life is reduced for 
residents as they sit in cars or buses trying to meet work or family 
commitments on time. Commuters, business travelers, freight haulers, 
and others struggle to plan consistent departure and arrival times. The 
rapid population growth of the Portland area has only compounded these 
problems.
            Keep Oregon Moving Legislative Direction to Toll
    In 2017, the Oregon Legislative Assembly passed a $5.3 billion 
state-level funding package for transportation dubbed Keep Oregon 
Moving, the largest investment in Oregon's transportation system in 
history. To address the growing challenge of Portland-area congestion, 
the state legislature included in Keep Oregon Moving a comprehensive 
congestion relief program. This program is an ``all of the above'' 
approach to congestion relief that includes funding for bottleneck 
relief projects on the Portland-area freeway system, investments in 
intelligent transportation system technology to increase the efficiency 
of existing highway capacity, more resources for transportation options 
such as public transportation, and more state level investments in 
freight rail improvements.
    However, the legislature realized that even these significant 
investments would not be enough to achieve the congestion relief the 
public demands--and they also realized additional resources are needed 
to complete congestion relief projects in the region, as a number of 
high-priority congestion relief projects could not be funded even with 
Keep Oregon Moving's historic levels of investment.
    In response, Keep Oregon Moving directs the Oregon Transportation 
Commission (ODOT's Governor-appointed policy and oversight body) to 
implement tolling on both Interstate 5 and Interstate 205 in the 
Portland metropolitan area. The legislation required the Oregon 
Transportation Commission to seek approval from the Federal Highway 
Administration (FHWA) by December 2018 to implement tolls.\1\
---------------------------------------------------------------------------
    \1\ Oregon State Legislature, 2017 Regular Session, HB 2017 
Enrolled:
      SECTION 120.
      (1) The Oregon Transportation Commission shall establish a 
traffic congestion relief program.
      (2) No later than December 31, 2018, the commission shall seek 
approval from the Federal Highway Administration, if required by 
federal law, to implement value pricing as described in this section.
      (3) After seeking and receiving approval from the Federal Highway 
Administration, the commission shall implement value pricing to reduce 
traffic congestion. Value pricing may include, but is not limited to, 
variable time-of-day pricing. The commission shall implement value 
pricing in the following locations:
        (a) On Interstate 205, beginning at the Washington state line 
and ending where it intersects with Interstate 5 in this state.
        (b) On Interstate 5, beginning at the Washington state line and 
ending where it intersects with Interstate 205.
      (4) In addition to areas listed in subsection (3) of this 
section, the commission may implement value pricing in other areas of 
this state.
---------------------------------------------------------------------------
    Interstate 5 and Interstate 205 are the two key north-south freight 
routes through the Portland metro region, Oregon's largest urban area. 
Interstate 5 travels through the urban core and provides connections to 
the Port of Portland's marine terminals--it is also the most congested 
corridor in the Portland metro region. Interstate 205 provides direct 
connections to Portland International Airport and experiences severe 
congestion. Addressing congestion on both of these corridors will be 
complex and incredibly costly. Even after passage of Keep Oregon 
Moving, we simply do not have the funding we need to make the necessary 
improvements on these corridors.
           Oregon's Process for Implementing the Toll Mandate
    With only 18 months to respond to this new mandate, the Oregon 
Transportation Commission and ODOT assembled an extensive engagement 
process to consider questions about how tolling could work in the 
Portland area. The Commission created a multi-stakeholder Policy 
Advisory Committee to publicly explore questions about what types of 
tolling should be applied in the Portland area and what mitigation 
strategies should be pursued to reduce negative impacts on individuals 
and communities. This 24 member Committee included members of the 
Oregon Transportation Commission, local governments from both Oregon 
and Washington, public transit, private business, trucking and 
automotive highway user associations, environmental justice advocates, 
ports, and more. The Oregon Transportation Commission charged this 
committee with developing tolling recommendations in the Portland area 
that will reduce congestion by helping fund bottleneck relief 
construction projects or by managing demand.
    Our analysis of tolling options included extensive public 
engagement because we recognized the need to listen to the public in 
order to develop a plan that will provide significant benefit to users 
of the transportation system and address their concerns. In addition to 
the six public meetings held by the Policy Advisory Committee where 
rigorous discussions of tolling analysis and stakeholder concerns took 
place, we made 49 presentations to community groups, held eight in-
person open houses in both Oregon and Washington, hosted six equity-
focused discussion groups, and held two online open houses and a public 
hearing. All told, we reached stakeholders more than 46,000 times 
through our public engagement.
    The Policy Advisory Committee considered a number of tolling 
options on Interstate 5 and Interstate 205. These options ranged from 
the expansive--tolling all miles of all lanes on both corridors--to 
managed lanes to more traditional and straightforward bridge tolling. 
After analysis, high occupancy toll (HOT) lanes, express toll lanes, 
and other managed lanes were ruled out because they simply did not 
provide congestion relief. Our analysis showed the cost of building a 
new HOT lane would exceed the revenue the facility would generate, 
leaving ODOT unable to fund construction of a new lane.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    At the conclusion of the public engagement process, the Policy 
Advisory Committee recommended that the Oregon Transportation 
Commission pursue two separate tolling projects to address two of our 
major congestion chokepoints:
    1.  Toll all lanes of Interstate 5 through the core of metro 
Portland using variable rate congestion pricing. This is one of the 
most congested sections of freeway in the region and was recently 
ranked as the 28th worst truck bottleneck in the nation by the American 
Trucking Research Institute. Tolling would be implemented in 
conjunction with a freeway improvement project that will add lanes at 
the interchange between Interstate 5, Interstate 84, and Interstate 
405. Tolling could help pay for these and other freeway improvements.
    2.  Toll on or near the Interstate 205 Abernethy Bridge over the 
Willamette River. This section of the Interstate is just two lanes in 
each direction, and we are developing a project to address this 
bottleneck. However, neither the legislature nor ODOT has been able to 
identify the funding to construct this more than $500 million project. 
Tolling offers a potential way to fund some or all of this project, 
including widening the Abernethy Bridge and adjacent sections of 
freeway.

    The Policy Advisory Committee also recommended three key mitigation 
strategies: Improved transit along the newly tolled corridors, 
provisions to mitigate the costs of tolling for low-income communities, 
and strategies to minimize and mitigate impacts of diversion.
    Based on the recommendation from the Policy Advisory Committee, the 
Oregon Transportation Commission made a formal request of FHWA in 
December of 2018 to move forward with both tolling concepts. FHWA has 
indicated that both proposals would likely be eligible to proceed--the 
Interstate 5 proposal under the Value Pricing Pilot Program and the 
Interstate 205 Abernethy Bridge toll proposal under either Title 23 US 
Code, Section 129 (mainstream tolling program) or the Value Pricing 
Pilot Program, depending on the configuration.
    For ODOT, the next steps in the implementation process include in-
depth planning and environmental analysis, policy development, and toll 
system development--all backed by extensive public engagement.
                            Keys to Success
    While we are still in the early stages of this process, there are 
several key elements we know we must employ if we are to be successful 
in advancing tolling as a tool for transportation challenges in the 
region.
    <bullet>  Recognizing that the public will experience a monumental 
shift in how the highway system works and how people get around, high 
quality and extensive public engagement and involvement will continue 
to be a key element of the implementation strategy at each step moving 
forward. ODOT will remain closely coordinated with FHWA, other state 
and federal agencies, regional transportation partners, community and 
stakeholder organizations, and the general public. Included in this 
coordination will be extensive community engagement with a strong focus 
on underrepresented populations to ensure tolling policies reflect the 
values and priorities of the broader region.
    <bullet>  Before moving forward we must ensure that tolling will 
offer the public a significant benefit. If the public is to pay tolls, 
they must be able to see how tolling will enhance their mobility.
    <bullet>  We must find ways to mitigate potential issues, including 
impacts to low-income families and traffic diversions that affects 
local communities.
    <bullet>  Tolling must be just one of the tools we use to address 
congestion and enhance mobility. We must have a comprehensive strategy 
to address gridlock that includes all modes of the transportation 
system, and we must recognize that tolling by itself will not solve all 
our problems.
                      Tolling Policy Going Forward
    The realities of endlessly growing congestion and rapidly 
increasing population have conspired to move Oregon from its longtime 
status as a no toll state, just as many other jurisdictions are turning 
toward tolls to address their funding and congestion challenges.
    Current federal authority for states to toll and use pricing to 
generate revenue as well as manage congestion and environmental impacts 
has evolved over time. Since the creation of the Interstate Highway 
System, federal law has limited where tolls can be used. Currently, 
tolling is generally limited to new roads and new lanes on existing 
highways, as well as reconstruction or replacement of bridges. In 
recent decades Congress has taken steps to evolve the federal stance on 
tolling by permitting public agencies to toll a limited number of 
existing Interstate highway corridors on a pilot basis, build High 
Occupancy Toll lanes to reduce congestion, allow variable congestion-
based pricing on existing Interstate highways to manage roadway 
congestion and regional air quality, and allow new or reconstructed 
Interstate highway bridges to be tolled.
    As a state department of transportation, ODOT is a member of the 
American Association of State Highway and Transportation Officials 
(AASHTO). AASHTO represents states with a range of viewpoints on 
tolling and pricing, and as a result, the association supports 
increased tolling flexibility to states to allow those states that so 
choose to maximize revenue-raising opportunities in light of federal 
funding challenges. Greater flexibility would allow states to work with 
their communities to use tolling to help improve their transportation 
systems. ODOT also supports this increased flexibility.
    Chairman DeFazio, Ranking Member Graves, Chair Norton, Ranking 
Member Davis, and members of the subcommittee thank you again for the 
opportunity to testify before you today. I look forward to your 
questions.

    Ms. Norton. Thank you for your testimony, Mr. Brouwer.
    We will hear next from Tilly Chang, executive director of 
the San Francisco County Transportation Authority, who is 
speaking on behalf of the Intelligent Transportation Society of 
America.
    Welcome, Ms. Chang.
    Ms. Chang. Good morning, Chair Norton, Ranking Member 
Davis, Chair DeFazio, and subcommittee members. Thank you so 
much for the opportunity to provide San Francisco's and ITS 
America's perspective on the topic of pricing and congestion 
management.
    My name is Tilly Chang. I serve as the executive director 
of the San Francisco County Transportation Authority, and it is 
an honor to provide testimony on our local experience with 
these topics and why we believe pricing and incentives are 
promising strategies to help us reach our transportation goals.
    First, let me provide an overview of the problem. As in 
other places, rising population and employment, but also 
combined with the growth of ride hail vehicles, are clogging 
our streets. In a typical year commuters spend about 116 hours, 
almost 3 weeks, stuck in traffic. Muni buses, private cars 
alike, they crawl on city streets at about 5 to 10 miles per 
hour during the rush hour period.
    Congestion also affects public health in our core 
neighborhoods. These are areas seeing record numbers of severe 
and fatal crashes, which our Vision Zero policy seeks to 
address. In addition, particulate emissions are adversely 
affecting our health of the freeway-adjacent neighborhoods in 
the downtown and leading areas.
    Finally, congestion is a big part of why transportation as 
a sector is the largest component of greenhouse gas emissions 
in our city and State.
    So why are we looking at pricing? As a city we have taken 
many steps to try to alleviate our rising congestion. We are 
investing heavily in our transit systems, building out our 
bicycle and pedestrian infrastructure, and approving more 
housing than ever near transit. And we have also implemented 
variable pricing of parking through our federally funded SFpark 
program.
    But it is not enough. We need more long-term Federal 
funding. And in the near term we hope to address our needs 
through congestion pricing and incentives, because this 
strategy has the potential to dramatically and cost effectively 
reduce traffic, improve public health, and increase equitable 
access.
    What is pricing? Let me address the basic components of a 
typical congestion pricing system. Pricing involves charging 
motorists a fee to drive in the busiest locations and times of 
day. Best practice usually combines pricing, transit, and 
discounts and incentives altogether, these policies and 
programs that new technologies now allows us to implement more 
effectively.
    In San Francisco we began studying the feasibility of 
congestion pricing for our downtown area in 2008 with the 
support of a Federal Urban Partnership Agreement grant and 
Value Pricing Program. That study found multiple benefits of a 
potential cordon, including 12 percent fewer rush hour trips, 
20 percent faster bus speeds, and 16 percent lower emissions in 
the priced zone. The program also would generate about $80 
million a year as estimated in 2010.
    We successfully piloted an incentive-based program as well 
in 2016 with Bay Area Rapid Transit, or BART, using Federal 
Value Pricing Pilot Program funds. This project shifted 10 
percent of riders to the off-peak shoulder hours during average 
weekday morning peaks, and this was possible by using very 
modest rider rewards. So the use of carrots and not just sticks 
is possible through technology.
    Recently, due to the return of severe congestion, our board 
asked us to update these studies and identify an implementable 
area pricing or cordon pricing program by the end of next year. 
We are partnering with State, regional, and local agencies to 
do that work currently.
    A common concern around congestion pricing is whether the 
use of price to manage demand is fair. We think about this 
important question in three ways.
    First, driving in San Francisco is an expensive way to 
commute. Most peak period drivers earn high incomes, and the 
lowest income travelers are generally on transit. For low-
income motorists and choice commuters who would prefer to take 
transit but don't have good options, pricing comes with a 
built-in solution, revenues, revenues to fund new, affordable 
transit services, as well as active transportation.
    Next, equity and efficiency have been balanced before in 
other sectors. Consider what happens in the power sector. Where 
demand is high, rates rise. And as found in that sector, 
lifeline rates can help mitigate financial impacts of peak 
charge for those who need it most.
    Finally, beyond mitigating the impacts of pricing, we 
believe such programs can actually help make San Francisco's 
transportation more equitable. This is because traffic 
disproportionately affects poor neighborhoods, as I mentioned 
previously, through impacts to transit performance, pedestrian 
safety, and emissions.
    Traffic reduction and revenue generation can greatly 
benefit low-income communities. Going forward, we intend to 
directly involve these communities in the program design 
itself. We will seek input about fee levels, discounts, and how 
to invest net revenues from those most affected, and we will 
explore innovative new approaches, like enabling frequent 
transit riders to earn toll credits for those times when they 
need to drive.
    In conclusion, San Francisco faces a steep challenge with 
congestion and we think a congestion pricing pilot can move the 
city toward a healthier, more equitable future. Our agency and 
ITS America are hopeful that the FAST Act reauthorization will 
maintain policy and grow funding support for pricing 
strategies, as well as for deployment of new technologies.
    Federal support for pricing and technology deployment could 
build on existing programs, like the Advanced Transportation 
and Congestion Management Technologies Deployment program or 
Value Pricing Program, or take the form similar to the 2008 
Urban Partnership Agreements that I mentioned previously.
    Based on the large response to the Smart Cities Challenge a 
few years ago, our region believes demand for congestion relief 
programs will be high. We urge the committee to consider 
expanding this program and to provide flexibility to cities, 
regions, and States in designing our respective solutions.
    Thank you again, and thank you for your leadership. I am 
pleased to answer your questions.
    [Ms. Chang's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Tilly Chang, Executive Director, San Francisco 
     County Transportation Authority, on behalf of the Intelligent 
                   Transportation Society of America
                              Introduction
    Chair Norton, Ranking Member Davis, and Members of the 
Subcommittee, thank you for the opportunity to provide the San 
Francisco County Transportation Authority and Intelligent 
Transportation Society of America's (ITS America) perspectives on 
``Pricing and Technology Strategies to Address Congestion on and 
Financing of America's Roads.''
    My name is Tilly Chang, and I am Executive Director of the San 
Francisco County Transportation Authority (SFCTA). As Congestion 
Management Agency and transportation sales tax administrator for San 
Francisco, the Transportation Authority collaborates with public 
agencies, community groups, and the private sector to improve 
transportation options for residents, local and regional commuters, and 
visitors. Our mission is to make travel safer, healthier, and easier 
for all.
    Our agency's Board of Commissioners are the eleven members of the 
Board of Supervisors of the City and County of San Francisco. As the 
designated Congestion Management Agency (CMA) for San Francisco under 
state law, we have a wide range of responsibilities, including 
prioritizing state and federal transportation funds for San Francisco, 
preparing the long-range Countywide Transportation Plan, and developing 
a computerized travel demand forecasting model and supporting 
databases.
    Before becoming SFTCA's Executive Director in 2013, I served as the 
Transportation Authority's Deputy Director for Planning and held posts 
with the World Bank, Metropolitan Transportation Commission (MTC), and 
a technology startup. I serve on the boards of the California 
Transportation Foundation, San Francisco Bay Area Planning and Urban 
Research Association, and the University of California Transportation 
Centers.
    I also serve on the ITS America Advocacy Trust, which is the 
association's principal policymaking group, where I most recently 
advised on the association's Fixing America's Surface Transportation 
(FAST) Act reauthorization platform: Moving People, Data, and Freight: 
Safer. Greener. Smarter. ITS America's vision is ``A better future 
transformed by intelligent mobility--one that is safer, greener, and 
smarter.'' Our mission is to advance the research and deployment of 
intelligent transportation technologies and solutions to save lives, 
improve mobility, promote sustainability, and increase efficiency and 
productivity. Our focus is policy that accelerates seamless mobility 
technology, connected and automated vehicle technologies, and smart 
infrastructure; policy that breathes new life into our transportation 
infrastructure by expanding investments in technologies that support 
smart communities; and policy that encourages new models and modes of 
transportation, including micro-transit, rideshare, carshare, 
bikeshare, micro-mobility, and unmanned systems. Investments in these 
new modes should also address issues of transportation equity so 
everyone gains access to mobility and opportunity.
    ITS America recognizes that only with investment certainty will 
cities, metropolitan areas, and states see and benefit from 
transformational deployment of intelligent transportation technologies 
that will define the way people, goods, services, and information move 
in the 21st century. To that end, ITS America's Moving People, Data, 
and Freight: Safer. Greener. Smarter. FAST Act reauthorization platform 
supports maintaining federal programs that allow state, metropolitan 
areas, and city congestion pricing strategies.
    The following sections of my testimony are real-world pricing and 
technology use cases in the San Francisco Metropolitan Area. Following 
the use cases are ITS America's FAST Act reauthorization priorities 
that bridge new and exciting infrastructure technologies and new modes 
of mobility that we see across the country with the utmost importance 
of this Congress to make urgent investments to bring our nation's 
transit, roads, bridges, and rail infrastructure to a state of good 
repair and to integrate technology in order to maximize infrastructure 
and mobility efficiencies and safety through a timely reauthorization.
   Pricing and Technology Strategies: Reduce Traffic, Improve Public 
                      Health, and Increase Equity
    Congestion in San Francisco has reached record levels: whether on 
Muni buses or in private cars, commuters average 5-10 mph on our city 
streets during peak periods.\1\ Rising population and job growth--
combined with a growing presence of ride-hail vehicles--has resulted in 
clogged streets, particularly in our downtown, South of Market and 
Eastern neighborhoods. We are studying congestion pricing 
implementation options because this strategy has the potential to 
dramatically reduce traffic, improve public health and increase 
equitable access for our community.
---------------------------------------------------------------------------
    \1\ SFCTA, 2017 Congestion Management Program, https://
www.sfcta.org/sites/default/files/2019-03/CMP_2017_12.05.17.pdf
---------------------------------------------------------------------------
    Given our city's long-standing Transit First Policy, San Francisco 
has deployed multiple transit, bicycling and pedestrian improvement 
strategies, and paired these with land use, parking and managed lanes 
initiatives, to tackle congestion. However, with the addition of 80,000 
residents \2\ and over 150,000 jobs \3\ since 2010, and the rise of 
transportation network companies (TNCs), San Francisco is experiencing 
significant levels of congestion on our roadways. In a typical year, 
San Francisco commuters are estimated to spend 116 hours (or almost 3 
work weeks) stuck in traffic.\4\
---------------------------------------------------------------------------
    \2\ https://sf.curbed.com/2018/3/26/17165370/san-francisco-
population-2017-census-increase
    \3\ https://www.sfcta.org/sites/default/files/2019-05/
TNCs_Congestion_Report_
181015_Finals.pdf
    \4\ http://inrix.com/scorecard/
---------------------------------------------------------------------------
    Apart from the economic cost of this congestion, we are concerned 
about the safety, public health and equity impacts of gridlock. On 
average, a Muni bus travels at one half to two-thirds the speed and 
reliability of private vehicles on our downtown streets, while carrying 
40 times more people of lower than average incomes. High volumes of 
vehicles also contribute to San Francisco's record high numbers of 
severe and fatal crashes involving pedestrians and cyclists (here San 
Francisco's troubling trends mirror national ones \5\), which our 
Vision Zero policy seeks to eradicate.\6\ And, in addition to 
generating heavy loads of particulate emissions affecting freeway 
adjacent neighborhoods, rising vehicle use and congestion makes the 
transportation sector the largest component of greenhouse gas emissions 
in our city and state. In San Francisco, due to the clean profile of 
our stationary sources energy use, the transportation sector accounts 
for 46% of greenhouse gas emissions.\7\
---------------------------------------------------------------------------
    \5\ https://www.nytimes.com/2019/03/07/us/pedestrian-
deaths.html?auth=login-email&login=email&module=inline, ``An estimated 
6,227 pedestrians were killed in traffic in 2018, according to the 
study from the Governors Highway Safety Association, a projection based 
on data from the first half of the year. That figure represents a 
striking rise from a decade earlier, when 4,109 pedestrians were killed 
in traffic.''
    \6\ https://www.visionzerosf.org/
    \7\ SF Department of the Environment, San Francisco Climate Action 
Plans 2014-2017
---------------------------------------------------------------------------
    For this reason, with the help of Federal, state and regional 
funding partners, we are investing heavily in rail expansion for Bay 
Area Rapid Transit (BART), our local Muni, and Caltrain, and adding 
signal priority and dedicated lanes for buses and bicycles. We are 
emphasizing safer streets in pursuit of our Vision Zero goals and 
changing land use polices to reduce parking requirements and vehicle 
miles traveled (VMT). But as I noted in a news article earlier this 
year, all of this has not been enough.\8\ Hundreds of thousands of 
commuters, on Muni buses and in cars, experience gridlocked conditions 
on typical weekday peak periods in our city's core.
---------------------------------------------------------------------------
    \8\ https://www.nytimes.com/2019/04/01/nyregion/new-york-
congestion-pricing.html, ``Everyone agrees there's a [congestion] 
problem. There are multiple views of the solution. But frankly, we've 
tried a lot of them and they're not enough.''
---------------------------------------------------------------------------
    While a significant portion of this chronic on-street congestion in 
San Francisco is due to economic growth, a comparable contributor is 
the rise of ridehail trips by transportation network companies (TNCs). 
In our 2017 report ``TNCs Today,'' we estimate that on an average 
weekday, about 170,000 ridehail trips operate on our streets, 
accounting for about 1 in 4 trips downtown and 15% of intra-city 
(local) daily trips, citywide.\9\ Our TNCs and Congestion report 
subsequently estimated that about 50% of the rise of congestion in San 
Francisco between 2010 and 2016 was due to the growth of ridehail 
services and that TNC trips account for 25% of total 2016 citywide 
congestion.\10\ Recently released trip figures from Uber and Lyft 
themselves indicate that San Francisco TNC trip activity exceeds our 
2017 estimates, likely due to the addition of two years of trip growth 
and the inclusion of all San Francisco trips, including regional trips 
with one trip end outside of San Francisco.\11\ The benefits of 
ridehail are numerous in many areas, but for San Francisco, the impacts 
are great as well, in terms of induced traffic, conflicts with 
pedestrians, bus and bicycle lanes, and erosion of public transit 
ridership.\12\
---------------------------------------------------------------------------
    \9\ SFCTA, TNCs Today, 2017, https://www.sfcta.org/projects/tncs-
today
    \10\ SFCTA, TNCs and Congestion, 2018, https://www.sfcta.org/
projects/tncs-and-congestion
    \11\ https://www.citylab.com/transportation/2019/08/uber-lyft-
traffic-congestion-ride-hailing-cities-drivers-vmt/595393/
    \12\ Regina R. Clewlow and Gouri Shankar Mishra, ``Disruptive 
Transportation: The Adoption, Utilization, and Impacts of Ride-Hailing 
in the United States'', UC Davis, October 2017.
---------------------------------------------------------------------------
    With limited ability for San Francisco to regulate ridehail 
companies (due to California Public Utilities Commission exclusive 
regulatory jurisdiction), recent local plans, studies \13\ and task 
forces \14\ in San Francisco have recommended strategies like 
congestion pricing and a per-ride tax to manage demand and generate 
congestion relief funds to offset the impact of these services. San 
Francisco is currently pursuing both congestion pricing (on all peak 
area motorists) and a per-trip tax measure (citywide). Because our 
workforce is highly regional, we have requested and received funding 
and technical support for our congestion pricing study from the 
Metropolitan Transportation Commission, our regional MPO (metropolitan 
planning organization). The ridehail industry also is generally 
supportive of area-based congestion pricing as a congestion reduction 
strategy, provided all vehicle trips are priced.\15\
---------------------------------------------------------------------------
    \13\ SFCTA, Emerging Mobility Evaluation Report,2018, https://
www.sfcta.org/sites/default/files/2019-03/
Emerging%20Mobility%20Studies_11.pdf
    \14\ San Francisco Transportation 2045 Task Force Report, 2018, 
https://www.sfcta.org/sites/default/files/2019-03/
T2045%20TF%20Report%20for%20TA%20Board_v2.pdf
    \15\ https://www.vox.com/the-goods/2019/8/6/20757593/uber-lyft-
traffic-congestion-pricing
---------------------------------------------------------------------------
    Some experts believe the popularity of ridehail services are a 
precursor of what the future may bring with automated vehicles 
(AV).\16\ Deployed ideally, AVs will result in safety, mobility, 
economic, and environmental benefits. For example, if deployed as 
shared, electric, and affordable fleet-based services, AVs should 
dramatically increase safety, increase the accessibility and efficiency 
of our transportation system and reduce demand for parking and road 
space. On the other hand, the ease, comfort and convenience of AVs 
could induce greater private vehicle travel demand and associated 
vehicle miles of travel (VMT), exacerbating congestion, hindering 
transit performance, and widening equity disparities. This risk 
presages the need to explore management strategies like de-congestion 
pricing and the prioritization of street space for sustainable 
modes.\17\ To avoid further gridlock, SFCTA is investing in dedicated 
infrastructure for walking, bicycling, transit and carpooling and 
studying the best way to implement congestion pricing.\18\
---------------------------------------------------------------------------
    \16\ There are a large number of unknowns about how AVs will impact 
the transportation system. As such, cities and states should retain 
existing roles and responsibilities with respect to the operation of 
AVs or vehicles equipped with automated driving systems to shape and 
manage a range of possible AV futures.
    \17\ https://www.weforum.org/agenda/2019/07/autonomous-vehicles-
driverless-cars-public-transport
    \18\ https://www.sfcta.org/policies/transit-first-policy
---------------------------------------------------------------------------
    In this way, San Francisco is joining cities around the United 
States and the world that are looking to transportation demand 
management, pricing and incentives to help reach safety, climate, 
access, equity and Transit First goals.\19\ In the United States, 
multiple cities are also examining potential applications of area-based 
congestion pricing.
---------------------------------------------------------------------------
    \19\ https://www.sfcta.org/policies/pricing-incentives
---------------------------------------------------------------------------
Pricing and Technology Strategies: Congestion Pricing and Rewards--San 
                         Francisco's Experience
    What is congestion pricing? Congestion pricing is a way to manage 
demand for driving by charging motorists a fee to drive in the most 
congested locations at the most congested times of day (typically AM 
and PM peak). It is one of the most cost-effective tools in our 
congestion management toolbox. Industry best practice is to evaluate 
congestion pricing carefully and inclusively, typically packaging the 
pricing with incentives/rewards, discount and exemption policies, and 
multimodal improvements funded by the pricing program itself.
    Below is a summary of key San Francisco pricing-related programs 
and initiatives:
    1.  SFMTA SFpark Program--In the late 2000's, during the Bush 
Administration and under U.S. Secretary of Transportation Mary Peters, 
SFCTA, the MTC and our sister agency the San Francisco Municipal 
Transportation Agency (SFMTA) applied for and received a Federal Urban 
Partnership Program grant.\20\ This grant allowed SFMTA to develop and 
test its SFpark parking management system at 7,000 metered spaces and 
12,250 spaces in city-owned parking garages.\21\ The SFpark pilot 
collected and distributed real-time information about available parking 
so that drivers can quickly find open spaces. To help achieve the ideal 
level of parking availability, SFpark periodically adjusts meter and 
garage pricing up and down to match demand. Demand-responsive pricing 
encourages drivers to park in underused areas and garages, reducing 
demand in overused areas. Through SFpark, real-time data and demand-
responsive pricing work together to readjust parking patterns in the 
city so that parking is easier to find. As a federally-funded 
demonstration of a new approach to managing parking, the SFpark project 
collected an unprecedented data set to enable a thorough evaluation of 
its effectiveness.\22\ A main finding of the evaluation was that, even 
as the economy, population, and overall parking demand grew, parking 
availability improved dramatically in SFpark pilot areas. The target 
parking availability (60-80% occupancy) increased by 31 percent in 
pilot areas, compared to a 6 percent increase in control areas. Federal 
funding through the Department of Transportation's Urban Partnership 
Program paid for 80 percent of the SFpark project.
---------------------------------------------------------------------------
    \20\ https://ops.fhwa.dot.gov/congestionpricing/agreements/docs/
termsheetsanfran.htm
    \21\ https://www.sfmta.com/projects/sfpark-pilot-program
    \22\ https://www.sfmta.com/getting-around/drive-park/demand-
responsive-pricing/sfpark-evaluation
---------------------------------------------------------------------------
    2.  2010 Congestion Pricing Feasibility Study--In 2007, after 
visiting officials in Stockholm and seeing the success of their cordon 
pricing system, our agency received a federal Value Pricing Pilot 
Program grant to study downtown cordon pricing in San Francisco. The $1 
million VPPP grant was key to our ability to conduct inclusive 
community outreach and thorough technical studies on potential pricing 
program designs. The San Francisco Mobility Access and Pricing study 
found that an area-pricing program would be feasible and effective and 
recommended a ``northeast cordon'' pilot, with peak period charges of 
$3/crossing and a series of discounts for residents of the zone and 
low-income motorists. This program was estimated to reduce peak period 
vehicle trips by 12%, increase bus speeds by 20-25%, generate net $80M/
year in revenues toward funding a multi-modal package of transit, 
bicycling and mobility improvements, and ultimately to reduce daily 
emissions by about 16%.\23\
---------------------------------------------------------------------------
    \23\ SFCTA, Mobility Access and Pricing Study, 2010, https://
www.sfcta.org/projects/downtown-congestion-pricing
---------------------------------------------------------------------------
    3.  2011 Treasure Island Development and Transportation Improvement 
Plan--In 2011, San Francisco approved a large multi-use development on 
Treasure Island that includes congestion pricing as a way to manage 
demand for driving and fund robust investment in bus, ferry and non-
motorized infrastructure across the Island. Following passage of state 
legislative authority to implement congestion pricing on the Island, 
SFCTA (acting as the Treasure Island Mobility Management Agency) became 
the administrator of the transportation program in 2014 and continues 
to develop the toll system and transit service and affordability 
program, as well as to lead a Federally-funded (2016 ACTMTD grant, 
awarded to SFMTA) on-Island tolling system and Autonomous Vehicle 
Shuttle pilot project.\24\
---------------------------------------------------------------------------
    \24\ https://www.sfcta.org/projects/treasure-island-transportation-
program
---------------------------------------------------------------------------
    4.  2017 BART Perks Rewards Program and Pilot--BART Perks was a 
six-month federally-funded (VPPP) test program led by SFCTA in 
partnership with BART to explore the use of incentives and rewards to 
reduce crowding on BART. The goal of the program was to see if small 
incentives could effectively encourage people to ride outside of the 
morning rush. The pilot found that incentives can successfully shift 
the travel behavior of BART riders. Evaluation studies found that of 
the 2,600 Perks participants who had traveled during the peak hour each 
day before the program, an average of 250 Perks participants each 
weekday (about 10%) shifted their ride to either before or after the 
peak morning rush hour. That amounts to the equivalent of two full BART 
cars being freed up each weekday morning during BART's busiest 
hour.\25\
---------------------------------------------------------------------------
    \25\ SFCTA, Evaluation Findings from the BART Perks Program, 2018, 
https://www.sfcta.org/projects/bart-perks-test-program
---------------------------------------------------------------------------
    5.  2017-2019 Managed Lanes Studies (ongoing)--Like other counties 
and regions, we are also leading express lane studies for US101-I-280 
within San Francisco, in partnership with Caltrans and MTC.\26\ Express 
lanes are a system of freeway lane management that aims to improve 
reliability and efficiency (people throughput) of regional highways by 
allowing transit and carpool trips to use the lane for free, and solo 
travelers to use the lane for a fee. The fee level is typically 
dynamically set to maintain reliable travel times and reliability of 
the lane. Net revenues may be invested in public transit services in 
the corridor (regional and local public bus services). Our board has 
asked that equity analyses and transit service planning be integrated 
into our managed lanes studies to ensure a comprehensive and equitable 
approach, going forward.
---------------------------------------------------------------------------
    \26\ SFCTA, Freeway Corridor Management Study Phase 2 Final Report, 
2018, https://www.sfcta.org/projects/101280-carpool-and-express-lane-
project
---------------------------------------------------------------------------
    6.  2019 Congestion Pricing Update--Finally, we are currently 
updating our prior study of cordon pricing for the northeast quadrant 
of San Francisco. We believe a program that utilizes pricing and 
incentives can greatly improve system efficiency (person/goods 
movement), effectiveness (improving reliability, travel times, travel 
options) and equity (reducing emissions, increasing public health, 
advancing equity). Two new aspects to this study compared with the 
prior 2010 study will be how to address TNCs and new mobility modes and 
how to bring incentives and rewards into the program design. While 
other cities are looking to congestion pricing to raise revenue as well 
as to manage demand, we remain focused on reducing private vehicle 
demand, with net revenue--which can fund increased transit service and 
bicycle/pedestrian and circulation improvements as well as equity 
investments--as an important, but secondary, objective.
  Pricing and Technology Strategies: Making Sure Pricing Programs are 
                                  Fair
    One concern that our SFCTA Board and members of the public express 
is whether the use of price to manage transportation demand is fair. An 
important consideration is to consider the status quo. Inequities have 
long been ingrained in our transportation system, as noted in the 2019 
TransForm report `Pricing Roads, Advancing Equity.' Vulnerable 
communities--which include low-income households, people of color, and 
those disadvantaged due to ability, age, or other factors--have long 
borne the brunt of negative transportation impacts while paying a 
proportionally larger share of their income to get where they need to 
go--especially if they are automobile dependent--the report states.
    With careful design and inclusive public involvement, we believe 
transportation pricing can make San Francisco's transportation system 
more equitable.\27\ At the request of our Board, our Downtown 
Congestion Pricing Update study will begin with data collection and 
analysis to better understand who is driving in the peak (our 2010 
study estimated that less than 5% of peak period motorists had annual 
incomes below $50,000/household), designing for equitable impacts, and 
involving communities of concern and stakeholder who are most impacted 
by vehicle congestion from the start.
---------------------------------------------------------------------------
    \27\ Assistant Professor Michael Manville, UCLA and 100 Hours 
Campaign ``Is congestion pricing fair to the poor?'', 2017, https://
medium.com/100-hours/is-congestion-pricing-fair-to-the-poor-
62e281924ca3
---------------------------------------------------------------------------
    A best practice for ensuring an equitable pricing program is to 
combine a fee with subsidies, discounts, and/or incentives that 
specifically help disadvantaged travelers. Another common practice is 
to use pricing revenues to pay for more sustainable transportation 
modes such as transit, walking, and biking. A few examples include:
    <bullet>  Targeted Re-investment of Fees: Prioritize revenue from 
congestion fees for services and improvements benefitting low-income 
travelers and affected neighborhoods such as increased bus service, 
lighting, and safer streets.
    <bullet>  Subsidies: People with low incomes receive a subsidy to 
offset the costs of a pricing system. For example, Los Angeles Metro's 
Low-Income Assistance Plan for the region's express lanes provides $25 
in toll credits and waives monthly fees for low-income customers.
    <bullet>  Discounts: People with low incomes, disabilities or clean 
air vehicles pay a discounted rate.
    <bullet>  Incentives: People with low incomes accrue credits after 
taking a certain number of trips on transit and can use those credits 
to pay for pricing fees, transit, or other services like bikeshare.
  San Francisco Pricing and Technology Strategies: Who is Leading and 
                            Who's Involved?
    SFCTA is the County Congestion Management Agency for San Francisco 
and is leading several of the aforementioned pricing and demand 
management studies and projects, in partnership with local, regional 
and, in some cases, state agencies. With regional commuters comprising 
60% of our workforce, it is critical to ensure coordination with other 
agencies and adjacent communities.
    <bullet>  Downtown Congestion Pricing Study Update--SFCTA is 
leading the study in collaboration with key partners City and County of 
San Francisco (CCSF) /SFMTA and MTC and involvement of several regional 
and state agencies including Caltrans. State legislative authority is 
required to implement the project.
    <bullet>  Treasure Island Transportation Improvement Program--SFCTA 
acting as the Treasure Island Mobility Management Agency (TIMMA) is 
implementing the Treasure Island mobility management and congestion 
pricing program, in partnership with the Treasure Island Development 
Authority.
    <bullet>  US101/I-280 Managed Lanes--SFCTA is leading the San 
Francisco network study, in coordination with Caltrans (freeway owner), 
MTC (Regional network planning lead) and San Mateo and Santa Clara 
counties (US101 corridor partners).
  Pricing and Technology Strategies: Technology in Congestion Pricing/
                         Congestion Management
    Technology innovation is enabling rapid and robust congestion 
management solutions that were previously out of reach in terms of cost 
or otherwise infeasible. New solutions bring the possibility and 
promise of expanding mobility choices and filling access gaps. We at 
SFCTA are particularly excited about first/last mile services to 
complement mainline transit networks, and highly customer-oriented 
integrated payment and trip planning/booking systems known as Mobility 
as a Service (MaaS). We are also preparing to test autonomous shuttles 
on Treasure Island.
    Technology is not a silver bullet, though, and some new services 
have the potential to hinder rather than help cities' abilities to 
reach their goals. Successful transitions require the public sector to 
have clear goals, willingness to engage/pilot, capacity to regulate and 
lead initiatives, and strong ground rules and research/transparency at 
this early stage to inform policy. San Francisco transportation 
agencies (SFCTA, SFMTA) have invested in staff, research and tools to 
help manage this transition and our policy boards have adopted 10 
Emerging Mobility Services and Technology goals and objectives to 
anchor our city's new mobility policy framework and preliminary sector 
evaluation.\28\ These are informing implementation policies, permit 
systems and pilots.
---------------------------------------------------------------------------
    \28\ SFCTA, Emerging Mobility Evaluation Report, 2018, https://
www.sfcta.org/policies/emerging-mobility
---------------------------------------------------------------------------
    In addition to congestion pricing, we are interested in safety, 
customer focused, mobility on demand, and system efficiency-oriented 
innovations including:
    1.  Inter-operability and standardization
    2.  Curb management solutions
    3.  Integrated payments (Mobile Wallet)
    4.  Trip planning/booking apps
    5.  Modernization and enhancement of public transit
    6.  Shared, Electric, Automated shuttles for first/last mile public 
transit access
    7.  Bicycle and micromobility infrastructure
    8.  Strong data transparency, community-based pilots and data-
driven research

    The recent Senate Environment and Public Works Committee proposal 
for reauthorization of the FAST Act proposes to continue a federal 
commitment to support innovative approaches to solve pressing 
congestion and mobility challenges. The proposal included a new $40 
million discretionary congestion relief program to fund integrated 
congestion management, pricing strategies, operation of mobility 
services, incentives programs to carpool or shift travel to non-peak 
periods, as well as other innovative solutions. This program could 
provide opportunities for regions and jurisdictions like San Francisco 
to pilot cost-effective near-term demand management strategies and 
document results for federal program evaluation and dissemination.
    In fact, given the growing number of cities that are studying this 
strategy, an even larger program may be desirable. The following 
federal programs have provided valuable funding and technical support 
to San Francisco pricing studies and pilots:
    <bullet>  FHWA Value Pricing Pilot Program, which provided 
incentives in support of congestion pricing programs. San Francisco has 
been fortunate to receive several VPPP grants including a 2007 grant 
for our congestion pricing feasibility study (Mobility Access and 
Pricing Study), multiple innovative parking program grants through the 
UPA (2008, 2011, 2012), priced electric-assist bicycle sharing (2011), 
BART Perks (completed 2018) and the Treasure Island Mobility Management 
study (2012).
    <bullet>  FHWA Urban Partnership Agreement/Congestion Reduction 
Demonstration Program (2007-2009) which funded $80 million of pricing 
projects that focused on the 4 Ts:
        <bullet>  Tolling or other pricing
        <bullet>  Transit
        <bullet>  Telecommuting, including additional TDM strategies
        <bullet>  Technology
       San Francisco received a UPA grant to support SFpark variable 
pricing program among other activities.

    One of the most important components of the UPA program was the 
inclusion of bus and bus facilities grants to help ensure adequate 
transit capacity to support demand mode shifts for pricing projects. A 
successful congestion pricing program must provide increased transit 
service on Day 1, and these grants provide critical capacity to handle 
mode shifts from private car travel to public transportation on Day 1 
of a pricing pilot.
  Pricing and Technology Strategies: Advancing the Next Generation of 
                                Mobility
    Rapid technological change is transforming the options for travel, 
and the federal government can play a key role supporting efforts to 
help fund, research, test and evaluate new mobility deployments. The 
next federal transportation bill could advance study and 
experimentation using new mobility technology by sustaining and 
expanding initiatives established by the FAST Act:
    <bullet>  The FHWA Advanced Transportation and Congestion 
Management Technologies Deployment program funds competitive grants to 
pilot large scale installation and operation of advanced transportation 
technologies to improve safety, efficiency, system performance, and 
cost effectiveness. San Francisco (SFMTA) received $10.9 million under 
this program to advance congestion pricing, carpooling and ridesharing, 
smart connected traffic signals, and dynamic curb management. The SFCTA 
received a portion of these funds to install tolling equipment and 
pilot an automated shuttle service for Treasure Island and Yerba Buena 
Island in support of the Treasure Island Transportation Improvement 
Program.
    <bullet>  The FTA Integrated Mobility Innovation program funds 
projects that demonstrate innovative and effective practices, 
partnerships, and technologies to enhance public transportation 
effectiveness, increase efficiency, expand quality, promote safety, and 
improve the traveler experience. It includes the Mobility on Demand 
Sandbox Project program for local jurisdictions to pilot new mobility 
concepts and solutions in real time, including bike- and car-sharing 
systems, demand-responsive bus services, and projects that provide 
travelers with flexible and convenient transportation options.
    <bullet>  The FHWA Surface Transportation System Funding 
Alternatives program funds grants to test new ways to finance highway 
and bridge projects, with the 2018 round supporting an exploration of 
how California's Road Usage Charge program could connect with emerging 
technologies and services, specifically TNCs and autonomous vehicles. 
As a self-help county, we are interested in studying congestion pricing 
as a way to supplement federal aid revenues, under this program.

    Public sector agencies need this type of funding to support 
piloting and evaluation of new mobility services and technologies that 
provide both opportunities and challenges. Federal support for public 
involvement, research, analysis, and demonstration pilots are essential 
to ensure that states, regions and localities can develop policies for 
integrating new mobility services into our existing transportation 
systems effectively.
 ITS America's Fast Act Reauthorization Platform: Moving People, Data, 
                              and Freight
    Given the title and focus of the hearing is ``Pricing and 
Technology Strategies to Address Congestion on and Financing of 
America's Roads,'' and with Congress increasingly focused on the 
reauthorization of the FAST Act, the balance of my written testimony 
encompasses ITS America's FAST Act Reauthorization Platform: Moving 
People, Data, and Freight. Moving People, Data, and Freight.
Increase Investment in Research and Deployment of Intelligent 
        Transportation Technologies
    Intelligent transportation technologies advance transportation 
safety and mobility, reduce congestion, improve air quality, and 
enhance American productivity by integrating advanced technologies into 
transportation infrastructure, operations, and vehicles. The Moving 
People, Data, and Freight investment policy supports the solvency of 
the Highway Trust Fund; the transition to a long-term and sustainable 
revenue source for transportation; and a national VMT pilot. In 
connection with a national VMT pilot, the platform recommends that 
large freight shippers participate and examines whether fleet 
telematics can be used as a method of data collection.
    The platform supports increased funding for research, development, 
and demonstration of Intelligent Transportation Systems (ITS) 
technology; maintaining federal programs that allow state, metropolitan 
areas, and city congestion pricing strategies; and increased funding 
for ITS programs to streamline the movement of goods beginning at ports 
and continuing through the multimodal supply chain, including freight 
ITS and digital infrastructure systems.
    ITS America strongly supports the Advanced Transportation and 
Congestion Management Technologies Deployment (ATCMTD) program. San 
Francisco was fortunate to receive one of the first set of grants for 
testing autonomous shuttles and implementing congestion pricing on 
Treasure Island.
    The ITSA platform supports increasing the funding and federal share 
to 80%. Moving People, Data, and Freight recommends increasing the 
federal share to 100% for safety critical connected vehicle 
technologies including Vehicle-to-Vehicle (V2V), Vehicle-to-
Infrastructure (V2I), and Vehicle-to-Pedestrian (V2P) under ATCMTD. ITS 
America supports policy that makes V2P technologies an eligible 
activity under ATCMTD. Moving People, Data, and Freight recommends 
authorizing and dedicating separate funding for ATCMTD. Under the FAST 
Act, the ATCMTD program has been funded through a set-aside from the 
Highway Research and Development, Technology and Innovation Deployment 
and Intelligent Transportation System Research programs, which has 
resulted in a reduction of transportation research and development that 
has historically propelled United States leadership in areas such as 
connected and automated vehicle development and the emerging area of 
artificial intelligence in mobility management.
Safeguard Transportation Infrastructure from Cybersecurity Threats
    As vehicles and infrastructure become more connected, our nation's 
transportation system faces increasing cybersecurity risks. Given the 
ability to cause loss of life and inflict significant economic damage 
in a highly visible manner, cybersecurity attacks directed at those 
producing or operating technologies travelling over or connected to 
U.S. roadways will intensify. ITS America supports policy that would 
provide states and localities funding and technical assistance under 
federal-aid highway programs, federal public transportation programs, 
and ATCMTD to safeguard critical transportation systems that are more 
reliant than ever on connectivity to communicate and exchange data from 
cybersecurity threats.
Grow Investments in Vehicle-to-Pedestrian Technologies
    The U.S. Department of Transportation is working with industry, 
safety, and public sector stakeholders to develop and evaluate 
cooperative technologies, equipment, and applications known as 
Connected Vehicle (CV) technologies that operate in the 5.9 GHz band, 
inclusive of V2V (vehicle to vehicle), V2I (vehicle to infrastructure), 
and V2P (vehicle to pedestrian)--collectively referred to as Vehicle-
to-Everything (V2X). This includes all V2X technologies--Dedicated 
Short Range Communications (DSRC) as well as Cellular vehicle-to-
everything (C-V2X)--because these technologies can be configured to 
enable real-time crash-avoidance alerts and warnings, offering a 
significant opportunity to transform transportation safety.
    As mentioned earlier, we are seeing record crashes involving 
pedestrians in San Francisco and nationally. Pedestrian deaths 
increased by an estimated 4 percent and ``pedalcyclist'' deaths 
increased by an estimated 10 percent in 2018, according to NHTSA's 
preliminary statistics. V2X will enable deployment of safety solutions 
to protect vulnerable users of the system. By allowing vehicles to 
communicate with these users through sensors or vehicle-to-device 
communication, we can significantly reduce the number of people killed 
on our roadways. V2P encompasses a broad set of road users--people 
walking, children being pushed in strollers, people using wheelchairs 
or other mobility devices, passengers embarking and disembarking buses 
and trains, and people riding bicycles and scooters. ITS America 
recommends expanding eligibility under the Advanced Transportation and 
Congestion Management Technologies Deployment (ATCMTD) program to 
include V2P technologies.
Expand Investment in Advanced Mobility Improvements
    ITS America supports expanding eligibility under highway programs 
to include advanced mobility safety improvements including data 
infrastructure and analysis, smart mobility improvements such as smart 
truck parking, smart work zones, smart pavements, predictive analytics 
platform, and build out of electric vehicle charging stations, hydrogen 
fueling infrastructure, natural gas fueling infrastructure, and other 
alternative fuels.
Plan for Transformative Transportation Technologies
    States, providers of public transportation and Metropolitan 
Planning Organizations (MPOs) are expanding beyond traditional long-
range scenario planning, which holds fixed certain transportation and 
land use assumptions, to consider big questions facing the 
transportation system including whether connected and automated 
vehicles will increase the vehicle capacity of existing highway lanes; 
how automation and active transportation connections might help solve 
the first mile/last mile transit challenge, what roadway investments 
could incentivize the shift to connected and automated vehicles, how to 
make sure the entire transportation system is working together, and how 
to expedite technology safety benefits. Increased funding and 
flexibility will help planners analyze project performance across a 
range of different futures, including ensuring all modes of 
transportation work in concert, which will lead to more informed 
project prioritization that maximizes the benefits of connected and 
automated technologies.
    The Metropolitan Transportation Commission (MTC), the metropolitan 
planning organization for the San Francisco Bay Area, has undertaken 
Horizon, a new effort to plan for, and help shape, a range of possible 
connected and automated vehicle futures. By expanding beyond 
traditional long-range scenario planning, which holds fixed certain 
transportation and land use assumptions, Horizon will help inform big 
questions facing the transportation industry, such as:
    <bullet>  Will connected and automated vehicles substantially 
increase the vehicle capacity of existing highway lanes? If so, does it 
make sense to add additional physical capacity today?
    <bullet>  How might automation help solve the first-mile/last-mile 
transit challenge, reducing barriers to transit ridership? What type of 
investments are needed to get us there?
    <bullet>  What roadway investments could incentivize the shift to 
connected and automated vehicles and expedite short-term safety 
benefits?

    Ultimately, this effort could help planners analyze project 
performance across a range of different futures and lead to more 
informed project prioritization. Though the benefits may be 
significant, this planning effort requires substantial time and 
resources. Additional federal planning funds and flexibility to 
experiment with innovative initiatives like Horizon could support 
transportation planners in efforts to maximize the benefits of 
connected and automated technologies.
Establish a Mobility on Demand (MOD) Program for the New World of 
        Mobility
    In the 21st century, mobility is less about moving vehicles and 
more about moving people, data and freight. Long-existing silos among 
cities, states, counties, road and transit agencies are disappearing; 
and private mobility service providers barely existed a decade ago. 
More choices exist now, but for people to fully realize the benefits of 
this new world of mobility, it must be easier to choose which option 
best meets their needs. This also means services that are accessible 
for every traveler and in all communities and neighborhoods.
    In cities, MOD offers convenient, affordable, and, in the case of 
bikeshare, rideshare or micromobility services, more sustainable 
alternatives to driving within congested environments. For suburban 
areas, MOD offers first mile/last mile accessibility to transit, as 
well as more dynamic on-demand services to get around town. While often 
seen as an urban/metro transportation solution, MOD deployed in rural 
areas also provides first mile/last mile (though more like first/last 
50 miles) connections to transit, intercity bus and rail transport, and 
essential air service airports. Rideshare and ride sourcing is 
providing support for seniors to access social and health services. 
Micromobility services offer options to travel in town. MOD include 
bikeshare and scooter share deployments on college campuses. New and 
improved MOD transit and paratransit services also can benefit rural 
communities.
    Moving People, Data, and Freight supports establishing MOD program 
that encourages flexibility within federal transportation programs to 
meet changing mobility needs including partnerships with companies 
offering shared-use trips (car, bicycle, new mobility modes), data 
management, and other technology companies for first mile/last mile 
services, the integration of mobility services and technologies, and 
new fare technologies. ITS America supports the integration of MOD 
programs with public transportation that fosters the efficient use of 
capacity, enhances management of new modes of mobility, and promotes 
the creation of innovative planning tools.
    Please read ITS America's full FAST Act reauthorization at 
www.itsa.org.
                               Conclusion
    In conclusion, the transportation sector in San Francisco and 
communities across the nation are undergoing historic transformations 
with the promise of greatly boosting the safety, access, equity, and 
sustainability of our transportation system. We in San Francisco 
believe that strong federal policy and funding support can help states, 
regions and localities explore cost-effective congestion reduction 
solutions like congestion pricing and rewards, as well as bolster road 
user fee initiatives like mileage-based Road User Charge programs that 
build upon our primary but declining transportation funding mechanism: 
the gas tax. With San Francisco's Transit First, Vision Zero, Climate 
and Equity goals serving as our durable North Star, we remain 
optimistic that aspirational but achievable policies are within reach 
with effective federal, state, local and private sector partnerships.
    Thank you again for the opportunity to testify today, and I am 
happy to answer any questions you may have.

    Ms. Norton. Thank you very much, Ms. Chang.
    Next we will hear from Mr. Darren Hawkins, CEO of YRC 
Worldwide Inc., speaking on behalf of the American Trucking 
Associations.
    You can proceed, please.
    Mr. Hawkins. Chair Norton, Ranking Member Davis, Chairman 
DeFazio, and members of the subcommittee, thank you for 
providing me with the opportunity to testify on behalf of the 
American Trucking Associations.
    And a special thanks to Congresswoman Davids for the intro 
and also for the representation in Kansas where we have 1,200 
employees in 6 specific operations.
    I am CEO of YRC Worldwide, one of the Nation's largest 
trucking companies. We have 380 terminals nationwide and employ 
31,000 nonunion and union people across the country. Each year 
we transport 20 million shipments with our 14,000 tractors and 
45,000 trailers.
    Given that this is National Truck Driver Appreciation Week, 
I would also like to offer a special thanks to our professional 
drivers and all truckdrivers who work hard to deliver 71 
percent of America's freight.
    While the trucking industry is willing to pay its fair 
share for infrastructure improvement, we believe that tolls are 
not the right solution and, in fact, can be very harmful to our 
industry, our customers, and ultimately to all consumers. ATA 
does not oppose toll financing of new interstate highway lanes, 
nor do we oppose the conversion of HOV lanes to HOT lanes. Our 
concern is with the tolling of existing general-purpose 
interstate highways.
    Tolling has very high collection costs relative to other 
highway user fees. A recent study found that converting all 
interstates into tollroads would cost more than $55 billion. 
While the cost of collection has come down with the 
introduction of transponders, costs can still exceed 10 
percent.
    On some major toll facilities these costs are much higher. 
On the Ohio turnpike, for example, 19 cents out of every dollar 
is spent collecting tolls, while the Pennsylvania turnpike's 
collection costs exceed 20 percent. Contrast this with the 0.2-
percent cost of collecting Federal fuel taxes.
    Of the $37 billion in Federal fuel tax revenue collected in 
2017, just $75 million went to collection. Compare this with 
the Pennsylvania turnpike, which in 2016 spent more than $212 
million to collect just over $1 billion.
    Clearly the waste that goes into collecting a toll is 
simply unacceptable when far more efficient alternatives are 
available. Our user fees should be allocated to build roads and 
bridges, not to pay excessive tollroad administrative fees, 
especially at a time when the American Society of Civil 
Engineers gives our roles a D grade and our bridges a grade of 
C-plus.
    Another significant problem is diversion of traffic to 
alternative routes. These routes are likely to be less safe and 
not as well-constructed as the tolled highway.
    It is often claimed that one advantage of tolls is that it 
is a true user fee. Motorists pay to use the facility, and the 
tolls cover the cost. In practice, this is not always the 
reality. In most cases Federal law allows States to shift 
excess tolling revenue to any title 23-eligible purpose. This 
results in tollpayers bankrolling projects that they may not 
benefit from.
    In addition, because the vast majority of roads can't 
support tolls, a small minority of motorists can be saddled 
with the subsidization of a State surface transportation 
system, regardless of whether the tollpayers benefit.
    Furthermore, States often look for opportunities to target 
motorists with little political power, such as non-State 
residents, particularly trucks engaged in interstate commerce.
    Several States and cities are exploring the use of 
congestion pricing to manage traffic congestion. This might be 
an effective tool for car drivers. However, since it is the 
customer who determines pickup and delivery times, often with 
penalties for late deliveries, pricing is not an effective tool 
for influencing truck travel choices.
    Today's e-commerce-driven supply chain sets the timeline in 
motion, and it will not be influenced by tolling. Therefore, 
pricing has very little impact on congestion caused by trucks.
    While ATA flatly opposes tolls on existing interstates and 
would prefer the elimination of all related Federal tolling 
authority, we recognize that there is an interest in allowing 
tolls for certain purposes, specifically for very expensive 
bridge and tunnel projects and congestion management.
    ATA has recommended several changes to Federal tolling law 
that will protect the public from the types of abuses I have 
described, while still allowing tolls to be used under some 
circumstances. For example, States should be required to 
disclose the likely impacts of toll diversion on safety, 
congestion, and air quality. In addition, toll rate 
discrimination based on vehicle class or State of residence 
should be outlawed, and tollpayers should not be forced to 
subsidize projects they don't benefit from.
    Finally, it is important to note that tolls will not solve 
the most important challenge facing this subcommittee, the 
impending bankruptcy of the Highway Trust Fund. Failure to 
address the shortfall will continue to induce States to 
consider bad options like tolls. ATA and nearly every 
organization that cares about surface transportation efficiency 
has proposed an increase in the fuel tax to address these 
needs, and we urge your support.
    Thank you again for this opportunity. I look forward to 
your questions.
    [Mr. Hawkins' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Darren D. Hawkins, Chief Executive Officer, YRC 
    Worldwide Inc., on behalf of the American Trucking Associations
    Chair Norton, Ranking Member Davis, and members of the 
subcommittee, thank you for providing me with the opportunity to 
testify on behalf of the American Trucking Associations (ATA).\1\ My 
name is Darren Hawkins, and I am Chief Executive Officer of YRC 
Worldwide Inc., a publicly traded holding company for a portfolio of 
successful less than truckload companies including Holland, New Penn, 
Reddaway, YRC Freight and our newest company, HNRY Logistics. YRC 
Worldwide is headquartered in Overland Park, Kansas, and we have 380 
terminals from coast to coast employing 31,000 people. Annually we 
transport twenty million shipments for our customers with our 17,000 
drivers, 14,000 tractors and 45,000 trailers.
---------------------------------------------------------------------------
    \1\ American Trucking Associations is the largest national trade 
association for the trucking industry. Through a federation of 50 
affiliated state trucking associations and industry-related conferences 
and councils, ATA is the voice of the industry America depends on most 
to move our nation's freight. Follow ATA on Twitter or on Facebook. 
Trucking Moves America Forward.
---------------------------------------------------------------------------
    As CEO of one of the Nation's largest trucking companies I want to 
take a moment to thank our 17,000 professional drivers for their 
commitment to safety. While there is much talk about autonomous trucks, 
the most important safety device in a truck is still a professional 
driver. More than 1,700 of our drivers have over one million 
consecutive accident free miles. Our commitment to safety is not unique 
or even unusual, as the same commitment to safety can be found with our 
fellow ATA member companies.
    I serve on the Executive Committee of ATA, an 86-year-old 
federation that represents every sector of the trucking industry, with 
affiliates in all 50 states. The federation has members in every 
Congressional district and every community. More than 80 percent of 
U.S. communities rely exclusively on trucks for their freight 
transportation needs. Trucking is the lifeline that connects all modes 
of freight transport in support of the American economy.
    Madam Chair, we very much appreciate this opportunity to focus 
attention on the spread of toll roads. While the trucking industry is 
willing to pay its fair share for infrastructure improvement, we 
believe that tolls are not the right solution, and in fact can be very 
harmful to our industry, customers and ultimately, to consumers. My 
testimony will explain why toll roads are a poor revenue source for 
highways and how Congress can reform existing federal laws to better 
protect the public from their negative effects.
                         The Trucking Industry
    This year the trucking industry will move 71 percent of the 
nation's freight tonnage, and over the next decade will be tasked with 
moving 2.5 billion more tons of freight than it does today while 
continuing to deliver the vast majority of goods.\2\ Trucks haul 100 
percent of the freight originating in the District of Columbia, and DC 
residents and businesses rely on trucks to deliver 98% of the goods 
coming into the District. More than two-thirds of the freight delivered 
to and from Illinois was loaded onto a truck. In 2017, the goods moved 
by trucks nationwide were worth more than $10 trillion.\3\ The trucking 
industry is also a significant source of employment, with 7.8 million 
people working in various occupations--including 3.5 million drivers--
accounting for every 1 in 18 jobs in the U.S.\4\ Furthermore, ``truck 
driver'' is the top job in 29 states.\5\
---------------------------------------------------------------------------
    \2\ Freight Transportation Forecast 2019 to 2030. American Trucking 
Associations, 2019.
    \3\ 2017 Commodity Flow Survey Preliminary Report. U.S. Census 
Bureau, Dec. 7, 2018.
    \4\ American Trucking Trends 2019, American Trucking Associations.
    \5\ https://www.marketwatch.com/story/keep-on-truckin-in-a-
majority-of-states-its-the-most-popular-job-2015-02-09.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Without trucks, our cities, towns and communities would lack key 
necessities including food and drinking water; there would not be 
clothes to purchase, and no parts to build automobiles or fuel to power 
them. The rail, air and water intermodal sectors would not exist in 
their current form without the trucking industry to support them. 
Trucks are central to our nation's economy and our way of life, and 
every time the government makes a decision that affects the trucking 
industry, those impacts are also felt by individuals and by the 
millions of businesses that could not exist without trucks.
               The Cost of Inaction on the Highway System
    A well-maintained, reliable and efficient network of highways is 
crucial to the delivery of the nation's freight and vital to our 
country's economic and social well-being. However, the road system is 
rapidly deteriorating, and costs the average motorist more than $1,600 
a year in higher maintenance and congestion expenses.\6\ Highway 
congestion also adds nearly $75 billion to the cost of freight 
transportation each year.\7\ In 2016, truck drivers sat in traffic for 
nearly 1.2 billion hours, equivalent to more than 425,000 drivers 
sitting idle for a working year.\8\ At a time when we need more truck 
drivers the prospect of a driver spending a good part of their working 
day stuck in traffic is not an attractive career proposition.
---------------------------------------------------------------------------
    \6\ Bumpy Road Ahead: America's Roughest Rides and Strategies to 
make our Roads Smoother, The Road Information Program, Oct. 2018; 2019 
Urban Mobility Report. Texas Transportation Institute, Aug. 2019.
    \7\ Cost of Congestion to the Trucking Industry: 2018 Update. 
American Transportation Research Institute, Oct. 2018.
    \8\ Ibid.
---------------------------------------------------------------------------
    The Highway Trust Fund (HTF), the primary source of federal revenue 
for highway projects, safety programs and transit investments, is 
projected to run short of the funds necessary to maintain current 
spending levels by FY2021.\9\ While an average of approximately $42 
billion per year is expected to be collected from highway users over 
the next decade, nearly $60 billion will be required annually to 
prevent significant reductions in federal aid for critical projects and 
programs.\10\ It should be noted that a $60 billion annual average 
federal investment still falls well short of the resources necessary to 
provide the federal share of the expenditure needed to address the 
nation's surface transportation safety, maintenance and capacity 
needs.\11\ According to the American Society of Civil Engineers, the 
U.S. spends less than half of what is necessary to address these needs. 
As the investment gap continues to grow, so too will the number of 
deficient bridges, miles of roads in poor condition, number of highway 
bottlenecks and, most critically, the number of crashes and fatalities 
attributable to inadequate roadways.
---------------------------------------------------------------------------
    \9\ The Budget and Economic Outlook 2019-2029, January 2019 
Congressional Budget Office.
    \10\ Ibid.
    \11\ 2015 Status of the Nation's Highways, Bridges, and Transit: 
Conditions & Performance. USDOT, Dec. 2016; see also 2017 
Infrastructure Report Card. American Society of Civil Engineers, 2017.
---------------------------------------------------------------------------
                       Toll Financing of Highways
    While federal law generally restricts states' ability to toll 
existing Interstates (23 U.S.C.  301), there are several exceptions. 
States may use tolls to finance new, reconstructed, or replacement 
bridges or tunnels (23 U.S.C.  129(a)), or apply to the U.S. 
Department of Transportation (USDOT) for authority to toll under two 
pilot programs. The Interstate System Reconstruction and Rehabilitation 
Pilot Program (ISRRPP), authorized under Section 1216(b) of the 1998 
Transportation Equity Act for the 21st Century, allows three states to 
toll one Interstate highway, with revenue to be used for improvement of 
the tolled facility. The Value Pricing Pilot Program, initially 
authorized by Congress in the Intermodal Surface Transportation 
Efficiency Act of 1991, allows up to 15 jurisdictions to apply for 
authority to toll Interstates for the purpose of managing traffic 
demand by adjusting toll rates to a level that reduces peak-hour 
travel.
    ATA does not oppose toll financing to cover the costs of new 
Interstate highway lanes, provided a reasonable toll-free option is 
available. For example, some states have built tolled express lanes 
parallel to existing toll-free lanes. Nor does ATA oppose the 
conversion of high-occupancy vehicle (HOV) lanes to high-occupancy toll 
(HOT) lanes. Our concern is with the conversion of existing toll-free 
general-purpose Interstate highway lanes to a tolled facility. My 
testimony will discuss the general problems with tolling Interstates 
and will then describe specific concerns we have with current federal 
legal exceptions to the general prohibition on Interstate highway 
tolls.
General Concerns with Interstate Tolls
            Collection Costs
    Tolling systems have very high collection costs relative to other 
user fees because there are several necessary components that are 
generally not present or are less onerous in fuel taxes, registration 
fees, license fees, and other common user fees. One study found that 
converting all Interstate highways into toll roads would cost more than 
$55 billion.\12\ A National Academy of Sciences report listed some of 
the potential components that should be considered when determining the 
potential costs of toll collection: \13\
---------------------------------------------------------------------------
    \12\ Renewing the National Commitment to the Interstate Highway 
System: A Foundation for the Future (2018). Transportation Research 
Board, National Academy of Sciences, p. 6-13.
    \13\ Patrick Balducci et all, NCHRP Report 689: Costs of 
Alternative Revenue-Generation Systems, National Cooperative Highway 
Research Program, Transportation Research Board: Washington DC, 2011, 
DOI: 10.17226/14532.
---------------------------------------------------------------------------
    Operational costs:
    <bullet>  Operation and maintenance of tollbooths;
    <bullet>  Operation and maintenance of ETC [electronic toll 
collection] and video tolling systems as well as the related 
information technology hardware and software;
    <bullet>  Customer account management, payment processing, and 
banking charges relating to toll accounts;
    <bullet>  Inventory, distribution, and sale of transponders; and
    <bullet>  Cash counting, transportation and vault services.

    Enforcement costs:
    <bullet>  Catching violators;
    <bullet>  Assessing administrative fees and fines;
    <bullet>  Account settlement before the toll violation reaches 
court; and
    <bullet>  Prosecuting violators (court costs).

    While the cost of toll collection has come down with the 
introduction of electronic toll collection (ETC), according to a 
Congressional Research Service report, collection costs on ETC systems 
can still exceed 10 percent.\14\ On some major toll facilities 
collection costs are much higher. In 2016, for example, toll collection 
costs on the Ohio Turnpike were 19.2 percent, while the Pennsylvania 
Turnpike's collection costs exceeded 20 percent.\15\
---------------------------------------------------------------------------
    \14\ Congressional Research Service. Tolling U.S. Highways and 
Bridges, Aug. 4, 2017.
    \15\ American Transportation Research Institute. A Framework for 
Infrastructure Funding, Nov. 2017.
---------------------------------------------------------------------------
    Contrast this with the cost of collecting fuel taxes. Because fuel 
taxes are collected from just 850 taxpayers nationwide at the terminal 
rack, both collection costs and evasion are extremely low.\16\ In fact, 
one study found that the cost to collect the federal fuel tax is just 
0.2 percent of revenue.\17\ This means that of the $37 billion in 
federal fuel tax revenue collected in 2017, just $75 million went to 
collection costs. Contrast this with the Pennsylvania Turnpike, which 
in 2016 spent more than $212 million to collect just over $1 billion in 
toll revenue. Clearly, from a highway user's perspective, the waste 
that goes into collecting a toll is simply unacceptable when far more 
efficient alternatives are available.
---------------------------------------------------------------------------
    \16\ Congressional Research Service. Tolling U.S. Highways and 
Bridges, Aug. 4, 2017.
    \17\ American Transportation Research Institute. A Framework for 
Infrastructure Funding, Nov. 2017.
---------------------------------------------------------------------------
            Traffic Diversion
    Another significant problem with Interstate highway tolls is 
diversion of traffic to alternative routes. These routes are likely to 
be less safe and not as well constructed as the tolled highway. It is 
well documented that Interstate highways have a lower crash rate than 
the lower-order roadways that vehicles are expected to divert on 
to.\18\ For example, the Massachusetts Department of Transportation 
found that rural Interstates had an average crash rate that is 58 
percent lower than the average for rural roads statewide, while urban 
Interstates were more than 3.5 times safer than the average urban 
road.\19\
---------------------------------------------------------------------------
    \18\ See for example: https://www.mass.gov/service-details/
intersection-and-roadway-crash-rate-data-for-analysis
    http://apps.itd.idaho.gov/apps/ohs/Crash/14/2014RoadClass.pdf.
    \19\ Ibid.
---------------------------------------------------------------------------
    A study that explored the impacts of tolling untolled roads found 
that all nine facilities studied experienced traffic diversion.\20\ The 
report found impacts in the range of -10 to -36 percent of motorists 
diverting from the tolled facilities. One example cited by the study is 
IL-390, previously the Elgin-O'Hare Expressway and now known as the 
Elgin-O'Hare Tollway after it was transferred to the Illinois Tollway 
Authority and tolled in 2016. Even after $3.4 billion in improvements, 
traffic counts on the highway dropped by 23 percent after tolls were 
imposed, sending 45,000 vehicles per day to alternative routes.
---------------------------------------------------------------------------
    \20\ The Tradeoffs of Tolling Untolled Roads. Transportation 
Research Record: Journal of the Transportation Research Board, Volume 
2672, Issue 4, 2018, pp 54-64.
---------------------------------------------------------------------------
    Specifically with regard to the trucking industry, whether a 
carrier decides to avoid a toll road depends on a number of factors, 
including the type of load, delivery deadline, whether the driver or 
carrier determines route choice, and whether the driver or carrier is 
responsible for toll costs. Note that the critical missing element here 
is the shipper. With few exceptions, the shipper is not directly billed 
for toll costs. Therefore the carrier usually bears the cost of the 
toll and has to attempt to recover these costs by either improving 
efficiencies or increasing rates across the carrier's entire customer 
base. This is a crucial factor, particularly when it comes to the 
ability to influence carrier behavior through congestion pricing, which 
will be addressed later.
    While tolling analyses attempt to determine the impacts of tolls on 
trucking diversion using standard value-of-time assumptions, they often 
underestimate diversion by failing to take the above factors into 
consideration.\21\ A survey of truck drivers found wide variation in 
their willingness to avoid paying a toll, with some drivers unwilling 
to lose any time by using an alternative route, and others willing to 
lose an average of 52 minutes in order to avoid a toll payment of any 
amount.\22\
---------------------------------------------------------------------------
    \21\ Toledo, T., Sun, Y., Rosa, K., Ben-Akiva, M., Flanagan, K., 
Sanchez, R. and Spissu, E. (2013), ``Decision-Making Process and 
Factors Affecting Truck Routing.''
    \22\ Ibid.
---------------------------------------------------------------------------
            Unfair Subsidization
    An oft-cited advantage of tolls is that it is a true user fee--
motorists pay to use the facility and the tolls they pay cover the 
costs of that facility. In practice this is often not the reality. 
Except for tolls authorized under the ISRRPP, Federal law allows states 
to shift toll revenue to any Title 23 eligible purpose, provided toll 
facility financing costs have been covered and the state certifies that 
the facility is being adequately maintained. This results in toll 
payers bankrolling all manner of projects that they may not benefit 
from. In addition, because the vast majority of roads cannot support 
tolls, a small minority of motorists can be saddled with the 
subsidization costs of an entire state's surface transportation system, 
regardless of whether the toll payers benefit from this spending. As 
one Congressional Research Service report put it:

        Whether it is built or operated by a government agency or by 
        private investors, a toll road must have sufficient traffic 
        willing to pay a high enough toll to cover construction, 
        maintenance, and toll collection costs if it is to be 
        financially successful. Most roads on the federal-aid system 
        are not likely to pass that test. In rural areas, highways 
        often do not have enough traffic to cover the cost of building 
        toll-collection infrastructure and collecting tolls. Although 
        urban roads typically have more traffic, they may not be able 
        to generate sufficient toll revenue to make the facilities 
        self-sustaining.\23\
---------------------------------------------------------------------------
    \23\ Congressional Research Service. Tolling U.S. Highways and 
Bridges, Aug. 4, 2017.

    Furthermore, states often look for opportunities to target 
motorists with little political power, such as non-state residents--
particularly trucks engaged in interstate commerce--and low-income or 
minority communities. Both of these factors came into play when 
Virginia attempted to use the authority granted by the ISRRPP to toll 
I-95 near the North Carolina border. The tolls would have been placed 
in an area with significant non-state traffic in a location with a 
large low-income minority population. In Rhode Island the bridge 
exemption was used to toll tractor-semitrailers only, and toll rates 
are structured so that they explicitly target out-of-state drivers for 
a disproportionate share of toll revenue.\24\ On the Indiana Toll Road 
(ITR), which carries a significant amount of through traffic, tolls 
have been raised substantially to pay for projects more than 150 miles 
away. When announcing a 35 percent increase in ITR toll rates, the 
Governor explicitly acknowledged that the increases were intended to 
milk non-Indiana residents to pay for projects that primarily 
benefitted Indiana residents, stating: ``The majority of the traffic is 
from out-of-state,'' Holcomb said. ``We're capturing other people's 
money.'' \25\ It is important to note that with the Indiana increase 
the trucking industry's fee will be in part used to support more 
international flights from the Indianapolis Airport and expand rural 
broadband access. At a time when the Highway Trust Fund is nearly broke 
and our bridges and roadways are in critical condition, this form of 
diversion is the worst kind of public policy.
---------------------------------------------------------------------------
    \24\ https://www.ttnews.com/articles/ata-carriers-sue-rhode-island-
dot-over-truck-only-tolls.
    \25\ https://www.nwitimes.com/news/local/govt-and-politics/state-
to-receive-billion-in-exchange-for-allowing-higher-truck/
article_640a7253-34cb-5bfe-a7fd-5b653ba4ef86.html.
---------------------------------------------------------------------------
Specific Concerns with Federal Tolling Law
            Interstate System Reconstruction & Rehabilitation Pilot 
                    Program (ISRRPP)
    The Interstate System Reconstruction and Rehabilitation Pilot 
Program (ISRRPP), authorized under Section 1216(b) of the 1998 
Transportation Equity Act for the 21st Century, allows three states to 
toll a single Interstate highway for the purpose of funding 
improvements to that highway. All of the revenue must be spent on the 
tolled facility and the state must submit a detailed application to the 
FHWA in order to win approval. Despite several attempts \26\ by various 
states to utilize this pilot program, not a single project has been 
authorized by FHWA. These states wasted many years and millions of 
dollars on consultants, only to abandon a toll strategy and finally 
address their funding shortfalls with more efficient and fair revenue 
sources. After 21 years it is clear that this pilot program has failed, 
and it is time to finally put an end to it.
---------------------------------------------------------------------------
    \26\ Arkansas multiple Interstates; Virginia I-81 & I-95; N. 
Carolina I-95; Pennsylvania I-80; Missouri I-70.
---------------------------------------------------------------------------
            Bridge and Tunnel Exception
    States may use tolls to finance new, reconstructed, or replacement 
Interstate highway bridges or tunnels under 23 U.S.C.  129(a). This 
exception to the general ban on tolls on federally funded roads was 
enacted in 1927 (for bridges, tunnels were added in 1958) for new 
structures only.
    Since the tolled bridge or tunnel was to become toll-free once the 
construction costs were paid off, it is clear that the original intent 
was to allow this exception for the express purpose of covering the 
original costs of building the facility. Over the years, however, this 
provision has been expanded to allow tolls for reconstructed bridges 
and tunnels, and the requirement that tolls must end once the project 
is paid off was eliminated. Now, any revenue in excess of project costs 
can be used for any purpose eligible under Title 23 of the U.S. Code, 
provided the state self-certifies that the facility is being adequately 
maintained.
    The federal law that authorizes the tolls only requires that the 
tolled facility is a bridge or tunnel and that the structure is 
replaced or reconstructed. A bridge is undefined in this context and 
has been broadly interpreted by USDOT to include any structure over 20 
feet long with supports, erected over a depression or obstruction.\27\ 
With nearly 58,000 bridges on the 48,000-mile Interstate system, 
essentially the entire network is eligible for tolling under this 
section of law.
---------------------------------------------------------------------------
    \27\ 23 CFR 650.305.
---------------------------------------------------------------------------
    The Rhode Island experience is a case study in how this provision 
can be abused. It illustrates why Congress should revisit this 
exception in order to preserve the original intent of the provision to 
give states the opportunity to use tolls to finance projects that are 
too expensive, while inserting language that protects the public.
    In June 2018 Rhode Island imposed tolls at two locations on 
Interstate 95 near the border with Connecticut, and recently activated 
a toll gantry on U.S. 6 in Providence. The state has indicated that it 
will impose tolls at eight additional locations statewide, including on 
three Interstate highway routes. The tolls are charged only on tractor-
semitrailers.\28\ The I-95 tolls alone are costing YRC Worldwide 
companies $750,000 per year for what is essentially a microscopic 
section of our nation's entire Interstate system. Providence is as the 
130th largest city in the United States. What would happen to our 
nation's supply chain, truck drivers and economy if just half of the 
largest 100 cities in America implemented similar tolls?
---------------------------------------------------------------------------
    \28\ See here for details on the tolling program: http://
www.dot.ri.gov/rhodeworks/.
---------------------------------------------------------------------------
    Neither federal law, nor agency regulation or guidance, establishes 
any standards governing the condition of the structures eligible for 
tolling. In fact, several bridges targeted for tolling by Rhode Island 
are neither structurally deficient nor functionally obsolete, despite 
the fact that the state has the highest proportion of structurally 
deficient bridges in the country.\29\ It appears that the state chose 
many of these bridges for tolling primarily due to their potential for 
revenue collection, and not because they are a priority for 
improvement.
---------------------------------------------------------------------------
    \29\ https://www.fhwa.dot.gov/bridge/nbi.cfm.
---------------------------------------------------------------------------
    In addition, there appear to be no current federal standards that 
define ``reconstruction,'' but FHWA has apparently interpreted it to 
include relatively minor improvements, given the Rhode Island example. 
Some of the ``reconstruction'' projects paid for partially with toll 
revenue are expected to cost less than $10 million. Furthermore, in 
some cases toll revenue represents a small fraction of the cost of the 
project; for example, in one case toll revenue is expected to cover 
just six percent of project costs. Overall, Rhode Island's 10-year 
bridge improvement program relies on bridge tolls to cover just 10 
percent of the costs. As stated above, once the state certifies that 
the tolled bridges are being adequately maintained, the toll revenue 
can be used for any project eligible under Title 23 of the U.S. Code. 
This includes federal-aid roads statewide, transit projects, bicycle 
and pedestrian facilities, ferries and any number of other projects 
that may be of no benefit whatsoever to the toll payers, all of whom 
are the operators of tractor-semitrailers. It is clear that Rhode 
Island's intent all along was not to use tolls to pay for its bridge 
program, but to use the flexibility in federal law to treat tractor-
semitrailers as a perpetual piggy bank for projects that they are very 
unlikely to benefit from.
    Another troubling aspect of the Rhode Island experience is the role 
that the U.S. Department of Transportation played. USDOT authorized the 
Rhode Island Department of Transportation to issue an Environmental 
Assessment (EA) rather than conduct a more detailed Environmental 
Impact Statement normally required of projects that are, among other 
things, likely to have a significant impact on traffic patterns.\30\ 
USDOT also made the bizarre decision to allow RIDOT to only evaluate 
the impacts of tolls on an individual facility basis, without 
consideration of what would happen once the state tolled virtually its 
entire highway network. RIDOT clearly indicated this was its intent, 
and USDOT was clearly aware of it because the agency signed a 
Memorandum of Understanding authorizing tolls on all of these bridges 
prior to the inception of the environmental review process.\31\ This 
very likely resulted in an incomplete and inaccurate analysis of 
traffic diversion patterns. Furthermore, even though ATA and others 
pointed out numerous, obvious flaws in the EA (including, for example, 
failing to analyze the most likely diversion routes), USDOT approved 
the EA as written and twice issued a Finding of No Significant Impact 
(FONSI), allowing tolls to move forward.\32\ This, despite the fact 
that the EA failed to include a safety or economic analysis, and did 
not consider alternatives to tolling, even though USDOT stated in a 
2015 document that an alternative funding analysis is advisable.\33\
---------------------------------------------------------------------------
    \30\ http://www.dot.ri.gov/tolling/docs/Toll_Locations_1-
2_Environmental_Assessment.pdf; http://www.dot.ri.gov/tolling/docs/
Toll_Locations_3-13_Environmental_Assessment.pdf.
    \31\ http://www.dot.ri.gov/documents/news/
Executed_MOUs_RhodeWorks_Tolling_
Program.pdf.
    \32\ http://www.dot.ri.gov/tolling/docs/Toll_Locations_1-
2_Environmental_Assessment.pdf; http://www.dot.ri.gov/tolling/docs/
Toll_Locations_3-13_Environmental_Assessment.pdf.
    \33\ Federal Highway Administration. Public-Private Partnership 
Oversight: How FHWA Reviews P3s, Jan. 2015, p. 19.
---------------------------------------------------------------------------
    Even in a case where the state is seemingly attempting to use the 
bridge and tunnel exception for its intended purpose, several problems 
have presented themselves that illustrate the problems with toll 
financing. The I-10 Mobile River Bridge and Bayway project would have 
replaced a currently toll-free bridge and tunnel with a tolled 
crossing. The Alabama Department of Transportation (ALDOT) intended to 
finance the project using a concession public-private partnership (P3) 
model. Three P3 groups were under consideration.\34\ FHWA recently 
issued a Record of Decision (ROD) giving ALDOT the federal green light 
to proceed.\35\ However, after a populist uprising against tolls, a 
local Metropolitan Planning Organization's Board voted to remove the 
project from its Transportation Improvement Plan, which prevents the 
project from receiving federal funds.\36\ Following the vote the 
Governor declared that the project is ``dead.'' \37\
---------------------------------------------------------------------------
    \34\ For more information see the project website: https://
mobileriverbridge.com/.
    \35\ https://mobileriverbridge.com/wp-content/uploads/2019/08/I-10-
Mobile-River-Bridge-and-Bayway-Combined-FEIS-ROD_Signed-08-15-2019.pdf.
    \36\ https://www.al.com/politics/2019/08/gov-kay-ivey-declares-i-
10-mobile-river-bridge-and-bayway-project-dead.html.
    \37\ https://governor.alabama.gov/statements/governor-ivey-makes-
statement-following-eastern-shore-mpos-failure-to-prioritize-mobile-
river-bridge-and-bayway-project/.
---------------------------------------------------------------------------
    When it was originally conceived, the project's cost was estimated 
to be approximately $800 million. It ballooned to $2.1 billion, in part 
to pay for a bridge that meets the 100-year floodplain threshold, which 
ALDOT claimed was required by the Federal Highway Administration. 
Recently a FHWA official reportedly confirmed that this was never a 
requirement.\38\
---------------------------------------------------------------------------
    \38\ https://www.fox10tv.com/news/mobile_river_bridge_and_bayway/
lawmakers-question-where-new-bridge-estimate-came-from/
article_edf2e17c-c5f6-11e9-bb49-6780d9b32716.html.
---------------------------------------------------------------------------
    Due to financing costs, including the profits incurred by the 
private partners, the actual cost to toll payers was projected to be 
around $7 billion according to an ALDOT consultant analysis.\39\ 
Initially, cars were expected to pay a maximum toll rate of $6.00 per 
crossing, with trucks paying up to $24.00 per crossing, with toll rates 
rising over time to a maximum rate of $18.97 for cars and $75.88 for 
trucks in 30 years. For the commuter who crosses the entire facility 
twice per day, the initial weekly cost would have been $60.00, or 
$3,120 per year.\40\ Even with the various commuter discounts proposed 
by ALDOT, these costs are prohibitive for many families. Compare this 
with a strategy to finance the project with a dedicated fuel tax, as an 
example. Raising an equivalent amount of revenue over the first decade 
would require an increase in the state fuel tax of just four cents per 
gallon, costing the average passenger car driver about $20 per year, or 
38 cents per week.
---------------------------------------------------------------------------
    \39\ https://mobileriverbridge.com/wp-content/uploads/2019/05/
ALDOT-I-10-Mobile-River-TR-Report-DRAFT-May-2018.pdf, Chapter 11.
    \40\ Ibid.
---------------------------------------------------------------------------
    According to ALDOT's consultant analysis, in 2030 traffic on the 
Cochrane Bridge, a designated alternative toll-free route, would 
increase from 26,400 vehicles under a no-build scenario to 47,900 
vehicles with a $6 toll on the I-10 corridor. However, if the project 
was built without tolls, just 17,900 vehicles were projected to use the 
Cochrane Bridge in 2030. Under the build, no-toll scenario, the 
significant environmental justice impacts identified by ALDOT are 
eliminated, as are the many other safety, economic and environmental 
impacts associated with tolls and traffic diversion. However, ALDOT 
failed to consider alternative revenue sources that could have avoided 
these impacts and lowered project costs and the financial burden to the 
local population.
    These are just two examples of how the bridge and tunnel exception 
is being applied in a way that fails to take the public interest, and 
the federal interest in protecting interstate commerce, into 
consideration. ATA is aware of several other states that are exploring 
the possibility of using this provision to toll their Interstate 
systems. While we support elimination of the exception, if it is to be 
preserved we recommend the following reforms:
    <bullet>  Eligible projects are those with a total project cost of 
at least $2 billion. These are single facility costs, not network 
costs.
    <bullet>  A state must conduct an Environmental Impact Statement 
for each project.
    <bullet>  When conducting an EIS for a network of tolls, an EIS 
must determine the effects of both individual toll locations and the 
collective network effects of a proposal.
    <bullet>  Revenue generated by the tolls can only be used for 
financing costs and project costs related to the facility. Once project 
costs have been paid off and USDOT determines, on an annual basis, that 
the facility is being adequately maintained, revenue can be used for 
Title 23 eligible highway or transit projects that directly benefit the 
users of the tolled facility. Revenue from the lease or sale of an 
Interstate toll facility should also be subject to this requirement.
    <bullet>  The maximum toll rate for any vehicle class may not 
exceed any other toll rate by more than five times.
    <bullet>  Any toll discounts must be offered to all users, 
regardless of residency or the state a transponder was purchased from.
    <bullet>  At a minimum, the State's application, either through an 
EIS or separate documentation, should demonstrate the following:
      <bullet>  There is a net congestion reduction, taking into 
consideration mobility on both the tolled route and any routes to which 
traffic diverts. There is also a net reduction in vehicle emissions on 
these routes.
      <bullet>  The number and severity of crashes is not likely to 
increase.
      <bullet>  If additional maintenance or capacity improvements on 
diversion routes are anticipated, the state must document these 
improvements and include a plan to implement them within a reasonable 
timeframe.
      <bullet>  Environmental justice impacts of tolls and mitigation 
measures.
      <bullet>  A cost-benefit analysis that includes the impacts of 
tolls on roadside businesses, commercial vehicle operators, and the 
impacts on businesses and consumers affected by tolls, both inside and 
outside the states where the tolls are located.
      <bullet>  A determination with regard to whether the location of 
tolls or the toll rate structure discriminates against interstate 
commerce.
      <bullet>  An analysis of alternative revenue mechanisms.
      <bullet>  The state is required to submit a report to the 
Secretary every five years with an analysis of the above, and the 
Secretary is to determine whether the state continues to meet the 
requirements.
            Value Pricing Pilot Program
    The Value Pricing Pilot Program (VPPP) was initially authorized by 
Congress in the Intermodal Surface Transportation Efficiency Act of 
1991, and was originally called the Congestion Pricing Pilot Program. 
It allows up to 15 jurisdictions to apply for authority to toll an 
unlimited number and unlimited miles of Interstates as part of a 
congestion pilot program. The VPPP was amended several times, and today 
many of the original provisions are mainstreamed, and states no longer 
require approval of an application to gain tolling authority under many 
circumstances. Currently the only restriction on tolling that requires 
approval under the VPPP is the ability to toll a general purpose 
Interstate highway lane. To date, no state has used the authority under 
the VPPP for this purpose.
    The statute is extremely broad, leaving it to USDOT to determine 
qualification requirements. The only requirement is that USDOT must 
report to Congress the effect of programs authorized under the VPPP on 
``driver behavior, traffic, volume, transit ridership, air quality, and 
availability of funds for transportation programs.''
    The term ``congestion pricing'' is generally understood to mean, as 
FHWA has stated:

        . . . tolling and non-tolling strategies that can reduce peak 
        period congestion by charging motorists new or higher fees for 
        use of roads and parking during peak times in order to 
        encourage drivers to shift to other travel modes, routes or 
        destinations; to travel at other times of the day; or to forgo 
        making the trip altogether.\41\
---------------------------------------------------------------------------
    \41\ Report on the Value Pricing Pilot Program through April 2016, 
U.S. Department of Transportation Federal Highway Administration.

    However, since a definition exists in neither statute nor 
regulation, FHWA is essentially unbound in determining the types of 
projects that qualify. Presumably, some level of congestion reduction 
and air quality improvement would reasonably be expected to be achieved 
in order to qualify under the pilot, but the magnitude of such changes 
is entirely the province of FHWA's subjective opinion. Taken to the 
extreme, FHWA could approve a project if it can be expected to increase 
average peak period speeds by any number greater than zero. 
Furthermore, while USDOT is required to report to Congress on the 
results of the pilots, there is no recourse if a pilot fails to meet 
the objectives claimed in the application.
    A debate currently being waged in Connecticut illustrates why this 
lack of specificity is potentially problematic. For several years 
Connecticut has been exploring statewide tolling on Interstates and 
other major highways to raise revenue. During his 2018 campaign, 
Governor Ned Lamont touted truck-only tolls, but once elected shifted 
his advocacy to tolls on all vehicles after concluding that tolls only 
on trucks would not raise enough money.\42\ Throughout 2019 the 
Governor, along with state General Assembly leaders, have advocated for 
legislation that would authorize the Connecticut Department of 
Transportation to toll statewide. As of this writing the legislation 
had not passed.
---------------------------------------------------------------------------
    \42\ https://www.ttnews.com/articles/connecticut-gov-ned-lamont-
pivots-truck-only-toll-plan.
---------------------------------------------------------------------------
    While several tolling strategies have been discussed, the 
conversation has centered on taking advantage of the tolling exception 
in the VPPP. Draft tolling legislation includes resident and frequent 
commuter discounts.\43\ Legislative leaders have stated that under this 
proposal an out-of-state driver could pay a toll rate that is more than 
twice as high as the rate for an in-state driver.
---------------------------------------------------------------------------
    \43\ https://www.ctnewsjunkie.com/upload/2019/06/
0619FinalPresentation.pdf, Slide 23.
---------------------------------------------------------------------------
    It is clear that the current proposal under consideration is 
primarily designed not to affect travel choices, as Congress intended, 
but to raise revenue. The toll rates, when the various discounts are 
factored in, are explicitly anticipated to impose the greatest 
financial burden on non-resident drivers, while giving the biggest 
discounts to those drivers who, under congestion pricing theory and 
practice, should be charged the highest rates in order to reduce 
congestion. This is clearly inconsistent with both the letter and 
intent of the VPPP.
    The U.S. Department of Transportation has not received an 
application yet, and has therefore not determined whether the proposal 
passes muster. To date, FHWA has not taken final action on an 
application under the VPPP that involves tolling existing general 
purpose lanes of the Interstate Highway System, so there is no 
precedent to rely on. However, the criteria for qualification under the 
VPPP are so loose that a favorable decision is possible since there is 
no delineated threshold for the amount of congestion reduction or 
improvement in air quality in statute, regulation or agency guidance 
necessary to win approval.
    It is also worth noting that there is no evidence that congestion 
pricing has an impact on truck travel choices sufficient to achieve 
significant reduction in congestion or improvements in air quality. 
Research has found that trucking companies are usually unable to pass 
along toll costs to customers, who determine pick-up and delivery 
times. Therefore customers have no incentive to change their schedules 
in a way that allows trucks to avoid traveling during peak periods.\44\ 
Applying pricing pressure to trucks simply increases the cost of moving 
freight, without the theoretical benefits generally associated with 
congestion pricing. The North American supply chain is a highly 
choreographed daily industrial ballet. Movements are timed to keep 
factories running, hospitals filled with medical supplies and grocery 
stores stocked with fresh foods. The supply chain sets the demand cycle 
and congestion pricing will not throw it out of sync, especially in 
this era of e-commerce and same day deliveries.
---------------------------------------------------------------------------
    \44\ Holguin-Veras, J. (2008) ``Necessary conditions for Off-Hour 
Deliveries and the Effectiveness of Urban Freight Road Pricing and 
Alternative financial Policies in Competitive Markets'' Transportation 
Research Part A: Policy and Practice Vol. 42A(2), pp. 392-413.
---------------------------------------------------------------------------
    While ATA recommends eliminating the VPPP, should it remain we 
recommend the following reforms:
    <bullet>  States must demonstrate that the pricing of highways (not 
the projects funded by tolls) by themselves significantly alleviate 
congestion and improve air quality in a highway corridor, including on 
alternative routes.
    <bullet>  A state must conduct an Environmental Impact Statement 
for each project.
    <bullet>  When conducting an EIS for a network of tolls, an EIS 
must determine the effects of both individual toll locations and the 
collective network effects of a proposal.
    <bullet>  Revenue generated by the tolls can only be used for 
financing costs and project costs related to the facility. Once project 
costs have been paid off and USDOT determines, on an annual basis, that 
the facility is being adequately maintained, revenue can be used for 
Title 23 eligible highway or transit projects that directly benefit the 
users of the tolled facility. Revenue from the lease or sale of an 
Interstate toll facility should also be subject to this requirement.
    <bullet>  The maximum toll rate for any vehicle class may not 
exceed any other toll rate by more than five times.
    <bullet>  Any toll discounts must be offered to all users, 
regardless of residency or the state a transponder was purchased from.
    <bullet>  At a minimum, the State's application, either through an 
EIS or separate documentation, should demonstrate the following:
      <bullet>  There is a net congestion reduction, taking into 
consideration mobility on both the tolled route and any routes to which 
traffic diverts. There is also a net reduction in vehicle emissions on 
these routes.
      <bullet>  The number and severity of crashes is not likely to 
increase.
      <bullet>  If additional maintenance or capacity improvements on 
diversion routes are anticipated, the state must document these 
improvements and include a plan to implement them within a reasonable 
timeframe.
      <bullet>  Environmental justice impacts of tolls and mitigation 
measures.
      <bullet>  A cost-benefit analysis that includes the impacts of 
tolls on roadside businesses, commercial vehicle operators, and the 
impacts on businesses and consumers affected by tolls, both inside and 
outside the states where the tolls are located.
      <bullet>  A determination with regard to whether the location of 
tolls or the toll rate structure discriminates against interstate 
commerce.
      <bullet>  The state is required to submit a report to the 
Secretary every five years with an analysis of the above, and the 
Secretary is to determine whether the state continues to meet the 
requirements.
                 Lessons From Current Tolling Practices
    We do not need to speculate about the potential abuses motorists 
could face from the further imposition of tolls on Interstate highways. 
There are current examples that illustrate how the public is harmed, 
and portends a horrifically damaging future should Interstate tolls 
become more widespread.
Northeast Corridor
    Drivers who travel from Washington, D.C. to Boston encounter 
numerous toll roads, bridges and tunnels. On this 443-mile journey, 
motorists will pay tolls at least six times, on average a toll every 74 
miles. For trucking companies this is a very expensive journey. A five-
axle truck with a transponder will pay about $222 in tolls, with slight 
variations depending on whether the truck qualifies for any discounts 
and the time of day, or day of week, the driver travels through these 
tolled facilities.
    It is helpful to put that figure into context. A $222 toll on a 
443-mile trip adds up to a 50 cent per-mile charge. That's equivalent 
to a truck paying a $3.00 per gallon fuel tax--at current diesel prices 
a 100% sales tax. Fifty cents per mile for the trip represents 23% of 
that truck's operating costs, a higher share than the cost of fuel and 
nearly equal to the wages paid to the driver.\45\ A truck that has a 
regular route along the Northeast Corridor could pay up to $50,000 in 
tolls each year. By comparison that truck, on average, pays 
approximately $3,900 in federal and state fuel taxes.\46\
---------------------------------------------------------------------------
    \45\ An Analysis of the Operational Costs of Trucking: 2018 Update. 
American Transportation Research Institute, Oct. 2018.
    \46\ American Trucking Trends 2019, American Trucking Associations.
---------------------------------------------------------------------------
Pennsylvania Turnpike
    A 2007 state law required the Pennsylvania Turnpike Commission 
(PTC) to make substantial payments to the Pennsylvania Department of 
Transportation (PennDOT) for other projects. Thus far, much of the 
revenue has gone to transportation improvements that do not directly 
benefit Turnpike users. These types of transfers are authorized by 23 
U.S.C.  129, which allows toll revenue on federal-aid facilities to be 
used for any Title 23 eligible project if the state certifies annually 
that the facility is being adequately maintained. Incidentally, a 
recent lawsuit against the Turnpike Commission revealed that it has not 
complied with the certification requirement.\47\ Nonetheless, USDOT has 
allowed the transfers to continue unabated.
---------------------------------------------------------------------------
    \47\ https://www2.ca3.uscourts.gov/opinarch/191775p.pdf, p. 20.
---------------------------------------------------------------------------
    The same lawsuit alleged that PennDOT has used toll revenue for 
projects whose benefits are completely unrelated to the Turnpike and 
are unlikely to benefit toll-payers, many of whom are simply passing 
through the state. Examples include:
    <bullet>  Development of a mixed-used residential, office and 
transportation facility in Pittsburgh;
    <bullet>  Replacement of a roof at a bus garage in Allegheny 
County;
    <bullet>  Sidewalk installation in Yardley and in a shopping center 
in Susquehanna;
    <bullet>  Improvements to the Erie International Airport terminal 
building; and
    <bullet>  Creation of a multi-use trail in Centre County.\48\
---------------------------------------------------------------------------
    \48\ Ibid, pp. 9-11.

    Under the 2007 law, the PTC will pay PennDOT a total of nearly $10 
billion. As of May 2018, the PTC had paid the agency more than $6 
billion. This year, and continuing through 2022, the PTC will transfer 
$450 million to PennDOT, which represents approximately 37% of the 
Turnpike's gross fare revenue.
    Since 2009 the PTC has increased toll rates every year by an 
average of six percent. Today, a 5-axle truck traversing the Turnpike 
pays a $100 toll, or 52 cents per mile. By 2048 trucks are projected to 
pay more than $287 to cross the Turnpike, while the rate for cars will 
increase from $26 to $75.\49\
---------------------------------------------------------------------------
    \49\ https://www.paturnpike.com/pdfs/business/finance/
AuditorGeneralsPeformanceAudit
Mar2019.pdf.
---------------------------------------------------------------------------
    On March 1, 2019, Pennsylvania's Auditor General warned that the 
PTC ``is facing `a road to ruin' if it continues to rely on unfair and 
unsustainable toll increases to pay off $11.8 billion in debt.'' 
Furthermore, he stated that the PTC, `` . . . once viewed by some as a 
cash cow, has been milked to the brink of collapse.'' He added that 
``Hiking tolls year after year while hoping that E-ZPass users won't 
notice is not a sustainable revenue plan and it causes a financial 
hardship for motorists.'' \50\
---------------------------------------------------------------------------
    \50\ Ibid.
---------------------------------------------------------------------------
    These examples should serve as a wake-up call. The exorbitant fees 
paid by motorists to support toll facilities are far in excess of the 
fuel taxes, registration fees and other revenue sources that support 
toll-free highways, bridges and tunnels. A large share of toll revenue 
goes not to infrastructure improvement, but to support the massive 
bureaucracies required for toll financing.
    Furthermore, motorists who happen to be traveling on a particular 
highway should not be responsible for subsidizing projects or programs 
that they do not benefit from. The Interstate Highway System was built 
to facilitate the efficient movement of military and commercial 
traffic, not to become a cash cow for all manner of unrelated purposes. 
It is time for Congress to build guardrails that protect the public 
from these types of abuses. In addition to the reforms we have proposed 
for future toll roads, ATA suggests the following changes in law for 
existing Interstate toll facilities:
    <bullet>  Revenue generated by the tolls can only be used for 
financing costs and project costs related to the facility. Once project 
costs have been paid off and USDOT determines, on an annual basis, that 
the facility is being adequately maintained, revenue can be used for 
Title 23 eligible highway or transit projects that directly benefit the 
users of the tolled facility. Revenue from the lease or sale of an 
Interstate toll facility should also be subject to this requirement.
    <bullet>  The maximum toll rate for any vehicle class may not 
exceed any other toll rate by more than five times.
    <bullet>  Any toll discounts must be offered to all users, 
regardless of residency or the state a transponder was purchased 
from.\51\
---------------------------------------------------------------------------
    \51\ This article describes why these practices are problematic: 
https://www.marylandmatters.org/2019/07/05/the-cost-of-that-toll-
depends-on-your-e-zpass/.
---------------------------------------------------------------------------
                            Asset Recycling
    Related to tolls, some have suggested using highway asset recycling 
to raise money for infrastructure investment. Asset recycling involves 
selling or leasing public assets to the private sector. Where asset 
recycling has been utilized on toll roads in the U.S., toll payers have 
seen their rates increase significantly, only to subsidize projects 
with little or no benefit to them.
    One need only consider the recent 35% increase in truck toll rates 
on the Indiana Toll Road for an example of these abusive practices. The 
state got a single tranche of money, while in return the private 
operator of the highway reaps the profits for the next six decades. 
This most recent increase is costing the YRC Worldwide companies $1.3 
million annually. As referenced earlier, instead of using that money to 
hire new drivers, increase salaries and benefits or buy safer, cleaner 
equipment, we are forced to subsidize improvements at the Indianapolis 
airport, rural broadband infrastructure, and hiking and biking trails, 
projects that have little or no benefit to my company or millions of 
other motorists who use the ITR. Furthermore, this latest increase is 
on top of the doubling of toll rates prior to the initial lease in 
2006, and subsequent annual increases that have resulted in a 311% 
increase in truck toll rates over the past 13 years, with little or no 
benefit to toll road users. ATA is adamantly opposed to applying these 
types of forced subsidies to highway users.
                Implications For The Federal-Aid Program
    It is important to note that toll financing does not in any way 
address the fiscal crisis facing the Highway Trust Fund. Some may argue 
that toll revenue could offset shortfalls in funding from traditional 
state and federal sources. However, as CRS has noted, ``While the 
amount of toll revenue has grown significantly in recent years, toll 
revenue as a share of total spending on highways has been relatively 
steady for more than half a century, in the range of roughly 5% to 
6%.'' \52\ According to the same report, toll-road mileage comprises 
just 0.6 percent of the total miles for all federal-aid eligible roads 
and `` . . . imposing tolls on individual transportation facilities is 
likely to be of only limited use in helping states overcome reductions 
in federal grants . . . '' Another CRS report concludes that ``Many 
roads may not have enough traffic to make tolling worthwhile. Tolling 
is unlikely to expand on a scale that would allow for major reductions 
in federal grant spending in the near term.'' \53\
---------------------------------------------------------------------------
    \52\ Congressional Research Service. Tolling U.S. Highways and 
Bridges, Aug. 4, 2017.
    \53\ Congressional Research Service. Highway and Public Transit 
Funding Issues, June 4, 2019.
---------------------------------------------------------------------------
    Tolls are a niche funding mechanism, and that is unlikely to change 
in the foreseeable future. Congress cannot and should not wash its 
hands of its responsibility to provide the revenue needed to address 
the nation's massive infrastructure funding deficit by simply expanding 
tolling authority. This simply will not work.
    ATA has proposed a real solution to the highway funding crisis. 
Called the Build America Fund (BAF), it would initiate a new 20 cent 
per gallon fee built into the price of transportation fuels collected 
at the terminal rack, to be phased in over four years. The fee will be 
indexed to both inflation and improvements in fuel efficiency, with a 
five percent annual cap. We estimate that the fee will generate nearly 
$340 billion over the first 10 years. It will cost the average 
passenger vehicle driver just over $100 per year once fully phased 
in.\54\ We also support a new fee on hybrid and electric vehicles, 
which underpay for their use of the highway system or do not contribute 
at all.
---------------------------------------------------------------------------
    \54\ Federal Highway Administration, Highway Statistics 2016, Table 
VM-1. Average light-duty vehicle consumed 522 gallons of fuel.
---------------------------------------------------------------------------
    This approach would give state and local transportation agencies 
the long-term certainty and revenue stability they need to not only 
maintain, but also begin to improve their surface transportation 
systems. They should not be forced to resort to costly, inefficient 
practices--such as deferred maintenance--necessitated by the 
unpredictable federal revenue streams that have become all too common 
since 2008. Furthermore, while transportation investment has long-term 
benefits that extend beyond the initial construction phase, it is 
estimated that our proposal would add nearly half a million annual jobs 
related to construction nationwide, including nearly 2,000 jobs in 
Washington, D.C. and almost 7,000 jobs in Illinois (see Appendix A for 
a full list of state-specific employment figures).\55\
---------------------------------------------------------------------------
    \55\ A Framework for Infrastructure Funding. American 
Transportation Research Institute, Nov. 2017.
---------------------------------------------------------------------------
    The fuel tax is the most immediate, cost-efficient and conservative 
mechanism currently available for funding surface transportation 
projects and programs. Collection costs are less than one percent of 
revenue.\56\ Our proposal will not add to the federal debt or force 
states to resort to detrimental financing options that could jeopardize 
their bond ratings. Unlike other approaches that simply pass the buck 
to state and local governments by giving them additional ``tools'' to 
debt-finance their infrastructure funding shortfalls for the few 
projects that qualify, the BAF will generate real money that can be 
utilized for any federal-aid project.
---------------------------------------------------------------------------
    \56\ Ibid.
---------------------------------------------------------------------------
    While some have suggested that a fuel tax is regressive, the 
economic harm of failing to enact our proposal will be far more 
damaging to motorists. The $100 per year paid by the average car driver 
under this proposal pales in comparison with the $1,600 they are now 
forced to pay annually due to additional vehicle maintenance, lost 
time, and wasted fuel that has resulted from underinvestment in our 
infrastructure. Borrowing billions of dollars each year from China to 
debt finance the HTF funding gap--a cost imposed on current and future 
generations of Americans who will be forced to pay the interest--is far 
more regressive than the modest fee needed to avoid further blowing up 
our already massive national debt.
    Forcing states to resort to tolls by starving them of federal funds 
is far more regressive than the $2.00 a week motorists would pay under 
our proposal. One needs to only look to I-66 in Northern Virginia, 
where tolls average more than $12.00 per roundtrip and can sometimes 
exceed $46.00, to understand the potential impacts on lower- or middle-
income Americans.\57\ To put this into perspective, even if motorists 
only paid the average toll, the cost of a 10-mile trip over an eight 
day period on I-66 would be equivalent to their cost for an entire year 
under ATA's BAF proposal for all roads and bridges.
---------------------------------------------------------------------------
    \57\ http://www.66expresslanes.org/documents/
66_express_lanes_january_2018_
performance_ereport.pdf.
---------------------------------------------------------------------------
    There is a perception that the fuel tax is no longer a viable 
revenue source due to the availability of electric vehicles and 
improvements in vehicle fuel efficiency. This notion is belied by the 
facts. According to the Congressional Budget Office's latest estimates, 
revenue from fuel taxes will drop less than eight percent over the next 
decade, or about $3 billion.\58\ A modest increase in the fuel tax, or 
a new fee on alternative fuel vehicles, can easily recover these lost 
revenues.
---------------------------------------------------------------------------
    \58\ Congressional Budget Office, Budget and Economic Outlook: 
2019-2029, January 2019.
---------------------------------------------------------------------------
                               Conclusion
    Thank you very much for the opportunity to testify today on this 
very important subject. We look forward to working with the 
subcommittee to address the inequities and hardships imposed on 
motorists and trucking companies who are being forced to pay exorbitant 
and wasteful tolls to fund unnecessary bureaucracies and subsidize 
projects that they receive little or no benefit from. We also look 
forward to working with you to produce real funding solutions to the 
infrastructure investment crisis.
 APPENDIX A: Funding Impact Matrix--Annual State-Level Job and Revenue 
          Increases Resulting from Federal Fuel Tax Increases

                                     State-Level Job and Revenue Creation Associated with Federal Fuel Tax Increases
--------------------------------------------------------------------------------------------------------------------------------------------------------
                     Current Annual Allocation   Twenty Cent-Increase Federal Motor Fuels Tax Annual   Twenty Five Cent-Increase Federal Motor Fuels Tax
                   ----------------------------                       Benefits                                          Annual Benefits
                                               ---------------------------------------------------------------------------------------------------------
                                                                                                       Additional
       State          FAST ACT                   Additional                                              $37.25
                     Apportioned   Percent of    $30 Billion   State Match   Total New                  Billion    State Match   Total New
                      Funds (in       Total        Federal      (20%) (in    Funds (in    # of Jobs     Federal     (20%) (in    Funds (in    # of Jobs
                      milions)                   Funding (in    millions)    millions)                Funding (in   millions)    millions)
                                                  millions)                                            millions)
--------------------------------------------------------------------------------------------------------------------------------------------------------
         ALABAMA\\         $ 770          1.9%         $ 581         $ 116        $ 697        9,067        $ 722        $ 144        $ 866       11,258
            ALASKA         $ 509          1.3%         $ 384          $ 77        $ 461        5,992        $ 477         $ 95        $ 572        7,440
           ARIZONA         $ 742          1.9%         $ 560         $ 112        $ 673        8,744        $ 696        $ 139        $ 835       10,857
          ARKANSAS         $ 525          1.3%         $ 397          $ 79        $ 476        6,187        $ 492         $ 98        $ 591        7,682
        CALIFORNIA       $ 3,723          9.4%       $ 2,812         $ 562      $ 3,374       43,862      $ 3,491        $ 698      $ 4,189       54,462
          COLORADO         $ 542          1.4%         $ 410          $ 82        $ 492        6,390        $ 509        $ 102        $ 610        7,935
       CONNECTICUT         $ 509          1.3%         $ 385          $ 77        $ 462        6,002        $ 478         $ 96        $ 573        7,453
          DELAWARE         $ 172          0.4%         $ 130          $ 26        $ 156        2,022        $ 161         $ 32        $ 193        2,510
     DIST. OF COL.         $ 162          0.4%         $ 122          $ 24        $ 147        1,907        $ 152         $ 30        $ 182        2,368
           FLORIDA       $ 1,922          4.8%       $ 1,451         $ 290      $ 1,742       22,642      $ 1,802        $ 360      $ 2,163       28,114
           GEORGIA       $ 1,310          3.3%         $ 989         $ 198      $ 1,187       15,430      $ 1,228        $ 246      $ 1,474       19,159
            HAWAII         $ 172          0.4%         $ 130          $ 26        $ 155        2,021        $ 161         $ 32        $ 193        2,510
             IDAHO         $ 290          0.7%         $ 219          $ 44        $ 263        3,418        $ 272         $ 54        $ 326        4,244
          ILLINOIS       $ 1,442          3.6%       $ 1,089         $ 218      $ 1,307       16,990      $ 1,352        $ 270      $ 1,623       21,097
           INDIANA         $ 967          2.4%         $ 730         $ 146        $ 876       11,387        $ 906        $ 181      $ 1,088       14,139
              IOWA         $ 499          1.3%         $ 376          $ 75        $ 452        5,873        $ 467         $ 93        $ 561        7,292
            KANSAS         $ 383          1.0%         $ 289          $ 58        $ 347        4,516        $ 359         $ 72        $ 431        5,607
          KENTUCKY         $ 674          1.7%         $ 509         $ 102        $ 611        7,940        $ 632        $ 126        $ 758        9,859
         LOUISIANA         $ 712          1.8%         $ 538         $ 108        $ 645        8,387        $ 668        $ 134        $ 801       10,414
             MAINE         $ 187          0.5%         $ 141          $ 28        $ 170        2,206        $ 176         $ 35        $ 211        2,739
          MARYLAND         $ 610          1.5%         $ 460          $ 92        $ 552        7,181        $ 572        $ 114        $ 686        8,917
     MASSACHUSETTS         $ 616          1.6%         $ 465          $ 93        $ 558        7,258        $ 578        $ 116        $ 693        9,012
          MICHIGAN       $ 1,068          2.7%         $ 807         $ 161        $ 968       12,582      $ 1,001        $ 200      $ 1,202       15,623
         MINNESOTA         $ 661          1.7%         $ 500         $ 100        $ 599        7,793        $ 620        $ 124        $ 744        9,676
       MISSISSIPPI         $ 491          1.2%         $ 370          $ 74        $ 445        5,780        $ 460         $ 92        $ 552        7,177
          MISSOURI         $ 960          2.4%         $ 725         $ 145        $ 870       11,313        $ 900        $ 180      $ 1,081       14,047
           MONTANA         $ 416          1.0%         $ 314          $ 63        $ 377        4,903        $ 390         $ 78        $ 468        6,088
          NEBRASKA         $ 293          0.7%         $ 221          $ 44        $ 266        3,454        $ 275         $ 55        $ 330        4,289
            NEVADA         $ 368          0.9%         $ 278          $ 56        $ 334        4,339        $ 345         $ 69        $ 414        5,388
     NEW HAMPSHIRE         $ 168          0.4%         $ 127          $ 25        $ 152        1,974        $ 157         $ 31        $ 189        2,452
        NEW JERSEY       $ 1,013          2.5%         $ 765         $ 153        $ 918       11,932        $ 950        $ 190      $ 1,140       14,816
        NEW MEXICO         $ 372          0.9%         $ 281          $ 56        $ 338        4,389        $ 349         $ 70        $ 419        5,449
          NEW YORK       $ 1,703          4.3%       $ 1,286         $ 257      $ 1,543       20,059      $ 1,597        $ 319      $ 1,916       24,907
    NORTH CAROLINA       $ 1,058          2.7%         $ 799         $ 160        $ 959       12,464        $ 992        $ 198      $ 1,190       15,476
      NORTH DAKOTA         $ 252          0.6%         $ 190          $ 38        $ 228        2,967        $ 236         $ 47        $ 283        3,684
              OHIO       $ 1,360          3.4%       $ 1,027         $ 205      $ 1,232       16,019      $ 1,275        $ 255      $ 1,530       19,890
          OKLAHOMA         $ 643          1.6%         $ 486          $ 97        $ 583        7,579        $ 603        $ 121        $ 724        9,411
            OREGON         $ 507          1.3%         $ 383          $ 77        $ 459        5,973        $ 475         $ 95        $ 571        7,417
      PENNSYLVANIA       $ 1,664          4.2%       $ 1,257         $ 251      $ 1,508       19,608      $ 1,561        $ 312      $ 1,873       24,346
      RHODE ISLAND         $ 222          0.6%         $ 168          $ 34        $ 201        2,614        $ 208         $ 42        $ 250        3,245
    SOUTH CAROLINA         $ 679          1.7%         $ 513         $ 103        $ 616        8,002        $ 637        $ 127        $ 764        9,936
      SOUTH DAKOTA         $ 286          0.7%         $ 216          $ 43        $ 259        3,370        $ 268         $ 54        $ 322        4,185
         TENNESSEE         $ 857          2.2%         $ 647         $ 129        $ 777       10,098        $ 804        $ 161        $ 965       12,539
             TEXAS       $ 3,501          8.8%       $ 2,644         $ 529      $ 3,173       41,250      $ 3,283        $ 657      $ 3,940       51,219
              UTAH         $ 352          0.9%         $ 266          $ 53        $ 319        4,150        $ 330         $ 66        $ 396        5,153
           VERMONT         $ 206          0.5%         $ 155          $ 31        $ 187        2,425        $ 193         $ 39        $ 232        3,012
          VIRGINIA       $ 1,032          2.6%         $ 780         $ 156        $ 935       12,161        $ 968        $ 194      $ 1,162       15,100
        WASHINGTON         $ 688          1.7%         $ 519         $ 104        $ 623        8,101        $ 645        $ 129        $ 774       10,059
     WEST VIRGINIA         $ 443          1.1%         $ 335          $ 67        $ 402        5,223        $ 416         $ 83        $ 499        6,485
         WISCONSIN         $ 763          1.9%         $ 576         $ 115        $ 692        8,992        $ 716        $ 143        $ 859       11,165
           WYOMING         $ 260          0.7%         $ 196          $ 39        $ 235        3,061        $ 244         $ 49        $ 292        3,801
             TOTAL      $ 39,724        100.0%      $ 30,000       $ 6,000     $ 36,000      468,000     $ 37,250      $ 7,450     $ 44,700      581,100
--------------------------------------------------------------------------------------------------------------------------------------------------------
\\Source: American Transportation Research Institute. A Framework for Infrastructure Funding, Nov. 2017


    Ms. Norton. Thank you, Mr. Hawkins.
    We will hear next from Dr. Timothy Lomax, who is a Regents 
fellow at Texas A&M Transportation Institute.
    Mr. Lomax. Thank you, Madam Chair, Ranking Member Davis, 
Chairman DeFazio, distinguished members of the subcommittee. I 
appreciate the invitation to speak today regarding America's 
mobility and connectivity problems and some possible solutions.
    TTI is the most comprehensive higher education-affiliated 
transportation research center in the United States. We have 
worked in all 50 States and in 51 countries, and last month we 
released the 24th edition of the national congestion estimate.
    You have heard today our national congestion value of $166 
billion. I would point out that that doesn't include safety 
effects, environmental effects, the business inefficiencies 
that also come along with that. That is just the value of the 
wasted time and fuel.
    So how do we start to address these issues, the topic 
today? In a comprehensive analysis, you might look at five 
questions. What should we do? How much would it cost? How 
should we pay for it? What is the benefit of doing something? 
And what is the cost of doing nothing?
    Far too often we agree that all strategies should be 
considered and that the solutions will cost a lot. When we ask 
how we should pay for solving the problem, we hear this. This 
is where the crickets are supposed to play.
    There aren't enough conversations about how we would pay 
for the solutions. There isn't enough information about the 
benefits. And there certainly isn't enough discussion about the 
high cost of doing nothing.
    The analysis we did for the State of Texas projected that 
the total cost to sustain the 2010 condition of Texas' roads 
and highways would be $273 million over the next 25 years. The 
economic impact of doing nothing was $989 million. That was the 
estimated effect of continuing to do the same things, the same 
funding sources, and the same policies. It is clear that doing 
nothing is not free.
    I would like to summarize a few other points from my 
written testimony.
    Congestion problems will continue to challenge metropolitan 
regions of all sizes. This is not just a big city problem. The 
projects, programs, and policies that each region uses to solve 
problems will be different.
    This is a reflection, I think, of the creativity and 
diversity in our country and in our metropolitan regions. The 
strategies are going to be different from region to region. 
They are also going to be different between a suburban area and 
the downtown area within the same metropolitan region.
    Just like a specific set of solution strategies are the 
result of a public engagement and technical design process, the 
level of congestion deemed unacceptable is also a local 
decision. One size doesn't fit all. For example, smaller urban 
areas are very likely going to expect higher average speeds on 
an urban freeway during rush hour than a larger urban area.
    I would point out not all congestion is bad. Sometimes it 
is a reflection of a vibrant area. And no congestion isn't 
always a good goal. But too much congestion makes it difficult 
to get from where you are to those vibrant activity centers.
    I would point out that technology has a role. It may be 
showing commuters what their travel options are. It could be 
helping plan a trip. It could be allowing frequent bus riders 
to use a tollroad for a free trip every so often.
    Several States and regions have had success with the 
difficult conversation around more funding, new options, or 
changing policies. These are usually a combination of doing a 
good job, making sure the public understands that you are doing 
a good job, having a clear plan for the additional spending, 
committing to an effort that engages the public on determining 
which projects, programs, and funding sources to pursue, and 
providing an accountable, transparent reporting of the 
schedules, budgets, and effects. These solutions work.
    Almost every strategy works in some situation, and almost 
every strategy is the wrong treatment in some places and times. 
Anyone who tells you there is a single solution that can solve 
congestion, be publicly supported, and implemented everywhere 
is exaggerating the effect of their idea.
    I would like to acknowledge the support of the University 
Transportation Centers program for the past ``Urban Mobility 
Reports.'' We have been able to increase the number of urban 
areas analyzed, look at the economic effects of congestion on 
freight movements and the effect of transit on congestion 
levels. Our ``2019 Urban Mobility Report'' was sponsored by the 
Texas Department of Transportation as part of their 
benchmarking process to address their congestion problem.
    Thank you for the opportunity to testify. There is more 
information about TTI on our website. I am happy to answer 
questions about the important task of helping Americans get to 
their job, school, shops, health facilities, and freight 
destinations to support a desirable quality of life and growth 
in economic opportunity.
    [Mr. Lomax's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Timothy J. Lomax, Ph.D., P.E., Regents Fellow, 
                   Texas A&M Transportation Institute
    Chair Norton, Ranking Member Davis, Chairman DeFazio, Ranking 
Member Graves, and Members of the Subcommittee, thank you for inviting 
me to testify before the Subcommittee regarding the impact of 
congestion and possible solutions to address it. My name is Tim Lomax 
and I am a Regents Fellow at the Texas A&M Transportation Institute 
(TTI). Established in 1950 and part of the Texas A&M University System, 
TTI is a state agency and the largest and most comprehensive higher 
education-affiliated transportation research center in the United 
States. TTI has conducted work in all 50 states and in 51 countries.
    The Texas A&M University System is one of the largest systems of 
higher education in the nation, with a budget of $4.7 billion. Through 
a statewide network of 11 universities and eight state agencies, the 
Texas A&M System educates more than 153,000 students and makes more 
than 22 million educational contacts through service and outreach 
programs each year. System-wide, research and development expenditures 
exceeded $996 million in FY 2017.
    Last month, TTI released its 2019 Urban Mobility Report. Funded by 
the Texas Department of Transportation and completed in cooperation 
with INRIX, the Urban Mobility Report examines traffic conditions in 
494 urban areas across all states and Puerto Rico. While the Urban 
Mobility Report has been a showcase product of TTI for over two 
decades, the depth, breadth and comprehensiveness of the report was 
transformed with funding from TTI-led USDOT University Transportation 
Centers. These UTC-sponsored improvements included the use of real-time 
travel speed data through a partnership with a private vendor (data 
provided at no cost to TTI)--a first-of-its-kind use that preceded a 
similar effort by the Federal Highway Administration by several years. 
TTI was also able to increase the number of urban areas analyzed, 
improve our estimates of the economic impact of congestion, freight 
movement effects, and the effect of transit on congestion levels.
    The 2019 Urban Mobility Report found that congestion is back to its 
growth pattern after the economic recession. The 8- to 10-year growing 
economy has brought traffic congestion to the highest measured levels 
in most U.S. cities. The myriad possible solutions--more highways, 
streets and public transportation; better traffic operations; more 
travel options; new land development styles; and advanced technology--
have not been deployed in sufficient numbers to restrain the mobility 
degradation.
    For more information and congestion data on the individual cities, 
visit: http://mobility.tamu.edu/umr.
    The trends from 1982 to 2017 (see Exhibit 1) show that congestion 
is a persistently growing problem.
    <bullet>  The problem is larger than ever. In 2017, congestion 
caused urban Americans to travel an extra 8.8 billion hours and 
purchase an extra 3.3 billion gallons of fuel for a congestion cost of 
$166 billion.
    <bullet>  Trucks account for $21 billion of the cost, a much bigger 
share of the cost than their 7 percent of traffic.
    <bullet>  The average auto commuter spends 54 hours in congestion 
and wastes 21 gallons of fuel due to congestion at a cost of $1,010 in 
wasted time and fuel.
    <bullet>  The variation in congestion is often more difficult for 
commuters and freight shippers to accommodate than the regular, 
predictable back-ups. To reliably arrive on time for important freeway 
trips, travelers had to allow 34 minutes to make a trip that takes 20 
minutes in light traffic.
    <bullet>  Employment was up by 1.9 million jobs from 2016 to 2017, 
slower growth than the 2.3+ million job growth in 4 of the previous 5 
years, but substantial enough to cause congestion growth (1). Exhibit 2 
shows the historical national congestion trend.
    <bullet>  More detailed speed data on more roads and more hours of 
the day from INRIX (2), a leading private sector provider of travel 
time information for travelers and shippers, were combined with travel 
volume estimates developed from the Federal Highway Administration's 
Highway Performance Monitoring System (3).

    Each region should use the combination of strategies that match its 
goals and vision. There is no panacea. And the decade-long recovery 
from economic recession has proven that the problem will not solve 
itself.

               Exhibit 1. Major Findings of the 2019 Urban Mobility Report (494 U.S. Urban Areas)
                       (Note: See page 3 for description of changes since the 2015 report)
----------------------------------------------------------------------------------------------------------------
             Measures of . . .                  1982          2000          2012          2017       5-Yr Change
----------------------------------------------------------------------------------------------------------------
              . . . Individual Congestion
   Yearly delay per auto commuter (hours)            20            38            47            54           15%
                        Travel Time Index          1.10          1.19          1.22          1.23       1 Point
       Planning Time Index (Freeway only)            --            --            --          1.67            --
        ``Wasted'' fuel per auto commuter             5            16            20            21            5%
                                 (gallons)
Congestion cost per auto commuter (2017 $)         $550          $860          $910        $1,010           11%
    . . . The Nation's Congestion Problem
             Travel delay (billion hours)           1.8           5.3           7.7           8.8           14%
        ``Wasted'' fuel (billion gallons)           0.8           2.5           3.2           3.3            3%
  Truck congestion cost (billions of 2017          $1.9          $7.1         $14.6         $20.5           40%
                                  dollars)
Congestion cost (billions of 2017 dollars)          $14           $71          $142          $166           17%
----------------------------------------------------------------------------------------------------------------
Yearly delay per auto commuter--The extra time spent during the year traveling at congested speeds rather than
  free-flow speeds by
private vehicle drivers and passengers who typically travel in the peak periods.
Travel Time Index (TTI)--The ratio of travel time in the peak period to travel time at free-flow conditions. A
  Travel Time Index of 1.30
indicates a 20-minute free-flow trip takes 26 minutes in the peak period.
Planning Time Index (PTI)--The ratio of travel time on the worst day of the month to travel time in free-flow
  conditions.
Wasted fuel--Extra fuel consumed during congested travel.
Congestion cost--The yearly value of delay time and wasted fuel by all vehicles.
Truck congestion cost--The yearly value of extra operating time and wasted fuel for commercial trucks.


                              Exhibit 2. National Congestion Measures, 1982 to 2017
----------------------------------------------------------------------------------------------------------------
                                                                                                   Total Cost
       Year            U.S. Jobs          Delay Per         Total Delay        Fuel Wasted     (Billions of 2017
                       (Millions)      Commuter (Hours)   (Billion Hours)   (Billion Gallons)       Dollars)
----------------------------------------------------------------------------------------------------------------
 5-Year Change                 8%                15%                14%                 3%                17%
----------------------------------------------------------------------------------------------------------------
          2017              153.3                 54                8.8                3.3               $166
          2016              151.4                 53                8.6                3.3               $157
          2015              148.8                 51                8.4                3.3               $153
          2014              146.3                 50                8.2                3.2               $152
          2013              143.9                 48                8.0                3.2               $148
          2012              142.5                 47                7.7                3.2               $142
          2011              139.9                 45                7.5                3.2               $133
          2010              139.1                 44                7.2                3.1               $124
          2009              139.9                 43                6.9                3.1               $116
          2008              145.4                 42                6.8                3.2               $119
          2007              146.1                 43                6.8                3.2               $113
          2006              144.4                 42                6.7                3.1               $108
          2005              141.7                 42                6.6                3.0               $101
          2004              139.2                 41                6.3                2.9                $94
          2003              137.7                 41                6.1                2.8                $86
          2002              136.5                 40                5.9                2.7                $81
          2001              136.9                 39                5.6                2.6                $77
          2000              136.9                 38                5.3                2.5                $71
          1999              133.5                 37                5.1                2.3                $65
          1998              131.5                 36                4.8                2.2                $60
          1997              129.6                 36                4.6                2.1                $56
          1996              126.7                 34                4.3                2.0                $52
          1995              124.9                 33                4.1                1.9                $48
          1994              123.1                 32                3.8                1.8                $44
          1993              120.3                 31                3.6                1.7                $40
          1992              118.5                 30                3.4                1.6                $37
          1991              117.7                 29                3.2                1.5                $34
          1990              118.8                 28                3.0                1.4                $30
          1989              117.3                 27                2.9                1.3                $27
          1988              115.0                 26                2.7                1.2                $25
          1987              112.4                 25                2.5                1.1                $22
          1986              109.6                 24                2.4                1.1                $20
          1985              107.2                 23                2.2                1.0                $19
          1984              105.0                 22                2.1                0.9                $17
          1983              100.8                 21                1.9                0.9                $15
          1982               99.5                 20                1.8                0.8                $14
----------------------------------------------------------------------------------------------------------------
Note: See Exhibit 1 for explanation of measures. For more congestion information see Tables 1 to 4 in the
  report. For congestion information on individual cities, visit http://mobility.tamu.edu/umr.

                     Congestion Problems and Trends
    Rush-hour traffic jams are expected in big cities. When a large 
percentage of workers are on an 8 a.m. to 5 p.m. or 9 a.m. to 5 p.m. 
schedule, there will be travel delays on freeways, streets, and even 
public transportation. This results in a ``rush hour'' in the morning 
and afternoon. The problem obviously affects commuters, but it also 
affects many other trip types: manufacturers that rely on a reliable 
transportation system and companies who have delivery schedules and 
service calls. Some key measures are listed below. See data for your 
city at http://mobility.tamu.edu/umr/congestion_data.
    Congestion costs are increasing. The ``invoice'' for only two of 
the congestion effects--the cost of extra time and fuel--in the 494 
U.S. urban areas was (all values in constant 2017 dollars):
    <bullet>  In 2017--$166 billion
    <bullet>  In 2016--$157 billion
    <bullet>  In 2000--$71 billion
    <bullet>  In 1982--$14 billion

    Congestion wastes a massive amount of time and fuel and creates 
more uncertainty for travelers and freight. In 2017:
    <bullet>  8.8 billion hours of extra travel time (in that time, 124 
million couples could binge-watch all eight seasons of Game of 
Thrones).
    <bullet>  3.3 billion gallons of wasted fuel (equal to a line of 
18-wheeler fuel trucks from Los Angeles to Boston).
    <bullet>  And if all that isn't bad enough, travelers and freight 
shippers making important trips had to add nearly 70 percent more 
travel time compared with light traffic conditions to account for the 
effects of unexpected crashes, bad weather, special events and other 
irregular congestion causes.

    Congestion is also a type of tax
    <bullet>  $166 billion of delay and fuel cost (equal to the cost of 
about 163 million summer vacations)
    <bullet>  The negative effect of uncertain or longer delivery 
times, missed meetings, business relocations and other congestion-
related effects are not included.
    <bullet>  12 percent ($21 billion) of the delay cost was the effect 
of congestion on truck operations (equivalent to the average grocery 
bills of 2.7 million families); this does not include any value for the 
goods being transported in the trucks.
    <bullet>  The cost to the average auto commuter was $1,010; it was 
an inflation-adjusted $550 in 1982.

    Congestion affects people who travel during the peak period. The 
average auto commuter:
    <bullet>  Spent an extra 54 hours traveling--more than a week of 
vacation--up from 20 hours in 1982.
    <bullet>  Wasted 21 gallons of fuel in 2017--a week's worth of fuel 
for the average U.S. driver--up from 5 gallons in 1982.
    <bullet>  In areas with over 1 million persons, 2017 auto commuters 
experienced:
      <bullet>  an average of 71 hours of extra travel time;
      <bullet>  a road network that was congested for about 6 hours of 
the average weekday;
      <bullet>  had a congestion tax of $1,330.

    Congestion is also a problem at other hours.
    <bullet>  Approximately 33 percent of total delay occurs in the 
midday and overnight (outside of the peak hours) times of day when 
travelers and shippers expect free-flow travel.

    Congestion, by every measure, has increased substantially over the 
36 years covered in this report. Almost all regions have worse 
congestion than before the 2008 economic recession which caused a 
decrease in traffic problems. Traffic problems as measured by per-
commuter measures are worse than a decade ago. Since there are so many 
more commuters, as well as more congestion during off-peak hours, total 
delay has increased by two billion hours. The total congestion cost has 
also risen with more wasted hours, greater fuel consumption and more 
trucks stuck in stop-and-go traffic.
    Congestion is worse in areas of every size--it is not just a big 
city problem. The growing delays also hit residents of smaller cities 
(Exhibit 3). The growth trend looks similar for 2000, 2010 and 2017, 
but that final period is only 7 years long, suggesting that if the 
economy does not enter another recession, congestion will be a much 
larger problem in 2020.
    Both big towns and small cities have congestion problems. Every 
economy is different and smaller regions often count on good mobility 
as a quality-of-life aspect that allows them to compete with larger, 
more economically diverse regions. As the national economy improves, it 
is important to develop the consensus on action steps, as major 
projects, programs and funding efforts take 10 to 15 years to develop.
  Exhibit 3. Congestion Growth Trend--Hours of Delay per Auto Commuter
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Small = less than 500,000; Medium = 500,000 to 1 million; Large = 1 
                         million to 3 million;
                    Very Large = more than 3 million

                  The Trouble With Planning Your Trip
    Many urban residents, travelers and freight movers have given up on 
having congestion-free trips in rush hours; they would just like some 
dependability in their travel times. The variation in travel time from 
day-to-day is often more frustrating than expected congestion. We know 
that for those urgent trips--catching an airplane, getting to a medical 
appointment or picking up a child at daycare on time--we need to leave 
a little earlier to make sure we are not late. And this need to add 
extra time is not just a ``rush hour'' consideration.
    Exhibit 4 illustrates this problem. Say your typical trip takes 20 
minutes when there are few other cars on the road. That is represented 
by the green bars. Your trip usually takes longer, on average, whether 
that trip is in the morning, midday or evening. This ``average trip 
time'' is shown in the yellow bars in Exhibit 10. In 2017, the average 
big city auto commute was 26 minutes in the morning and 28 minutes in 
the evening peak hours.
    Now, if you must make a very important trip during any of these 
time periods there is additional ``planning time'' you must allow to 
reliably arrive on-time. As shown in the red bars in Exhibit 10, your 
20-minute trip means you should plan for around 33 minutes in the 
morning, 36 minutes in the evening and 30 minutes during the midday 
when congestion is not usually a concern.
    This is not just a ``big city rush hour'' problem; the planning 
time averages 24 minutes in the morning and 26 minutes in the evening 
for the smaller regions.
Exhibit 4. How Much Time Must You Allow to Be `On-Time' for a 20-Minute 
                                 Trip?
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Green Bar_No congestion; Yellow Bar_Average congestion; Red Bar_Plan 
       around this congestion if you're making an important trip

   Delivering the Goods: And Your Role in the Congestion Impacts on 
                                Trucking
What causes all the trucks on the road anyway?
    Do you eat anything or buy anything? Of course you do. We all do. 
And getting all that stuff to you requires trucks.
    The consumer expectation to ``get it now'' has resulted in a boom 
in e-commerce. This e-commerce growth will continue. Booming economies 
and growing areas require goods and services, and the trucks to provide 
them.
What are the impacts of congestion on trucking and trucking on 
        congestion?
    The price tag for truck congestion cost is over $20 billion in 
wasted time and fuel. Truck congestion is 12 percent of the total 
congestion cost, but trucks are only 7 percent of the traffic. Only 
half of the $20 billion truck congestion cost is in the largest 15 
urban areas, illustrating that truck congestion is a problem spread 
throughout all urban areas. Furthermore, the share of truck cost to the 
total congestion cost has gone up from 10 percent in 2012 to 12 percent 
in 2017.
    Being on-time is particularly important for truck deliveries. Just-
in-time manufacturing and on-time parcel deliveries make travel time 
predictability a critical need. On average in the 101 most congested 
urban areas, we find that to ensure an on-time delivery for the most 
important trips, truckers need to add 15 minutes to a trip that 
typically takes 20 minutes in light traffic (see Table 3). In Los 
Angeles, nearly 40 additional minutes are needed for urgent trips. This 
unreliability in the transportation system is especially detrimental 
for the trucking community and service companies.
    There are many other costs incurred by shippers and carriers due to 
a congested and unreliable transportation system, which are not 
captured in our congestion costs. Companies need more trucks to make 
deliveries and service calls, they invest more time and technology to 
``beat the traffic'' and more distribution centers are needed to 
fulfill demand.
What can be done?
    In many dense urban areas, there is daily competition where the 
battle trenches are the curb space along our urban streets. It is here 
that freight delivery vehicles jockey with cars, buses, on-demand 
transportation services and other activities. The congestion, and the 
battle at the curb, puts a tremendous strain on shippers and carriers 
looking to gain any competitive edge, as well as motorists, cyclists 
and other users.
    Managing the time spent in loading zones can help mitigate the 
problem; common delivery areas such as locked spaces where deliveries 
and pick-ups can be done at different times provide one possible 
solution in urban areas. Transportation providers are also testing 
technologies such as automated vehicles, delivery robots or drones for 
deliveries, as well as cargo cycles and other transport methods.
            Congestion Relief--An Overview of the Strategies
    We recommend a balanced and diversified approach to reduce 
congestion--one that focuses on more of everything; more policies, 
programs, projects, flexibility, options and understanding. It is clear 
that the solution investments have not kept pace with the problems. 
Most urban regions have big problems now--more congestion, poorer 
pavement and bridge conditions and less public transportation service 
than they would like.
    What is the right solution to a specific congestion problem? The 
answer is usually found in one word: Context.
    Almost every solution strategy works somewhere in some situation. 
And almost every strategy is the wrong treatment in some places and 
times. Anyone who tells you there is a single solution that can solve 
congestion, be supported and implemented everywhere (or even in most 
locations) is exaggerating the effect of their idea.
    Some solutions need more congestion before they are fully 
effective, and some can be very useful before congestion is a big 
problem. There is almost always a role for providing more travel 
options and operating the system more efficiently. Their effects are 
important but, especially in growing regions, they will not be enough 
to meet community mobility goals. The private sector, the market and 
government regulations all play a role. Some cities see growth near 
downtowns that provide good home and work options, but rarely dominate 
the regional growth trends. Governments have been streamlining 
regulations to make near-town developing as easy as suburban 
developments.
    More information on the possible solutions, places they have been 
implemented and their effects can be found on the website: https://
policy.tti.tamu.edu/congestion/how-to-fix-congestion/
    None of these ideas are the whole mobility solution, but they can 
all play a role.
    <bullet>  Get as much as possible from what we have--``Get the best 
bang for the buck'' is the theme here. Many low-cost improvements have 
broad public support and can be rapidly deployed. These operations 
programs require innovation, new monitoring technologies and staffing 
plans, constant attention and adjustment, but they pay dividends in 
faster, safer and more reliable travel. Rapidly removing crashed 
vehicles, timing traffic signals so that more vehicles see green 
lights, and improving road and intersection designs are relatively 
simple actions. More complex changes, such as traffic signals that 
rapidly adapt to different traffic patterns, systems that smooth 
traffic flow and reduce traffic collisions, and communication 
technologies that assist travelers (in all modes) and the 
transportation network also play a role.
    <bullet>  Provide choices--``Customize your trip'' might involve 
different travel routes, departure times, travel modes or lanes that 
involve a toll for high-speed and reliable service. These options allow 
travelers and shippers to make trips when, where and in a form that 
best suits their needs and wants. There are many sources of travel 
information involving displays of existing travel times, locations of 
roadwork or crashes, transit ridership and arrival information, and a 
variety of trip planner resources. The solutions also involve changes 
in the way employers and travelers conduct business to avoid traveling 
in the traditional ``rush hours.'' Flexible work hours, internet 
connections or phones allow employees to choose work schedules that 
meet family needs and the needs of their jobs. Companies have seen 
productivity increase when workers are able to adjust their hours and 
commute trips to meet family or other obligations.
    <bullet>  Add capacity in critical corridors--``We just need more'' 
in some places. Increases in freight and person movement often require 
new or expanded facilities. Important corridors or growing regions can 
benefit from more street and highway lanes, new or expanded public 
transportation facilities, and larger bus and rail fleets. Some of 
``more'' will be better paths and routes for bicyclists and 
pedestrians. Some of the ``more'' will also be in the form of 
advancements in connected and autonomous vehicles--cars, trucks, buses 
and trains that communicate with each other and with the transportation 
network resulting in reduced crashes and congestion.
    <bullet>  Diversify the development patterns--``Everyone doesn't 
want to live in <fill in the blank>'' is a discussion in most urban 
regions. It is always true--because there is no one-size-fits-all home 
type. The market is diverse for the same reasons as the U.S. culture, 
economy and society is varied. The ``real market'' includes denser 
developments with a mix of jobs, shops and homes (so that more people 
can walk, bike or take transit to more and closer destinations). Also, 
urban residential patterns of moderate density single-family and multi-
family buildings, and suburban residential and commercial developments 
are popular today. Sustaining quality-of-life and gaining economic 
development without the typical increment of congestion in each of 
these sub-regions appears to be part, but not all, of the mobility 
solution. Recognizing that many home and job location choices are the 
result of choices about family, elementary and secondary education 
preferences, and entertainment and cultural sites allows planners to 
adjust projects and policies to meet these varied markets.
    <bullet>  Technology advancements also hold promise as solutions. 
While we are not yet at the ``Meet George Jetson'' level of technology, 
the technology disruptors coming to market every week will alter the 
urban mobility landscape. Crowdsourced data from INRIX has improved the 
report, and an increasingly connected world will offer more 
opportunities to understand and improve the movement of people, goods 
and the data itself. Connected vehicles ``talking'' to each other, such 
as traffic signals and other systems--and providing this information to 
decision-makers--will provide unprecedented data and insights to 
identify and fix mobility problems. Newer model vehicles sense and 
adjust to their surroundings, increasing safety and efficient movement 
of goods and people. Other technologies, such as The Internet of Things 
(IoT) (''connected things''), 3D printers, Blockchain, and Artificial 
Intelligence (AI) will impact transportation systems of the future. 
Will the mobility improvements of these technologies offset induced 
trips or other unforeseen mobility consequences? In many cases, it 
will. Again, context is the key, and the jury is still out on the 
evolving impacts.
    <bullet>  Realistic expectations are also part of the solution. 
Large urban areas will be congested. Some locations near key activity 
centers in smaller urban areas will also be congested. Identifying 
solutions and funding sources that meet a variety of community goals is 
challenging enough without attempting to eliminate congestion in all 
locations at all times. Congestion does not have to be an all-day 
event, and in many cases, improving travel time awareness and 
predictability can be a positive first step toward improving urban 
mobility.

    Case studies, analytical methods and data are available to support 
development of these strategies and monitor the effectiveness of 
deployments. There are also many good state and regional mobility 
reports that provide ideas for communicating the findings of the data 
analysis.
         Where Should the Congestion Solutions Be Implemented?
    There will be a different mix of solutions in metro regions, 
cities, neighborhoods, job centers and shopping areas. Some areas might 
be more amenable to construction solutions, while other areas might use 
more technology to promote and facilitate travel options, operational 
improvements, or land use redevelopment. In all cases, the solutions 
need to work together to provide an interconnected network of smart 
transportation services as well as improve the quality-of-life.
    There will also be a range of congestion targets. Many large urban 
areas, for example, use a target speed of 35 mph or 45 mph for their 
freeways; if speeds are above that level, there is not a ``congestion 
problem.'' Smaller metro areas, however, typically decide that good 
mobility is one aspect of their quality-of-life goals and have higher 
speed expectations. Even within a metro region, the congestion target 
will typically be different between downtown and the remote suburbs, 
different for freeways and streets, and different for rush hours than 
midday travel.
    Just like the specific set of strategies used to improve mobility 
is the result of a public engagement and technical design process, the 
level of congestion deemed unacceptable is a local decision. The 2019 
Urban Mobility Report uses one consistent, easily understood comparison 
level. But that level is not ``the goal,'' it is only an expression of 
the problem. The report is only one of many pieces of information that 
should be considered when determining how much of the problem to solve.
    Better data can play a valuable role in all of the analyses. 
Advancements in volume collection, travel speed data and origin to 
destination travel paths for people and freight allow transportation 
agencies at all government levels and the private sector to better 
identify existing chokepoints, possible alternatives and growth 
patterns. The solution begins with better understanding of the 
challenges, problems, possibilities and opportunities--where, when, how 
and how often mobility problems occur. This evolves into similar 
questions about solutions--where, when, and how can mobility be 
improved. These data will allow travelers to capitalize on new 
transportation services, identify novel programs, have better travel 
time reliability and improve their access to information.
                     The High Cost of Doing Nothing
    Transportation solutions should involve a dialogue about five 
significant questions.
    1.  What should we do?
    2.  How much will it cost?
    3.  How should we pay for it?
    4.  What is the benefit of doing something?
    5.  What is the cost of doing nothing?

    If you examine the public discussion about regional or national-
level solutions, however, far too often the process stops after we 
agree that everything should be done and that it will cost a lot. Less 
often there are conversations about how we could pay for solutions, the 
benefits of doing something and the high cost of doing nothing.
    Several analyses of Texas' transportation future conducted over the 
past two decades have consistently pointed to the need for additional 
funding to address the growth challenges. The Texas 2030 Committee, a 
blue-ribbon style committee of civic and business leaders, worked from 
2008 to 2011 with researchers from TTI, the Center for Transportation 
Research at the University of Texas, and the University of Texas at San 
Antonio to examine future needs in urban mobility, rural connectivity, 
and bridge and pavement quality (4). The conclusion was that Texans 
would pay more in transportation costs over the next 25 years--either 
by suffering the consequences of doing nothing to address the 
transportation challenges, resulting in stop-and-go traffic, lost 
family and work time, and economic loss, or by paying additional taxes, 
fees, and licenses to reduce the scale of these types of problems.
    The data developed by the Texas 2030 Committee (Exhibit 5) clearly 
shows that living with the problem is more detrimental and more costly 
than tackling the problem with a variety of methods. The projected 
trend in population and job growth, as well as the expected funding 
levels and the resulting projects, policies and programs would see an 
average of $320 in transportation fees paid by the average household 
over the period from 2011 to 2035, while the value of extra travel 
time, wasted fuel, and vehicle maintenance would be about $6,000 per 
year. As more funds are invested in solving the problem, the lower the 
total costs--declining from $6,300 to $4,300 if 2010 conditions were 
maintained.
    Five significant funding increases have been approved by the Texas 
Legislature and/or voters since this dialogue began 15 years ago. While 
congestion has increased since 2010, the conversation is about how much 
congestion to address and what types of solutions will be used. There 
is general agreement that the problem exists and must be addressed.
    With Texas projected to add 1 million people every 3 years, the 
total cost to sustain 2010 conditions was estimated to be $273 million 
in 2010 dollars, while the economic impact of doing nothing other than 
the planned spending and policy program was $989 million. Doing nothing 
is not free.
     Exhibit 5. Average Yearly Total Transportation Cost per Texas 
                        Household--2011 to 2035
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          Source: Reference 4

                          Concluding Thoughts
    The national economy has improved since the 2015 Urban Mobility 
Report, but unfortunately congestion has gotten worse. This has been 
the case in the past--the economy-congestion linkage is as dependable 
as gravity. Some analysts had touted the decline in driving per capita 
and dip in congestion levels that accompanied the 2008/2009 recession 
as a sign that traffic congestion would, in essence, fix itself. That 
has not happened.
    The other seemingly dependable trend--not enough of any solution 
being deployed--also appears to be holding in most growing regions. 
That is really the lesson from this series of reports. The mix of 
solutions that are used is relatively less important than the number of 
solutions being implemented. All of the potential congestion-reducing 
strategies should be considered, and there is a role and location for 
most of the strategies.
    <bullet>  Getting more productivity out of the existing road and 
public transportation systems is vital to reducing congestion and 
improving travel time reliability.
    <bullet>  Businesses and employees can use a variety of strategies 
to modify their work schedules, freight delivery procedures, travel 
times and travel modes to avoid the peak periods, use less vehicle 
travel and increase the amount of electronic ``travel.''
    <bullet>  In growth corridors, there also may be a role for 
additional road and public transportation capacity to move people and 
freight more rapidly and reliably.
    <bullet>  Some areas are seeing renewed interest in higher density 
living in neighborhoods with a mix of residential, office, shopping and 
other developments. These places can promote shorter trips that are 
more amenable to walking, cycling or public transportation modes.

    The 2019 Urban Mobility Report points to national measures of the 
congestion problem for the 494 urban areas in 2017:
    <bullet>  $166 billion of wasted time and fuel,
    <bullet>  Including $21 billion of extra truck operating time and 
fuel,
    <bullet>  An extra 8.8 billion hours of travel, and
    <bullet>  3.3 billion gallons of fuel consumed

    The average urban commuter in 2017:
    <bullet>  Spent an extra 54 hours of travel time on roads than if 
the travel was done in low-volume conditions, and
    <bullet>  Used 21 extra gallons of fuel,
    <bullet>  Which amounted to an average value of $1,010 per 
commuter.

    States and cities have been addressing the congestion problems they 
face with a variety of strategies and more detailed data analysis. Some 
of the solution lies in using the smart data systems and range of 
technologies, projects and programs to achieve results and communicate 
the effects to assure the public that their project dollars are being 
spent wisely. And a component of the solution lies in identifying 
mobility level targets and implementing a range of solutions to achieve 
them in service to broader quality of life and economic productivity 
goals.
                               References
    1.  Current Employment Statistics, U.S. Bureau of Labor Statistics, 
U.S. Department of Labor, Washington D.C. Accessed 2019. http://
www.bls.gov/ces/home.htm
    2.  National Average Speed Database, 2009 to 2014. INRIX. Kirkland, 
WA. www.inrix.com
    3.  Federal Highway Administration. ``Highway Performance 
Monitoring System,'' 1982 to 2017 Data. November 2018. Available: 
http://www.fhwa.dot.gov/policyinformation/hpms.cfm
    4.  It's About Time: Investing in Transportation to Keep Texas 
Economically Competitive. Texas 2030 Committee, March 2011. https://
texas2030committee.tamu.edu/

    Ms. Norton. Thank you, Dr. Lomax.
    Next, Marc Scribner, senior fellow, Competitive Enterprise 
Institute.
    Mr. Scribner. Chair Norton, Ranking Member Davis, Chair 
DeFazio, and members of the subcommittee, thank you for giving 
me the opportunity to testify before you today.
    Congestion is a persistent and growing problem facing 
America's road networks, as Dr. Lomax just explained. The 
challenge facing policymakers is how to address it. Given that 
traffic congestion is inherently a local phenomenon, the 
Federal Government has a limited set of tools to address it.
    Fortunately, in its role as a supporting partner to State 
and local transportation agencies, there are policy options 
available to Members of Congress to promote effective 
congestion mitigation and management. Even better, these tend 
not to involve increasing Federal-aid highway spending. Rather, 
modernizing Federal law to permit greater flexibility at the 
State and local level to price road use is the best way to 
address peak hour traffic congestion that plagues many of 
America's metropolitan areas.
    Nobel Laureate economist William Vickrey, in a seminal 1963 
paper, said of the then and still status quo of urban 
transportation management that, in quote, ``no other major area 
are pricing practices so irrational, so out of date, and so 
conducive to waste,'' unquote.
    The problem, as Vickrey and other economists saw it, was 
scare roadway space was inefficiently allocated by nonmarket 
means so that the practical result of unpriced urban roads was 
queuing and a degradation of the network. With traffic flows 
increasingly unstable, travel times would lengthen and travel 
time predictability would worsen.
    In attempting to address this queuing due to a lack of 
pricing, policymakers would then make decisions to 
inefficiently expand physical roadway capacity, generally at 
great expense to society. This vicious cycle would then repeat 
itself.
    To effectively address peak hour traffic congestion and 
efficiently allocate scare urban road space, Vickrey proposed 
an electronic variable pricing scheme to promote stable traffic 
flows, quite similar to today's electronic transponder systems 
used by tolling networks such as E-ZPass.
    Variable road pricing is now generally viewed by economists 
as the most effective means to address peak hour traffic 
congestion. Policymakers select a desired average speed to 
maintain and then let rising prices do the rest.
    Physical capacity expansions in the absence of pricing can 
temporarily reduce congestion and improve traffic flows, but 
such improvements may be fleeting due to what economist Anthony 
Downs calls triple convergence. Under triple convergence, 
traffic flows on recently expanded roads soon begin to trend 
toward their preexpansion state of congestion, albeit with 
greater traffic volumes and the resulting benefits of that 
additional travel.
    In that sense, while roadway expansions can certainly 
benefit travelers in a given region, even at congested peak 
hours, in the absence of pricing many of the potential benefits 
may be unrealized due to persistent network congestion.
    Section 166 HOV to HOT conversions are likely the most 
promising near-term vehicles for implementing road pricing. 
Historically, HOV lanes have suffered from chronic 
underutilization. Converting HOV lanes to HOT lanes allows road 
authorities to make better use of lane capacity while providing 
motorists traveling below minimum HOV occupancy requirements a 
choice to pay for shorter and more predictable travel times.
    However, existing exemptions and pilot programs by 
themselves will not be able to address the related problems of 
growing traffic congestion and aging highway infrastructure. 
Reconstruction needs of the Interstate Highway System alone are 
estimated to be more than $1 trillion over the next two 
decades.
    If Congress wishes to address both this fiscal challenge 
and traffic congestion, it must reconsider the general Federal 
tolling prohibition. It should also seek to harness innovative 
financing and management practices made available through 
public-private partnerships by expanding project eligibility 
and lifting the lifetime volume cap on private activity bonds.
    Public acceptance of congestion pricing is crucial to its 
success. At a time when urban surface streets are riddled with 
potholes and other road infrastructure is being neglected, the 
first revenue priority of policymakers should be to be improve 
the Nation's tolled roadways to a state of good repair. 
Adherence to this fairness principle will do much to address 
public concerns that additional road charges will simply amount 
to more wasteful Government spending to benefit politically 
favored constituencies.
    Road pricing generally and congestion pricing specifically 
will be valuable tools going forward. The primary Federal 
concern should not be the implementation of any given pricing 
project. Rather, Congress should focus on removing outdated 
barriers to road pricing and give States the flexibility to use 
these tools that best suit their own needs.
    Thank you for the opportunity to testify before the 
subcommittee, and I welcome your questions.
    [Mr. Scribner's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Marc Scribner, Senior Fellow, Competitive 
                          Enterprise Institute
    Chair Norton, Ranking Member Davis, and Members of the 
Subcommittee, thank you for giving me the opportunity to testify before 
you today. My name is Marc Scribner. I am a senior fellow at the 
Competitive Enterprise Institute (CEI), where I focus on 
transportation, land use, and urban growth policy issues.\1\ CEI is a 
nonprofit, nonpartisan public interest organization dedicated to the 
principles of free enterprise and limited, constitutional government. 
CEI has consistently supported pro-market approaches to infrastructure 
investment and management through analysis and advocacy during its 35-
year history.
---------------------------------------------------------------------------
    \1\ My biography and writings are available at https://cei.org/
expert/marc-scribner.
---------------------------------------------------------------------------
    Congestion is a persistent and growing problem facing America's 
road network. The 2019 Urban Mobility Report from the Texas A&M 
Transportation Institute (TTI) estimates that traffic congestion 
resulted in 3.3 billion gallons of wasted fuel and 8.8 billion hours in 
wasted time per year in 2017. It estimates the nationwide cost at $166 
billion, or $1,010 per rush-hour commuter. This represents an 83.6 
percent increase in travel time delay and wasted fuel congestion costs 
per commuting motorist since 1982.\2\
---------------------------------------------------------------------------
    \2\ David Schrank et al., 2019 Urban Mobility Report, Texas A&M 
Transportation Institute, August 2019, https://static.tti.tamu.edu/
tti.tamu.edu/documents/mobility-report-2019.pdf.
---------------------------------------------------------------------------
    However, the TTI congestion analysis looks only at commuting 
motorists travel time delay and wasted fuel costs. When considering the 
costs associated with productivity losses, unreliability losses, truck 
cargo delays, and safety and environmental costs, the total annual 
economic cost of traffic congestion was estimated by the chief 
economist of the U.S. Department of Transportation to be more than 
double the TTI estimate.\3\
---------------------------------------------------------------------------
    \3\ Jack Wells, ``The Role of Transportation in the U.S. Economy,'' 
PowerPoint presentation to the National Surface Transportation Policy 
and Revenue Commission, June 26, 2006, slide 21, https://
web.archive.org/web/20090226032621/http://
www.transportationfortomorrow.org/pdfs/commission_meetings/
0606_meeting_washington/wells_presentation_0606_meeting.pdf.
---------------------------------------------------------------------------
    The challenge facing policy makers is how to address this growing 
problem. Given that traffic congestion is inherently a local 
phenomenon, the federal government has a limited set of tools to 
address it. Fortunately, in its role as a supporting partner to state 
and local transportation agencies, there are policy options available 
to members of Congress to promote effective congestion mitigation and 
management. Even better, these tend not to involve increasing federal 
highway-aid program spending. Rather, modernizing federal law to permit 
greater flexibility at the state and local level to price road use is 
the best way to address peak-hour traffic congestion that plagues many 
of America's metropolitan areas.
           Unleashing Markets to Mitigate Traffic Congestion
    Nobel-laureate economist William Vickrey, in a seminal 1963 paper, 
said of the then- and still-status quo of urban transportation 
management that in ``no other major area are pricing practices so 
irrational, so out of date, and so conducive to waste.'' \4\
---------------------------------------------------------------------------
    \4\ William S. Vickrey, ``Pricing in Urban and Suburban 
Transport,'' The American Economic Review, Vol. 53, No. 2, May 1963, 
pp. 452-465.
---------------------------------------------------------------------------
    The problem, as Vickrey and other economists saw it, was scarce 
roadway space was inefficiently allocated by non-market means, so that 
the practical result of unpriced urban roads was queuing and a 
degradation of the network. With traffic flows increasingly unstable, 
travel times would lengthen and travel time predictability would 
worsen. In attempts to address this queuing due to a lack of pricing, 
policy makers would then make decisions to inefficiently expand 
physical roadway capacity, generally at great expense to society. This 
vicious cycle would then repeat.
    To effectively address road traffic peak-hour congestion and 
efficiently allocate scarce urban road space, Vickrey proposed an 
electronic variable pricing scheme to promote stable traffic flows, 
quite similar to today's electronic transponder systems used by tolling 
networks such as E-ZPass in the United States. At the time, technology 
and budget limitations appeared prohibitive in carrying out this travel 
demand management vision, but today's modern and increasingly 
commonplace all-electronic tolling technology is relatively inexpensive 
and highly effective.
    Variable road pricing is now generally viewed by economists as the 
most effective means to address peak-hour traffic congestion. Policy 
makers select a desired average speed to maintain and then let rising 
prices do the rest. Physical capacity expansions in the absence of 
pricing can temporarily reduce congestion and improve traffic flows, 
but such improvements may be fleeting due to what economist Anthony 
Downs labels ``triple convergence.'' \5\
---------------------------------------------------------------------------
    \5\ Anthony Downs, ``Traffic: Why It's Getting Worse, What 
Government Can Do,'' Brookings Institution, January 1, 2004, https://
www.brookings.edu/research/traffic-why-its-getting-worse-what-
government-can-do/.
---------------------------------------------------------------------------
    Triple convergence refers to the expected events following roadway 
expansion in the absence of pricing during peak hours. Imagine a 
congested urban highway segment sees its physical capacity doubled 
overnight. The next day, we would expect to see free-flowing traffic. 
But as word spreads and motorists in the region internalize this new 
information, it would prompt three types of travelers to flock to and 
clog the new lanes: 1) motorists who previously avoided peak-hour 
travel on the congested road would shift back to peak-hour travel, 2) 
motorists who took alternative routes during the peak would shift to 
the expanded road, and 3) travelers who took other transportation modes 
during peak hours would switch to cars.
    Under triple convergence, traffic flows on recently expanded roads 
soon begin to trend toward their pre-expansion state of congestion, 
albeit with greater traffic volumes and the resulting benefits of that 
additional travel. In that sense, while roadway expansions can 
certainly benefit travelers in a given region--even at congested peak 
hours--in the absence of pricing, many of the potential benefits may be 
unrealized due to persistent network congestion.
    To effectively address traffic congestion in many of America's 
largest metropolitan areas, policy makers need to embrace road pricing. 
This can come in several forms--from central city cordon pricing to 
high-occupancy toll lanes on urban Interstate segments--and each 
approach should be tailored to the local peculiarities of a given 
metropolitan area. Research has found that congestion pricing 
implementation is highly case specific and subject to public 
perceptions of value.\6\ It follows that policy makers should be 
extremely concerned with the details of specific projects and in 
ensuring public trust in any implementation of congestion pricing. It 
also means the most successful congestion pricing regimes will be 
narrowly focused on improving traffic flows during peak hours, as 
opposed to providing governments with new general revenue sources to be 
appropriated to projects that do not directly benefit the paying users 
of the priced road.
---------------------------------------------------------------------------
    \6\ Diana Vonk Noordegraaf et al., ``Policy implementation lessons 
from six road pricing cases,'' Transportation Research Part A: Policy 
and Practice, Vol. 59, 2014, pp. 172-191.
---------------------------------------------------------------------------
                    Federal Policy and Road Pricing
    Federal law permits some congestion pricing on federal-aid 
highways, but can be improved to allow the states to fully take 
advantage of this tool. Under longstanding federal law, tolling is 
generally prohibited on the federal-aid highway system. However, in 
more recent times, Congress has enacted several exceptions to this 
rule:
    <bullet>  Section 129 general toll program exemptions.\7\ Initially 
codified to exempt pre-Interstate system toll facilities from the 
federal prohibition, Congress has gradually expanded Section 129 to 
include exemptions for:
---------------------------------------------------------------------------
    \7\ 23 U.S.C.  129(a).
---------------------------------------------------------------------------
      <bullet>  Initial construction of highways, bridges, or tunnels;
      <bullet>  Initial construction of new lanes on highways bridges, 
and tunnels as long as the number of toll-free lanes is not reduced;
      <bullet>  Reconstruction or replacement of a bridge or tunnel;
      <bullet>  Reconstruction of a non-Interstate highway; and
      <bullet>  Reconstruction, restoration, or rehabilitation of an 
Interstate highway as long as the number of toll-free lanes is not 
reduced.
    <bullet>  Section 166 HOV/HOT lane conversion exemptions.\8\ 
Section 166 permits the conversion of high-occupancy vehicle lanes to 
high-occupancy (HOV) toll lanes. High-occupancy toll (HOT) lanes are 
defined as high-occupancy vehicle lanes that allow vehicles traveling 
below the minimum occupancy requirement to use the lanes in exchange 
for paying a toll.
---------------------------------------------------------------------------
    \8\ 23 U.S.C.  166(c).
---------------------------------------------------------------------------
    <bullet>  Interstate System Reconstruction and Rehabilitation Pilot 
Program.\9\ This pilot program allows three participating projects to 
impose tolls on existing Interstate lanes. Each of the three projects 
must be in different states. Section 1411(c) of the Fixing America's 
Surface Transportation (FAST) Act of 2015 added additional requirements 
on state legislative authority and a ``use it or lose it'' three-year 
time frame for participating states to complete the program's 
requirements.
---------------------------------------------------------------------------
    \9\ Federal Highway Administration, ``Fact Sheet: Interstate System 
Reconstruction and Rehabilitation Pilot Program (ISRRPP),'' FHWA Center 
for Innovative Finance Support website, accessed September 5, 2019, 
https://www.fhwa.dot.gov/ipd/tolling_and_pricing/tolling_pricing/
interstate_rr_fact_sheet.aspx.
---------------------------------------------------------------------------
    <bullet>  Value Pricing Pilot Program (VPPP).\10\ In 1991, Congress 
established a congestion pricing program open to up to 15 projects. 
Since 2012, Congress has authorized no additional funding for the 
program and the Federal Highway Administration strongly encourages 
states seeking to impose tolls on federally aided highway segments to 
seek exemptions under Sections 129 and 166 rather than via VPPP.
---------------------------------------------------------------------------
    \10\ Federal Highway Administration, ``Value Pricing Pilot 
Program,'' FHWA Office of Operations website, accessed September 5, 
2019, https://www.fhwa.dot.gov/ipd/tolling_and_pricing/tolling_pricing/
vppp.aspx.

    While federal funding for VPPP projects has not been renewed for 
nearly a decade, VPPP can still be used to provide tolling authority to 
states and support innovative projects. But Section 166 HOV/HOT 
conversions are likely the most promising near-term vehicles for 
implementing road pricing. Historically, HOV lanes have suffered from 
chronic underutilization. Converting HOV lanes to HOT lanes allows road 
authorities to make better use of lane capacity while providing 
motorists traveling below minimum HOV occupancy requirements a choice 
to pay for shorter and more predictable travel times.
    However, Section 166 HOV/HOT lane conversions by themselves will 
not be able to address the related problems of growing traffic 
congestion and aging highway infrastructure.
    Reconstruction needs for the Interstate Highway System alone are 
estimated to be more than $1 trillion over the next two decades.\11\ If 
Congress wishes to address both this fiscal challenge and congestion, 
it must reconsider the federal general tolling prohibition.
---------------------------------------------------------------------------
    \11\ National Academies of Sciences, Engineering, and Medicine, 
Renewing the National Commitment to the Interstate Highway System: A 
Foundation for the Future, Transportation Research Board Special Report 
329, 2019, p. 165, https://www.nap.edu/catalog/25334/renewing-the-
national-commitment-to-the-interstate-highway-system-a-foundation-for-
the-future.
---------------------------------------------------------------------------
    In addition, given the potential for dedicated revenue collection, 
transportation agencies can attract private investment and management 
to shifts costs and risks associated with these projects away from 
taxpayers and onto private investors. These public-private partnerships 
(P3s) have been used sparingly in the U.S., but are widely used 
internationally.
    In countries as varied as Australia, France, China, and Chile, P3s 
have played major roles in the provision and management of 
transportation infrastructure.\12\ Concession agreements under which 
the concessionaire designs, builds, finances, operates, and maintains 
the project over the long term have successfully reduced project costs, 
shifted costs and risks away from taxpayers and onto private investors 
and users, and delivered projects in a more timely fashion.\13\ In the 
U.S., several states have enacted robust P3 legislation and have 
entered into long-term leases with private concessionaires to build, 
modernize, and/or manage public-purpose tolled highways.\14\ This has 
resulted in road users getting better infrastructure and taxpayers 
saving billions of dollars.
---------------------------------------------------------------------------
    \12\ Robert W. Poole, Jr., Rethinking America's Highways: A 21st 
Century Vision for Better Infrastructure (Chicago: University of 
Chicago Press, 2018), pp. 52-66.
    \13\ Ibid., pp. 96-135.
    \14\ Ibid., p. 104.
---------------------------------------------------------------------------
    These P3 toll roads rely on a mix of equity and debt financing. 
Private activity bonds (PABs) play a key role, with toll revenue used 
to service this debt. PABs are tax exempt like traditional municipal 
bonds, leveling the playing field between the public and private 
sectors in financing infrastructure. Unfortunately, Congress created a 
national aggregate volume cap on PABs of $15 billion for surface 
transportation projects.\15\ According to the latest data from the U.S. 
Department of Transportation, more than two-thirds of that $15 billion 
has already been issued or allocated.\16\ If Congress wants to free the 
states and private sector to deliver better infrastructure value to the 
traveling public, this cap should be greatly increased or eliminated 
and project eligibility should be expanded.
---------------------------------------------------------------------------
    \15\ 26 U.S.C.  142(m)(2)(A).
    \16\ Build America Bureau, ``Private Activity Bonds,'' U.S. 
Department of Transportation website, updated August 9, 2019, https://
www.transportation.gov/buildamerica/programs-services/pab.
---------------------------------------------------------------------------
    But Congress shouldn't stop there. Looking to the future, new 
technologies may enable superior congestion management and revenue 
collection than is currently possible with all-electronic tolling. A 
number of states in recent years have been piloting new mileage-based 
revenue collection technologies and practices, which are variously 
known as mileage-based user fees, road usage charges, and vehicle-miles 
traveled taxes. All refer to the same approach, whereby road users are 
directly charged based on the distance (and perhaps weight of the 
vehicle) they drive.
    Oregon has the most advanced pilot in operation, established by 
2013 legislation. The program's volunteers can opt for two versions of 
mileage-recording technology: non-location-based supplementary 
odometers and a location-based option that can offer users more 
precision and add-on features such as geofenced alerts for parents of 
teen drivers. Participants are refunded their estimated fuel tax 
payments upon transmission of their mileage data.
    Location-based systems can differentiate between roads by 
satellite, thereby allowing for dynamic pricing across the entire road 
network with less costly infrastructure investments. In the long run, 
Congress should consider a shift away from fuel taxation as the primary 
highway revenue source and toward mileage-based user fees. As was noted 
above, congestion is inherently a local problem and is best addressed 
locally through tailored pricing solutions and capacity enhancements. 
This means that while Congress should not seek to impose congestion 
pricing, it should consider how states can integrate their own 
congestion pricing programs into future mileage-based user fee systems.
            Principles for Sound Road Pricing Implementation
    For congestion pricing to be publicly acceptable, policy makers 
should focus on delivering value to those paying the charges. As such, 
they should not seek to divert toll revenue to address unrelated 
projects. To do so, they should first adhere to the longstanding users-
pay/users-benefit principle that has guided U.S. highway policy for two 
generations, which offers the following advantages over alternatives:
    <bullet>  Fairness: Road users benefit from the improvements their 
user charges generate.
    <bullet>  Proportionality: Users who drive more pay more.
    <bullet>  Funding predictability: Highway use and highway user 
revenues do not fluctuate wildly in the short-run.
    <bullet>  Signaling investment: Because revenue roughly tracks use, 
the mechanism provides policy makers with an important signal as to how 
much and where infrastructure investment is needed to maintain a 
desired level of efficiency.

    Policy makers will face persistent calls from special interest 
groups to impose congestion pricing and direct toll revenue to their 
favored projects, such as with New York City's cordon pricing plan to 
direct nearly all revenue from a Manhattan central business district 
congestion charge to mass transit improvements.\17\ To be sure, 
congestion pricing revenue can--and in some places should--be used to 
support mass transit enhancements. However, New York City is an extreme 
outlier and should not be treated as a model for other U.S. cities. At 
a time when urban surface streets are riddled with potholes and other 
road infrastructure is being neglected, the first revenue priority of 
policy makers should be to improve the nation's tolled roadways to a 
state of good repair.
---------------------------------------------------------------------------
    \17\ Winnie Hu, ``Confused About Congestion Pricing? Here's What We 
Know,'' The New York Times, April 24, 2019, https://www.nytimes.com/
2019/04/24/nyregion/what-is-congestion-pricing.html.
---------------------------------------------------------------------------
    Public acceptance of congestion pricing is crucial to its success. 
Adherence to this fairness principle will do much to address public 
concerns that additional road charges will simply amount to more 
wasteful government spending to benefit politically favored 
constituencies. One way to better ensure public buy-in to a pricing 
regime--particularly when converting previously unpriced lanes to 
priced lanes--is for policy makers to adopt a proposal from 
transportation policy scholar Robert Poole, which he calls ``value-
added tolling.'' \18\ Poole's five value-added tolling principles are:
---------------------------------------------------------------------------
    \18\ Robert W. Poole, Jr., ``Value-Added Tolling: A Better Deal for 
America's Highway Users,'' Policy Brief 116, Reason Foundation, March 
2014, https://reason.org/wp-content/uploads/files/
value_added_tolling.pdf.
---------------------------------------------------------------------------
    1.  Begin tolling only after major improvements are completed;
    2.  Prohibit toll revenue diversion to projects outside the 
facility or system where they are collected;
    3.  Toll rates should only be high enough to cover initial 
construction or rehabilitation, maintenance and operations, and needed 
improvements;
    4.  Motor fuel taxpayers should be reimbursed for the taxes they 
paid while using toll roads; and
    5.  Provide a better level of service on the facility after tolling 
is imposed.

    If these principles are adopted by policy makers seeking to 
implement road pricing, they can lead to better informed infrastructure 
investment decisions. Policy makers would be able to learn both the 
revenue potential of a tolled roadway and the distribution of 
motorists' willingness to pay. This information can be used to conduct 
robust benefit/cost analyses and better target roadway expansions.
    In conclusion, road pricing generally and congestion pricing 
specifically will be valuable tools going forward. The primary federal 
concern should not be the implementation of any given pricing project. 
Rather, Congress should focus on removing outdated barriers to road 
pricing and give states the flexibility to use these tools that best 
suit their own needs.
    Thank you for the opportunity to testify before the Subcommittee, 
and I welcome your questions.

    Ms. Norton. Thank you, Mr. Scribner.
    I want to thank all of you for your valuable testimony 
today.
    And we are going to move now to Member questions. Each 
Member will have 5 minutes to ask questions. I begin by 
recognizing myself.
    Mr. Gilbert, I notice you had an illustration in your 
testimony. You said that the lanes on the right--I mean, even 
people far away can see--the lanes on the right are nontolled 
and the lanes on the left are tolled. Is that right?
    Mr. Gilbert. I believe it is correct.
    Ms. Norton. So I see a lot of congestion on the right. It 
looks like people are not willing to get into this lane. Is 
this only tolling that determines where people will go here?
    Mr. Gilbert. There are toll lanes, and the one on I believe 
the left should be the toll lane.
    We know that overall with regard to Miami-Dade County it 
has been successful in reducing congestion for both sides.
    Ms. Norton. So, this picture does not--see, this doesn't 
show reducing congestion. It shows people--it shows lots of 
room on the right here, my right, and it looks as though people 
are saying, no, thank you.
    Are the tolls very high?
    Mr. Gilbert. The tolls can be high. And let me just clarify 
also, reducing congestion doesn't mean eliminating congestion. 
We still have bad congestion. It just got a little better with 
bus express, rapid transit, and the express lanes.
    Ms. Norton. So they use this other side, though.
    Mr. Gilbert. Yes.
    Ms. Norton. Can they use this road? Can they use this 
tollroad, buses, and----
    Mr. Gilbert. If they pay the toll, they can, yes.
    Ms. Norton. Yeah. I mean, do they?
    Mr. Gilbert. Oh, yes, yes, they do.
    Ms. Norton. They do. Because I don't see any of them. I 
feel it just happens to be when this picture was taken.
    Mr. Gilbert. Well, no, Madam Chair, I assure you the toll 
lane gets pretty crowded also. We just have a lot of people and 
a lot of traffic in Miami-Dade County as a region. So we know 
that the times have gotten better, but still I think of the 
lost business hours, the lost production, the lost time you 
spend with your family.
    We have to do something. The tolls have helped. We need 
more help. So people do use the toll lanes, and they do get 
very expensive.
    Ms. Norton. Mr. Hawkins, do you object to the use of toll 
lanes? We know that you testified against tolls. I don't know 
if trucks pay tolls or would pay tolls on such a lane. What is 
your view?
    Mr. Hawkins. My company alone pays $25 million annually in 
tolls across the United States. So certainly from a CEO 
perspective and an ATA perspective, we don't support new 
tolling on interstate highways.
    Now, certain tolling can be appropriate to handle specific 
issues around the country in select cities, but overall we 
don't feel like it is the solution.
    When I think of some of the opening comments, if we had 
been sitting in church this morning when Chair DeFazio made his 
opening comments, I would have said ``amen'' when he mentioned 
that not since 1993 has Congress increased our Federal fuel tax 
to invest in our infrastructure.
    Just the nickel example that he gave, if we did that 
immediately, that would generate $340 billion in long-term 
predictable financing that would address a lot of these issues 
and expand current roads without tolling.
    Ms. Norton. Mr. Hawkins, a lot of us up here would agree 
with you and agree with Mr. DeFazio as well on that issue.
    I do want to ask a question, though, of Ms. Chang.
    I am very intrigued by the technologies and what they can 
do and believe, frankly, that they are going to be necessary if 
we are going to move these congestion issues.
    How do we make sure they are going to be deployed with 
equity considerations in mind? I would be interested whether 
you all have thought that through as a part of your 
recommendation?
    Ms. Chang. Yes, thank you very much, Chair Norton.
    This is a top concern for our local community and 
policymakers as well. We have seen that technology has come to 
a point where we can actually implement some of the policy 
responses on equity and features of programs that we have long 
wanted, but haven't been able to truly deploy cost effectively.
    Examples would be the ability to more strategically target 
those types of road users who we believe need to have discounts 
and exemptions, enabling them to have accounts using their 
transponders, which are the electronic detection systems in the 
vehicles that allow the trip to be measured, to allow us to be 
able to connect that to a particular household and understand--
--
    Ms. Norton. Is any experimental work being done on that?
    Ms. Chang. Pardon me?
    Ms. Norton. Is there any pilot work being done on that to 
connect----
    Ms. Chang. I see. Elsewhere, absolutely. Certainly on the 
express lanes and express roads that have been discussed in 
other places, and in our own bay area region, yes. But we don't 
have that in San Francisco quite yet. We are still studying it 
for the downtown zone.
    Ms. Norton. Thank you very much.
    I would move now to Mr. Davis, who I recognize for 5 
minutes.
    Mr. Davis. Thank you, Madam Chair.
    And thanks again to the witnesses for your testimony, for 
being here.
    Very important issue. As I said in my opening statements, 
congestion even hits a district like mine. It is rural and many 
urban areas. According to the TTI's report, in 2017 congestion 
in certain cities in my district, like Springfield, Illinois, 
cost residents about $300 a year; in Decatur, Illinois, about 
$240; and in Champaign, Illinois, $225.
    North of me, north of my district a couple hours, is 
Chicago. Commuters there saw an average cost of $1,307 in 2017.
    I recently have seen reports that the mayor of Chicago, 
Mayor Lightfoot, is considering a congestion pricing scheme to 
address traffic. Now, that may work in Chicago, but I am really 
not convinced it is going to work in the smaller cities that I 
represent.
    And as we examine this issue of congestion, are there other 
ways besides congestion pricing schemes that we can use to 
address the problem?
    And I will start with you, Mr. Lomax.
    Mr. Lomax. Strategies other than pricing, I think we are 
talking about using sort of the whole toolbox, if you will. We 
have got issues that Ms. Chang talked about of operations. We 
heard earlier about timing traffic signals, getting the crashes 
and stalled vehicles out of the way. These are kind of good 
Government basic policy kinds of approaches that everybody 
accepts.
    Mr. Davis. There are some things that should be working 
right now in some of our smaller, many urban areas.
    Mr. Lomax. Exactly. They cut across all regions of all 
sizes. I think adding capacity where you have growth, where you 
have bottlenecks, is certainly a plus and certainly part of the 
toolbox, and that could be road capacity, transit capacity, 
more bike lanes, more pedestrian paths. It has to be tailored 
to the problem.
    And certainly having additional conversations with 
employers and employees about, can I have flexible work hours, 
can I look at alternate commuting paths, things like that.
    Technology has a role, as I said. Smartphone apps help you 
plan a trip. Well, maybe we could have that smartphone app push 
information to you based on your calendar that says: Hey, you 
are just going to go to the office today, you don't have 
anything really chaotic, why don't you try to bus or try 
carpooling with somebody, and I can go out and match your 
carpool trips while you are taking a shower and report back to 
you when you are eating breakfast.
    Mr. Davis. OK.
    Anybody else? Any ideas? Want to take a crack at it?
    Are you going to say ``amen''?
    Mr. Hawkins. Amen.
    Mr. Davis. All right. There you go.
    Mr. Hawkins. Good morning.
    I think it is a wonderful point, especially when we think 
about Illinois. Just my company alone, we have got 16 terminals 
there and 3,000 employees.
    And you mentioned in a more rural area about the cost being 
a couple hundred dollars annually for congestion. Chair Norton 
mentioned in her high density district of it being over $1,700. 
And if we average that across the United States, it is about 
$1,600 per person.
    If we go with the fuel tax that we have talked about many 
times over and that hasn't been adjusted since 1993, we are 
talking about an annual impact of $100 per person.
    So when we think about rural versus density and then 
congestion pricing, and the last thing on congestion pricing, 
everyone in this room and everyone in the United States has 
become accustomed to a point-and-click mentality. When you 
point and click and make a purchase, you expect your doorbell 
to ring with that product very quickly. And that tolling, other 
things, congestion pricing, is not going to impact what 
transportation companies have to do to meet the expectations of 
their customer base.
    Mr. Davis. Great.
    Ms. Chang.
    Ms. Chang. Yes, Ranking Member Davis. Thank you for the 
question.
    I believe that the built-in solution that I mentioned of 
the revenues from a congestion pricing type of program are 
important to mention here. I mean, we all need better options 
as far as active transportation, public transit, new express 
buses. These are all things that revenues can help pay for. 
There are carpool incentives, vanpool incentives, employer-
based programs, a whole host of very creative solutions on the 
public and private side.
    Developers are now asking: Instead of building that 
parking, what if I invested in a system of shuttles? What if I 
incentivized bike sharing, car share? What if I partnered with 
the development down the street and we shared a micro transit?
    So first/last mile solutions, the whole landscape of 
solutions is starting to change. And the idea of using proceeds 
not only for funding direct infrastructure, but also incentives 
to let people try these things out, maybe also a new 
opportunity.
    Mr. Davis. I am glad you closed with incentives, because 
the problem we have here in Federal Government is we have a 
trust fund that doesn't keep up, so we are having to add money 
to it. But many States may have a surplus in some of their 
trust funds. So those user fees then get pulled out and used to 
fill other budget holes. And that is something that I think the 
panelists and all of us in this committee ought to consider 
when we look at Federal solutions.
    I am out of time. I yield back nothing. But thanks again 
for the opportunity to hear from you.
    Ms. Norton. Thank you very much, Mr. Davis.
    In your answers you mentioned--both witnesses mentioned 
public transit. I know we don't have a public transit witness. 
I don't want anybody to think that we think that that 
alternative is outmoded. We think it ought to be used more than 
it is.
    Of course, I speak from a region that has Metro and uses 
that. So the fact that we don't have a witness doesn't mean 
that we don't understand that transit and buses, rapid transit, 
still need to be a part of the solution. Expensive to build, 
but still need to be a part of the solution.
    Mr. DeFazio.
    Mr. DeFazio. Thanks, Madam Chair.
    Just in response to the ranking member's comments, the 
Federal Highway Trust Fund moneys are not ever spent and never 
have been spent on anything other than transportation purposes. 
So diversion here is not a problem.
    If you are concerned that if we increase Federal revenues 
that States would then choose to divert more of their funds to 
nontransportation purposes, we can certainly build in a 
maintenance-of-effort provision.
    And also in terms of these optional tolling things we have 
allowed, we shouldn't allow any diversion of funds or the 
flexibility that is being granted beyond uses to benefit those 
users.
    So I think there are ways to deal with that, but the bottom 
line is we need more investment.
    Now, Dr. Lomax, I know TTI, I appreciate your work, I 
always quote it, use it in trying to justify to some people 
around here to move off of zero on funding. But this tolling, I 
am a little disturbed about all the obsession and talk about 
tolling and congestion pricing and all that. And I think since 
you are in Texas, haven't we seen a little bit of tolling 
fatigue in Texas? Didn't they just pass a moratorium on more 
tolling there?
    Mr. Lomax. Absolutely. That is what our State legislature 
did in response to some public comment about we are sort of 
tired of tolling as the solution that is being enacted.
    Mr. DeFazio. Right. And it didn't solve the problems?
    Mr. Lomax. Well, we are early on, but, yeah, it hasn't 
solved the problems yet.
    Mr. DeFazio. OK.
    Mr. Lomax. We are afflicted with economic prosperity, is 
the way we describe it.
    Mr. DeFazio. Yeah.
    Mayor Gilbert, you just said a couple of times, quite high, 
the tolls. Can you give me a number how high ``high'' was in 
those toll lanes to avoid the congestion?
    Mr. Gilbert. It depends on the time of day. It can be 
upwards of $17, $18, $19 that people will pay in the toll 
lanes. And let me just say that----
    Mr. DeFazio. How many miles is that for $18?
    Mr. Gilbert. Well, that would be the entire length of the--
--
    Mr. DeFazio. Yeah, but I don't know the length of it. I 
have only been on it a couple of times.
    Mr. Gilbert. About 10 miles.
    Mr. DeFazio. So, I mean, the question I have--and I would 
turn to Mr. Brouwer, because in his testimony he talks about 
HOT lanes won't provide enough congestion relief, and so we are 
talking about variable pricing. And, I mean, we are talking 
$1.70 a mile there. We have seen almost 5 bucks a mile in DC.
    What kind of public acceptance do you think that is going 
to have? And how high do you have to price it to get to your 
targets to reduce congestion?
    Mr. Brouwer. Chairman DeFazio, as we have done just our 
initial analysis of tolling, we are at a point of 
hypercongestion on the Portland system where we have so many 
vehicles at rush hour that the system is actually breaking down 
and the throughput collapses.
    Our consultants have told us if we move a relatively small 
number of vehicles off the system at rush hour, it will flow 
much better and we could actually see out throughput increase 
greatly. We already see that effect in a number of places today 
where throughput is better before rush hour than it is at rush 
hour.
    Mr. DeFazio. So you think there are a lot of people 
optionally jumping into the curves in backed-up traffic, they 
are not doing that because they have to get their kid to soccer 
at a certain time, they are not doing it because they have to 
get to work at a certain time, or they leave work at a certain 
time, it is just people who decide to go out, and therefore, 
they won't come anymore, and they will change their schedule?
    So you think there is enough people that are just out there 
optionally, that don't have to go somewhere when I wouldn't 
want to try and go anywhere? Do you think that is going to 
solve this?
    Mr. Brouwer. Chairman DeFazio, I think there is probably a 
relatively limited number of people who are in that situation, 
but if we can move a few of them off. We actually did some 
public opinion research, and people saw as one of the best 
arguments in favor of tolling with variable rates that there 
are some opportunities for people to change their schedules, to 
move by a different mode, or to telecommute or take other ways 
of getting to work.
    Mr. DeFazio. Well, some people may have that flexibility, 
the question is how many.
    We were very light here on the panel, I am very 
disappointed that we really didn't get very much into 
technology. I mean, and there is one company in my district 
called Connected Signals, they have a very simple system where 
basically in the car you know what--if you are on a road that 
has synchronized lights you are sometimes tempted to speed up 
to try and get to the next light or you are going to slow down. 
But this will tell you exactly like there is a sweet spot where 
you can drive that whole road and never hit a light. And they 
are estimating that there could be, if we did a lot more 
coordinated signalization, synchronized signalization, we could 
save probably another percent of fuel and mitigate congestion.
    You know, again, as in Pittsburgh, smart traffic lights. 
You don't sit there when no one is coming. And then, when we 
ultimately get to--and we are a ways away--driverless or 
substantially driver-assisted vehicles and you don't have the 
stop-and-go so much, I have seen estimates, so we can have 
twice the throughput on the existing roadways that we currently 
have.
    So, I mean, I really think that we are awfully heavy here 
on pricing, and I think we are heavy here on pricing because of 
the failure of the Federal Government to partner with local 
jurisdictions and to hold up its end of the bargain for a 
national transportation system. It isn't State by State. I 
didn't bring my poster today, my famous poster of the brandnew 
Kansas turnpike, ending at the Oklahoma State line until we had 
the Eisenhower plan.
    This needs to be a coordinated Federal system. We need to 
go heavily into the 21st century in new technologies and look 
at all the options before us.
    So, with that, Madam Chair, I thank you for holding this 
hearing.
    Ms. Norton. Thank you very much, Chairman DeFazio.
    Mr. Crawford, 5 minutes.
    Mr. Crawford. Thank you, Madam Chair.
    Just a real quick question. Mr. Hawkins, in your written 
testimony you discuss the need to tax electric vehicles. 
Currently electric vehicle drivers are effectively paid by the 
American taxpayer to use roads through the Qualified Plug-In 
Electric Vehicle Tax Credit. Can you elaborate on why this is 
problematic, especially for commercial drivers?
    Mr. Hawkins. Well, when you look at it as a whole, and 
certainly some of the points that have already been made around 
the fuel tax and other pieces, and the longevity of that as 
technology changes.
    I think a lot of times we overestimate what we can 
accomplish in the next year and we underestimate what can be 
accomplished in the next 5 years on many of these technology 
fronts, especially electrification, which personally, as CEO of 
YRC Worldwide and with the number of tractors that we have 
right now, diesel tractors, it is very important to us how that 
evolves over time.
    And also for a company that spends north of $25 million a 
month on diesel, electrification can mean a lot to our industry 
and also a lot to the economy overall.
    So a big fan of electrification and how that goes. And when 
I think about the Highway Trust Fund, myself and the ATA's 
opinion is the fuel tax is the appropriate measure for now 
because of the situation we are in and the urgency of the 
matter around the Highway Trust Fund with potential insolvency 
by 2021.
    So, overall, electrification will be a wonderful solution 
over time.
    Mr. Crawford. So the fuel tax is what you would advocate 
for, increasing the fuel tax on gas and nonfarm diesel?
    Mr. Hawkins. Yeah, as we sit here today and what we are 
facing, and also what we forced individual States into doing 
from a tolling perspective and others to try and deal with the 
crumbling infrastructure we have around the United States. And 
that interstate commerce depends on this overall.
    And as we think about our 45,000 miles of interstates in 
the United States and how we protect those and keep them open 
freely for free movement among States, if this continues on the 
path that we are on, from what we have seen from three or four 
individual States, it could become an epidemic sooner than 
later.
    So as we sit here today, I see it as an emergency, and 
because of that the fuel tax is the immediate remedy.
    From a technology perspective and the other pieces, we have 
got some great information that is coming now through ELDs, 
through the Federal mandate on electronic logging devices in 
commercial vehicles.
    I am also a member of the board of American Transportation 
Research Institute, and a lot of the staff that has been quoted 
here today, we are able to collect those because companies like 
mine and all others, FedEx, UPS, all of the big transportation 
players, are making their ELD data available.
    So this committee will have a lot more data to work with 
moving forward from a technology standpoint on how we address 
this in certain pockets.
    Mr. Crawford. So you are saying right now fuel tax 
increase. As the chairman indicated before, the last time we 
messed with the fuel tax was 1993. I think one of the flaws 
that we didn't anticipate then was that it wasn't indexed, so 
it hasn't kept pace with the economy.
    What does it look like? To your mind, what is the 
appropriate action to take with regard to a fuel tax?
    Mr. Hawkins. When we look at that, our recommendation would 
be a 5-cent increase per year over the next 4 years, and that 
is the $340 billion long-term number that I mentioned. And then 
also the impact would be $100 per year when we think about the 
congestion stats.
    Now, certainly, I know that all constituents would say: 
$100 a year, are you kidding? That comes directly out of my 
grocery bill and other places. And I understand that, as fuel 
prices have a direct impact on the pocketbook of every 
American. I understand the sensitivity. But also every 
American, I believe, is also witnessing firsthand the 
infrastructure trouble that we have with bridges and roads all 
over.
    I traveled here from Baltimore this morning, and the 
situation from Baltimore to DC, if you haven't done it in a car 
recently, it is tough, and there is a lot of opportunity that 
could be addressed.
    Mr. Crawford. So you are suggesting, if I am clear, a 5-
cent-per-gallon increase on gasoline and on nonfarm diesel?
    Mr. Hawkins. Yes.
    Mr. Crawford. And that would increase 5 cents every year 
over a period of 4 years.
    Mr. Hawkins. Yes.
    Mr. Crawford. So in 5 years we would have an increase of 20 
cents a gallon?
    Mr. Hawkins. That is correct.
    Mr. Crawford. I just want to make sure I am understanding 
you clearly on that and what your recommendations are and 
appreciate your comments.
    And I will yield back.
    Ms. Norton. Well, I appreciate, Mr. Crawford, that you drew 
out the witness on this matter.
    I am interested, you said this fuel tax, maybe $100 a year? 
It is not as if we hadn't had an experiment already in this. 
The States are already doing it. What are we afraid of?
    Whatever happened to that $100 a year, people have clearly 
measured that against getting to work late and other 
impediments on the road, and they have accepted it in the 
States. The only people who haven't accepted it are sitting in 
this building, the Congress of the United States.
    Going next to Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Madam Chair.
    And thank the witnesses for your testimony today.
    Mr. Scribner, you are with CEI, which is a nonprofit, 
nonpartisan public interest organization supporting promarket 
approaches to infrastructure investment and management. Do you 
have any problems with raising the gas tax or is that against 
free market principles?
    Mr. Scribner. I testified at a hearing in March before the 
Ways and Means Committee, and I was the only witness to oppose 
raising the Federal gas tax.
    I think there are a lot of problems with the Federal 
programs, and I think that we could better align incentives 
properly if we were to keep the fuel tax at the same level and 
focus on reforms in other areas, specifically getting rid of 
the prohibitions on tolling and expanding opportunities for 
private financing.
    Mr. Johnson of Georgia. Yeah, not just tolling, which tends 
to be everybody paying a fee to drive on a highway, but 
actually kind of HOT lanes, is what you promoted. Is that 
correct?
    Mr. Scribner. HOT lanes, I think, if they fit the right 
purpose, that is great. I also think in the long term we should 
be looking towards a replacement for fuel taxation through 
mileage-based user fees. I strongly support an effort of this 
Congress to do that.
    Mr. Johnson of Georgia. Basically, congestion pricing is 
what you advocate for?
    Mr. Scribner. I think congestion pricing can be a valuable 
tool in areas where it is too expensive to expand capacity.
    Mr. Johnson of Georgia. Let me ask you this. Can you shed 
some light on how congestion pricing alleviates congestion in 
metropolitan areas?
    Mr. Scribner. So if you saw at the I-66 lanes inside the 
beltway that have been brought up here that have the kind of 
notorious high tolls----
    Mr. Johnson of Georgia. And the HOT lane looks good when it 
is, what, $42 for a 10-mile segment. In Georgia, in Atlanta 
last week, we got up to $17 for a 12-mile stretch of road and 
it was like big news. But here for $42 for 10 miles, I mean, I 
bet you that that HOT lane was pretty much empty, but there was 
congestion in the two or three lanes on the other side of that 
HOT lane.
    So my question is, given if what I said is true, how does 
the HOT lane or congestion pricing alleviate traffic 
congestion?
    Mr. Scribner. So when you are talking about those very high 
prices, the 40-some dollars on I-66, you are talking about a 
handful of people who actually pay that.
    Mr. Johnson of Georgia. Even if it is only $1, even if it 
is only a $1.50 for 10 miles, you are still going to see that 
lane relatively easy flow, but the three lanes to the side are 
still congested. How does the HOT lane cure that traffic 
congestion?
    Mr. Scribner. The idea is, within the HOT lane, the idea--
--
    Mr. Johnson of Georgia. I understand the idea, but in 
effect it has not worked.
    Mr. Scribner. So it causes--often you run into problems if 
you have too many exemptions, for instance. So if you say you 
don't have----
    Mr. Johnson of Georgia. OK. All right. Thank you. I am 
running out of time.
    Mr. Hawkins, what are your thoughts on these HOT lanes and 
how they can actually cure the issue of traffic congestion in 
urban areas at all times of the day? We have congestion in this 
area 24/7 in some places.
    Mr. Hawkins. Well, Congressman, Atlanta, specifically, the 
ATRI board that I am on, as you know, two of the worst 
congestion areas in the country are both in Atlanta. So because 
of that, addressing Atlanta--and I will also say, in my opening 
comments, when I said 71 percent of the Nation's goods come by 
truck, in Atlanta it is 85 percent because of the geography of 
that area.
    So Atlanta is crucial. And it is a wonderful city for our 
business, our business there is great. But the congestion in 
Atlanta and some of the work we are doing right now around 
hours of service and other things actually are triggered toward 
the Atlanta market and at us taking more trucks off the road 
during those congestion periods so that we can enter and exit 
that city appropriately by working with technology to not make 
the situation worse.
    But, overall, I think the investments that Atlanta has made 
are to be commended, and that also rebuilding and extending and 
expanding the infrastructure in Atlanta is crucial because the 
city is just such a powerhouse in the Nation, especially for 
transportation.
    Mr. Johnson of Georgia. Thank you. I yield back.
    Ms. Norton. Thank you very much, Mr. Johnson.
    Mr. Gibbs. 
    Mr. Gibbs. Thank you, Madam Chair.
    I should address the full committee chair, my friend, 
Chairman DeFazio. I have been on this committee for 9 years. 
For 8 of those years I had to hear my good friend from Oregon 
rail on us about not doing anything. And in his opening 
statement he railed again. I only assume that maybe he is 
railing not on us anymore, because we are in the minority, he 
must be railing on leadership, because, Mr. Chairman, just put 
a bill out there. Let's have a bill to talk about.
    And I think it is interesting that your top 10 bills in the 
majority, 1 through 10, H.R. 1 through 10, none of them address 
infrastructure, 3 don't have a topic in them. So put one of 
those in one of those 1 through 10 bills, Mr. Chairman, put a 
bill out there.
    So I just remind you, you are on the majority now. I kind 
of thought maybe I was back in another twilight zone, because I 
have heard the same thing for the last 8 years.
    To the panel, a couple thoughts. Once in a while I do drive 
back to Ohio, and I try to avoid rush hour on the outer belt, 
as it can add a couple hours to my 6-, 7-hour drive.
    My experience during rush hour, the HOV lanes I think are a 
joke. I think it is just our behavior, our culture, that we 
don't carpool or we are too independent, it doesn't work. I 
have seen stop-and-go in the outer belt and the HOV lanes that 
hardly have any traffic.
    Now this new concept, the tolling on these other lanes. And 
Madam Chair raised the picture there about congestion on the 
three lanes and the other two, about utilization. In industry 
if you a manufacturing facility, if you are not operating at at 
least 80 percent, you got a problem.
    I guess my question is, on those other lanes when you are 
doing--I guess this would be to Mr. Gilbert and Mr. Brouwer of 
Oregon--have you ever experimented around during rush hour to 
just open up everything to everybody and see what happens? And 
then figure out then also if you are still going to toll in 
those other lanes, where is that sweet spot so people still use 
it, so you are getting a certain percentage of utilization.
    Because if you are only getting 40 or 50 percent 
utilization on the tolling lanes, probably your fee is not high 
enough, you have got a problem. So you have got to get this 
balanced here.
    Does that make sense? Have you ever opened up all the lanes 
just to see what happens?
    Mr. Gilbert. I don't think we actually do that.
    I think what we are also missing from that picture are the 
buses. So when I gave the statistic that ridership increased 46 
percent over the first 2 years, what that tells us is that some 
people got out of their cars, got on the bus, express rapid 
transit, and took it down there.
    And the fellow panelist was right, you don't have to take a 
lot of cars off to make a difference. So what we know from data 
is that the time got better because of bus express rapid 
transit and the HOT and----
    Mr. Gibbs. I got that. But another observation I have made, 
especially here in the outer belt or Columbus, Ohio, in their 
outer belt, during the peak periods, the rush hour periods, all 
those lanes, there might be five, six, seven lanes, are 
congested. But then nonpeak hours there is a lot of room out. 
So we just can't build a bunch more capacity to meet a certain 
amount of time. That is why we need to be adopting more 
technology and other things.
    But I am kind of intrigued with this concept of what you 
call the HOT lanes, but I don't want to make them--some people, 
I think my friend here from Florida, calls them Lexus lanes. So 
you have got to get a balance there.
    So the goal should be that you are getting maximum 
utilization out of all the lanes. That is why I hate the HOV 
concept, because I think that is a failure. When you have got 
stop-and-go over here, and you got an HOV lane that is 10 
percent or 20 percent utilization, or you took a four-lane 
highway and you made it an HOV lane, so you cut 25 percent of 
the lanes, probably 20 percent of the capacity, that is a 
problem. We are not thinking straight.
    So that is why I think we need to do more research on this 
concept, because we can't--I don't think we can build a whole 
bunch of capacity--additional capacity--to address a few hours 
Monday through Friday without addressing trying to change 
behavior or incentives to make people change their work habits 
or whatever. That is what I am thinking about.
    So I think it would be an interesting experiment to see 
what you do when you open up all the lanes and see what happens 
during rush hour, and then see how you do a variable pricing 
scheme.
    Mr. Gilbert. Congressman, we will look at it. I will say 
that I don't think that tolling is necessarily the answer. I 
think it is one of the answers.
    So we are talking about these issues as though it is either 
tolling or something else. It is probably some tolling, it is 
probably the gas tax, it is probably rapid transit, it is 
probably bus rapid transit.
    The problem with the system is that everyone has a 
pedestrian view of what they want to accomplish with it. Right 
now we are talking about tolling, and I don't think anybody up 
here just really wants to have more tolling. Tolling was 
responsive to an absence of funding in the system and a lot of 
congestion.
    Mr. Gibbs. My time is up, so I will interrupt you and take 
my time. I just want to make sure that our capacity we have, we 
are getting maximum utilization. I am not so sure some of the 
things we are doing are doing that.
    I yield back.
    Ms. Norton. Thank you very much, Mr. Gibbs.
    I appreciate your rendition, Mr. Gilbert, of the 
combination of strategies we will need as opposed to one size 
fits all.
    Mr. Brown.
    Mr. Brown. Thank you, Madam Chairwoman.
    In Maryland there are several ongoing efforts to expand and 
toll high-commuter roadways, most notably I-495, known as the 
Capital Beltway, as well as the Baltimore-Washington Parkway, 
which is owned by the National Park Service.
    I have opposed these efforts to widen and to toll these 
roads. I support tolling more in the case of new facilities, 
not in existing facilities, and I don't view expanding existing 
facilitate as a new facility. But I also think, as Chairman 
DeFazio and others mentioned, it falls disproportionately on 
particularly working families who don't have the flexibility in 
their commute.
    Mayor Gilbert, two of the original alternatives put forward 
in the NEPA study for this Capital Beltway project I just 
mentioned included dedicated bus managed lane and fixed 
guideway bus rapid transit alternatives. Unfortunately, they 
were not included in the list of screened alternatives. In 
fact, none of the transit alternatives were included in the 
final list.
    And you say in your written testimony, and I wanted you to 
have an opportunity to expand on this because you were about to 
do that in response to the last question, you said that 
electronic tolled ``express lanes are essential, but we believe 
the best long-term alternative to highly congested roadways in 
Miami-Dade is to expand our rapid transit network.''
    Seems like, and I think Dr. Lomax agrees as well in his 
written testimony, you have to provide choices. Can you just 
talk about that combination and the real value added with your 
express bus system?
    Mr. Gilbert. Express bus, it has to be an option, and tolls 
have to be an option. But it only really works right if you 
actually have rapid transit that is available. If you don't, 
you are actually--you are starting to price people out of the 
ability to get places very quickly.
    So the system isn't meant to be a one-off system. And right 
now that is what we are all trying to do. We are trying to find 
this silver bullet to actually--this is what is going to 
happen, this is what is going to fix it.
    Bus rapid transit is going to be important on 95 in those 
express lanes, but it is not going to be the answer because we 
still have the first and the last miles.
    So we know that rapid transit down our major corridors is 
going to be important, but it is not going to be the answer 
because those are just the major corridors. We need a system 
that actually addresses all of the needs. And if we are going 
to fund that system, that is probably going to take some type 
of tolling. It is probably going to take adjusting the gas tax.
    Mr. Brown. Let me ask you, though, on that first/last mile. 
So are the buses only traveling on the interstate highway or 
have you also expanded bus service into the communities?
    Mr. Gilbert. We have an extensive bus service, but the bus 
express rapid transit is primarily in those areas. What we have 
done, for instance, in my hometown and a lot of the cities in 
Miami-Dade is we have free shuttles. The Miami Gardens Express 
that Congresswoman Wilson referenced was actually our effort to 
actually take people from the major corridors into the interior 
areas of the city where buses don't necessarily take you very 
often.
    And so we didn't want people sitting out there waiting, for 
instance, to get to an internal park. So we put all of those 
things on a free shuttle. And that is our answer to that last 
mile, and the first mile because it actually takes you to the 
major commercial corridors. A number of cities in south Florida 
have that. But let me just say, those are built out through a 
half penny that we actually started collecting, I guess, 30 
years ago, 20, 30 years ago, and the city's portion of it, that 
is how we provide those shuttles.
    Mr. Brown. And let me ask you this. Would the express 
lanes, the electronic tolled express lanes, would that work? I 
mean, would you be achieving the kinds of successes that you 
are achieving without express bus if you didn't include the 
express bus in it?
    Mr. Gilbert. No, I don't believe we would. I believe the 
increase in that ridership over the first 2 years shows us that 
people do want an option to getting out of their vehicle, and 
they don't necessarily want to pay the prices that are 
associated with the express lanes.
    Mr. Brown. Thank you.
    Dr. Lomax, is there anything that you want to expand on in 
terms of diversifying travel options?
    Mr. Lomax. I think it is key that all the strategies are 
going to be needed.
    I think maybe another component of this is the public 
engagement process. We have had some discussion about that. I 
think part of the issue of resolving the funding crisis is 
going to be to make sure that people understand what the money 
is going for. I don't think they get a real sense of what the 
value proposition is. And in the cases where funding has been 
increased, there is a very clear connection between what you 
are paying and what you are getting.
    Mr. Brown. I know you have, in the mobility report, you 
looked at the DC region and you have seen the cost of doing 
nothing. So do you think it makes sense to expand the 495 
system without including at least a look at bus rapid transit 
or other transit options?
    Mr. Lomax. In general, I think transit options are a great 
part of the express lane system. I haven't studied the 495 
Capital Beltway in detail.
    Mr. Brown. Thank you.
    I yield back nothing as well, Madam Chair.
    Ms. Norton. Thank you very much, Mr. Brown.
    Mr. Katko.
    Mr. Katko. Thank you, Madam Chair.
    And, Mayor Gilbert, you were cut off from what your last 
statement was with Mr. Gibbs, but I think you were saying that 
congestion pricing is a product of us not properly funding the 
Federal highway fund and having the money to make these roads. 
Is that correct?
    Mr. Gilbert. Not just you. No, it is not just you all not 
funding it. It is the product of a lot of things. That is a 
part of it, the system, the roads not being wide enough, in 
some places the road not being able to be wide enough, the 
absence of rapid transit. There is not one single cause to the 
problem. There are a lot of causes to the problems, and how we 
address it and how we solve there are going to be a lot of 
different solutions.
    So I wouldn't, by any means, say that it is just on you 
all. Some might say that. I wouldn't say that. I say that it is 
a big part because you all have the ability to affect a lot 
of--well, every State. You have the ability to move projects 
along.
    So it is not your fault solely, but we all need to do 
better in addressing the congestion, because congestion--look, 
we don't talk about this in terms of just time sometimes. Think 
about it in terms of people and the time they are spending with 
their family and people growing their businesses and commerce. 
It actually has a cost.
    We are losing money with our families, we are losing money 
with your jobs and our industry. We are losing everything 
because we don't address this.
    Mr. Katko. Yeah. In 2017, the annual estimated cost of 
congestion was approximately $166 billion. And I don't know all 
the factors that went into it, but that doesn't seen 
unrealistic to me, given what some of these cities go through, 
like you mentioned.
    I want to talk about, take a step back, because it is clear 
to me that the Federal highway fund is a huge component of any 
cure to this matter. Let's not forget that 20 percent of the 
funding goes to mass transit. And if the Federal highway fund 
isn't being properly managed, there are less funds going for 
mass transit, and that puts even more pressure on the State and 
local governments. You are not going to develop your mass 
transit if you don't have a steady stream of funding, and that 
is a big concern to me.
    So I want to take a step back and kind of look at some 
other components of our failure as a country, no matter what 
the reason, of having proper infrastructure. The wear and tear 
on vehicles is something that people need to estimate into 
this.
    So can anybody give me an idea of the estimates on the wear 
and tear of vehicles, both personal and trucks?
    Ms. Chang and then Mr. Hawkins.
    Ms. Chang. Yes, Congressman. Last year when we were looking 
at SB-1, our California gas tax increase, there were estimates 
of about $800 to $900 per year per household vehicle as far as 
the cost of repairs from potholes and road maintenance.
    Mr. Katko. What type of repairs are we talking about, just 
the wear and tear in tires and all the other things? Struts?
    Ms. Chang. It could be--I am sorry, I don't have the 
details, but that was the overall estimate for the cost of 
repairing a vehicle.
    Mr. Katko. Per household?
    Ms. Chang. Per household.
    Mr. Katko. OK. And, Mr. Hawkins, I know there is some in 
the trucking industry.
    Mr. Hawkins. Yeah, absolutely. And outside of commercial 
vehicles, those numbers we were quoting earlier around rural 
and high density areas. The $1,600 annually, that estimate 
includes vehicle maintenance and congestion cost per household. 
So that was the estimate that included the cost of maintaining 
a vehicle on roads that are crumbling.
    Mr. Katko. So I am just wondering if that is factored in 
enough in the discussion here of the cost estimates, doing 
something with the highway fund. The highway fund has not been 
indexed for inflation, so therefore it is woefully short. And 
we have seen estimates as much as $171 billion shortfall over 
the next 10 years.
    So something has to be done to at least plug that gap. And 
we have to account for the fact that more vehicles are not 
gasoline burning vehicles. I know UPS and FedEx, for example, 
are ordering fleets of electric vehicles, and they are going to 
be riding the roads and not paying anything from a gas tax 
standpoint. So I am concerned about that as well.
    Mr. Hawkins. And, Congressman, that is why I spoke in terms 
of the next 4 years for that piece.
    And just take New York, for instance, 93 percent of the 
goods for the people of New York come by truck. So because of 
that, that is not going to change any time soon, and we have to 
invest in that.
    And for my opinion, taking on the Highway Trust Fund and 
doing the right thing is really an investment in our economy. 
And if we continue to ignore it and not make those investments, 
then what we are doing is saying it is going to be OK to put 
our economy in continued decline because we don't have adequate 
infrastructure for the movement of goods across our country.
    Mr. Katko. And if these repair estimates are actually 
legit, and I have heard it from a lot of different sources and 
companies in general, if they are legit, I am not sure that 
doing something with the funding stream is going to be an 
increased cost to the consumer. It may end up being an ultimate 
net savings.
    And so I am just not sure why we haven't done this. We 
didn't do it when we were in the majority, so I don't fault the 
Democrats for not doing it now. But I think we need to get 
together on this. This is a quintessentially bipartisan issue, 
and we should get together on this and stop the discussion and 
just acknowledge that we are probably going to save consumers 
and businesses a lot of money in the long run if we have the 
political courage to do what we need to do to fix the revenue 
stream. And part of it has to address the alternative fuel 
component, which is a big part of it.
    Mr. Hawkins. Amen, Congressman.
    Mr. Katko. Thank you. I yield back.
    Ms. Norton. I appreciate the Member's questions and 
remarks.
    Mr. Malinowski.
    Mr. Malinowski. Thank you. Thank you, Madam Chair.
    I represent a district in New Jersey from which a number of 
my constituents commute to New York City, so congestion pricing 
is a very big issue for us.
    A lot of folks commute by train, but that option is not 
available to everybody because of decades of underinvestment by 
both regional governments and the Federal Government. And so a 
lot of people are driving their cars to New York City, and they 
are worried about New York City's proposed congestion pricing 
plan.
    I absolutely get that New York has a problem and that they 
need to look for solutions to address that problem, but I am 
obviously concerned, as are my constituents, about the impact 
that is going to have.
    So let me start with questions to some of the local 
officials who have been through this, maybe Mr. Brouwer, Ms. 
Chang, Mayor Gilbert.
    When you are thinking about congestion pricing, the various 
ideas that we have discussed here, are you doing this or 
conceiving of it to encourage drivers to take different routes 
or not to get in their cars at all?
    Mr. Brouwer. Congressman, really when you are looking at 
tolling and congestion pricing you are trying to find a 
multitude of ways to change behavior. One would be for people 
to perhaps not drive at rush hour, drive at a different time. 
Another would be to take a different mode, bike to work, walk 
to work, take transit, or perhaps carpool.
    There is also the potential for people to take a different 
route that would be untolled, and perhaps ideally that is a 
better route as opposed to one that creates diversion.
    So in reality it is really all of the above, multiple 
options for people to find different ways to not use those 
extremely congested routes, and then, ideally, improve the 
transportation system as a whole for all people.
    We in the Portland metro region have a great transit system 
for a city of its size, about 45 percent of commute trips in 
the central business district are by transit. And we hope that 
the I-5 proposal that we are moving forward would help provide 
an additional incentive for people to use transit to get into 
the central business district. God and the FTA willing, we will 
have light rail, one more leg into the central business 
district in the next few years. That will help with that.
    Mr. Malinowski. Understood. Well, for my folks, hundreds of 
thousands of people in New Jersey, there are basically three 
options. You either drive across a bridge or a tunnel, you take 
the train, or you swim across the Hudson River. So not a lot of 
options there. And so that leads to my next question.
    If public transit is the option, which in many cases really 
will be the only option, and we do go towards congestion 
pricing, shouldn't some of those revenues be used to support 
expansion of public transit? That can be for anybody.
    Mr. Gilbert. Yes.
    Mr. Malinowski. Thank you.
    Does anyone disagree?
    And I think, Mr. Scribner, you noted the New York area----
    Mr. Scribner. I have a ``yes, but.''
    Mr. Malinowski. I will take the yes part of that at least.
    And for me this gets back ultimately to where Chairman 
DeFazio was, because even the question I just asked suggests 
that the burden is entirely on the shoulders of local and 
regional authorities. And to the extent that they share that 
burden, I believe certainly in the case of New York that some 
of those funds need to be spent to help New Jersey Transit and 
regional rail networks bring people into the city.
    But it can't just be that. And I think this is more than 
just about money, this is a dignity question. I mean, whether 
it is Government or the private sector, in so many areas we are 
seeing people being asked to pay more for services for things 
that used to be taken for granted. Whether you want to take a 
bag on a plane or not waste your life in traffic, you are being 
asked to pay more.
    And I wonder, are we solving problems here or just finding 
new ways to divide our fellow Americans based on income? Are we 
finding new ways to remind some of our fellow Americans that 
they are worth less?
    And if there is not Federal investment, if there is not a 
policy that is based on the American people sharing this burden 
in an equitable way, aren't we in effect having that impact on 
our fellow Americans?
    For anybody.
    Ms. Chang. Congressman, I really appreciate that sentiment. 
I think that we all feel that the Federal role over the past 
now 40 years has reduced so much to the point where all of us 
do need to reach for this new tool in the toolbox. The 
technology is there if we wish to do it. But these are hard 
decisions. These are difficult and complex challenges.
    The solutions are there and we are being creative and we 
are learning from cities around the world and one another about 
how to do it. But I do think we are very, very keenly in need 
of the significant Federal role in transportation and 
infrastructure and transit and all the rest in order to really 
have a resilient and sustainable national infrastructure.
    Mr. Malinowski. Thank you. I yield back.
    Mr. Hawkins. Can I comment quickly, Congressman?
    Mr. Malinowski. Certainly.
    Mr. Hawkins. Excellent point. And I think it is important 
to separate the Federal interstate piece from a local city or 
opportunity, when you think about Newark to New York or 
Atlanta, Houston, some of the really tough density problems 
with congestion, but then separate from a Federal aspect, 
protecting interstate commerce on the 45,000 miles of 
interstate I do believe is a Federal issue.
    Mr. Malinowski. Thank you.
    Mr. Garcia [presiding]. Next we will hear from Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    I thank each of you for your testimony.
    So it is very difficult for me to go back to North 
Carolina, where a congestion problem in North Carolina is very 
different than it might be in some of your cities, and suggest 
that what we are going to do is raise taxes so that you can 
have less congestion in your cities.
    So how do I sell that? Mr. Mayor, how would I sell that? 
And I came from Florida, so I know your area extremely well. So 
how do I convince people that they need to raise their taxes so 
that you can have less congestion in Miami-Dade?
    Mr. Gilbert. You don't start by saying it like that. You 
don't do that.
    Mr. Meadows. But that is what it is.
    Mr. Gilbert. I don't know that it is. I think you actually 
humanize it first. And I am not suggesting that you sell it. I 
am not suggesting that everything is right for every area.
    Mr. Meadows. But why don't you just raise your taxes to 
take care of your--why is it a Federal responsibility?
    Now, I get back to the interstate commerce side of it, and 
I am all in from a Federal standpoint. But with all due respect 
to my friend from New Jersey, why do you think the people of 
North Carolina should pay more taxes so that he can have a 
better commute into the city?
    Mr. Gilbert. Well, first, we are in it together, we are the 
United States of America. That is going to be the first thing.
    The second thing is when trucks get off of the interstate, 
they can't drive on dirt roads on our streets. That has an 
effect on interstate commerce.
    Mr. Meadows. Listen, we can have hyperbole all day. You are 
a smart guy and this isn't my first rodeo, so let's don't start 
talking about dirt roads in New York City or even in Miami.
    So if we are looking at this--here is the problem we have 
got, is it is either a fee to keep people from using the 
roads--because if we are talking about changing behavior, all 
of you have an app on your phone that you already use that 
changes your behavior, because you have GPS that has Waze or 
anything else in it. It changes. I mean, I can drive out in 
Washington, DC, today and it will tell me which way to go to 
the same location depending on traffic.
    So we don't need a financial model to do that unless it is 
going to say, ``Well, Mark, you need to get up at 6 o'clock or 
5 o'clock,'' and change my behavior that way.
    So how do we do that? Because it is a tough sell in North 
Carolina to say raise taxes to help you in Miami or anyone else 
unless it is dealing with interstate commerce and our truckers. 
So how do we do it? I mean, because if not, this is all happy 
talk, guys.
    Mr. Gilbert. I think you are limiting what interstate 
commerce is to interstate highways, and I don't think that that 
is actually true. I think interstate commerce, if you look at 
all types of, whether it be the rulings from the courts or just 
as a practical matter, interstate commerce exists not just on 
I-95, but when you get off on Northwest 8th Street. I don't 
think you can disconnect those things. And I think if you start 
to parse out your part of the system, then it kind of diffuses 
the idea that we are actually in this together.
    I by no means would ask you to ask your residents to raise 
taxes for us. What I would ask them to do is, is understand 
that as go one part of this country goes every part of this 
country.
    Look, when we are trying to bring in goods and services and 
our port is busy in Miami-Dade County, that is not just good 
for Miami-Dade County, that is not just good for Florida.
    Mr. Meadows. I agree, Mayor.
    Mr. Gilbert. It is good for America.
    Mr. Meadows. Yeah, so I agree with that. But when you talk 
about a Federal role for airports, seaports, and interstate, 
that is very different than a meter for congestion on commuter 
traffic in and around major metropolitan cities. It is very 
different.
    Now, I don't deny that there is commerce going on there, 
but what I am telling you is, is that when you look at it, when 
you look at commuter congestion--we already have Federal 
dollars that go disproportionately to major metropolitan areas 
for mass transit, don't we?
    Mr. Gilbert. I don't know that it is disproportionate.
    Mr. Meadows. Yeah, 82 percent of our mass transit dollars 
goes to major metropolitan cities, none of which are in North 
Carolina or even Georgia.
    So when you look at that, when we are looking at that fair 
share, what I would ask each of you to do, and I will yield 
back with this, I would ask each of you to do, is look at it 
from a standpoint of a rural area and State, what should be 
their appropriate contribution from a Federal standpoint to 
help you deal with an issue that many view as a local issue, 
unless they happen to be traveling to Miami or New York or Los 
Angeles or wherever it may be.
    Would you come back with recommendations for me, each one 
of you, three recommendations on how I can sell it in North 
Carolina?
    And I will yield back.
    Mr. Gilbert. Absolutely, Congressman.
    Mr. Garcia. Thank you.
    Ms. Davids. 
    Ms. Davids. Thank you.
    And I would like to start off by expressing appreciation to 
the chairwoman and to the ranking member for holding this 
hearing today.
    Also, I would like to say that I appreciate Chairwoman 
Norton for highlighting in her opening statement the tolling 
and congestion strategies that are inherently linked to issues 
of equity and that are oftentimes adversely affecting lower 
income communities and communities of color.
    Kansas has for a long time taken pride in our 
infrastructure; the roads, bridges, railways, and ports that 
our State provides means that transportation of the food and a 
lot of goods that feed the world and are put out through the 
rest of the country and internationally come through our State.
    A number of the corridors in the Kansas Third Congressional 
District, which I represent, badly need investment to expand 
the number of lanes to ease heavy congestion, to adopt new 
designs that require less expansion, and implement modern 
safety measures.
    My constituents consistently tell me that they want to see 
smart, sustainable, and resilient infrastructure so we can 
build the foundation for economic growth for the future. I am 
here on the Transportation and Infrastructure Committee to make 
that happen.
    I also want to highlight that I did have the chance not too 
long ago to host Chairman DeFazio in our district to tour 
Highway 69, which is a major thoroughfare in our district, and 
we had the chance to talk about the infrastructure needs there.
    YRCW, which I highlighted earlier, is a really good example 
of a corporate and civic citizen in our district, and we need 
to make sure that we highlight the good work that you are 
doing. But also I want to talk about the massive swings that 
YRCW is all too familiar with. And when I say that, I mean, you 
know what it is like to go through a downturn and then come out 
of that a much stronger company.
    And so I just want to make sure that if you have a chance 
after when I am asking the question, if you could speak to 
that.
    I am particularly interested in your approach, though, for 
my question, your approach to tolling and congestion charges. 
And you touched on this in your remarks, but there is a common 
misconception that trucking companies don't want to pay their 
fair share. And you spoke to that and indicated it is not the 
case.
    And I would like to hear you expand on how the existing and 
future tolling mechanisms and schemes that we have heard about 
affect a company like yours, whether that is the positive 
effects or the negative effects.
    Mr. Hawkins. Thank you, Congresswoman Davids.
    And quickly, when I mentioned earlier, YRCW, we pay $25 
million a year in tolls. At our company, we are a $5 billion 
company, so if you look at it from an operating standpoint, 
that is half of an operating point just in tolls that we are 
paying.
    Now as far as transportation companies paying their fair 
share, trucks are about 4 percent of registered vehicles, 9 
percent of miles traveled in the United States, but we pay 
about 42 percent of the Federal highway users fee. So, when I 
make a case for increasing the fuel tax, that certainly has 
both barrels pointed at the trucking industry, but we are well 
aware, just like in the State of Kansas, that 90 percent of 
everything that goes into Kansas from a goods-used standpoint 
comes by truck. And we have to preserve this great heritage we 
have in the Nation of adequate infrastructure that, 
unfortunately, has been underinvested in over a longer period 
of time.
    The best way I can make this point--and we have had a lot 
of conversation about individual cities but when we talk about 
interstate commerce, when one State is forced to take action 
for whatever reason to put toll gantries on a Federal 
interstate just because they happen to have a few miles of that 
interstate in their State, and then all users, including my 
company and many others, are taxed through a very small State 
that we do very little business in. Those types of situations 
endanger companies, and it endangers free enterprise, because 
any State that has an interstate running through it could 
actually have one of these hostage centers where all linehaul 
traffic is going.
    There is a company that is not here today that went out of 
business earlier this year, a unionized company based in New 
Jersey; and in the public statements they made around their 
closing, they mentioned the tolls in the Northeast area of the 
country where they operate.
    So, I think that is the ultimate example of what can happen 
if we don't take this seriously and also look at the Highway 
Trust Fund as an investment in our economy moving forward and 
certainly in the free enterprise of the United States.
    Ms. Norton [presiding]. Thank you very much. Your time has 
expired.
    Next is Mr. Babin.
    Dr. Babin. Thank you, Madam Chair. I thank you, all the 
expert witnesses and for your testimony.
    Mr. Scribner, thank you for being here today as well. This 
entire committee, myself included, is eager to address the 
issue of dwindling resources of our Highway Trust Fund. 
However, as we work to solve this issue, I want to be sure that 
we have parity in the contributions made to the fund across all 
users; and I have two points that I would like to make here.
    Texas is the only donor State to the Federal Highway Trust 
Fund. We get 95 percent back--95 cents back for every dollar 
that we put in, which costs Texans roughly $900 million a year. 
Every other State gets more than they put in, resulting in 
Texas basically subsidizing every other State in this Union. 
Other States get from 101 percent to 685 percent back on their 
contributions.
    I would like to introduce a letter, Madam Chair, which was 
submitted from our Texas delegation here in the House and 
Senate jurisdiction.
    Ms. Norton. So ordered.
    Dr. Babin. Thank you.
    [The information follows:]

                                 <F-dash>
Letter of March 26, 2019, from Hon. John Cornyn, U.S. Senator from the 
  State of Texas, et al., Submitted for the Record by Hon. Brian Babin
                                                    March 26, 2019.
Hon. John Barrasso
Chairman
Senate Environment and Public Works Committee, U.S. Senate, Washington, 
        DC 20510
Hon. Tom Carper
Ranking Member
Senate Environment and Public Works Committee, U.S. Senate, Washington, 
        DC 20510
Hon. Peter DeFazio
Chairman
House Transportation and Infrastructure Committee, U.S. House of 
        Representatives, Washington, DC 20515
Hon. Sam Graves
Ranking Member
House Transportation and Infrastructure Committee, U.S. House of 
        Representatives, Washington, DC 20515

    Dear Chairmen and Ranking Members:
    We write to bring attention to a long-standing problem with federal 
transportation funding: the flawed and outdated apportionment of 
highway funding that has resulted in Texas standing alone as the last 
``donor'' state. Relative to the federal highway gas taxes that Texans 
pay, we have historically received a disproportionately small share of 
federal transportation funding.
    By the will of Texas voters, we have added long-term state 
transportation funding solutions that dedicate new state transportation 
dollars to build more roads and improve our existing infrastructure 
without raising taxes, fees, tolls or debt The Texas voters 
overwhelmingly supported these increases on two different statewide 
propositions by over 80 percent. Although this is a giant stride to 
ensuring that Texas infrastructure can keep up with our growth, our 
work is not done.
    According to the Federal Highway Administration, in FY 2019, Texas 
remains the only ``donor'' state, when considering funds contributed 
directly to the Highway Account of the Highway Trust Fund versus 
apportionments received. In fact, Texas only receives 95 cents back for 
every dollar it sent to Washington in federal fuel taxes. Texas 
contributed 11.17 percent of all federal fuel taxes paid into the 
Highway Trust Fund, yet only received back 8.95 percent of the total 
apportionments, equating to just an 80 percent return on a percentage 
basis. By this calculation, Texas is shortchanged by up to $940 million 
in FY 2019. This imbalance is exacerbated by the fact that when 
Congress last developed funding formulas, 2000 Census data was used to 
calculate funding. In 2000, the Texas population was 20 million. 
However, our population has grown nearly 50 percent and is now 
estimated at over 29 million. These metrics must be brought current. 
Without using current data, we simply fail to have a true formula 
distribution.
    As Congress continues discussions on new infrastructure 
legislation, we hope that a fair, equitable and logical approach to 
federal transportation funding is considered.
    Thank you for your consideration of this important issue and for 
your continued service on behalf of our nation on transportation 
issues.
        Sincerely,
John Cornyn

United States Senator

Ted Cruz

United States Senator

Eddie Bernice Johnson

Member of Congress


Sylvia R. Garcia
  Member of Congress
Louie Gohmert
  Member of Congress
Pete Olson
  Member of Congress
Joaquin Castro
  Member of Congress
Randy K. Weber, Sr.
  Member of Congress
Kevin Brady
  Member of Congress
Michael Cloud
  Member of Congress
Roger Williams
  Member of Congress
K. Michael Conaway
  Member of Congress
John R. Carter
  Member of Congress
Ron Wright
  Member of Congress
Lance Gooden
  Member of Congress
Lizzie Fletcher
  Member of Congress
Kenny Marchant
  Member of Congress
Chip Roy
  Member of Congress
Kay Granger
  Member of Congress
Jodey C. Arrington
  Member of Congress
  
Sheila Jackson Lee
  Member of Congress
Vicente Gonzalez
  Member of Congress
Henry Cuellar
  Member of Congress
Mac Thornberry
  Member of Congress
Dan Crenshaw
  Member of Congress
Veronica Escobar
  Member of Congress
Michael T. McCaul
  Member of Congress
Filemon Vela
  Member of Congress
Van Taylor
  Member of Congress
Marc A. Veasey
  Member of Congress
Will Hurd
  Member of Congress
Al Green
  Member of Congress
Bill Flores
  Member of Congress
Brian Babin
  Member of Congress
Colin Z. Allred
  Member of Congress
John Ratcliffe
  Member of Congress
Michael C. Burgess
  Member of Congress
Lloyd Doggett
  Member of Congress

    Dr. Babin. But there was another point I would also like to 
make. Any proposal considered on changes to the Highway Trust 
Fund contributions should also recognize that, even though 
there are more and more high-efficiency electric vehicles on 
the road, these cars are still pounding the pavement as well. 
The same as gas-powered vehicles.
    So, those are two points that I would like to ask you. 
Could you please share with us how you believe that we can 
ensure parity on our surface transportation system, not only 
for drivers on the road, but also State apportionment, and how 
all should contribute equitably, reliably, and sustainably?
    Mr. Scribner. Yeah, thank you for those questions.
    Yeah, the donor/donee State issue went away for a while, 
since the bailouts began in 2008; but as you said, it is now 
back a little bit now that Texas is, once again, a net donor 
State.
    And I think that is, you know, we can tweak the formula all 
we want, and there have been battles over that in the past, but 
at the end of the day, we just have to recognize that the way 
the Federal program works is you collect money and send it to 
DC just to send it back. That is primarily what it does, and it 
is also important to put it in context. Seventy-five percent of 
our surface transportation spending is State and local, not 
Federal. So, the Federal is a--it plays a smaller role than the 
States and locals.
    And I think going forward, especially when we are looking 
at replacing the fuel tax with something viable for the long 
term, I think revisiting the broader Federal role, I do think 
that there is a Federal role in policing interstate commerce 
concerns; but in terms of spending and taxation, yeah, going 
forward, I think those are very reasonable questions to ask, 
and potentially rethink on how we do things.
    And then in terms of the electric vehicles, as long as the 
fuel tax is the primary method of collecting revenue for road 
projects, that is how we are going to do it. I think there are 
better ways to address that than others. I think you should 
charge by use rather than slapping big fees on them. But, yeah, 
we need to find a solution, because eventually, the internal 
combustion engine and the fuel tax will not be very valuable to 
this discussion.
    Dr. Babin. OK. And then a followup question about that. 
Texas adds about 1 million people every 3 years to our 
population. In your expert opinion, how can Congress focus 
Federal investment on our surface transportation system that 
actually maximizes economic growth, not only in Texas but 
everywhere else as well, and, also, promotes global 
competitiveness. If you would----
    Mr. Scribner. I mean, I think----
    Dr. Babin [continuing]. Short answer, please.
    Mr. Scribner. Pricing is really key. I mean, we have--you 
could think of traffic congestion as bread lines in the Soviet 
Union. It is the same problem. It is a misallocation of 
resources because we are not doing the price signal, and what 
we end up doing is spending a lot of time to basically try to 
replicate the information we can get through pricing, through 
bureaucratic and engineering means.
    So, if we had pricing, we could know where to better invest 
going forward. I think we just have a much more efficient 
system overall.
    Dr. Babin. OK. I am about out of time.
    And, Mr. Lomax, you are a fellow Texan here, and really 
quick--it is no--she is cutting me off. I guess my time has 
expired.
    Thank you.
    Ms. Norton. Thank you, Mr. Babin. Thank you for those 
questions.
    Ms. Davids.
    I am sorry. Mr. Garcia.
    Ms. Davids has already spoken.
    Mr. Garcia.
    Mr. Garcia. Thank you, Madam Chair Norton and Ranking 
Member Davis for putting this hearing together, and my 
appreciation to all of the expert panelists.
    I would like to begin with some local context. In 2018, a 
study entitled, ``Global Traffic Scorecard,'' Chicago was 
ranked as the third most impacted city in the country when it 
comes to traffic congestion. The previous year, by the same 
metric, we ranked eighth. So, it is a significant bump up, and 
it is getting worse. Individual drivers, the Chicagoland area, 
lose up to 138 hours per year in traffic. Nationally, the 
average is 97 hours lost per year for an average loss of 
$1,348. For someone making the Federal minimum wage of $7.25 an 
hour, working 40 hours a week, all 52 weeks of the year, that 
is almost 10 percent of the $15,000 annual income.
    There is a lot wrong with this picture, but the picture I 
am trying to paint is, one, traffic congestion is costing our 
economy and our constituents significant sums of money; and, 
two, congestion has severely disproportionate effects on 
working-class families struggling to make ends meet.
    Many of my constituents suffer every day in Chicago 
congestion, and there are growing talks about introducing a 
congestion fee in our downtown area. While this had positive 
results throughout Europe, I caution diehard advocates to keep 
in mind the unintended consequences of flat fees on congestion. 
Flat fees without respect to vehicle type, type of travel and 
location can easily erect financial barriers for lower income 
individuals and their access to good jobs throughout the city.
    Right now, rideshare consumers of services like Uber and 
Lyft pay a $.72 fee entering in Chicago's downtown. We should 
look at that pricing. We should look at a congestion fee and 
various models, but it will take years of study, in my opinion, 
if we are to properly implement a fee.
    If any, we need to get it right. What I want to focus on is 
deeper and at the route of congestion, land-use policy. That is 
why I am working on legislation to promote more equitable 
transit-oriented development, affordable housing, and more 
economic development around transit corridors so that those who 
need it most have the best access to transit options.
    I would like to ask a question and direct it to Ms. Chang. 
The Texas Transportation Institute testimony mentions 
diversifying development patterns as a potential solution to 
congestion. Zoning, job location, and schools play a large role 
in where people live, and the density of their neighborhood. 
Encouraging mixed use and higher density neighborhoods that 
naturally reduce the need for travel can improve congestion.
    Can you address the role of zoning and development in 
improving congestion, and what do you think that Congress 
should do to incentivize denser housing to help resolve the 
housing crisis without adding to congestion?
    Ms. Chang. Congressman, thank you so much for your question 
and your leadership.
    In San Francisco, transportation and congestion are 
intricately tied to the land-use question, and I think the 
transit-first policy for the last 40 years has recognized this, 
starting with our original downtown plan, which kept parking 
low, densities high, and invested heavily in BART and heavy 
rail, Muni, BART systems. So, that formula has been proven time 
and again. I think the Federal role can really be to help fund 
the transit, fund the sustainable and complete streets, fund 
the infrastructure so that communities can be able to have a 
comprehensive approach to the land use and the transit-oriented 
development.
    There has to be a partnership, a State, local, Federal 
partnership. We all do our role. It is a very important 
question, and, I think, one of the ways that we have been able 
to succeed is to, for example, even bring value capture into 
that conversation. So that the Federal investment in things 
like our Transbay Transit Center really brings dividends back 
to the national investment, sort of, formula.
    We are definitely leveraging local funds. We are bringing 
greater development opportunities and growing sort of the 
economic pie, and really showing what it--the powerful synergy 
between the land use and the transportation, especially when 
the local/Federal partnership happen together.
    Mr. Garcia. Thank you.
    I yield back.
    Ms. Norton. Thank you very much, Mr. Garcia.
    Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chairman.
    One of the things I want to point out as we get started 
with this and we have talked a lot about the fact that the gas 
tax hasn't been raised since the 1990s. Congress was--at the 
same time we passed the last gas tax, we started passing these 
corporate auto fuel economy standards, and there is such things 
as the law of unintended consequences. As we passed the CAFE 
standards, raising the miles-per-gallon requirements for 
automobile manufacturers, we didn't take into account that as 
the fuel efficiency increased, fuel consumption would go down, 
and thus, the revenues would go down. So Congress is somewhat--
I won't say somewhat, but very complicit in the problem that we 
are experiencing right now. We didn't take that into account.
    The other thing that I think we have to take into account--
and there is a report from the Texas Transportation Institute, 
which I believe you are affiliated with--that points out the 
problem with delay costs. The report cites three projects: a 
small project, which was a rural road; a medium-size project 
with U.S. Highway 59; the large project, which was an 
interchange on I-10 and I-410 near San Antonio. It is in the 
San Antonio district. The total of those delay costs was over 
$26 million. That is money that comes out of your 
transportation funding. That is not something that a 
construction company absorbs. And we are literally wasting 
billions of dollars in our transportation funding, paying delay 
costs because of activist lawsuits blocking projects and 
permitting issues. So, that is another issue that I think we 
need to address.
    I want to speak to Mr. Hawkins about, you know, you said a 
couple of times that your company paid $25 million in tolls, 
and I am sure that is true, but that $25 million was passed on 
to the ultimate consumers of the products or goods and services 
that your trucks were transporting. So, the burden of tolls, 
one way or the other, is going to get passed on to consumers. 
It is the same way with the gas tax. Whether the individual is 
paying it in their personal passenger vehicle, or it is a 
trucking company paying it or anybody else, it gets passed on. 
It gets added to that burden.
    I want to talk about some solutions, and I am sorry that 
Chairman DeFazio has left because he hit on a key point about 
how cyber and high tech can help reduce congestion.
    The University of Alabama has a cyber unit where they are 
able to monitor traffic flow and control traffic lights. If 
they see that, say, the east/west traffic is low, they are able 
to keep the north/south corridors open. We need to take 
advantage of the technology we have in the immediately, and can 
immediately do some of these things to reduce congestion.
    And then another thing that we need to talk about is most 
of the discussion we have had here today has been in regard to 
urban congestion. And I was in Miami earlier this year, and I 
thought, I will never go back. It was unbelievable. There are 
other places that I literally try to avoid driving through. I 
am from Birmingham, and we have some congestion, but nothing 
like Atlanta, Miami, and some other places I have been.
    One of the things I think we need to talk about, Madam 
Chairman, is a paper that came out from the Obama 
administration. It is in the archives now, and it was entitled, 
``Rural Means Business,'' and its subtitle was ``Bringing Tech 
Jobs to Rural America.'' With the technology we have today, and 
particularly with the opportunity to expand broadband, that 
needs to be part of our infrastructure discussion, expanding 
broadband to rural areas so that there is an opportunity for 
companies to locate out. Miami could be a hub for a much 
broader economic region. Atlanta could be, Birmingham could be, 
so that people don't have to live in close proximity to these 
urban areas.
    I think we have had a lot of discussion here, but I think 
we really need to double-down on coming up with some ideas to 
reduce traffic congestion and move more businesses and more 
people out away from these areas so you don't have that 
problem.
    With that, Madam Chairman, I yield back.
    Ms. Norton. Thank you, Mr. Palmer.
    The next Member, Mr. Rouda.
    Mr. Rouda. Thank you, Madam Chair.
    And thank you all of the witnesses for being here today.
    Mayor Gilbert and Mr. Brouwer, thank you for your comments 
and testimony as well. I am from Orange County, California, and 
I am really proud of the Orange County Transportation Authority 
and the job they are doing.
    And, Ms. Chang, you, as well, your comments are very 
similar to what we are trying to accomplish in Orange County.
    And I am proud of them, because right now, to the best of 
my knowledge, they are running the largest highway project in 
the country, about a $2 billion project to expand the 405 in 
one of the most congested areas in the country.
    And interestingly, I know one of the Representatives here 
asked about the reason rural communities should care about what 
is going on in the cities. One of the things that is 
interesting to note in the $2 billion project that we are doing 
in Orange County, there is only $46 million in Federal funds. 
That is about 2\1/2\ percent of the overall costs. 
Approximately half of it is being funded by the taxpayers of 
Orange County. So, we are addressing those issues with a lot of 
locally raised tax dollars, but would certainly be nice to have 
more support from the Federal Government in that respect.
    And one of the areas that is important is the TIFIA loans, 
and I am just curious from Ms. Chang and Mr. Brouwer, and 
perhaps, Mayor Gilbert. I know they are important to you, but 
can you espouse a little bit more on what you would like to see 
from a process-oriented standpoint to make it occur faster, 
easier, less bureaucratic?
    Mr. Brouwer. Congressman, we have not yet used the TIFIA 
program; and I emphasize the word ``yet,'' because I do expect 
we will be. We are looking to replacing the interstate bridge 
between Oregon and Washington. It is about a $3.5 billion 
project. We were achingly close to getting that project across 
the finish line a few years ago, and we were looking at $1 
billion TIFIA loans, which had incredible terms, very low 
interest rates, very low coverage rates, which means you can 
leverage more dollars there.
    And so, we see the TIFIA program as a likely source of 
great funding for projects going forward. The Federal 
Government has been very helpful in working through those. It 
is a lengthy process, and the Federal Government has to do 
their due diligence. We would hope over time, they would be 
able to expand the percentage of the project that that program 
can cover, and make sure that we can take advantage of those at 
the right timing.
    Mr. Rouda. Thank you.
    And Ms. Chang and Mayor Gilbert, I apologize. I am going to 
shift a little bit just to try and cover a couple of other 
areas.
    Dr. Lomax, I really enjoyed the presentation you provided 
us and the background information, and I want to make sure I 
understand this right. It is $166 billion in cost associated 
with lost time, and that is just gasoline and time and 
calculating that cost, and I believe you had mentioned also 
environmental costs, health cost, business loss is not in that 
number. And I pulled from Google that the EPA says there is 5.5 
pounds of CO2 per gallon--that is before it is combusted--and 
over 19 pounds when combustion occurs. So that is 63 billion 
pounds of CO2 per year going into the atmosphere with the fact 
we have this massive amount of congestion.
    Does that sound about right?
    Mr. Lomax. I am not sure about the science behind 
combustion.
    Mr. Rouda. Well, trust me on the EPA.
    And I guess that is another reason to my friend from North 
Carolina as to why it would be good for us addressing this 
issue overall, correct?
    Mr. Lomax. Certainly there are a lot of other facts beyond 
what we measure.
    Mr. Rouda. A lot of reasons. And, in fact, of that $166 
billion, it is fairly safe to assume that we are all paying for 
that $166 billion in increased costs of goods and services. Is 
that a safe statement?
    Mr. Lomax. I think my colleague with YRCW would confirm 
that, too, yes.
    Mr. Rouda. And I have had the privilege of touring the Port 
of Long Beach. And the Port of Long Beach and the Port of Los 
Angeles account for 40 percent of all goods shipped in to the 
United States, and those goods are delivered to every single 
district in the United States. So, when we talk about how 
important it is to have quality infrastructure even in the 
cities, because typically, ports are associated with cities, 
the cost of transporting those goods has a direct impact on 
every community in the country including rural communities.
    Is that a safe assumption?
    Ms. Chang. Yes.
    Mr. Brouwer. Yes.
    Mr. Rouda. You would agree with that?
    And then the last thing I will ask with my remaining time 
to Dr. Lomax is, again, I think your testimony and the data and 
information you have provided us is so important. You use Texas 
as a model that the do-nothing-versus-do-something, it is a 4-X 
cost increase in not doing anything versus doing something. Is 
that a fairly consistent statistic across the United States?
    Mr. Lomax. The analysis that we have done show that it is, 
yes.
    Mr. Rouda. Thank you very much.
    And I yield back.
    Ms. Norton. Thank you very much for those questions.
    Mrs. Miller.
    Mrs. Miller. Thank you, Chairwoman Norton and Ranking 
Member Pence.
    And thank all of you all for being here today.
    Developing our highway infrastructure is essential for the 
continued development of my home State of West Virginia. While 
a major focus of today's hearing is on urban traffic 
congestion, I do believe that there are aspects that can be 
applied to roadway construction and repair across our country.
    Mr. Hawkins, tolling disproportionately affects the 
trucking industry that delivers the largest portion of our 
Nation's goods. What is the most effective way that the Federal 
Government can fund highway construction and repair initiatives 
that is fair to both commuters and industry?
    Mr. Hawkins. Congresswoman, I think that is an excellent 
question, and it really gets to the heart of the matter of the 
way this discussion has taken place today, urban versus rural. 
From the ATRI standpoint, the American Transportation Research 
Institute, when we talk about technology and what it can tell 
us, that technology tells us that 87 percent of freight 
congestion on our National Highway System is just in 17 percent 
of the system,
    So, for example, California, where we have got a huge 
presence--we have got more terminals there than any other 
State, but we are a national carrier. So, we are represented in 
every State.
    The ATA's solution to that is that we take a portion of the 
Highway Trust Fund and dedicate it to this 17 percent--that is 
where the big trouble is in all of the public transit and the 
areas where congestion is really hampering the overall economy. 
But for the other percentage of the system that we dedicate it 
appropriately by showing all Americans that we are going to 
rebuild the infrastructure that really built this company.
    When Dwight Eisenhower had the vision to push through 
45,000 miles of interstate across our country, it opened up the 
whole country and it opened up commerce with it and protecting 
that is how we do it.
    The Highway Trust Fund is not perfect, the fuel tax is not 
perfect, but for the immediate need that we all have, it is the 
solution we need to do today. And then, also, we can protect 
this infrastructure while we are figuring the rest out but a 
portion of that fund does need to go to these urban areas that 
have these tremendous congestion problems. But overall, we 
can't ignore the rural areas that many of us are from and that 
our country depends on, especially from a manufacturing 
standpoint.
    Mrs. Miller. Thank you.
    Mr. Lomax, while a fuel tax is an obvious cost on 
commuters, what are the unseen prices of underfunding highway 
construction and repair?
    Mr. Lomax. I think certainly you see the vehicle 
maintenance go up when you have bad roads; but in addition to 
that, you see business inefficiencies. The YRCW trucks can 
carry less goods and services. When they can't go over load-
zone bridges, you see schoolbuses having to route around county 
bridges that have load deficiencies. So, there is a whole range 
of costs and effects on economic opportunity and quality of 
life.
    Mrs. Miller. What costs do rural commuters face compared to 
urban commuters?
    Mr. Lomax. Particularly for rural commuters who are going 
to bigger cities, going to the bigger economies, you see much 
longer travel distances. I think West Virginia has the longest 
average commute of any State because of the distances that many 
of your constituents travel. Certainly, the travel options are 
also not there. It is much harder to find bus service or train 
service from any of the rural communities in urban areas.
    Mrs. Miller. That is correct.
    Mr. Scribner, how do the public--I will start that again.
    Do the private-public partnerships for infrastructure 
projects tend to lower costs for commuters?
    Mr. Scribner. They can certainly lower costs for taxpayers 
by shifting that risk off of the public and onto private 
investors. They have a much stronger--to get the job done right 
and cheaper than conventional procurement. So, I think often it 
is the case that you see substantial savings to both the users, 
given what they are getting in terms of the quality of the 
asset that they are--they have now paid for, as well as the 
taxpayers who are no longer shouldering the burden of the 
project.
    Mrs. Miller. Thank you so much.
    I yield back my time.
    Ms. Norton. I thank the gentlelady.
    Finally, Mr. Pence.
    Mr. Pence. Thank you, Madam Chair Norton and Ranking Member 
Davis, for holding this committee meeting and the witnesses for 
being here today.
    Recently, the American Transportation Research Institute 
found that highway congestion is negatively impacting our 
economy by staggering numbers. According to the study, 
congestion on our Nation's highways costs the trucking industry 
$74 billion, which has the same impact as if 425 truckdrivers 
sat idle for an entire year.
    The Texas A&M Transportation Institute produced a study 
that shows in 2017 Americans lost a total of 8.8 billion hours 
of productivity due to congestion. Over 1.2 billion hours of 
lost productivity were attributed to the trucking industry 
alone.
    As the crossroads of America, my home State, Indiana, is 
home to three of the country's worst bottlenecks, with the 11th 
worst chokepoint at I-65 and I-80 which I am sure many truckers 
know very well.
    Today, we have heard about the benefits of share riding, 
technology, tollroads, HOV, or express lanes.
    Mr. Hawkins, as a fellow trucker for many, many years and, 
frankly, all my life, I was particularly interested in your 
testimony. I wish this hearing and more of the industry would 
highlight, include, and consider, the benefits of truck-only 
lanes or critical commerce corridors to physically separate 
cars and trucks in congested areas or the 17 percent of the 
system, as you mentioned.
    CCCs utilized the existing interstate for truck lanes, 
which are constructed with increased pavement depth, reducing 
the amount of repairs that have to be done. Passenger traffic 
would be rewarded with new roadways and the right of way, which 
require thinner pavements and cost less to build. Truck traffic 
would benefit from dedicated lanes where predictability of 
shipments would be greatly enhanced with the potential for 
drafting and tuning, not to mention the safety separating the 
cars and the trucks.
    There is a growing interest in finding creative ways to pay 
for CCCs, including a diesel tax increase that would be 
dedicated to truck lanes. I am aware that truckers already pay 
more than any other entity using our highways.
    Mr. Hawkins, have you or the American Trucking Associations 
considered utilizing CCCs, and, if we were able to wall off 
these funds and dedicate them exclusively to CCCs, would the 
ATA consider supporting this option?
    Mr. Hawkins. Congressman, our distribution center in 
Indianapolis is one of our largest in the Nation; and I agree. 
It is a critical point just from your home State; but overall, 
when we think about trucking and also its impact on Americans, 
I think it is important to protect that. Through the Highway 
Trust Fund and the recommendations we have made, I am not an 
expert on all infrastructure in the United States or the 
appropriate way to fund that.
    The points I have tried to make, and me taking a day away 
from running the fifth largest trucking company in the United 
States to be here was all about that, to just increase 
awareness, but also to make a plea that action needs to be 
imminent on the subjects to protect our overall economy across 
the United States.
    So, to answer your question, certainly I am a fan of any 
opportunity for us to make sure that 71 percent of our Nation's 
goods and the delivery mechanisms for those goods are protected 
over a long period of time; and I think just what you have 
talked about would accommodate that. I do realize that we have 
to work across all aisles to make sure that what we do is not 
just good for truckers, that it is good for the environment and 
good for the country overall, but at the end of the day, I 
think solutions like that would help move us down the road.
    Mr. Pence. Thank you, Mr. Hawkins.
    Just a few seconds left. Anyone have a comment about that? 
No?
    Madam Chair, I yield my time.
    Ms. Norton. Thank you very much for those questions.
    Mr. Smucker.
    Mr. Smucker. Thank you, Madam Chair, Ranking Member.
    It has been a long hearing, but I think an excellent 
discussion about some of the needs in our highway 
transportation system, and I very much appreciate all of the 
testimony of everyone here today.
    Mayor Gilbert, I am going to read from your testimony, 
because I think, perhaps--this is the end of the hearing here, 
but I think this perhaps provides some perspective. You said 
``Roads are pathways to something greater. They are instruments 
of economic development and job creation.'' Then you go on 
further to say, ``I stand before you today, in large part, 
because someone invested in meaningful and efficient 
transportation systems.''
    And that is so true. I was a business owner myself for 
years in construction, and saw the impact on the economy and on 
my business, the ability to grow the business, after investment 
in infrastructure that provided additional ways to get around 
congested cities and so on. It opened up entire new markets for 
us.
    Do you think the public, do you think, the people in your 
community, the people in your State, understand the impact of 
Government investment in infrastructure and understand what it 
would look like if those investments had not occurred in the 
past?
    Mr. Gilbert. I think that they are being made to 
understand, and it is coming to their awareness now.
    One of the things we have been talking about in south 
Florida is transit-oriented development and how different 
communities can look and how we need to have good conversations 
with business owners, not just residents, about how mass 
transit is going to operate up and down those corridors.
    We know that, if done right, it is not just the money we 
spend. It is all the money we are going to get back and all the 
opportunities we are going to create. So, I would be remiss if 
I didn't point that out, that we have an opportunity to, in a 
lot of ways, reshape south Florida but reshape America with how 
we do transit. We can use it as a tool to do something more 
than just take us from point A to point Z.
    Mr. Smucker. Yes.
    Mr. Hawkins, I think all of you have mentioned an 
interstate system, the investment, but you just a few questions 
ago answered that and talked about the economic opportunity 
that has created. Do you think people take a minute to step 
back and think how things would look if that had not occurred?
    Mr. Hawkins. I think from a transportation aspect, we are 
the largest employer in many States, and when you look at 29 of 
our States, transportation can be the leading employer in most 
cases and, because of that, people understand that over a long 
period of time, the infrastructure has been what has allowed 
this country to thrive as we have, and that the underinvestment 
for many of us that have--I have been in this industry for 32 
years. And because of that, I have watched what has happened, 
and my growing concern, and also the reason I am here today is 
just that, that I believe Americans do understand and then 
overall, they understand the bottlenecks, they understand the 
congestion. And they are experiencing this on a daily basis, 
regardless of what else they are seeing on the news, they are 
living it. Even in rural areas, they are seeing bridges that 
have been affected by flooding and other areas over the last 
couple of years that is worse than we have seen in the last 20.
    Mr. Smucker. I could tell you--and I am running out of 
time, but I can tell you in my district, and in my State of 
Pennsylvania, people understand that investment in 
infrastructure is a core function of Government and is 
important to our economic growth, important to each one of 
them.
    I know that because Pennsylvania was one of the States that 
implemented an increase in the gas tax. I was in the 
Pennsylvania State Senate at that time, advocated for that, 
helped to build the support for it. It was done with the public 
support who really understood the cost of congestion, and the 
cost of impact on vehicle maintenance, as you had just 
described.
    Mr. Hawkins. And we just did the National Truck Driving 
Championship in Pittsburgh 2 weeks ago.
    Mr. Smucker. Yes. However, we haven't seen the public 
support yet for an additional Federal investment. I don't have 
a lot of people calling my office yet, and I am not sure why 
that is. But I can tell you two concerns that we heard in 
Pennsylvania that I think we can learn from.
    One is, they want to ensure that, if we are going to do 
additional investment for transportation, if there is going to 
be additional user fees, that it is used for that. It is very, 
very important. It can't be diverted to something else. It has 
got to be used for that.
    Secondly, it has to be used efficiently. And as a part of 
what we passed in Pennsylvania, we made some significant 
changes to the permitting process and to the way projects were 
delivered that resulted in cost savings. I think that has not 
yet been part of the conversation here, very, very important.
    And then, finally--and this point was raised by several 
others, Mr. Meadows and Mr. Babin--you have to understand, you 
have to know that it is going to affect, if the money is coming 
from our area, it is going to impact. I have to go back to 
people in my district. Every Member here has to go back and 
say, this is a problem we have in the district that will be 
addressed.
    And I am not--I won't have time for you to answer this 
question, but I am not sure that we have addressed that yet 
either. I think there are--it is time we step up. It is time we 
get this done. Legislators need to hear from the public on this 
issue, because it is an important issue. But I think we also 
have to address those very, very important questions about how 
we will spend that funding, and how those dollars will be 
efficiently invested.
    And just one other point. Thank you, Madam Chair.
    You know, a State like Pennsylvania that has made the 
commitment to invest in infrastructure, we have a fairly high 
gas tax. There are a number of reasons for that, but the 
biggest reason is because we recognize the need to do that. I 
want to know as well, that if there are dollars coming from 
Pennsylvania into the Federal system, that Pennsylvania will 
receive credit for the investments they have already made, and 
for what we have already asked for from taxpayers.
    So, just some random thoughts. I wish we had a little more 
time to address some of those issues.
    But, again, thank you for each of you for being here.
    I thank you, Madam Chair.
    Ms. Norton. I want to thank you, Mr. Smucker, for that very 
thoughtful line of questions. I was intrigued to hear that when 
you were in the, I think it was the Pennsylvania Legislature, 
you voted for an increase in the gas tax.
    I don't know what happens when they kick people upstairs, 
but I understand that in the States you are closer to the 
people, and I think it is informative, and I would like to hear 
more from Members what their own experience has been.
    You raised certain issues, and I wanted to assure you that 
we will follow up on those issues you raised. Certainly open to 
ways to increase revenue besides the old-fashioned ways.
    We are concerned that the States are leading the Federal 
Government when our bill will show that 80 percent of the funds 
are Federal, and there is a match of 20 percent from the 
States. So, the ball really is in our court. It looks like 
Members are from States that have valuable information to give 
to us as we try to figure out what to do.
    I indicated already that the Senate has passed a bill--
sorry, that is incorrect--have a draft bill which increases 
revenue. They are not prepared yet to make that visible. They 
have an appropriator to work with, and they have got to make 
sure that happens. In our case, Ways and Means has had a 
hearing and we have got to wait to see what they do about 
revenue.
    But I want to assure Members that we are open to their 
suggestions and ideas as we try to figure out how to do a new 
bill, a 2020 bill, that is nowhere like what our last bill was, 
which was no revenue increases at all.
    I want to thank Members on the other side for working with 
us, because what we did, of course, as I indicated at the 
opening of this hearing, was to make a 6-year bill a 5-year 
bill.
    So, I was pleased to have them work with us to get some 
increased revenue. I don't think anybody wants to do that next 
time, and I think the witnesses today have helped us to 
understand the urgency and the differences that we have to take 
into account in coming forward with a new bill that, in many 
ways, it must look very different from the FAST Act. Very 
valuable testimony.
    Are there any further questions from the subcommittee?
    Seeing none, I want to thank, again, our witnesses for the 
many contributions you have made today to our thinking.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to the questions that may be submitted to them in 
writing, or have been submitted from the dais, and unanimous 
consent that the record remain open for 15 days for any 
additional comments and information submitted by our Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered.
    If no other Members have anything to add, the subcommittee 
stands adjourned.
    Thank you very much.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Thank you, Madam Chairwoman.
    It is with great appreciation that I thank the Chairwoman for 
holding this hearing today, as it allows us to discuss solutions to 
congestion on America's roads.
    Most Americans deal with congestion on a regular basis. Today, I am 
eager to hear from the witnesses on the possible solutions to 
addressing congestion on America's roads and possible technological 
strategies that can assist.
    We have so many goods flowing through my home state of Texas, and 
so many people who are dependent on our transportation network to get 
to their destinations. North Texas is a transportation hub for the 
entire country.
    For instance, a new high-speed passenger rail line is in the works, 
which will connect Dallas and Houston, the fourth and seventh largest 
economies in the country, in less than 90 minutes.
    Currently, I-45 connects Dallas and Houston. The drive is about 4 
hours and with traffic it is even longer. By using the high-speed rail, 
riders will save time and reduce congestion on I-45.
    I recognize that solutions for congestion need to be tailored to 
the community and that a ``one-size fits all solution'' is not the 
answer.
    I am ready to work with my colleagues in examining ways we can help 
relieve congestion.
    I look forward to hearing the testimony and solutions from all the 
witnesses today.
    Thank you. I yield back.

                                 <F-dash>
    Letter of September 10, 2019, from Charlie Kiefer, Director of 
    Membership and Operations, Alliance for Toll-Free Interstates, 
           Submitted for the Record by Hon. Peter A. DeFazio
                                                September 10, 2019.
Hon. Eleanor Holmes Norton
Chair
Hon. Rodney Davis
Ranking Member
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC 
        20510

RE: September 11, 2019 Hearing titled ``Pricing and Technology 
Strategies to Address Congestion on and Financing of America's Roads''

    Dear Chair Norton and Ranking Member Davis:
    The Alliance for Toll-Free Interstates (ATFI) is a growing alliance 
of individuals, businesses and organizations advocating for long-term, 
sustainable, efficient, equitable, and sensible highway infrastructure 
funding solutions. ATFI applauds the renewed public emphasis on 
infrastructure funding coming from Congress but wishes to register our 
opposition to tolling on existing interstates. We are particularly 
concerned that Congress may even consider expanding tolling authority 
during the surface transportation reauthorization process, as evidenced 
by a provision in the Senate's ``America's Transportation 
Infrastructure Act of 2019 (S. 2302, ``ATIA'').
    Implemented properly, infrastructure funding can provide meaningful 
employment opportunities to those individuals and communities that need 
it the most, while also modernizing the transportation system to 
improve the free flow of people and goods throughout the country. At 
the same time, poorly conceived infrastructure legislation can be 
counter-productive, causing negative unintended impacts on 
transportation networks, economies and local communities.
    Keeping these principles in mind, ATFI opposes expansion of 
Interstate tolling authority. ATIA's Congestion Relief Program (Sec. 
1404) enables states to more easily toll existing interstates. We hope 
that the subcommittee will reject similar expansion of this authority, 
and we urge Congress to eliminate programs such as the ISRRPP 
altogether. That specific program has been in effect since 1998 and has 
never been successfully implemented in its 21-year history.
    History has shown that, when given full consideration, states 
recognize what all the impacted industries have always known--that 
tolling interstate lanes which drivers now freely access is not only 
unpopular, it is an inefficient financing mechanism that is the worst 
possible approach to raising transportation revenue. Imposing tolls on 
existing interstates will increase shipping costs for goods, suppress 
consumer activity, waste revenues on bureaucratic administration, 
double-tax businesses, divert traffic onto local roads, and negatively 
impact residents and communities located around toll facilities. 
Efforts to make tolling easier will hurt America's economic future and 
reroute prosperity around the communities where tolls are located.
    Hardest hit by tolls will be America's small businesses and their 
employees. Tolls raise business costs for moving goods through the 
supply chain, hurting the competitiveness of local companies. 
Restaurants, convenience stores, travel plazas and gas stations 
operating near the newly tolled interstate will face higher costs from 
manufacturers and shippers, who will be forced to charge more to 
transport goods by truck. Everyday consumers will be shouldering the 
burden by paying more for goods, demonstrating the fact that the toll 
is nothing more than an underhanded tax on the general public.
    In addition, tolling is fiscally irresponsible and financially 
inefficient. Toll gantries cost millions of dollars to build and 
maintain. Even with the latest technology, collection costs alone are 
at least 8 to 11% of revenue collected, according to the Congressional 
Budget Office. Toll management, enforcement and operations total a 
significantly larger portion of revenues that do not go to actual road 
maintenance. In 2018, the all-electronic North Carolina Triangle 
Expressway spent 36.8% of annual revenue on toll operating costs; those 
are funds that could go toward road improvements with more efficient 
funding mechanisms. For example, increasing fuel taxes, which have a 
less than 1% administration fee, and registration fees do not increase 
collection costs, so nearly 100% of revenue can go toward 
infrastructure improvements. America's interstates were built using tax 
revenue, and fuel taxes have paid to maintain them since. Because tolls 
are generally upheld as a `user fee' for the roads traveled, diverting 
these funds away from infrastructure improvements is a violation of the 
public trust. Quite simply, the fuel tax is the ultimate user fee, and 
it is already in place.
    Not only are the financial ramifications of tolls unfair to the 
public, but the social costs are discriminatory. Tolls devour take-home 
pay for drivers and are especially oppressive to low-income Americans. 
They would make driving on interstates simply unaffordable for some 
families. Additionally, electronic tolling discriminates against the 
tens of millions of financially vulnerable Americans who do not have 
bank accounts. This places the heaviest burden from tolls on the backs 
of those least able to afford it, who, lacking the financial 
instruments of a debit or credit card, are sent a bill in the mail 
charging them the toll plus a fee and a stamp. Tolls are expensive for 
all drivers, but especially costly for drivers without bank accounts.
    To toll drivers on top of these fuel taxes is double taxation. 
Since the inception of the Federal Interstate Highway System, the 
federal gas tax has always been the primary source of revenue for the 
construction and maintenance of federal interstate lanes. Every time a 
motorist puts gas in his vehicle, he is upholding his end of the deal 
for interstate maintenance. A new toll on an existing interstate, even 
when combined with a congestion relief effort, forces drivers to pay 
two taxes for that same road: a gas tax and a toll tax.
    Furthermore, tolls will force drivers to use secondary roads to 
avoid these new taxes. This diversion causes congestion and delays 
response times for emergency personnel who rely on these secondary 
routes to quickly get to and from accidents and emergencies. A 2013 
study on the consequences of tolls in North Carolina, a state which 
held but did not use an ISRRPP tolling slot for 18 years, predicted 
that tolls would divert up to 36% of traffic to alternate routes, 
contributing to delays, traffic accidents, and wear and tear on smaller 
secondary roads that were not built to handle high traffic levels.
    Voters and state-level policymakers continue to reject tolling 
existing interstates because they understand tolling is bad public 
policy with myriad negative consequences, both economic and social. We 
appreciate you taking into account your constituents' vocal opposition 
to tolling existing interstates. As we have seen with the failed 
ISRRPP, when states learn the true impacts of tolling existing 
interstates, they reject this option. The reasonable response to that 
failure is to eliminate it and move on to more viable revenue 
generation ideas.
    As reauthorization is discussed, the thousands of private citizens 
and numerous businesses and organizations that make up ATFI urge you to 
fully reject tolling existing interstates. Americans need sustainable 
investment in our infrastructure, not discriminatory, ineffective 
policies that take more and more money from hardworking motorists and 
businesses. The needs of America's transportation network are vast and 
deserve serious attention without the distraction of tolls.
    We appreciate the opportunity to offer these comments and ask they 
be submitted for the official record. We thank you for your 
consideration and look forward to working with you to move forward this 
important legislation. Should you have any additional questions, please 
contact me.
        Sincerely,
                                             Charlie Kiefer
   Director of Membership & Operations, The Alliance for Toll-Free 
                                                        Interstates

                                 <F-dash>
 Statement of Matthew Ginsberg, D.Phil., CEO, Connected Signals, Inc., 
           Submitted for the Record by Hon. Peter A. DeFazio
                              Introduction
    Chair DeFazio, Ranking Member Graves, Chair Norton, Ranking Member 
Davis, and Members of the Subcommittee, thank you for the opportunity 
to provide a statement on Pricing and Technology Strategies to Address 
Congestion on and Financing of America's Roads.
    My name is Matt Ginsberg, and I am the CEO of Connected Signals, 
Inc., an Oregon startup dedicated to improving traffic safety, 
throughput, fuel consumption, and emissions by connecting vehicles to 
traffic lights.
    The idea of connected vehicles, and especially a Vehicle-to-
Infrastructure (V2I) connection, has gained tremendous momentum in the 
last few years. The expectation has been that we can deploy 
communications infrastructure at traffic signals and other locations, 
and that that infrastructure can then relay valuable information to 
vehicles and drivers. If cars knew the color of upcoming signals, they 
could operate more efficiently while reducing red light running and the 
attendant carnage. If signals knew what vehicles were approaching, they 
could adapt to improve traffic flow and give appropriate priority to 
buses, ambulances, bicycles and others.
    A studies have shown that providing traffic light information to 
vehicles leads to significant improvements in safety, throughput, fuel 
efficiency, and emissions production. Vehicles with access to such 
information can be expected to operate 8-15% more efficiently, 
according to independent estimates from automakers such as BMW [1, 2] 
and Audi [3, 4], as well as from the National Renewable Energy 
Laboratory [5]. The USDOT reports that in 2014 two trillion vehicle 
miles were travelled on US urban roadways, two thirds of all miles 
driven nationwide [6]. Meanwhile, red light incursions accounted for 
over 250,000 accidents in 1999, with over 40% resulting in injury or 
death [7]. V2I systems are believed capable of addressing about 25 
percent of all these crashes [8, 9]. Our best estimates are that if 
every vehicle on the planet knew what every traffic light was doing, 
human carbon production would fall by 1.3%. Similar and additional 
savings would correspond to the traffic lights being aware of the 
vehicles.
                         Current V2I Approaches
DSRC
    To help achieve the goals of improving traffic safety, efficiency, 
and throughput, government and industry have committed to an ambitious 
program of installing special- purpose communication equipment in 
vehicles and encouraging the deployment of V2I infrastructure at 
intersections nationwide. The proposed mechanism has been to use 
Dedicated Short-Range Communication (DSRC) devices operating in a 
spectrum block reserved for traffic safety applications.
    The use of DSRC is intended to allow vehicles and signals to share 
the information needed to optimize both vehicle and signal behavior. 
Vehicles can report their location and speed to nearby signals, while 
signals can report their state and anticipated future behavior to 
vehicles. Vehicles could then adjust their speed to avoid delays at 
signals, increasing throughput and fuel efficiency. Signals can adjust 
their timing to speed as much traffic as possible on its way as quickly 
as possible.
    Unfortunately, there are two significant impediments to the 
widespread deployment of DSRC-based technology. The first is cost, and 
the second is spectrum.
    The cost of DSRC appears to be prohibitive on a large scale. While 
the technology offers many benefits, it requires a significant 
investment in new infrastructure and will take decades to be deployed 
on a scale that would have a significant impact on US fuel consumption, 
emissions, and safety. The cost of DSRC roadside equipment installation 
at one intersection is on the order of $13-21K,\1\ with attendant 
annual maintenance costs of $1950-$3350/year.\2\ In its Letter Report, 
Review of the Status of the Dedicated Short-Range Communications 
Technology and Applications [Draft] Report to Congress [10] the 
Transportation Research Board (TRB) of the National Academy of Sciences 
notes that:
---------------------------------------------------------------------------
    \1\ http://www.itscosts.its.dot.gov/ITS/benecost.nsf/SummID/SC2014-
00325?OpenDocument
&Query=Home
    \2\ http://www.itscosts.its.dot.gov/ITS/benecost.nsf/SummID/SC2014-
00329?OpenDocument
&Query=Home

        As USDOT is undoubtedly well aware, funding for the deployment, 
        operation, and maintenance of the roadside hardware and 
        software necessary for V2I communication is unresolved. 
        Congress has struggled to find ways to fund the upkeep of the 
        existing highways and bridges on the federal-aid system, and 
        DSRC will add new, more sophisticated technologies that will 
        require ongoing upkeep expenditures. Moreover, many of the 
        nation's busiest intersections that would be priority 
        candidates for V2I infrastructure and applications may not even 
        be on the federal-aid system, and a new financial burden on 
        county and municipal governments that can barely afford to 
        retime traffic signals on a regular basis would be imposed. 
        Until these issues are addressed, rollout of V2I applications 
---------------------------------------------------------------------------
        on a broad scale appears questionable.

    Moreover, there are significant and growing concerns that DSRC may 
not be up to the proposed task at all. The TRB report further observes 
that there are significant concerns with DSRC's ability to handle the 
volume of communications that could be expected in V2I applications in 
high-traffic areas. Specifically:

        The DSRC report notes that unpublished NHTSA and CAMP research 
        demonstrates that V2V communications ``perform reliably'' with 
        up to 200 vehicles and that ongoing research will estimate the 
        number of vehicles at which channel congestion would be 
        significant. Without access to the results of the CAMP 
        research, the committee is not in a position to verify this 
        conclusion. The NHTSA Readiness report (page 109) provides an 
        example indicating that up to 800 vehicles could be within DSRC 
        range on a congested freeway.

    The TRB report covers a number of other concerns. In addition, 
there is the question of whether the DSRC specification itself, which 
is nearly two decades old, is sufficiently rich to support the 
burgeoning array of V2I applications that have been proposed. For 
example, DSRC's message formats do not support the type of rich 
predictive information, such as distinguishing between expected, 
minimum, and maximum time to signal change.
Cellular Roadside Equipment
    Between the time of DSRC's development and today, the potential 
drawbacks of DSRC have become apparent as cellular technology has 
become ubiquitous. This has led to numerous calls to replace DSRC with 
CV2I (Cellular V2I). These suggestions have been buttressed by the fact 
that cellular radios are becoming a universal fixture in modern 
vehicles, eliminating the need for each vehicle to have a special-
purpose radio solely for V2I applications. The broader range of 
cellular spectrum available, and the advent of 5G technology based on 
microcells have given further impetus to these ideas. The European 
Union, for example, appears poised to mandate cellular over DSRC 
communication for V2I applications.
    Nevertheless, a significant cost issue remains. Installing cellular 
roadside equipment at every signalized intersection shows little 
prospect of being less expensive or easier to deploy than DSRC itself.
Use of Existing Infrastructure
    Most--perhaps all--of the expected benefits of V2I can be achieved 
without the deployment of new and expensive infrastructure. Connected 
Signals and other companies are pioneering a technology that connects 
vehicles to traffic signals using existing infrastructure. 
Specifically, a combination of existing traffic management networks, 
Internet connections, and cellular communications has been shown to 
provide the significant safety, fuel-efficiency, emission, and traffic 
benefits of the sort previously envisioned for DSRC systems. Such 
systems can be deployed citywide in weeks at virtually no cost to a 
city, can be made highly secure, and can provide benefits both to 
specially equipped vehicles and to anyone with a smart phone and a 
fixed mount.
    Connected Signals has already deployed such a system at over 18,000 
intersections on 3 continents, including in 4 of the 10 largest US 
cities. The installations require minimal effort and virtually no 
expense on traffic agencies' part and require no hardware installation 
at intersections.
    In a study conducted by Argonne National Laboratory (Etherington, 
Rousseau, Sokolov, & Schmid, 2016), this technology was demonstrated to 
have a positive safety impact on the behavior of drivers approaching 
traffic signals. A Transit Signal Priority system deployment in 
Arcadia, CA has been shown to provide reduced bus waiting times at 
signals and more consistent speed profiles for buses [12] [13].
    In order for this approach to succeed, each agency (municipality, 
state DOT, etc.) that controls traffic lights must provide access to 
the signal status feed from its traffic management system. Securing 
agency participation typically encounters one of three difficulties.
    First, an agency must be contacted and persuaded that its residents 
will benefit if real-time signal information is made available. This is 
becoming progressively easier as the concept and potential benefits of 
V2I technology become more widely known and as an increasing number of 
government agencies deploy cloud-based V2I systems such as Connected 
Signals'.
    Second, agencies are often concerned about the security impact of 
allowing any connection to their Traffic Management System at all. 
Every traffic engineer is rightly worried about possible abuse of his 
or her network. This concern is typically addressable by a detailed 
explanation of the security protocols that are incorporated into the 
mechanisms that provide data access to and from city networks.
    Finally, municipalities are concerned about the possibility of 
incurring liability by providing signal information to drivers. Might 
those drivers then blame the agency for the consequences of their 
actions? This specific obstacle is often insurmountable, as it is 
impossible to convince a city attorney that their city won't get sued, 
and the fear of such an eventuality can overwhelm the potential 
benefits to their residents, their commuters, and the environment.
                    How Can This Subcommittee Help?
    This subcommittee and Congress could do two things that would help 
to maximize the availability and utility of traffic-signal V2I in the 
US. The first is to recognize that DSRC may not be the most effective 
way to provide V2I capabilities, and to move to encourage the 
consideration of other technologies that can offer cheaper, more easily 
deployed, and more universal solutions. We believe that approaches that 
do not require new infrastructure offer the greatest chance to achieve 
the widest possible distribution of the technology and the greatest net 
benefit in the shortest possible time.
    Second, the subcommittee could consider supporting legislation that 
would immunize government bodies that provide real-time traffic-related 
information to drivers. There are precedents in terms of providing 
manufacturers immunity from liability for the uses to which their 
products are put, and it seems clear that the benefits achievable 
through V2I provide a sufficient public good to justify such action in 
this case.
    Thank you for your consideration and for the opportunity to provide 
you with this statement.
                               References
    [1]  A. Weber and A. Winckler, ``Advanced Traffic Signal Control 
Algorithms, Appendix A: Exploratory Advanced Research Project: BMW 
Final Report,'' September 2013. [Online]. Available: http://
www.dot.ca.gov/newtech/researchreports/reports/2013/
final_report_task_2157b.pdf. [Accessed May 2015].

    [2]  H. Xia, K. Boriboonsomsin, F. Schweizer, A. Winckler, K. Zhou, 
W.-B. Zhang and M. Barth, ``Fieldoperational Testing of ECO-Approach 
Technology at a Fixed-Time Signalized Intersection,'' in 15th 
International IEEE Conference on Intelligent Transportation Systems 
(ITSC), Anchorage,2012.

    [3]  S. Blanco, `Audi traffic light recognition could save 240 
million gallons of fuel,'' 10 03 2014. [Online]. Available: http://
www.autoblog.com/2014/03/10/audi-traffic-light-recognition-could-save-
240-million-gallons-of/. [Accessed May 2015].

    [4]  Telematics News, 11 March 2014. [Online]. Available: Http://
telematicsnews.info/2014/03/11/audi-says-online-traffic-light-system-
could-save-15-of- emissions_m5112/. [Accessed May 2015].

    [5]  J. Gonder, M. Earleywine and W. Sparks, ``Analyzing Vehicle 
Fuel Saving Opportunities Through Intelligent Driver Feedback,'' in 
2012 SAE World Congress, Detroit, 2012.

    [6]  Federal Highway Administration, ``Traffic Volume Trends,'' 
December 2014. [Online]. Available: http://www.fhwa.dot.gov/
policyinformation/travel_monitoring/14dectvt/14dectvt.pdf. [Accessed 12 
June 2015].

    [7]  Institute of Transportation Engineers, ``Making Intersections 
Safer: A Toolbox of Engineering Countermeasures to Reduce Red-Light 
Running,'' Washington, 2003.

    [8]  C. Tan and K. Eccles, ``Safety-Based Deployment Assistance for 
Location of V2I Applications,'' in 41st International Forum on Traffic 
Records and Highway Information Systems, 2015.

    [9]  National Highway Safety Administration, ``Frequency of Target 
Crashes for IntelliDrive Safety Systems,'' 2010.

    [10]  D. Wilkie, ``Review of the Status of the Dedicated Short-
Range Communications Technologyand Applications [Draft] Report to 
Congress,'' Washington, DC, 2015.

    [11]  D. W. Etherington, A. Rousseau, V. Sokolov and C. Schmid, A 
Real World Evaluation of the Effects of Predictive Real-Time Traffic 
Signal Information, San Jose, CA: ITS America, 2016.

    [12]  D. W. Etherington, ``A Performance Analysis of Connected 
Signals' Implementation of Transit Signal Priority for the City of 
Arcadia,'' Eugene, OR, 2019.

    [13]  D. W. Etherington, ``Arcadia Signal Priority System: Final 
Report,'' Eugene, OR, 2019.

                                 <F-dash>
  Statement of International Bridge, Tunnel and Turnpike Association, 
         Submitted for the Record by Hon. Eleanor Holmes Norton
    On behalf of the International Bridge, Tunnel and Turnpike 
Association (IBTTA), we are pleased to submit this Statement for the 
Record to the House Transportation and Infrastructure Committee's 
Subcommittee on Highways and Transit (Subcommittee).
    IBTTA is the worldwide association for the owners and operators of 
toll facilities and the businesses that provide products and services 
to the industry. Our mission is to advance transportation solutions 
through tolling. Founded in 1932, IBTTA has more than 60 toll agency 
members in the United States and hundreds more in 20 countries on six 
continents.
    We commend you, Chairman Norton, Ranking Member Davis, and the 
subcommittee for working to develop a thoughtful successor to the FAST 
Act that considers ways to manage congestion and generate additional 
revenues to maintain and improve the nation's surface transportation 
infrastructure.
    While IBTTA supports increasing the fuel tax to pump additional 
revenue into the Highway Trust Fund, no level of increase will likely 
be enough to address the large and growing investment needs across 
transportation modes among all the states. Therefore, road operators 
should have access to as many funding tools as possible to manage their 
transportation assets. While tolling is not the solution to every 
transportation problem, it is a very powerful and effective tool now 
used to support more than 6,000 miles of the most heavily traveled 
highways in 34 states and Puerto Rico.
    Congress has been instrumental in the exploration of congestion 
management through pricing with the establishment of the Congestion 
Pilot Pricing Program in 1991. The program was renamed the Value 
Pricing Pilot Program in 1998 and it has allowed many states and local 
governments to research, explore and implement different ways in which 
road pricing could be introduced to meet transportation demands.
    Because the subject of this hearing is ``Pricing and Technology 
Strategies to Address Congestion on and Financing of America's Roads,'' 
we would like to make the Subcommittee aware of the current use of 
tolling systems along with other innovative methods and technologies 
that are now being used to reduce congestion and improve vehicle 
throughput in congested urban areas. Toll agencies have been intimately 
involved in developing and implementing many of these systems and 
innovations.
                           Congestion Pricing
    During the hearing, there were statements suggesting some confusion 
about the goals of congestion pricing and how it works. We will attempt 
to clear up some of the confusion.
    Congestion pricing is different from traditional tolling. The toll 
on a typical toll road like the New Jersey Turnpike is a fixed price 
and is used to retire the debt on that road and pay for the ongoing 
maintenance (pavement repair) and operation (snow removal, etc.) of the 
toll road.
    The I-66 Express Lane facility in Northern Virginia outside 
Washington, DC is one example of congestion pricing that was mentioned 
in the hearing. The I-66 Express Lanes are known as ``priced managed 
lanes.'' They are not typical toll lanes. These priced managed lanes 
were designed for the specific purpose of reducing congestion in the 
lanes to ensure that traffic flows smoothly at a minimum speed of 50 
mph or higher. In this case, the toll increases as congestion increases 
and falls as congestion falls. Increasing the toll discourages some 
motorists from entering the lane so that those who remain are able to 
drive under ``free flow'' conditions. When congestion in the priced 
lane dissipates, the toll decreases. This is called dynamic pricing. 
The $47 figure that is often cited is the peak charge that very few 
people pay. In fact, only .08 percent of express lane trips paid a toll 
higher than $40.
    Data from the Virginia Department of Transportation show that the 
average round-trip price on the I-66 Express Lanes for the month of 
January 2018 was $12.37, $8.07 eastbound and $4.30 westbound. Out of 
594,381 trips in January, only 461 trips were priced at $40 or more, or 
0.08 percent of all express lane trips.
    An important distinction to keep in mind is that HOV and bus 
traffic remains free or discounted on the I-66 Express Lanes, 
preserving an incentive for drivers to consider changing their travel 
mode by adding passengers and thereby increasing corridor throughput. 
Express lanes are charging for available space in otherwise exclusive 
HOV lanes and tolled traffic could be entirely excluded if HOV demand 
ever becomes high enough to make full use of that space. Very high toll 
rates suggest that at certain times such space is, in fact, scarce 
which should be viewed positively as an indicator of high HOV use. When 
HOV traffic volume is low and dedicated space is otherwise unused, 
allowing single occupancy vehicles (SOV's) to make use of that space 
for a fee (regulated to ensure consistent rate of travel) is an 
efficient use of space that would otherwise be unused. When the Express 
Lanes are functioning at high capacity, this also benefits the non-toll 
payers by reducing some of the traffic load in the general purpose 
lanes.
    The 91 Express Lane facility which opened in Orange County, 
California in December 1995 is another example of priced managed lanes. 
The Express Lane facility consists of two reversible lanes in the 
median of SR 91 which has two general purpose lanes in each direction, 
for a total of six lanes. The price to ride in the Express Lanes 
changes by time of day to ensure free-flow travel through the Express 
Lanes. The two Express Lanes represent 33% of the lane capacity in the 
corridor (2 lanes/6 lanes = 33%). However, because of the free-flow 
characteristics enabled by variable pricing, during the afternoon peak, 
the two Express Lanes handle more than 40% of throughput.
    The 91 Express Lane facility was the first Priced Managed Lane 
facility in the U.S. Because of their success, many other states have 
followed suit. Today, there are 51 priced managed lane facilities in 11 
states that operate 718 center line miles of roadway as noted in the 
following chart.
        Chart 1. Express Lanes by US State as of August 15, 2019
California

<bullet>  91 Express Lanes--Orange County

<bullet>  91 Express Lanes--Riverside County

<bullet>  I-10 Express Lanes

<bullet>  I-110 Express Lanes

<bullet>  I-15 Express Lanes

<bullet>  I-580 Express Lanes

<bullet>  I-680 Contra Costa Express Lanes

<bullet>  I-680 Sunol Express Lanes

<bullet>  Silicon Valley Express Lanes (I-880/237 Express Lanes)


Colorado

<bullet>  I-25 Express Lanes

<bullet>  I-70 Mountain Express Lanes

<bullet>  US 36 Express Lanes


Florida

<bullet>  I-595 Express

<bullet>  I-75/Palmetto Express Lanes

<bullet>  I-95 Express

<bullet>  Veterans Expressway (SR 589) Express Lanes

<bullet>  I-295 Express Lanes

<bullet>  Beachline Expressway (SR-528) Express Lanes


Georgia

<bullet>  I-75 South Metro Express Lanes

<bullet>  I-85 Express Lanes

  

Georgia (con't)

<bullet>  Northwest Corridor Express Lanes

<bullet>  I-85 Express Lanes Extension


North Carolina

<bullet>  I-77 Express


Maryland

<bullet>  John F. Kennedy Memorial Highway--Express Toll Lanes (ETL)


Minnesota

<bullet>  I-35E Express Lanes

<bullet>  I-35W Express Lanes

<bullet>  I-394 Express Lanes


Texas

<bullet>  635 East HOV/Express Lanes (TEXpress Lanes)

<bullet>  71 Toll Lane

<bullet>  DFW Connector (SH-114) TEXpress Lanes

<bullet>  I-10 West (Katy Managed Lanes) HOV/HOT Lane

<bullet>  I-30 TEXpress Lanes

<bullet>  I-35E TEXpress Lanes

<bullet>  IH 45 North (Gulf Freeway) HOV/HOT Lane

<bullet>  IH 45 South (Gulf Freeway) HOV/HOT Lane

<bullet>  LBJ Express TEXpress Lanes

<bullet>  MoPac Express Lanes

Texas (con't)

<bullet>  North Tarrant Express (NTE) I-35W TEXpress Lanes

<bullet>  North Tarrant Express (NTE) I-820/SH121/18 3 TEXpress Lanes

<bullet>  SH-114 TEXpress Lanes (Midtown Express)

<bullet>  US 290 (Northwest Freeway) HOV/HOT lane

<bullet>  US 59 (Eastex Freeway) HOV/HOT lane

<bullet>  US 59 (Southwest Freeway) HOV/HOT lane

<bullet>  SH 183 TEXpress Lanes (Midtown Express)

<bullet>  Loop 12 TEXpress Lanes (Midtown Express)


Utah

<bullet>  I-15 Express Lanes


Virginia

<bullet>  495 Express Lanes

<bullet>  64 Express Lanes

<bullet>  I-66 Express Lanes Inside the Beltway

<bullet>  I-95 Express Lanes


Washington

<bullet>  I-405 Express Toll Lanes

<bullet>  SR 167--HOT Lanes


                    Source: IBTTA TollMiner <SUP>TM

    </SUP>Express lanes offer numerous benefits including:
    <bullet>  Trip Time Reliability: The traffic metering function of 
variable pricing promotes predictable travel times.
    <bullet>  Travel-Time Savings: By managing traffic flow, express 
lanes allow higher speeds than congested general-purpose lanes.
    <bullet>  Enhanced Corridor Mobility: Improved trip-time 
reliability, higher speeds, travel-time savings, and possible transit 
improvements all lead to greater mobility at the corridor level.
    <bullet>  Environmental Advantages: Compared to general-purpose 
lanes, express lanes limit greenhouse gas emissions caused by stop-and-
go traffic.
    <bullet>  Travel Options: Express lanes provide Single Occupancy 
Vehicles (SOV) motorists with the option of paying for a congestion-
free, dependable, and faster trip.
    <bullet>  Efficient Use of Capacity: Express lanes provide an 
opportunity to improve the efficiency of HOV lanes by filling ``excess 
capacity'' that would not otherwise be used.

    There are many different tools that can be used to reduce 
congestion and improve mobility in congested urban areas. Priced 
Managed Lanes, which are enabled by electronic toll collection, are one 
of those tools.
    Several of the witnesses made statements about congestion and 
pricing with which we agree, and we would like to highlight them here:

        Given that traffic congestion is inherently a local phenomenon, 
        the federal government has a limited set of tools to address 
        it. Modernizing federal law to permit greater flexibility at 
        the state and local level to price road use is the best way to 
        address peak-hour traffic congestion that plagues many of 
        America's metropolitan areas.--Competitive Enterprise Institute

        AASHTO represents states with a range of viewpoints on tolling 
        and pricing, and as a result, the association supports 
        increased tolling flexibility to states to allow those states 
        that so choose to maximize revenue-raising opportunities in 
        light of federal funding challenges. Greater flexibility would 
        allow states to work with their communities to use tolling to 
        help improve their transportation systems. ODOT also supports 
        this increased flexibility.--Oregon DOT

        Almost every solution strategy works somewhere in some 
        situation. And almost every strategy is the wrong treatment in 
        some places and times. Just like the specific set of strategies 
        used to improve mobility is the result of a public engagement 
        and technical design process, the level of congestion deemed 
        unacceptable is a local decision.--Texas A&M Transportation 
        Institute
                  Innovations in the Tolling Industry
    The core issue associated with urban traffic congestion is the 
difficulty of expanding facilities and capacity to accommodate current 
or future travel demand. Even with adequate funding the acquisition of 
additional right of way ranges from extremely difficult to impossible, 
forcing any road operator to consider ways to make the most efficient 
use of already existing access.
    As already discussed, managed lanes are one response, including 
High Occupancy Vehicle (HOV) lanes. Ramp metering using traffic lights 
to allow vehicles access at limited rates to preserve the rate of 
travel on a main roadway is another response. Coupling these methods 
with pricing has been successful in boosting the effectiveness of 
traffic management.
    The tolling industry continues to lead the way in transportation 
innovations both in the implementation of transportation programs and 
in the use of technology. IBTTA members are involved in several 
programs that encourage greater transit use as well as higher density 
(and higher speed) commutes in congested areas.
    Examples include:
    The Reversible Express Lanes (REL), operated by the Tampa 
Hillsborough Expressway Authority in Florida, was a first-of-its-kind 
facility combining the innovations of concrete segmental bridges, 
reversible express lanes, and all electronic tolling. As in many urban 
areas, purchasing the additional land needed in this corridor to 
accomplish a typical highway widening was neither physically nor 
financially feasible. To minimize the footprint of the expressway, most 
of the project was constructed as a concrete segmental bridge using 
only 6 feet of space within the existing median. The REL provides 
quality service with an aesthetically pleasing structure and reduced 
impacts to the community and the environment.
    The REL provides a direct connection between Brandon and downtown 
Tampa, allowing for express travel of people in cars and buses. It is 
an innovative project that has won approximately two dozen awards by 
local, state, national and international organizations.
    Coordination with transit services. In 2014, the state of Georgia 
embarked upon a strategic integration of two of its major 
transportation agencies--the State Road and Tollway Authority (SRTA) 
and the Georgia Regional Transportation Authority (GRTA). By 
integrating organizations responsible for financing road construction 
projects and operating toll facilities (SRTA) and administering a 
regional network of express commuter buses (GRTA), the state aimed to 
more efficiently address the state's transportation issues by 
identifying opportunities for shared infrastructure, operations and 
costs. Since this integration, the combined agencies have successfully 
applied innovative approaches to achieve their common goal of improving 
regional mobility in Metro Atlanta.
    As a newly consolidated transportation agency, both entities 
benefited from efficiencies in shared operational and organizational 
resources. This included the formation of a single, unified customer 
service operation. Additionally, seeking to take advantage of the 
shared infrastructure, SRTA introduced the Commuter Credits Program to 
help commuters think about their transportation options in a more 
integrated way. The stated goals of the program were to:
    1.  Promote alternate transportation modes for Peach Pass users 
traveling Georgia's Express Lanes (Peach Pass is the electronic tolling 
program in Georgia);
    2.  Provide an incentive for Peach Pass users to change their 
driving behavior and shift some SOV usage away from peak periods;
    3.  Increase usage of express commuter transit service in the I-85 
corridor;
    4.  Offer options that offset the costs of increasing tolls due to 
increasing demand; and
    5.  Reinforce the ``4Ts Strategies'' of congestion reduction:
      <bullet>  Transit
      <bullet>  Teleworking
      <bullet>  Tolling
      <bullet>  Technology

    The Commuter Credits program focuses on providing alternatives to 
travelling solo during the peak periods on Atlanta's congested I-85 
corridor. The program has three components:
    <bullet>  Shift Commute--The goal of this program was to reduce 
southbound congestion on I-85 during the morning peak period (7 am to 8 
am). The program was by invitation only, to Peach Pass customers who 
commute four to five times per week during this period. These customers 
were offered $3 per week if they reduced their peak period commutes to 
three times or less in the Express Lanes (for a total of up to $50 over 
six months).
    <bullet>  Start a Carpool--The goal of this program was to attract 
carpools to the Express Lanes. The program was open to carpools with at 
least one Peach Pass customer and offered multiple incentives including 
$3 per day toll credits (up to $100) and monthly drawings for $25 in 
toll credits.
    <bullet>  Ride Transit--The goal of this program was to shift auto 
trips during the peak periods to Xpress bus trips. The program awarded 
toll lane credits to people who used GRTA Xpress routes instead of 
utilizing their Peach Pass toll accounts during commute periods. 
Individuals who rode Xpress buses along the I-85 Express Lanes were 
eligible for a monthly toll credit of $2 per trip for up to five trips 
per month equaling a total of up to $60 over six months.
                               Conclusion
    There are many other instances of toll agencies across the nation 
stepping up to address congestion and transportation investment needs. 
There is no single ``answer'' or ``one size fits all'' approach that 
works in all places across the country.
    As we look to the future of a growing population, changing mobility 
patterns, and technological advances, it is important that states and 
local governments responsible for meeting transportation demands have 
maximum flexibility to address their challenges.
    Thank you for the opportunity to submit written testimony for the 
record. Pricing and technology strategies to address congestion are 
complex topics that cannot be easily described or understood in a 
single public hearing. At IBTTA, we want to continue to be a resource 
to you and, therefore, look forward to working with members of the 
Subcommittee and the Transportation and Infrastructure Committee as you 
continue to work on the reauthorization of the FAST Act.

                                 <F-dash>
 Letter of September 11, 2019, from Michael W. Johnson, President and 
  CEO, National Stone, Sand and Gravel Association, Submitted for the 
                       Record by Hon. Sam Graves
                                                September 11, 2019.
Hon. Eleanor Holmes Norton
Chairman
House Transportation & Infrastructure Subcommittee on Highways and 
        Transit, 2136 Rayburn House Office Building, Washington, DC 
        20515
Hon. Rodney Davis
Ranking Member
House Transportation & Infrastructure Subcommittee on Highways and 
        Transit, 1740 Longworth House Office Building, Washington, DC 
        20515

    Dear Chairman Holmes Norton and Ranking Member Davis:
    The National Stone, Sand & Gravel Association (NSSGA) welcome the 
Transportation & Infrastructure's Highway and Transit Subcommittee's 
September 11 hearing titled, ``Pricing and Technology Strategies to 
Address Congestion on and Financing of America's Roads.'' Congestion is 
a national problem that impacts commuters and drivers in and around 
virtually every urban center and stretch of federal interstate, 
directly impacting our nation's daily production and economic well-
being.
    NSSGA is the leading advocate and resource for the aggregates 
industry, who provide the critical raw materials found in virtually 
every surface transportation project; roads, highways, bridges, 
runways, pipelines and much more. Our membership represents more than 
90 percent of the crushed stone and 70 percent of the sand and gravel 
produced annually in the United States.
    NSSGA supports the committee's willingness to work with 
stakeholders to identify needs and emerging technologies that may 
ultimately help reduce congestion. However, NSSGA also supports 
traditional road and highway lane-widening, which may be utilized for 
high-occupancy vehicle (HOV) users; trucks and heavy vehicle traffic; 
or facilitate dynamic commuting that can alleviate traffic depending on 
that day's needs. Lane-widening has been a successful tool on I-95 in 
Virginia, south of the metro Washington DC corridor between 
Fredericksburg, Virginia and Arlington. Widening I-95 has allowed for 
new HOV and toll lanes, as well as creating additional lanes that may 
be used for either north-bound or south-bound traffic, depending on the 
time of day. Though NSSGA supports all available tools to provide a 
more efficient and safer commute for road and highway users, we ask the 
committee continue to recognize traditional methods, like lane-widening 
and extensions, which are proven solutions across the country.
    I appreciate your committee's leadership on efforts to enhance the 
commuter experience for drivers in every Congressional district, and I 
thank you for your work on this hearing. As you continue to examine 
congestion, infrastructure funding and other matters relevant to the 
aggregates industry, please consider NSSGA as a resource. Thank you 
again for your time and interest on this critical issue.
        Sincerely,
                                         Michael W. Johnson
     President and CEO, National Stone, Sand and Gravel Association

cc: Members of the House Transportation & Infrastructure Committee

                                 <F-dash>
  Letter of September 10, 2019, from Todd Spencer, President and CEO, 
Owner-Operator Independent Drivers Association, Inc., Submitted for the 
                       Record by Hon. Sam Graves
                                                September 10, 2019.
Hon. Peter DeFazio
Chairman
Committee on Transportation and Infrastructure
Hon. Sam Graves
Ranking Member
Committee on Transportation and Infrastructure
Hon. Eleanor Holmes Norton
Chairwoman
Subcommittee on Highways and Transit
Hon. Rodney Davis
Ranking Member
Subcommittee on Highways and Transit

RE: Subcommittee on Highways and Transit Hearing: ``Pricing and 
Technology Strategies to Address Congestion on and Financing of 
America's Roads''

    Dear Chairman DeFazio, Chairwoman Norton and Ranking Members Graves 
and Davis:
    The Owner-Operator Independent Drivers Association (OOIDA) 
represents over 160,000 small-business truckers and professional 
drivers. Because truckers make their living on the road, OOIDA members 
rely on Congress to ensure our highways receive the federal investment 
necessary to keep them efficient and safe for all users.
    We greatly appreciate your efforts to craft a robust surface 
transportation reauthorization bill that meets these needs, and 
understand one of your greatest challenges will be developing policies 
that generate reliable and sustainable revenue for the Highway Trust 
Fund (HTF). We also commend your commitment to address the growing 
problem of congestion, which studies reveal is disproportionately more 
costly to truckers than other highway users. However, we have serious 
concerns about proposals to introduce congestion pricing in communities 
across the country.
    Small-business truckers have long favored traditional user fees as 
a means of funding infrastructure development and support reasonable 
increases to the federal gasoline and diesel fuel taxes. These user 
fees are the most equitable and efficient means for addressing our 
nation's highway funding needs and should remain the primary source of 
revenue for the HTF under the next surface transportation 
reauthorization. Nevertheless, we understand that a lack of political 
support for increasing revenue through these traditional means has 
forced Congress to explore new funding mechanisms, including congestion 
pricing.
    Our greatest concern with congestion pricing is the resulting 
introduction of tolling on vital segments of the Interstate system. 
OOIDA has consistently opposed any federal expansion of tolling 
policies, including Section 1404 of S. 2302, which would allow up to 10 
urbanized areas to utilize tolling as a part of their congestion 
reduction strategies. Research has shown that tolling of any variety is 
an extremely wasteful method of funding compared to fuel taxes. 
Additionally, tolled roads consistently fail to meet revenue 
projections, creating unanticipated funding shortfalls and inevitable 
rate increases. Furthermore, congestion pricing would simply impose yet 
another fee on truckers, who already pay more than their fair share for 
infrastructure investment through federal and state fuel taxes, 
International Registration Plan taxes, federal excise taxes on new 
trucks, trailers, and tires, existing toll road taxes and numerous 
other state and local levies.
    Because they often have very little control over their schedules, 
congestion pricing is particularly problematic for owner-operators and 
independent drivers. Due to the unnecessary rigidity of current hours-
of-service requirements, truckers routinely have no other choice than 
to drive through metropolitan areas during periods of high congestion. 
Shippers and receivers also have little regard for a driver's schedule, 
frequently requiring loading and unloading to occur at times when 
nearby roads are most congested. Additionally, unlike other highway 
users, truckers often lack the ability to choose alternate routes to 
avoid congestion due to size and weight restrictions, heavy vehicle 
prohibitions and other limitations on ancillary roads.
    Again, we appreciate your efforts to provide ample funding for 
infrastructure investment and advance policies that will reduce the 
growing problem of congestion. However, we remain skeptical that 
congestion pricing will achieve these goals without negatively 
impacting our members. We encourage you to instead pursue funding 
solutions that are more efficient and fair to all highway users.
        Thank you,
                                               Todd Spencer
  President & CEO, Owner-Operator Independent Drivers Association, 
                                                               Inc.

                                 <F-dash>
 Letter of February 27, 2019, from J. Bruce Bugg, Jr., Chairman, Texas 
Transportation Commission, Submitted for the Record by Hon. Brian Babin
                                                 February 27, 2019.
Hon. John Cornyn
United States Senate, Washington, DC 20510

    Dear Senator Cornyn,
    As Texans, we share a natural bond in trying to find a solution to 
a long-standing problem with federal transportation funding: the 
inequity that Texas continues to endure by receiving less than its fair 
share of federal transportation dollars. According to the Federal 
Highway Administration, in FY 2019, Texas is the only ``donor'' state, 
receiving only 95 cents back for every dollar it sent to Washington in 
federal fuel taxes. Other states received far more than their fuel tax 
contributions. For example, Alaska received $6.78, New York received 
$1.33, and California received $1.16 per dollar paid into the Highway 
Trust Fund. This inequity amounted to a loss of almost $200 million in 
federal motor fuel taxes paid by Texas motorists in FY 2019 and forces 
Texas taxpayers to subsidize the infrastructure of other states. 
Furthermore, in FY19 Texas was the only state not to receive the 
benefit of any part of the $6.6 billion in general fund revenue 
transferred to the Highway Trust Fund.
    As Texas experiences historic economic growth and population 
growth, we collectively face great challenges in providing a safe and 
efficient transportation system for the citizens we serve. Our vibrant 
economy is attracting top companies and some of the greatest talent in 
the nation. As a result, Texas must continue to expand its 
transportation infrastructure.
    Because of the work of Governor Greg Abbott with the State 
Legislature and the will of the voters, Texas has developed long-term 
transportation funding sources from the State of Texas that dedicated 
an additional $7 billion in state transportation funding in the last 
four years.
    Although this represents a giant stride towards addressing Texas' 
infrastructure needs, Texas continues to be shortchanged in the 
distribution of federal transportation dollars due to the structural 
inequality in formulas used for distributing federal aid apportionments 
and allocations to states out of the Highway Trust Fund account.
    This imbalance weakens our ability to develop and build local 
projects, address traffic congestion, move freight efficiently across 
our state, and maintain the infrastructure our citizens deserve. While 
our congressional delegation has worked to protect our state's dollars 
and improve Texas' ``rate of return'' for many years, the days of Texas 
taxpayers funding projects in other states must come to an end. We owe 
it to our taxpayers to begin a long-term focus to ensure that Texas 
taxpayers' dollars return to our state to build and maintain the Texas 
transportation system.
    As Congress continues discussions on new infrastructure 
legislation, I hope that a fair, equitable, and logical approach to 
federal transportation funding is considered. I am including with this 
letter a white paper prepared by the Texas Department of Transportation 
(TxDOT) that will provide more detail on the impact of federal rate of 
return on our state.
    Thank you for your consideration of this important issue and for 
your continued service on behalf of our nation and our state.
        Sincerely,
                                         J. Bruce Bugg, Jr.
                          Chairman, Texas Transportation Commission

cc: Governor Greg Abbott
Lieutenant Governor Dan Patrick
Speaker Dennis Sonnen, Texas House of Representatives Texas 
Transportation Commission
James M. Bass, Executive Director
Marc Williams, Deputy Executive Director
Andrea Lofye, Federal Affairs Director
                               __________
                               attachment
                 FEDERAL RATE OF RETURN--FY 2019 UPDATE
          Texas Department of Transportation--Federal Affairs
        texas highway trust fund highway account rate of return
    Texas has historically been, and continues to be, the biggest donor 
to other states when it comes to federal highway funding. Texas 
contributes more than any state and gets back proportionately less than 
every state. Even in an era where Congress is supplementing the federal 
Highway Trust Fund Highway Account (HTF) with general fund revenue, in 
FY 2019 Texas is the only state that fails to at least receive a full 
return of motor fuel tax dollars that are sent to Washington.
    Why does this happen? Funding formulas for the federal-aid highway 
program were historically based on performance and equity related 
metrics and data that were updated on a yearly basis. Those metrics 
included:
    <bullet>  Total lane miles per state.
    <bullet>  Vehicle miles travelled on federal-aid highways.
    <bullet>  Number of fatalities on federal-aid highways.
    <bullet>  A state's contribution to the HTF and population data.

    However, since the passage of the Moving Ahead for Progress Act 
(MAP-21), changes were put into place and continued under the current 
authorization legislation, the Fixing America's Surface Transportation 
Act (FAST Act) that ceased annual updates to the inputs for funding 
formula metrics. Per the current FAST Act, the base calculation for a 
state's apportionment is ``the share for each State, which shall be 
equal to the proportion that--(I) the amount of apportionments that the 
State received for FY 2015.'' While the year is set at 2015, funding is 
tied to the amount states received in 2009, the last year the Federal 
Highway Administration (FHWA) used formulas set out in the Safe, 
Accountable, Flexible, and Efficient Transportation Equity Act: A 
Legacy for Users (SAFETEA-LU) Act. In addition to the base amount being 
set from 2015 funding amounts, the Metropolitan Planning and CMAQ set-
asides are determined by multiplying the amount of the base 
apportionment remaining for the State by the proportion that was 
apportioned to the State for FY 2009.\1\
---------------------------------------------------------------------------
    \1\ 23 U.S. Code Sec.  104
---------------------------------------------------------------------------
    Additionally, SAFETEA-LU contained $4.4 billion in ``above the 
line'' earmarked funds for some states and these earmarks are used to 
compute the share each state continues to receive. Instead of the 
earmarks being given to states one time under SAFETEA-LU, the 
proportional share of federal highway funding that each state has 
received each year since 2009 is adjusted up to reflect the impact of 
these old earmarks.
    Starting in 2008, Congress authorized transfers of general fund 
revenue to the HTF to allow the HTF to remain solvent. With the passage 
of the FAST Act, Congress authorized a transfer of $52 billion in FY 
2016 to allow the fund to remain solvent through the life of the 
legislation.
    To summarize, the current formula distribution of over $42 billion 
dollars in annual transportation funding apportionments to states are 
derived from formula data that was frozen in 2009 and continues to 
reflect additional funding levels that states received from 
congressional earmarks in 2009 as well.
    How does this impact Texas in FY 2019?
    <bullet>  Texas Will Give: $3.99B of fuel taxes + a proportional 
amount of the general fund taxes transferred to the HTF.
    <bullet>  Texas Will Receive Back: $3.79B in HTF fuel tax revenue + 
$0 in general fund revenue.
    <bullet>  FHWA will use over $6.6 billion of general fund revenue 
to support the HTF apportionments. Texas will effectively receive none 
of these funds.
    <bullet>  Our proportional rate of return is just slightly over 
80%. This is the lowest of every state.

    Unless Congress elects to use current data inputs when calculating 
highway formula funding and discontinues the payouts for old earmarks 
that have existed since 2009, the issue and impact on Texas will be 
further compounded. As Congress considers transportation funding 
measures in 2019, including looking toward reauthorization of the 
Federal Highway Program that will expire in 2020, Texans can help 
inform our Congressional members understand the impact this has to our 
state's transportation system.
    Below are a set of tables for FY 2019 that show the impact of rate 
of return (ROR) on states.Table one shows the ROR for HTF payments and 
ignores how the ROR would potentially be impacted if proportional 
general fund transfers were also accounted for. As a result, all states 
but Texas see a positive ROR over their HTF payments thanks to 
receiving a portion of general fund transfers.
    Table two attempts to account for the impact of general fund 
transfers by comparing the percentage of total payments into the HTF 
versus percentage of total apportionments received. Under this 
comparison half the states receive a ROR greater than 1.0 and half the 
states receive a ROR less than 1.0.

                                        Table One: FY 2019 Rate of Return
                                            Dollar In vs. Dollar Out
----------------------------------------------------------------------------------------------------------------
                                                                          Difference Between
                         Most Recent Available       Total FY 2019        Dollars Contributed    Rate of Return
         State               HTF Deposits            Apportionment            and Dollars          For FY 2019
                                                                              Apportioned
----------------------------------------------------------------------------------------------------------------
               Texas          $3,989,970,000          $3,790,153,846          ($199,816,154)               95%
            Colorado            $570,991,000            $577,491,739              $6,500,739              101%
      North Carolina          $1,100,108,000          $1,126,340,465             $26,232,465              102%
      South Carolina            $695,633,000            $723,164,614             $27,531,614              104%
         Mississippi            $499,956,000            $522,315,485             $22,359,485              104%
           Minnesota            $668,259,000            $704,218,954             $35,959,954              105%
                Iowa            $497,525,000            $530,753,979             $33,228,979              107%
            Nebraska            $292,462,000            $312,152,604             $19,690,604              107%
           Tennessee            $850,633,000            $912,597,876             $61,964,876              107%
            Maryland            $604,381,000            $648,985,389             $44,604,389              107%
                Utah            $348,461,000            $375,004,692             $26,543,692              108%
            Michigan          $1,049,060,000          $1,137,059,218             $87,999,218              108%
             Florida          $1,883,588,000          $2,046,152,544            $162,564,544              109%
             Arizona            $721,748,000            $790,164,053             $68,416,053              109%
                Ohio          $1,315,911,000          $1,447,595,770            $131,684,770              110%
          Washington            $663,434,000            $732,116,601             $68,682,601              110%
             Alabama            $739,213,000            $819,342,189             $80,129,189              111%
       Massachusetts            $590,892,000            $655,906,449             $65,014,449              111%
              Kansas            $364,714,000            $408,111,707             $43,397,707              112%
             Indiana            $916,449,000          $1,029,037,366            $112,588,366              112%
            Virginia            $978,663,000          $1,098,983,043            $120,320,043              112%
          New Jersey            $957,343,000          $1,078,291,390            $120,948,390              113%
               Maine            $175,987,000            $199,353,478             $23,366,478              113%
            Oklahoma            $590,928,000            $684,920,955             $93,992,955              116%
          California          $3,419,670,000          $3,963,775,130            $544,105,130              116%
             Georgia          $1,184,158,000          $1,394,443,871            $210,285,871              118%
            Kentucky            $604,845,000            $717,553,931            $112,708,931              119%
            Illinois          $1,276,932,000          $1,535,424,089            $258,492,089              120%
            Missouri            $843,508,000          $1,022,378,386            $178,870,386              121%
          New Mexico            $325,342,000            $396,589,381             $71,247,381              122%
           Wisconsin            $660,769,000            $812,589,995            $151,820,995              123%
              Oregon            $430,645,000            $539,793,595            $109,148,595              125%
            Arkansas            $440,851,000            $559,139,513            $118,288,513              127%
       New Hampshire            $140,511,000            $178,434,523             $37,923,523              127%
           Louisiana            $576,705,000            $757,969,743            $181,264,743              131%
            New York          $1,363,793,000          $1,812,763,333            $448,970,333              133%
              Nevada            $290,529,000            $392,152,854            $101,623,854              135%
        Pennsylvania          $1,262,665,000          $1,771,930,508            $509,265,508              140%
               Idaho            $216,744,000            $308,890,799             $92,146,799              143%
        North Dakota            $160,846,000            $268,117,851            $107,271,851              167%
             Wyoming            $165,755,000            $276,667,268            $110,912,268              167%
         Connecticut            $324,764,000            $542,422,487            $217,658,487              167%
            Delaware             $99,078,000            $182,684,447             $83,606,447              184%
        South Dakota            $149,432,000            $304,560,005            $155,128,005              204%
              Hawaii             $88,684,000            $182,657,719             $93,973,719              206%
       West Virginia            $221,135,000            $471,957,562            $250,822,562              213%
             Montana            $166,929,000            $443,100,699            $276,171,699              265%
             Vermont             $71,476,000            $219,182,269            $147,706,269              307%
        Rhode Island             $76,353,000            $236,184,138            $159,831,138              309%
              Alaska             $79,923,000            $541,507,940            $461,584,940              678%
       Dist. of Col.             $25,160,000            $172,317,254            $147,157,254              685%
               Total         $35,733,511,000         $42,355,403,696
----------------------------------------------------------------------------------------------------------------


                                        Table Two: FY 2019 Rate of Return
                                        Percentage In vs. Percentage Out
----------------------------------------------------------------------------------------------------------------
                                                                                         Difference
                                                                                           Between
                         Most Recent       Percent of     Total FY 2019     Percent of     Percent      Rate of
       State            Available HTF        Total        Apportionment        Total     Contributed  Return For
                           Deposits         Deposits                          Funding    and Percent    FY 2019
                                                                                         Apportioned
----------------------------------------------------------------------------------------------------------------
             Texas       $3,989,970,000       11.17%       $3,790,153,846        8.95%       -2.22%       80.14%
          Colorado         $570,991,000        1.60%         $577,491,739        1.36%       -0.23%       85.33%
    North Carolina       $1,100,108,000        3.08%       $1,126,340,465        2.66%       -0.42%       86.38%
    South Carolina         $695,633,000        1.95%         $723,164,614        1.71%       -0.24%       87.70%
       Mississippi         $499,956,000        1.40%         $522,315,485        1.23%       -0.17%       88.14%
         Minnesota         $668,259,000        1.87%         $704,218,954        1.66%       -0.21%       88.91%
              Iowa         $497,525,000        1.39%         $530,753,979        1.25%       -0.14%       90.00%
          Nebraska         $292,462,000        0.82%         $312,152,604        0.74%       -0.08%       90.05%
         Tennessee         $850,633,000        2.38%         $912,597,876        2.15%       -0.23%       90.51%
          Maryland         $604,381,000        1.69%         $648,985,389        1.53%       -0.16%       90.59%
              Utah         $348,461,000        0.98%         $375,004,692        0.89%       -0.09%       90.79%
          Michigan       $1,049,060,000        2.94%       $1,137,059,218        2.68%       -0.25%       91.44%
           Florida       $1,883,588,000        5.27%       $2,046,152,544        4.83%       -0.44%       91.65%
           Arizona         $721,748,000        2.02%         $790,164,053        1.87%       -0.15%       92.36%
              Ohio       $1,315,911,000        3.68%       $1,447,595,770        3.42%       -0.26%       92.81%
        Washington         $663,434,000        1.86%         $732,116,601        1.73%       -0.13%       93.10%
           Alabama         $739,213,000        2.07%         $819,342,189        1.93%       -0.13%       93.51%
     Massachusetts         $590,892,000        1.65%         $655,906,449        1.55%       -0.11%       93.65%
            Kansas         $364,714,000        1.02%         $408,111,707        0.96%       -0.06%       94.40%
           Indiana         $916,449,000        2.56%       $1,029,037,366        2.43%       -0.14%       94.73%
          Virginia         $978,663,000        2.74%       $1,098,983,043        2.59%       -0.14%       94.74%
        New Jersey         $957,343,000        2.68%       $1,078,291,390        2.55%       -0.13%       95.02%
             Maine         $175,987,000        0.49%         $199,353,478        0.47%       -0.02%       95.57%
          Oklahoma         $590,928,000        1.65%         $684,920,955        1.62%       -0.04%       97.79%
        California       $3,419,670,000        9.57%       $3,963,775,130        9.36%       -0.21%       97.79%
           Georgia       $1,184,158,000        3.31%       $1,394,443,871        3.29%       -0.02%       99.35%
          Kentucky         $604,845,000        1.69%         $717,553,931        1.69%        0.00%      100.09%
          Illinois       $1,276,932,000        3.57%       $1,535,424,089        3.63%        0.05%      101.44%
          Missouri         $843,508,000        2.36%       $1,022,378,386        2.41%        0.05%      102.26%
        New Mexico         $325,342,000        0.91%         $396,589,381        0.94%        0.03%      102.84%
         Wisconsin         $660,769,000        1.85%         $812,589,995        1.92%        0.07%      103.75%
            Oregon         $430,645,000        1.21%         $539,793,595        1.27%        0.07%      105.75%
          Arkansas         $440,851,000        1.23%         $559,139,513        1.32%        0.09%      107.00%
     New Hampshire         $140,511,000        0.39%         $178,434,523        0.42%        0.03%      107.14%
         Louisiana         $576,705,000        1.61%         $757,969,743        1.79%        0.18%      110.88%
          New York       $1,363,793,000        3.82%       $1,812,763,333        4.28%        0.46%      112.14%
            Nevada         $290,529,000        0.81%         $392,152,854        0.93%        0.11%      113.88%
      Pennsylvania       $1,262,665,000        3.53%       $1,771,930,508        4.18%        0.65%      118.39%
             Idaho         $216,744,000        0.61%         $308,890,799        0.73%        0.12%      120.23%
      North Dakota         $160,846,000        0.45%         $268,117,851        0.63%        0.18%      140.63%
           Wyoming         $165,755,000        0.46%         $276,667,268        0.65%        0.19%      140.82%
       Connecticut         $324,764,000        0.91%         $542,422,487        1.28%        0.37%      140.91%
          Delaware          $99,078,000        0.28%         $182,684,447        0.43%        0.15%      155.56%
      South Dakota         $149,432,000        0.42%         $304,560,005        0.72%        0.30%      171.95%
            Hawaii          $88,684,000        0.25%         $182,657,719        0.43%        0.18%      173.76%
     West Virginia         $221,135,000        0.62%         $471,957,562        1.11%        0.50%      180.06%
           Montana         $166,929,000        0.47%         $443,100,699        1.05%        0.58%      223.94%
           Vermont          $71,476,000        0.20%         $219,182,269        0.52%        0.32%      258.71%
      Rhode Island          $76,353,000        0.21%         $236,184,138        0.56%        0.34%      260.97%
            Alaska          $79,923,000        0.22%         $541,507,940        1.28%        1.05%      571.61%
     Dist. of Col.          $25,160,000        0.07%         $172,317,254        0.41%        0.34%      577.81%
             Total      $35,733,511,000                   $42,355,403,696
----------------------------------------------------------------------------------------------------------------




                                Appendix

                              ----------                              


 Question from Hon. Troy Balderson to Hon. Oliver Gilbert III, Mayor, 
City of Miami Gardens, and Chairman, Miami-Dade Transportation Planning 
                              Organization

    Question 1. I want to discuss the need for innovative solutions to 
reduce congestion relief. This past August, I had the opportunity to 
ride on Columbus Ohio's CMAX rapid bus line. The CMAX offers service on 
one of the city's busiest bus lines. CMAX provides dedicated lanes 
during rush hours and has a transit signal priority system to help 
decrease wait times at traffic lights. These new technologies cut 
transit times for Buckeyes trying to get home during rush-hour.
    What kind of new and innovative approaches are you currently 
working on to reduce congestion and traffic in urban areas?
    Answer. Thank you again for the opportunity to testify before the 
House Subcommittee on Highways and Transit on September 11, 2019. Your 
Subcommittee's attention to this important matter of congestion relief 
is very much appreciated. The Miami-Dade Transportation Planning 
Organization (TPO) has established that expanding mobility options, 
including the Strategic Miami Area Rapid Transit (SMART) Plan, is our 
highest priority. As a result, several innovative projects have been 
implemented in Miami-Dade County to relieve our congested roadways as 
follows:
    <bullet>  Implementation of regionally comprehensive SMART Plan 
Demonstration projects, including on-demand and fixed-route services 
with emphasis on first/last mile connectivity to increase access to 
transit, as well as transit-gap focus areas. Since 2018, the TPO has 
worked to fund over thirty new pilot projects with local and state 
funds that will provide us with critical ridership data, as well as 
proof of concept on various strategies for new stations/hubs that have 
been deployed.
    <bullet>  Implementation of bus lanes in the downtown core in order 
to provide greater improved travel time, schedule reliability, and 
other operational benefits with low cost improvements. Other related 
improvements include additional canopy and improved crosswalks to 
encourage more biking, walking, and transit use.
    <bullet>  Miami-Dade County has implemented various technological 
improvements to enhance the transit rider experience such as the use of 
contactless payment that allows the rider to tap-on/tap-off on the 
Metrorail system without going through a kiosk to buy a ticket, mobile 
apps allowing for real-time arrival information, and carsharing options 
for riders traveling to the same station to continue on to the 
Metrorail system. In addition, an electronic transit rider alert system 
has been initiated that notifies passengers about transit service 
delays, detours, route changes, and updates on routes, as well as 
service interruptions for Metrorail, Metromover, and Metrobus.
    <bullet>  As part of the SMART Plan, a Bus Express Rapid Transit 
(BERT) network has been approved, which will utilize the existing and 
future express/managed network along major highways in Miami-Dade 
County. This BERT system represents an unprecedented system of its kind 
and builds upon the success of the 1-95 Express routes, which were 
initiated through the Federal Urban Partnership Pilot Program a decade 
ago.

  Questions from Hon. Salud O. Carbajal to Travis Brouwer, Assistant 
    Director for Public Affairs, Oregon Department of Transportation

    Question 1. Mr. Brouwer, thank you for coming before our 
subcommittee to discuss some of the strategies Oregon has taken to 
address congestion and ways to finance improvements to our aging 
infrastructure. In your testimony you go into great detail regarding 
Oregon's experience with toll roads. You also mention the importance of 
having a strategy to mitigate the possible impacts to low-income 
communities.
    Would you be able to elaborate further on that issue?
    Answer. The potential for negative impacts on low income 
communities is a frequent concern Oregonians express when they talk 
about congestion pricing. It is a concern and priority shared by the 
Oregon Department of Transportation (ODOT) and the Oregon 
Transportation Commission. At the beginning of our feasibility analysis 
in 2017, the Commission was clear in its direction that ODOT identify 
strategies to address such impacts, and that we engage community 
members and representatives to inform our work.
    To that end, ODOT has been studying recent research conducted by 
the National Academy of Sciences regarding the relationship between 
transportation pricing and equity.\1\ This has informed ODOT's desire 
to prepare a strategy for mitigating impacts and improving outcomes for 
low income individuals.
---------------------------------------------------------------------------
    \1\ National Academies of Sciences, Engineering, and Medicine. 
2018. Assessing the Environmental Justice Effects of Toll 
Implementation or Rate Changes: Guidebook and Toolbox. Washington, DC: 
The National Academies Press. http://www.trb.org/Publications/Blurbs/
177062.aspx
---------------------------------------------------------------------------
                         the concern for equity
    ODOT has explored the use of congestion pricing because of its 
potential to improve system performance, reduce travel times, and 
improve travel reliability on Oregon's transportation system as well as 
provide revenue. Congestion pricing requires system users pay an out-
of-pocket cost. Depending on a traveler's income and value-of-time (as 
well as other demographic characteristics), these costs may be 
prohibitive, meaning low income drivers may be less likely to use the 
priced infrastructure and benefit from improved travel to work, home, 
and recreational activities. Agencies implementing tolling systems 
assess potential impacts and strategies to reduce negative impacts to 
promote usage of the facility.
                     mitigating concerns for equity
    ODOT will examine congestion pricing, along with transportation 
investments, and equity-oriented policies to determine benefits and 
costs to user groups. The national research indicates that the most 
common equity-oriented policies relate to access for unbanked and low 
income populations, either differential toll rates or the use of 
revenue for targeted investments.
    <bullet>  Differential Toll Rates. Agencies may offer incentives to 
make tolling more affordable to low income travelers such as toll 
credits for transit usage, which allow travelers to use transit and 
accrue credits that can be used for toll road usage when needed. 
Agencies may also consider direct supplements to toll accounts or 
discounting transponder purchase costs. Finally, many agencies look to 
remove barriers to access, such as cash payment options for unbanked 
communities.
    <bullet>  Use of Revenue. A key component of equity policies is how 
revenues are used for broad transportation investments. ODOT heard from 
the stakeholders that improved transit is essential to the success of 
congestion pricing. Additionally, most pricing projects have included 
increased public transportation, carpool/vanpool, and/or active 
transportation facilities and services in their equity programs. Oregon 
has a constitutional restriction prohibiting highway funds to be used 
for transit operations, but other states that have directed this type 
of investment (such as used extensively in Southern California) do not 
have this restriction or were funded by previous federal programs.
                          oregon's next steps
    ODOT is still developing its overall congestion pricing and tolling 
strategies, policies, and approach. Our feasibility analysis was 
completed in 2018, which identified two freeway locations for potential 
tolling and identified issues to mitigate including traffic diversion, 
transit service, and equity. We are now preparing to conduct refined 
analysis and project development, which will include extensive public 
involvement and specific attention to enhancing equity through the 
congestion pricing program, including complementary investments in 
infrastructure and policies.
    We intend to use the equity framework developed by TransForm in 
their 2019 report ``Pricing Roads, Advancing Equity'' to help inform 
our work going forward.\2\ Next week TransForm will offer equity 
training to the ODOT congestion pricing team, including both ODOT staff 
and consultants.
---------------------------------------------------------------------------
    \2\ Transform. 2019. Pricing Roads, Advancing Equity. http://
www.transformca.org/transform-report/pricing-roads-advancing-equity

    Question 2. Based on your experience, what are some of the lessons 
learned that we should keep in mind when discussing potential measures 
to address congestion?
    Answer. ODOT's outreach to peer agencies and communities have 
offered the following lessons learned:
    <bullet>  Congestion Pricing Can Be Effective at Congestion Relief. 
Most US citizens experience toll facilities that were created to pay 
for large capital projects. What makes congestion pricing different is 
its ability to reduce congestion throughout the day, as it is the only 
available mechanism to adequately manage demand across all users. 
Reducing congestion can not only yield a better experience for 
travelers and goods movement, but it can also restore the functionality 
of the freeway investment. Congestion slows traffic speeds, it also 
reduces vehicle throughput. In other words, at the time we need our 
freeways to perform at their best, they are performing at their worst.
    <bullet>  Proactive Public Engagement is Vital. ODOT has 
consistently heard from other agencies that public engagement is 
critical to the process, no matter the scale of the project. In the 
initial feasibility analysis, eight in-person community conversations 
were held throughout the Portland metro area which attracted over 440 
in-person attendees. Winter and spring online open houses were held 
that attracted over 13,000 visitors. A successful effort was made to 
bring environmental justice and Title VI perspectives into the 
conversation through surveys, discussion and focus groups which 
accounted for hundreds of citizen perspectives. We have taken the 
lesson of purposeful and proactive engagement to heart and will 
continue to do so as the process continues.
    <bullet>  Equity Concerns Can Be Addressed Through Policies and 
Strategies. Resolving equity concerns is not just a theoretical 
concept, but rather a practical strategy from which we can learn from 
other agencies. ODOT has learned from multiple examples of pricing 
projects that implemented strategies to mitigate impacts to people with 
low income and disadvantaged communities, including in California. 
These include:

      <bullet>  I-10/I-110 Los Angeles, CA: Low income travelers 
receive transponders with $25 credit and monthly fees waived. 
Approximately 3,000 low income accounts were opened in each of 2016 and 
2017. This type of credit can introduce new users to the lanes and 
allow them to make emergency trips that might otherwise be 
unaffordable.
      <bullet>  I-10 San Bernardino, CA: Low income transponder account 
travelers will not incur monthly maintenance fees, allowing transponder 
use for infrequent high-value occasions.

    Questions from Hon. Troy Balderson to Travis Brouwer, Assistant 
    Director for Public Affairs, Oregon Department of Transportation

    Question 3. In Mr. Scribner's testimony, he recommends that 
Congress shift away from fuel taxation as the primary highway revenue 
source and move towards a mileage-based user fee, such as a vehicle-
miles traveled (VMT) tax. As you know, Oregon has the most advanced VMT 
pilot program in the United States.
    Can you please provide us with an update on the current state of 
the pilot program?
    Answer. Oregon's per-mile road usage charging pilot, named OReGO, 
went live on July 1, 2015 and has collected revenues from more than 
1600 users. Since that time, it has made significant progress by 
leveraging federal dollars through FHWA's Surface Transportation System 
Funding Alternative grant program to evaluate different technologies, 
study enforcement, and educate the public.
    Based on the guidance of the Road User Fee Task Force (ODOT's 
multi-stakeholder Road Usage Charge policy advisory body), the Oregon 
State Legislature has expanded the OReGO program. In 2017, electric 
vehicles that enrolled in OReGO were allowed to forego paying the newly 
enacted vehicle registration surcharge for electric and highly fuel 
efficient vehicles. In 2019, all passenger vehicles with a combined MPG 
rating greater than 40 mpg were granted this same option.
    ODOT does not provide account management services for OReGO 
participants. The billing, revenue collection, and user interface are 
handled by private sector account managers. Currently those private 
sector account managers provide the mileage reporting devices that go 
into the on-board diagnostic port of the participating vehicles. There 
are options with full GPS capability and without--participants can 
choose the level of services they want to receive; most choose the GPS 
option because it provides them an opportunity to avoid paying for out-
of-state miles.
    We are currently looking for ways to migrate from mileage reporting 
devices to other technologies, such as getting the necessary data 
directly from the vehicle using on-board telematics. We will also be 
exploring ways to enroll new participants at dealerships when they are 
purchasing new cars.

    Question 4. Do you both believe it is realistic for the United 
States to implement a VMT tax nationwide in the next 5-10 years?
    Answer. The technology and the concept of a per-mile fee has been 
proven. Additionally, new vehicles have the built-in capability to 
provide the necessary data for operating a distance-based tax. Despite 
this, the Road Usage Charge is not yet ready for full nationwide 
deployment today. There are remaining issues that need to be tested and 
demonstrated (public acceptance and public education among them) in a 
federal pilot before this can be deployed on a national level. The next 
logical step is a national pilot to test and vet those remaining issues 
that have not been addressed by state programs and research.

    Question 5. What do you both believe Congress needs to do in the 
coming years to get us past the initial steps and towards a full 
implementation?
    Answer. As with any new program, Congress will need to educate the 
public on the issue of declining gas tax revenues it is addressing with 
the new program as well as the impact of that decline on roads and 
bridges. Public education about the issue could occur before the 
program design is complete because it is critical that the public 
understand the challenge and how a distance-based tax could be the 
answer. Oregon's experience is that people respond well to an approach 
that builds on their reliance on roads as a way to take them to places 
they need or want to go.
    Congress may ultimately need to provide direction to the original 
equipment manufacturers to produce consistent standardized data sets 
from vehicles, so those data sets can be used for administering the 
tax. Congress will need to address the public's privacy concerns by 
specifying the purposes for which vehicle data can be used and by whom; 
Oregon's statute places explicit and narrow limits on the availability 
and use of this data. Cybersecurity will be another public concern to 
address.
    Before undertaking a national pilot, Congress should ensure the 
pilot is developed and provided guidance by experts in the field. To do 
this, an advisory group with broad representation and understanding of 
the problem should be established. The members should be selected based 
on their relevant expertise and perspective. This advisory group could 
be tasked with developing rates, addressing privacy and cybersecurity 
concerns, overseeing development of standards and a certification 
process for entities that will be involved in the program, defining the 
revenue collection and distribution process, and proposing enforcement 
mechanisms. The advisory group could also be tasked with developing an 
approach to phasing in the tax based on model year, efficiency, or 
other factors. The Oregon State Legislature chartered an advisory 
committee--the Road User Fee Task Force--to work on these issues, and 
ODOT has found this group highly valuable and effective.
    Congress has a wealth of information available to it based on the 
Surface Transportation System Funding Alternatives grant recipient 
reports to FHWA. That information could be synthesized to minimize the 
repetition of previous efforts and to maximize the efficiency in 
setting up a new program.

    Questions from Hon. Salud O. Carbajal to Tilly Chang, Executive 
 Director, San Francisco County Transportation Authority, on behalf of 
           the Intelligent Transportation Society of America

    Question 1. Ms. Chang, thank you for your leadership in California. 
As you know, congestion is a serious issue in California. Not only does 
it impact our economy--costing city-dwellers nearly $1,000 just for 
sitting in traffic--but also our public health. In your testimony you 
discuss some of the environmental benefits to addressing congestion 
that you experienced in San Francisco.
    Would you be able to discuss these benefits in further detail?
    Answer. There are many environmental and health impacts of 
congestion that concern us, ranging from air pollution (particulate 
matter from fossil-fuel use and tire/brake dust) and chronic health 
ailments (asthma), to global warming effects (heat/flooding 
vulnerability). Increased vehicle congestion also contributes to 
increased conflicts and traffic collisions, with national and local 
statistics indicating a troubling upward trend for crashes resulting in 
pedestrian fatalities.
    Generally, the benefits we expect from reducing congestion include:
    <bullet>  Reduced greenhouse gas emissions from lowered vehicle 
miles traveled
    <bullet>  Smoothing out the flow of traffic (avoiding gridlock stop 
and go conditions) reduces emissions.\1\ \2\
---------------------------------------------------------------------------
    \1\ https://www.accessmagazine.org/fall-2009/traffic-congestion-
greenhouse-gases/
    \2\ https://www.sciencedirect.com/science/article/abs/pii/
S1352231011000586
---------------------------------------------------------------------------
    <bullet>  Reduced health impacts and premature deaths from 
particulate emissions \3\
---------------------------------------------------------------------------
    \3\ https://usatoday30.usatoday.com/news/nation/2011-05-25-traffic-
pollution-premature-
deaths-emissions_n.htm
---------------------------------------------------------------------------
    <bullet>  Reduced noise, safety and improved quality of life \4\
---------------------------------------------------------------------------
    \4\ https://ops.fhwa.dot.gov/congestionpricing/resources/
enviro_benefits.htm
---------------------------------------------------------------------------
    <bullet>  Fewer crashes/collisions \5\
---------------------------------------------------------------------------
    \5\ https://www.researchgate.net/publication/
50386965_The_relationship_between_traffic_
congestion_and_road_accidents_an_econometric_approach_using_GIS

    In San Francisco, transportation accounts for nearly half of all 
greenhouse gas emissions, with 91 percent of vehicle emissions 
generated by the combustion of fossil fuels that fuel the sector's 
cars, trucks and other private vehicles.\6\ Reducing vehicle miles of 
travel can both improve congestion and provide important climate 
protection benefits. The San Francisco Department of Public Health, 
among other sources, provides a robust accounting of the benefits of 
climate protection.\7\
---------------------------------------------------------------------------
    \6\ https://www.sfmta.com/sites/default/files/reports-and-
documents/2017/12/cap_draft_full_
doc-accessible-1.01.pdf (pp 21-25)
    \7\ https://sfclimatehealth.org/health-impacts-of-climate-change/
---------------------------------------------------------------------------
    The 2013 San Francisco Climate Action Strategy called for shifting 
50 percent of trips to non-automobile trips by 2017 and 80 percent by 
2030. Based on the 2017 Travel Decision Survey, 52 percent of trips now 
use non-automobile modes (transit, walk and bicycle) and 48 percent are 
by automobiles (drive alone, carpool and TNCs). The city's new goal is 
to achieve 80 percent mode share by non-automobile modes. This will 
require robust investments (Rail upgrades and extensions, Bus Rapid 
Transit, increased on-street transit priority, biking and walking 
facilities) and demand management strategies, such as development- and 
employer-based trip reduction programs, curb management and congestion 
pricing.
    Our success to date is a product of implementing our 45-year 
Transit First strategy. As San Francisco grows, the city's investments 
in transit, biking and walking are paying off. The U.S. Census Bureau's 
2015 American Community Survey showed that, even as SF's economy boomed 
over the prior decade, the vast majority of new commute trips were made 
without a car. From 2006 to 2015, San Francisco added roughly 100,000 
new commuters, and 85 percent of the additional trips were car-free. 
Just over half (53,000) were made by transit, and the combined growth 
in commutes by foot (13,000) and bike (12,000) is nearly double those 
by car (15,000). Prioritizing walking, bicycling and transit over 
private car usage has enabled San Francisco to substantially mitigate 
the impacts of congestion on our economy and quality of life.
    Despite these gains, vehicle miles of travel continue to rise due 
to population and employment growth and increased ride hailing (Uber/
Lyft) trips.\8\ Continued investment in our transit, biking and walking 
networks will be essential. We are also evaluating new, innovative 
techniques, such as congestion pricing, to help us better manage the 
flow of traffic and provide new sources of revenue to continue to 
improve the quality and accessibility of our transportation options. 
Research from the San Francisco Department of Public Health identifies 
significant public health benefits from a potential congestion pricing 
pilot including reduced congestion, increased active transportation 
(walking and cycling), reduce air pollution, decreased noise, and 
reduced pedestrian and bicyclist injuries.\9\
---------------------------------------------------------------------------
    \8\ https://www.sfcta.org/projects/tncs-and-congestion
    \9\ https://www.sfdph.org/dph/files/opp/SFroad-pricing-
fullreport.pdf

    Question 2. As technology continues to improve, what role can 
automated vehicles play in addressing this issue?
    Answer. AVs present an opportunity to ensure that vehicles travel 
at safe speeds, stop at signals and stop signs, yield appropriately to 
other vehicles and road users (as detection ability improves), and 
comply with curb management and parking regulations. Improved 
compliance with these regulations could free up curbside space for 
transit access, bike lanes, and other sustainable modes and improve the 
efficiency of transit only lanes and other similar infrastructure.
    Some additional ways automated vehicles can potentially help with 
emissions and safety are:
    1.  Crash avoidance--several technologies that have been developed 
to support autonomous vehicle mobility have already found their way 
into many of today's vehicles--such as lane departure warnings, 
automatic braking, and others--and more features are on the horizon. 
However, these technologies will take time and have almost exclusively 
focused on vehicle to vehicle interactions.
    2.  Increased mobility for individuals with disabilities or who are 
elderly and unable to drive
    3.  Reduced drunk driving
    4.  Opportunity to more effectively manage streets and highways by 
smoothing traffic flows through coordinated speed control and reduced 
braking events
    5.  Reduced parking needs and requirements could free up street 
space for other use (widened sidewalks, bicycle lanes)
    6.  Improved compliance with general traffic laws and city specific 
operating environments.

    However, San Francisco is concerned about the risks of negative 
outcomes of AV adoption as well:
    <bullet>  Safety of vulnerable users. While we hope that automated 
vehicles can one day demonstrate they can decrease collisions with 
pedestrians, bicyclists, and other road users, there is no conclusive 
evidence yet that this is the case. In fact, a recent AAA Foundation 
study indicated how far autonomous technologies have yet to go to 
sufficiently identify pedestrians and predict their behavior.\10\ 
Continued independent research and validation, as well as appropriate 
regulation, is critical as AV solutions are developed and 
commercialized.
---------------------------------------------------------------------------
    \10\ https://www.aaa.com/AAA/common/aar/files/Research-Report-
Pedestrian-Detection.pdf
---------------------------------------------------------------------------
    <bullet>  Public health. Autonomous vehicles also have the 
potential to drastically increase traffic congestion and vehicle miles 
traveled, which has significant public health impacts with respect to 
pollution and safety. It is important that AVs are deployed as Electric 
Vehicles (EVs) and most industry sponsors are planning to do this. 
However, even if the future autonomous vehicles are electric, that 
doesn't mitigate the particulate matter emissions that drive negative 
health outcomes such as asthma and other lung diseases, especially with 
respect to freight vehicles that travel more frequently through our 
most disadvantaged and vulnerable communities.
    <bullet>  Mode shift/Induced travel. One significant risk of 
autonomous vehicles is the potential for the reduced cost and 
convenience of driving in the future to result in declining mode shares 
for public transit and active transportation (biking, walking). Recent 
research by UC Davis on ride hail companies in 7 cities showed that 
between 49 and 61 percent of ride hail trips shifted from walking, 
biking and transit, or would not have been made at all.\11\ Further, an 
experimental analysis conducted by UC Santa Cruz demonstrated that as 
few as 2,000 self-driving cars in downtown San Francisco will slow 
traffic to less than 2 miles per hour, and estimated that autonomous 
vehicles may more than double the current amount of traffic in cities 
if congestion pricing and other user-based fees are not employed.\12\
---------------------------------------------------------------------------
    \11\ https://steps.ucdavis.edu/new-research-ride-hailing-impacts-
travel-behavior/
    \12\ https://news.ucsc.edu/2019/01/millardball-vehicles.html

    At SFCTA, our hope is that AVs will be deployed as shared, zero-
emission services and fleets (e.g. autonomous shuttles) that can play a 
first/last mile role to transit hubs and provide local circulation 
access for lower density neighborhoods. This is widely regarded as the 
``heaven'' scenario of AV adoption. In contrast, we are concerned that 
AVs could continue to be marketed and adopted as private vehicles, 
similar to today. With reduced time and money costs of automated 
driving, there is significant risk that private vehicle miles traveled 
will increase significantly (the ``hell'' scenario).\13\ Our regional 
MPO, the Metropolitan Transportation Commission evaluated this risk in 
its Autonomous Vehicles Perspective Paper, as part of its long-range 
planning Horizon this past summer.\14\
---------------------------------------------------------------------------
    \13\ https://www.planningreport.com/2018/03/21/dan-sperling-three-
revolutions-transforming-
cars-and-transportation
    \14\ https://mtc.ca.gov/sites/default/files/2018-06-
25_Autonomous_Vehicles_
Perspective_Paper.pdf
---------------------------------------------------------------------------

 Question from Hon. Troy Balderson to Tilly Chang, Executive Director, 
    San Francisco County Transportation Authority, on behalf of the 
             Intelligent Transportation Society of America

    Question 3. I want to discuss the need for innovative solutions to 
reduce congestion relief. This past August, I had the opportunity to 
ride on Columbus Ohio's CMAX rapid bus line. The CMAX offers service on 
one of the city's busiest bus lines. CMAX provides dedicated lanes 
during rush hours and has a transit signal priority system to help 
decrease wait times at traffic lights. These new technologies cut 
transit times for Buckeyes trying to get home during rush-hour.
    What kind of new and innovative approaches are you currently 
working on to reduce congestion and traffic in urban areas?
    Answer. Our city's Transit First policy has guided our approach to 
congestion management since the early 1970s. This policy is our ``north 
star'' and provides durable guidance amidst all the changes in growth 
and technology and demographic changes. In our experience, reducing 
congestion requires a combination of traditional transit-oriented 
infrastructure investments, along with coordination of supportive land 
use and transportation policy and implementation of a suite of 
community-wide transportation demand management strategies.
    For downtown San Francisco and new growth areas, this included 
keeping densities high and parking provision low, building the initial 
regional BART system and the Muni tunnel and light rail network, as 
well as several generations of investment in connecting regional rail 
(BART and Caltrain commuter rail) and bus services. Most recently we 
have added new initiatives to our congestion management toolkit 
including updated environmental analysis metrics, development 
mitigation policies, transit lane and signal priority treatments and 
the use of incentives and rewards to shift travel choices to off-peak 
times or sustainable modes.
    Increasing capital investment has focused on providing excellent 
public transit options and expanding rail and bus capacity, as well as 
creating safe and comfortable active transportation alternatives to 
driving, including:
    <bullet>  Improving the speed and reliability of transit in San 
Francisco through Muni Forward and creation of car free/restricted 
streets (e.g., Better Market Street), prioritizing transit through 
transit signal priority, queue jumps, and bus only lanes, maintaining 
the transit vehicle fleet in a state of good repair, and investing in 
system resiliency (e.g., providing battery back-ups for San Francisco 
system of electric-powered buses).
    <bullet>  Prioritizing streets for the safe, comfortable movement 
of people through pedestrian and transit curb bulb outs, lengthening 
pedestrian crossing times and adding leading pedestrian intervals on 
signals, providing new bicycle infrastructure, such as protected bike 
lanes or `green wave' signal timing for bikes, and others.

    Another critical element to our success is the coordination of Land 
Use and Transportation Policy. This has included:
    <bullet>  Focusing growth and investment around transit (transit-
oriented development) and priority development areas that consider 
available transportation and land availability.
    <bullet>  Managing parking in San Francisco and other urban areas, 
including low parking requirements, removing parking requirements from 
the planning code, operating active parking management programs that 
help use curb space efficiently and dynamically to address changing 
needs throughout the course of a day.
    <bullet>  Transitioning the measure of transportation's 
environmental impact from level of service (which focuses on vehicle 
delay) to vehicle miles traveled (which provides a more multimodal 
focus and is consistent with California's emphasis on reducing 
greenhouse gas emissions).
    <bullet>  Trip reduction policies and programs for large employers 
and developers including trip caps. These have been implemented in San 
Francisco and for major employers on the Peninsula, including Stanford 
(Santa Clara County), Google (Mountain View) and Facebook (Menlo Park). 
Employers/developers have used a variety of strategies that include 
operating shuttles, providing transit passes to employees or residents, 
building new bicycle infrastructure, providing education and 
encouragement for their employees to walk, bike, or take transit, and 
many other strategies.

    In recent years, we have been especially focused on near term, low-
cost transportation travel demand management and system management 
techniques that include:
    <bullet>  Transportation Demand Management ordinances that require 
all employers to provide transit and other similar benefits to their 
employees (Employer Commuter Benefits ordinances, Guaranteed Ride Home 
programs).
    <bullet>  A proposal to tax ride hail/TNC trips that would help 
fund projects to mitigate the congestion recently estimated to be 
caused by TNCs as found in recent SFCTA research.
    <bullet>  Implementation of high occupancy toll lanes on 
significant links in the regions freeway system, including US 101, I-
880, I-680 and I-580. We are currently evaluating these strategies in 
San Francisco in order to better manage available highway capacity 
while also providing support for local and regional express buses that 
use this network
    <bullet>  Using dynamic pricing and incentives to manage the use of 
the multimodal transportation system to achieve efficient outcomes. 
This includes dynamic parking pricing (SF Park), a proposed congestion 
pricing system, and several incentive programs, including a recent 
incentive program pilot project (BART Perks) that demonstrated a 10 
percent shift in travel to the off-peak period.
    <bullet>  SFCTA is also studying a downtown congestion charging 
system and has been leading mobility management and congestion pricing 
on Treasure Island.

   Questions from Hon. Peter A. DeFazio to Darren D. Hawkins, Chief 
   Executive Officer, YRC Worldwide Inc., on behalf of the American 
                         Trucking Associations

    Question 1. Mr. Hawkins, your testimony highlights the results from 
the State of Indiana's ``asset recycling'' experience with the Indiana 
Toll Road. Indiana leased the road for 75 years to a private operator 
and increased truck tolls by 311 percent over the last 13 years. These 
tolls cover lease payments provided to the State, which then diverts 
the revenue to a variety of infrastructure--including non-surface 
transportation projects, such as airport improvements and rural 
broadband.
    Can you explain why ATA strongly opposes this scheme and strongly 
supports an increase in motor fuel taxes?
    Answer. Toll road user fees have high administrative costs compared 
to collection of the fuel tax. The cost of collecting the federal fuel 
tax is less than one percent of revenue, and there are no 
administrative costs for payers, including trucking companies. 
Furthermore, almost all of the revenue generated by the federal fuel 
tax is dedicated to the Highway Trust Fund and invested in projects and 
programs that benefit the motorists who contribute to the Fund. On the 
other hand, a significant share of revenue from tolls is used for 
administrative and collection costs, and in some cases, projects that 
have little or no benefit for highway users. In addition, trucking 
companies must bear the cost of managing multiple toll facilities' 
billing systems. At a time when the highway system is in poor repair 
and is highly congested, all user fee revenue should be directed to 
roads and bridges, not toll road bureaucracies or superfluous projects.
    Toll roads are also very exclusive in their resource allocation. 
While one can pay an extraordinarily high toll for a short--but 
critical--stretch of Interstate, that small segment of the road could 
be over supported while nearby highways go without basic upkeep and 
repairs due to lack of resources. That is entirely out of sync with our 
Interstate System, which was designed with uniform standards to ensure 
a seamless exchange from one highway to another and one state to 
another.
    The Build America Fund will cover the highway funding gap, and then 
some. To fix the highway infrastructure crisis, the American Trucking 
Associations proposes a 20 cents per gallon user fee on all 
transportation fuels, including diesel, gasoline and natural gas. The 
fee will be applied at the wholesale terminal rack, before fuel reaches 
the retail gas pump, and indexed to inflation and improvements in fuel 
efficiency. The Build America Fund will generate an estimated $340 
billion over the course of a decade, which will not only cover the 
highway funding gap, but will also create an account to invest in the 
nation's most urgent infrastructure needs, including projects at state 
and local levels. The Build America Fund will provide highway funding 
resources for states and localities from coast to coast and it will do 
so with a steady stream of revenue which at this time has been proven 
to be the most efficient means of collection.

    Question 2. The Indiana Toll Road is prime example of a State 
targeting, as you say, ``motorists with little political power'' such 
as non-residents and trucks. Your testimony includes a quote from the 
Indiana Governor promoting the fact that ``We're capturing other 
people's money''. Do you think this undermines the spirit of the 
Interstate system?
    Answer. The recent 30% fee increase for trucks on the Indiana Toll 
Road runs counter to the interdependency that weaves its way mile by 
mile through each state, coast to coast. The Indiana Toll Road is a 
156-mile stretch of road that connects Chicago to Ohio. This is a major 
artery for commercial freight flow that begins in Ohio or Illinois as 
well as for a significant amount of freight that passes through all 
three states.
    By targeting trucks only for the increase, the Indiana Toll Road is 
essentially placing a user fee on the nation's commerce for the 
privilege of passing through the state. If this scheme is extended to 
other states and a truck passes through several jurisdictions, with 
each imposing a prohibitively high user fee, like Indiana, then the 
supply chain is at risk. Due to resources being concentrated on small 
segments of the system, trucking companies could be forced to travel on 
long stretches of roads that have not been improved, resulting in 
diminished customer service and higher costs. Furthermore, because 
trucking companies typically operate on razor-thin margins, there is a 
strong likelihood that some could fold. This is especially true of 
smaller carriers that do not have a large pool of accounts to spread 
the costs.
    In the spirit of the Interstate System, fuel tax user fees should 
be anchored by the Federal Government and matched by the states with a 
fuel tax. The fuel tax does not focus on a small stretch of road like 
the toll; rather it captures revenue from all users relatively equally. 
The Indiana Toll Road is taking a disproportionate share of finite 
resources from truckers. To make matters even worse, not all of the 
revenue from the Indiana Toll Road increase goes to highway 
improvements; in fact, it has truckers picking up the tab to subsidize 
international outbound flights at the Indianapolis airport and to 
improve rural broadband access in the state. Diverting funds from 
highways at a time when our roads and bridges are in need of 
substantial investment is not only outside the spirit of the Interstate 
System but extremely poor public policy. Furthermore, it violates the 
concept of the promotion of interstate commerce, a Constitutional 
requirement that the federal government must uphold.

 Question from Hon. Greg Stanton to Darren D. Hawkins, Chief Executive 
    Officer, YRC Worldwide Inc., on behalf of the American Trucking 
                              Associations

    Question 3. Mr. Hawkins, your testimony raises concerns with 
pricing strategies that some States have pursued which 
disproportionately affect, or in some cases specifically target, truck 
drivers. You also note that while whether the driver or the trucking 
company absorbs toll costs can vary, these costs are almost never 
passed through or borne by shippers.
    What steps should Congress consider to ensure that people who drive 
for a living, such as truck drivers, aren't disproportionately affected 
by--or have to wholly absorb--toll costs?
    Answer. Passage of ATA's Build America Fund, which calls for an 
increase in the fuel tax of 20 cents over four years, will inject $340 
billion into the Highway Trust Fund over the next decade. The ensuing 
transfer of funds to the states will alleviate the need for high 
administrative cost options like toll roads. While ATA flatly opposes 
tolls on existing Interstates and would prefer the elimination of all 
related federal tolling authority, we recognize that there is an 
interest in allowing tolls for certain purposes, specifically for very 
expensive bridge and tunnel projects and congestion management. ATA 
recommends several changes to federal law that will protect the public 
from tolling abuses.
    First, it is clear that the Interstate System Reconstruction and 
Rehabilitation Pilot Program, which was created in 1998 and has not 
produced a single project, has failed, and it should end.
    Second, state authority to toll new or reconstructed bridges or 
tunnels should be limited to projects with a cost of at least $2 
billion.
    We also recommend that whenever an Interstate is proposed to USDOT 
for tolling, the state should be required to look at the impacts on 
congestion and air quality, safety, environmental justice, economics, 
and infrastructure improvement costs related to traffic diversion. The 
state should also be required to look at other funding mechanisms to 
determine whether there is a better alternative to tolls. Furthermore, 
any excess toll revenue should benefit the users of the toll facility. 
In addition, toll rate discrimination based on vehicle class or state 
of residence should be outlawed. These are reasonable requirements that 
are essential to prevent the negative impacts of Interstate tolls.

    Questions from Hon. Troy Balderson to Darren D. Hawkins, Chief 
   Executive Officer, YRC Worldwide Inc., on behalf of the American 
                         Trucking Associations

    Question 4. In your testimony, you mention the drastic impact that 
tolls can have on the trucking industry. As we know, truck drivers are 
already stressed by hours of service mandates and the major shortage of 
truck parking.
    Can you provide details on how tolls, such as the Rhode Island 
bridge tolling program, have negatively impacted your drivers?
    Answer. Our drivers are not subject to personally paying for the 
tolls because the company pays them. However, that is not the case with 
independent owner operators who have to pay the tolls and often absorb 
the costs. These smaller carriers might not have the market leverage to 
pass the expense along. More than 90% of trucking companies have six or 
fewer trucks but play a critical role in the supply chain. These 
companies are just as--or even more--vulnerable to the burden that 
tolls like those in Rhode Island place on the industry.

    Question 5. Have tolls forced your drivers to change their routes?
    Answer. We will continue to assess routes based on safety, 
efficiency and sustainability. If we can avoid the toll and meet the 
three-pronged assessment protocol, then we will take the route without 
the toll. From an industry standpoint, it is important to note that 
routing guides and GPS software are programmed to highlight toll 
avoidance options. This gives truck drivers a tool to bypass tolls and 
take trucks off the very roads that were engineered and designed to 
transport our nation's commerce.

    Question 6. Does this cause the drivers to feel the need to make up 
lost time in other ways?
    Answer. Our trucks are governed at approximately 63 mph so any 
effort to make up lost time on the Interstate will be restricted by 
that internal policy. However, with the introduction of electronic 
logging devices, truck drivers are now on a digital time clock and 
their hours of service are clearly recorded. For industry drivers, lost 
time due to toll avoidance will place further stress on meeting their 
pickup or delivery times. Having to take a circumferential route to 
avoid tolls would likely add additional time to a delivery. In an 
environment where shippers increasingly demand ever tighter delivery 
schedules, some drivers may choose to drive too fast for conditions in 
order to meet their schedules. Compounding this, truck drivers already 
face significant delays on the Interstate System, including in Rhode 
Island. The American Transportation Research lnstitute's most recent 
data shows Rhode Island ranked ninth in the nation on the total cost of 
congestion on National Highway System miles in the state.

  Questions from Hon. Troy Balderson to Marc Scribner, Senior Fellow, 
                    Competitive Enterprise Institute

    Question 1. In your testimony, you recommend that Congress shift 
away from fuel taxation as the primary highway revenue source and move 
towards a mileage-based user fee, such as a vehicle-miles traveled 
(VMT) tax.
    Oregon has the most advanced VMT pilot program in the United 
States. What are your thoughts on the current state of that pilot 
program?
    Answer. Oregon's road usage charge program, OReGO, remains an 
important case study. This is particularly true in the context of 
recent efforts in the states to impose higher vehicle registration fees 
for highly fuel efficient or electric vehicles that are aimed to make 
up for lost fuel tax revenue. At most, attempting to recover road 
revenue through annual registration surcharges due to reduced 
collections per mile driven should be treated as temporary measures 
until future usage-based revenue schemes are available. Oregon H.B. 
2017 (2017) admirably allowed plug-in electric vehicles to avoid the 
higher registration fees by entering into the OReGO road usage charge 
program. Other states currently imposing or considering registration 
fee surcharges on fuel efficient and electric vehicles should consider 
this approach.

    Question 2. Do you both believe it is realistic for the United 
States to implement a VMT tax nationwide in the next 5-10 years?
    Answer. This would be a highly ambitious phase-in schedule and is 
unlikely to occur beyond a transitional pilot phase. Other than 
providing states with assistance for their own pilots, federal action 
has been virtually nonexistent to date. Congress should continue 
providing assistance to states for their individual road usage charge 
pilot programs while focusing on areas where the federal interest is 
strongest: interoperability between the states and interactions between 
payment processors and the federal treasury.

    Question 3. What do you both believe Congress needs to do in the 
coming years to get us past the initial steps and towards a full 
implementation?
    Answer. Congress should establish a voluntary, nationwide mileage-
based user fee pilot program in the next surface transportation 
reauthorization. This program need not be a top-down federal program 
imposed upon the states; rather, Congress could opt for a federated 
state-based program and focus on coordinating state transportation and 
revenue departments on implementation, collection, processing, and fuel 
tax rebates.
    Interoperability between the states remains a significant challenge 
and Congress should also avoid any potential ``poison pill'' proposals 
involving the Internal Revenue Service being the direct revenue 
collection entity (the prospect of receiving a monthly bill from the 
IRS for one's driving would almost certainly render the pilot a 
political nonstarter). Road user privacy should also be protected by 
strict data access and retention requirements, preventing unbridled 
government and law enforcement access to personally identifiable 
information while balancing the need of road usage charge program 
participants to challenge erroneous charges. The trusted third-party 
approach to payment processing adopted by Oregon is very promising and 
should be examined in the context of an interoperable nationwide pilot.

                                    
</pre></body></html>
